<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-609]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-609

         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 3799

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2011, AND FOR OTHER PURPOSES

                               __________

             Architect of the Capitol (except House items)
                      Congressional Budget Office
                    Government Accountability Office
                       Government Printing Office
                          Library of Congress
                          Office of Compliance
                      United States Capitol Police
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
54-980 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                     BEN NELSON, Nebraska, Chairman
MARK PRYOR, Arkansas                 LISA MURKOWSKI, Alaska
JON TESTER, Montana                  THAD COCHRAN, Mississippi
DANIEL K. INOUYE, Hawaii               (ex officio)
  (ex officio)
                           Professional Staff
                             Nancy Olkewicz
                     Rachelle Schroeder (Minority)
                        Sarah Wilson (Minority)

                         Administrative Support

                              Teri Curtin












                            C O N T E N T S

                              ----------                              

                        Thursday, March 4, 2010

                                                                   Page
U.S. Senate:
    Office of the Secretary......................................     1
    Sergeant at Arms and Doorkeeper..............................    72
United States Capitol Police.....................................    93

                        Thursday, March 18, 2010

Architect of the Capitol.........................................   133
Office of Compliance.............................................   152

                        Thursday, April 15, 2010

Government Accountability Office.................................   173
Government Printing Office.......................................   183
Congressional Budget Office......................................   189

                        Thursday, April 29, 2010

Library of Congress..............................................   225
  

 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, MARCH 4, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 4:32 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, Tester, and Murkowski.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. NANCY ERICKSON, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        CHRIS DOBY, FINANCIAL CLERK
        SHEILA DWYER, ASSISTANT SECRETARY


                opening statement of senator ben nelson


    Senator Nelson. The subcommittee will come to order. Good 
afternoon, everyone and welcome. I apologize for the start of 
this afternoon being different than scheduled, but sometimes 
the call of Senate business for votes hops in the way of what 
we were otherwise planning to do. So thank you for your 
indulgence.
    We meet this afternoon to take testimony on the fiscal year 
2011 budget request for the Secretary of the Senate, the Senate 
Sergeant at Arms, and the U.S. Capitol Police. This is our 
first hearing of fiscal year 2011, and once again, I look 
forward to working closely with my good friend and ranking 
member, Senator Murkowski, and the other members of the 
subcommittee, Senator Pryor and Senator Tester. I understand 
Senator Pryor will be joining us here shortly.
    I think we had four very productive budget hearings last 
year, and it is my hope that we can continue that trend again 
this year.
    Having said that, I must say that I am very concerned that 
the subcommittee has, once again, been presented with a fairly 
large budget request for fiscal year 2011. The 2011 budget 
request for the legislative branch totals $5.1 billion, an 
increase of $466 million, or 10 percent, over the current year. 
At the risk of sounding like a broken record, we really do need 
to reduce these numbers, but the fact is that this country 
remains in economic turmoil and the American taxpayers simply 
will not tolerate increased Government spending at a time of 
such significant high levels of unemployment.
    Last year, we received an overall increase of 5 percent in 
the legislative branch, including some large-ticket items for 
the House, over which we clearly have no control. But I hope 
that we will not be seeing an increase of that magnitude this 
year. In fact, I have stated repeatedly that I am going to do 
everything I can to hold the legislative branch flat this year. 
I think we really do need to lead by example with this 
subcommittee and we cannot do that by appropriating large 
increases to our agencies.
    The President sent the message very loud and clear in his 
State of the Union Address this year noting that families 
across the country are tightening their belts and making tough 
decisions. The Federal Government must do the same he said, and 
he announced a 3-year freeze on nonsecurity discretionary 
Government spending.
    The President said ``Like any cash-strapped family, we will 
work within a budget to invest in what we need and sacrifice 
what we don't.''
    And he went on further, ``If we do not take meaningful 
steps to rein in our debt, it could damage our markets, 
increase the cost of borrowing, and jeopardize our recovery, 
all of which would have an even worse effect on our job growth 
and family incomes.''
    So with that having been said, I am happy today to 
introduce and welcome our three witnesses, Nancy Erickson, 
Secretary of the Senate; Terrance Gainer, the Senate Sergeant 
at Arms; and Phillip Morse, the Chief of the Capitol Police.
    I first want to acknowledge the dedication and work of all 
of you and your staffs. The Senate worked many late nights into 
early mornings, right up to the holidays this year, and even 
during our record snowfall this winter, your staff, all of 
them, did an exceptional job of maintaining the services that 
we rely on here in the Capitol environs. We are grateful to 
each and every one of them and to you for keeping the Senate 
running safely and smoothly every day. To the extent it was not 
smooth, it was not your fault.
    Ms. Erickson, we are pleased to have you here this 
afternoon, and I look forward to hearing your testimony. Among 
many others on your staff, I want to acknowledge Chris Doby of 
the Disbursing Office for his fine work in balancing the books 
for the Senate. It is no easy task, but he and his team do a 
great job and we appreciate their dedication and commitment to 
this institution.
    For fiscal year 2011, your office is requesting a total of 
$60.2 million, which is an increase of $32.4 million, or a 
little over double your fiscal year 2010 amount. Now, I 
understand that the bulk of this increase, to be clear, $32 
million, is a result of the transfer of the Senate information 
services to your office from the Senate Sergeant at Arms where 
it is currently funded. So I look forward to hearing more about 
the specifics of your budget request and how we might fund this 
transition over several years as opposed to funding it perhaps 
as much as we are asked to in fiscal year 2011.
    Chief Gainer, the Sergeant at Arms request for 2011 totals 
$240 million, a 7 percent increase over fiscal year 2010, and I 
realize that your request includes several big-ticket items as 
well for the Senate community which are expensive, but I look 
forward to working with you to identify what our true needs 
are, both in terms of salaries and expenses to maintain our 
current services. Terry, I want to personally thank Skip Rouse 
and Grace Ridgeway of your office for their outstanding service 
to this subcommittee.
    And finally, Chief Morse, I understand you have recently 
resubmitted your fiscal year 2011 budget request based on your 
first quarter review of fiscal year 2010 expenditures. The 
fiscal year 2011 request totals $385 million which is an 
increase of $57 million, or 17 percent, over the enacted fiscal 
year 2010 level. This includes a request for 52 additional 
officers and 12 civilians.
    Chief Morse, I understand that your quarterly review also 
identified some miscalculations in your fiscal year 2010 
appropriation, which obviously is somewhat disturbing, and I 
look forward to discussing this with you just a little bit 
later. It seems that your department continues to be plagued 
with some financial management challenges, and needless to say, 
that causes us on the subcommittee tremendous concern. We hope 
that you will be able to help us understand.
    Your budget request does include, I understand, $16 million 
for the indoor coverage portion of the radio project, which 
will be the final installment of funding for this project. So I 
look forward to receiving an update on this project from you as 
well.
    Now it is my pleasure to turn to the ranking member of the 
subcommittee, Senator Murkowski, for her opening remarks. 
Senator.


                  statement of senator lisa murkowski


    Senator Murkowski. Thank you, Mr. Chairman.
    It sure does not seem like a year since we were here with 
these three fine individuals that are before us. It goes by 
quickly.
    I want to thank you for calling the hearing and allowing 
the consideration of the 2011 legislative branch budget 
request. I felt like we worked pretty well together last year 
in putting together a proposal that we could stand up and 
clearly support. But it was very clear that even with the 
package that we had, I think, skinnied down and yet still 
allowed for a level of funding that allowed for the system to 
work here, there was a fair amount of criticism at that budget 
for the increases that we saw then.
    So I too share your concern that we are back a year later 
and the proposals that we have are proposals for increases and 
an overall requested increase of 10 percent, which I would 
concur with you, Mr. Chairman, we need to lead by example here 
within the legislative branch, and now is not the time to be 
seeing 10 percent increases. So I am absolutely behind you when 
you have suggested that we need to work together to figure out 
how we can allow for the smooth functioning of the operations 
that must proceed here but do so in a manner that indicates 
that we are tightening our belts, along with everybody else in 
this country.
    I would like to welcome all of the witnesses and the 
deputies that you have pointed out. This is a very important 
discussion that we are having today on how the agencies that 
you all represent are planning to move forward in this next 
fiscal year.
    Again, just the general sense of disappointment when we 
look at this budget and see that it is 10 percent over the 
fiscal year 2010 enacted level. And I do realize that the 
witnesses that we have here today are only responsible for 
three pieces of this increase. But you and I, Mr. Chairman, are 
responsible for looking at the big picture and balancing the 
needs of each of the agencies within this bill. So we have got 
to consider your requests within the full context.
    Clearly, each of you is requesting significant increases.
    The Secretary of the Senate is requesting an increase of 
$32.4 million, or 116.7 percent. I have to admit that when I 
looked at that, I thought that the decimal was in the wrong 
place and that it was 11.6 percent, but it is 116 percent, 
which includes an increase of $441,000, or 1.7 percent for 
salaries; $32 million, or 1,600 percent, for expenses. The 
extraordinarily large increase is associated with the transfer 
of just one program, as I understand, from the Sergeant at Arms 
to the Secretary's office. So it is good that we have got you 
both here together today to tell the subcommittee more about 
this particular program, how its funding needs work.
    The Sergeant at Arms Office is requesting an increase of 
$15.7 million, or 7 percent. It includes an increase of $8 
million, or 11.4 percent, for salaries and $7.7 million, or 5 
percent, for expenses. Although we have seen the Sergeant at 
Arms make tremendous strides last year in filling the 
vacancies, we still have 23 vacant positions that I would like 
to hear about today. I am also eager to learn how we are coming 
with the telecom modernization and the payroll system upgrade 
projects, how these are progressing.
    And then finally, the Capitol Police is requesting an 
increase of $57.2 million, or 17.4 percent, which includes an 
increase of $17.1 million, or 6.3 percent, for salaries and a 
51.6 percent increase for expenses. Now, I understand that 
these increases support a total of 2,307 sworn positions, which 
would include an increase of 52 sworn officers, 12 new civilian 
positions, for a 2.9 percent increase in personnel over fiscal 
year 2010.
    I am curious to know how this increase in personnel is 
going to impact the overtime issue that the Capitol Police 
continues to face. As I understand, we are not going to be 
seeing a decrease in the overtime, which is a concern, because 
last year, when we met to consider this with the new positions, 
as I recall, the assurance was this will help us finally get 
out of that situation with the overtime. So I would like to 
hear more about that. Of course, I also look forward to an 
update on the radio modernization program.
    I think the chairman has said very clearly the economic 
landscape across our country has not improved much over the 
last year. In fact, there are a lot of folks out there that 
would say the situation has even worsened. I said it last year. 
I will say it again. I believe it is absolutely important that 
we lead by example in exercising fiscal discipline. We have got 
to demonstrate that our house is in order before we can expect 
others to follow.
    So I am anxious to hear what you all have to say today 
about this year's request and to discuss how we can really find 
that common ground to balance the needs with what is 
economically feasible and fiscally responsible.
    So I look forward to working with you, Mr. Chairman, as 
well as all those who are working so hard to serve us. We thank 
you.
    Senator Nelson. Thank you, Senator.
    Now we would like to begin with the witnesses. I would 
appreciate it if we can hold the opening statements to about 5 
minutes, although we will not run the clock for that. Ms. 
Erickson, perhaps we will start with you and then we will go to 
Mr. Gainer and Chief Morse.


                summary statement of hon. nancy erickson


    Ms. Erickson. Chairman Nelson, Senator Murkowski, I 
appreciate this opportunity to provide testimony on behalf of 
the Office of the Secretary and our employees. With me today is 
Chris Doby, our Financial Clerk, and Sheila Dwyer, our 
Assistant Secretary. I ask that my statement which includes our 
department reports be submitted for the record.
    Senator Nelson. It will be submitted, received.
    Ms. Erickson. I am pleased to be testifying on a day that 
is historically significant in the life of our Nation. It was 
on March 4, 1789, that the United States Government began its 
operations. March 4 was when Presidents took the oath of office 
and when the Senate convened to confirm the President's 
Cabinet. In those bygone years, the Senate would then adjourn 
and not come back into session until December.
    In 1933, ratification of the 20th amendment moved the 
opening of new sessions of Congress up to January 3 and 
presidential inaugurations to January 20. Still, it seems worth 
remembering today that inaugurations of all our Presidents, 
from George Washington to Franklin Roosevelt, and the start of 
so many Senate sessions took place on this day, March 4.
    Since 1789, the Secretary of the Senate has been tasked 
with legislative, financial, and administrative 
responsibilities to support the Senate. It is, indeed, a 
privilege to serve the Senate in this manner.
    Our budget request for fiscal year 2011 is $60,231,000, of 
which $26,231,000 is salary costs; $2 million is operating 
costs, the same level as last year; and $32 million is for the 
administration of the Senate information services, or SIS 
program.
    The salary budget represents an increase of $441,000 over 
fiscal year 2010 as a result of the costs associated with the 
annual cost-of-living adjustment. I am proud that our 
department managers have demonstrated wise stewardship of our 
financial resources while maximizing the services we provide 
the Senate community.
    Needless to say, my total budget request this year at first 
glance is a real eye-opener. In July 2009, the chairman and 
ranking member of the Senate Committee on Rules and 
Administration approved the transfer of the SIS program from 
the Sergeant at Arms to the Secretary of the Senate, and this 
subcommittee authorized transfer of line budgeting 
responsibility for this program and the accompanying 
appropriation from the Sergeant at Arms to the Secretary 
beginning in fiscal year 2011.
    As Mr. Gainer and I note in our request to you and the 
Rules Committee, all parties involved in both of our 
organizations strongly supported the transfer. And I commend 
the Sergeant at Arms Manager for Tech Development, Tom Meenan, 
for his management role of the SIS program during its tenure.
    The SIS program was established by a regulation of the 
Senate Rules Committee in 1987 to provide Senate offices access 
to research services. Since 2000, the Sergeant at Arms has 
administered the program, providing unlimited access to select 
information services for all Senate staff and prohibiting 
vendors from charging offices user fees. This model has enabled 
the Senate to maximize its purchasing power and streamlined 
administrative procedures. The Rules Committee has maintained 
close association with and direct oversight of the SIS program 
since it was established.
    This year within my budget is a new request of $32 million 
for the administration of SIS, which I would like to request in 
the form of a single, multiyear appropriation that would be 
utilized for a 5-year period through September 30, 2015. 
Together with the Sergeant at Arms, SIS, and procurement staff, 
we have determined the annual costs and projected future costs 
to establish the amount requested today. My staff will track 
usage of SIS program funds, and I can assure you there will be 
a firewall between these funds and my office operating funds, 
providing greater program transparency.
    We stand ready to accept this program. The Senate Librarian 
and her senior staff already have considerable expertise in 
negotiating and administering contracts with information 
industry service providers, and they bring content expertise to 
the table. With their extensive knowledge of information 
service providers, we hope to bring even greater economic 
efficiencies to the table, eliminating duplicative services 
wherever possible. In addition, their daily work supporting 
Senate staff research needs and coordinating training of online 
research products will be a great benefit in our oversight 
role.
    We look forward to working closely with our oversight 
committees as we assume administration of the SIS program and 
we welcome your subcommittee's guidance as we seek the best 
method for funding this program.
    I am also pleased to report that, in conjunction with the 
Sergeant at Arms, we are moving ahead with the replacement of 
our Senate's payroll system. As you may recall from last year's 
testimony, it had become clear that the current system is 
outdated and soon will be no longer supported by its developer. 
After a competitive bid process, we have selected a vendor to 
provide the software and are close to completing the process to 
select the software integrator. We will work closely with 
Senate offices to ensure that the product meets their needs. We 
have also learned a great deal from our House counterpart's 
experience in standing up a new payroll system and remain 
grateful for the Sergeant at Arms technical support in this 
effort, particularly that of Jay Moore and his team. We are 
hopeful that it will be launched sometime in the next 18 to 24 
months.
    Our Disbursing Office staff and Senate Webmaster are also 
implementing the new reporting requirements in Public Law 111-
68, mandating that the semi-annual report of the Secretary, 
which is a listing of all Senate expenses, be produced in a 
searchable electronic format. The first electronic report will 
cover the first full reporting period in 2011.
    Electronic filing requirements are old hat for the Office 
of Public Records, which has fully implemented the requirements 
of the Honest Leadership Open Government Act. It requires 
quarterly and semi-annual filings from registrants and 
lobbyists, and almost 135,000 lobbying reports and 
registrations were filed last year. Although the volume of 
reports increased by over 50 percent, I am proud that we 
handled the additional responsibilities without adding staff. 
This year, the office has focused on compliance and has 
referred close to 4,400 cases to the Department of Justice for 
possible noncompliance.
    This past year, my office oversaw the closing of Senator 
Edward Kennedy's office, as required by S. Res. 458, as 
amended, as well as the handling of Senator Norm Coleman's 
office closing per S. Res. 14. While this is never an easy 
task, I am grateful for the support of the Rules Committee and 
the professionalism of Senator Kennedy's and Senator Coleman's 
staff during a very difficult time for their offices.
    Finally, when I was elected Secretary 3 years ago, I must 
admit I was a little intimidated to be considered Senate 
Historian Dick Baker's boss. I speak for others in the 
Secretary's Office when I say we were proud to be Dick's 
colleagues. We are grateful to Leader Reid, Leader McConnell, 
the Sergeant at Arms, Capitol Police, and the Rules Committee 
for implementing Dick's retirement wish, that the Senate 
galleries be reopened to the public during Senate recesses, 
like the pre-September 11 days.
    I am also grateful to another public servant, Pam Gavin, 
who for more than 24 years shepherded and safeguarded the 
filings of thousands of Senate public documents. She will 
always have my appreciation and pride for her efforts to 
implement the wide-ranging requirements of the Honest 
Leadership Open Government Act in roughly 11 weeks.


                           prepared statement


    This institution is a better place because of their service 
and their commitment and pride in public service is shared by 
the great staff I have the privilege of leading. Thank you for 
support of our efforts to serve the Senate community.
    [The statement follows:]
                  Prepared Statement of Nancy Erickson
    Mister Chairman, Senator Murkowski, and Members of the 
Subcommittee, thank you for your invitation to present testimony in 
support of the budget request of the Office of the Secretary of the 
Senate for fiscal year 2011.
    It is a pleasure to have this opportunity to draw attention to the 
accomplishments of the dedicated and outstanding employees of the 
Office of the Secretary. The annual reports which follow provide 
detailed information about the work of each department of the office, 
their recent achievements, and their plans for the upcoming fiscal 
year.
    My statement includes: Presenting the fiscal year 2011 budget 
request; implementing mandated systems, financial management 
information system (FMIS) and legislative information system (LIS); 
continuity of operations planning; and maintaining and improving 
current and historic legislative, financial and administrative 
services.
             presenting the fiscal year 2011 budget request
    I am requesting a total fiscal year 2011 budget of $60,231,000. The 
request includes $26,231,000 in salary costs and $34,000,000 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase of $441,000 over the fiscal year 2010 budget as 
a result of the costs associated with the annual cost of living 
adjustment. The operating budget increased by $32,000,000 solely as a 
result of this office's assuming the administration of the Senate 
Information Services Program (SIS) from the Sergeant at Arms.
    The net effect of my total budget request for 2011 is an increase 
of $32,441,000. The single multiyear funds requested for the SIS 
program will provide for the continued operation of the current program 
within the Senate while also providing the flexibility to review 
existing services and provide updates as requested by the Senate 
community. The balance of our request is consistent with the amounts 
requested and received in recent years through the Legislative Branch 
Appropriations process.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount
                                                                     available        Budget
                              Items                                 fiscal year      estimates      Difference
                                                                   2010, Public     fiscal year
                                                                    Law 111-68         2011
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $550,000        $550,000  ..............
    Administrative services.....................................       1,390,000      33,390,000  \1\ $32,000,00
                                                                                                               0
    Legislative services........................................          60,000          60,000  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................       2,000,000      34,000,000      32,000,000
----------------------------------------------------------------------------------------------------------------
\1\ This difference represents the costs associated with the assumption of the administration of the Senate
  Information Services (SIS) Program.

                     implementing mandated systems
    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 140 Senate offices. Consistent with our strategic plan, 
the Disbursing Office continues to modernize processes and applications 
to meet the continued demand by Senate offices for efficiency, 
accountability and ease of use. Our goals are to move to an integrated, 
paperless voucher system, improve the Web FMIS system, and make payroll 
and accounting system improvements.
    During fiscal year 2009 and the beginning of fiscal year 2010, 
specific progress made on the FMIS project included:
  --Web FMIS was upgraded three times this year: in March 2009, August 
        2009 and January 2010. This system is used by office managers 
        and committee clerks, staff in the Sergeant at Arms Office 
        (SAA) and the Secretary's office to create vouchers and manage 
        their office funds, by the Disbursing Office to review vouchers 
        and by the Committee on Rules and Administration to sanction 
        vouchers. Additionally, it is used by staff who incur official 
        expenses, primarily staff who travel, to prepare their expense 
        summary reports (ESRs). The releases provided both technical 
        and functional changes. The March release brought Web FMIS 
        reports rewritten in a report-writer that enables additional 
        features, an improved document search feature, a revamped the 
        ESR with new fields for providing additional information, and 
        real-time e-mail notifications to the staffers. The August 
        release focused on implementing new functionality for 
        Disbursing staff such as integrated contract tracking 
        functionality, ADPICS document viewers that enable Disbursing 
        staff to see, via Web FMIS, documents created in ADPICS, and 
        integrated checkwriter software. The integration of the first 
        and last of these into Web FMIS are especially important in our 
        ability to fully function in the event of displacement from the 
        physical Disbursing Office. The January release was the first 
        of three planned releases for WebPICS. The WebPICS project 
        enables SAA users to access ADPICS functionality through a web-
        based front end and provides robust search function. This first 
        release focused on the needs of requisitioners and requisition 
        approvers. The second release will focus on the SAA accounts 
        payable process and the third release will focus on purchase 
        order creation and approval.
  --The computing infrastructure for FMIS is provided by the SAA. Each 
        year the SAA staff upgrades the infrastructure hardware and 
        software. During 2009 the SAA implemented two major upgrades to 
        the FMIS infrastructure by upgrading WebSphere software to 
        version 7 and upgrading the database software, DB2. After the 
        DB2 upgrade, the Web reporting tables were partitioned to 
        improve system efficiency. The SAA made several micro-code 
        updates, operating system ``maintenance'' releases and 
        maintenance for the Virtual Tape Library. For each activity, 
        Disbursing staff tested the changes in the FMIS testing 
        environment and then validated the changes in the production 
        environment.
  --A primary goal of the FMIS project is to process vouchers without 
        paper supporting documentation and ``wet'' signatures. During 
        2008, Disbursing staff conducted a prototype imaging system in 
        which paper vouchers and supporting documentation were imaged 
        by the staff and routed electronically. The hands-on experience 
        of this prototype was especially useful in refining our imaging 
        system requirements. During 2009 and 2010 Disbursing 
        participated in selecting software for the image database and 
        image viewer, and finalized imaging and electronic signature 
        requirements. During the remainder of 2010, this information 
        will be used in planning necessary software purchases and 
        coordinating with a separate SAA smart card ID project. The 
        smart cards will be used for electronic signatures.
    During the remainder of fiscal year 2010 the following FMIS 
activities are anticipated:
  --Implementing WebPICS releases for phase II and III which will focus 
        on SAA accounts payable process and on purchase order creation 
        and approval, respectively;
  --Coordinating with SAA the timeframes for the implementation of the 
        smart card ID project for electronic signatures, and finalizing 
        with the Committee on Rules and Administration any changes to 
        existing rules and regulations as well as any changes to 
        statutes pertaining to delegation of authority;
  --Implementing online distribution of monthly ledger reports;
  --Implementing automated clearing house payment for the 21 remaining 
        state tax jurisdictions;
  --Implementing a pilot of the image database software, likely for the 
        SAA finance staff as part of WebPICS;
  --Participating in the yearly disaster recovery test; and
  --Finalizing the selection of the PeopleSoft payroll system 
        integrator and start with the new system implementation.
    During fiscal year 2011 the following FMIS activities are 
anticipated:
  --Conducting a pilot of the technology for paperless payment--both 
        document imaging and electronic signatures. This assumes 
        resolution of related policy and process issues;
  --Continuing the implementation and the required updates to the 
        Hyperion Financial Management application to provide the Senate 
        the ability to produce auditable financial statements;
  --Continue the implantation of online financial reports;
  --Continue with the new payroll system implementation and start 
        parallel testing; and
  --Review existing systems and develop a long term modification and 
        replacement plan for key systems.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office.
                          legislative offices
    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the Presiding Officer of the Senate. 
The Legislative Clerk calls the roll of members to establish the 
presence of a quorum and to record and tally all yea and nay votes. The 
office staff prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate into those 
measures any amendments that are agreed to. This office retains custody 
of official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. The office staff is 
responsible for verifying the accuracy of information entered into the 
LIS system by the various offices of the Secretary.
    Additionally, the Legislative Clerk acts as supervisor for the 
Legislative Department, providing a single line of communication to the 
Secretary and Assistant Secretary and is responsible for overall 
coordination, supervision, scheduling, and cross-training. The 
department consists of eight offices: the Bill Clerk, Captioning 
Services, Daily Digest, Enrolling Clerk, Executive Clerk, Journal 
Clerk, Legislative Clerk, and the Official Reporters of Debates.
Summary of Activity
    The Senate completed its legislative business and adjourned sine 
die on December 24, 2009. During 2009, the Senate was in session 191 
days and conducted 397 roll call votes. There were 199 measures 
reported from committees and 24 special reports submitted to the 
Senate. There were 478 total measures passed. In addition, there were 
3,892 amendments submitted to the desk.
Cross-Training and Continuity of Operations (COOP) Planning
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training continues to be strongly emphasized among the 
Secretary's legislative staff. To ensure additional staff are trained 
to perform the basic floor responsibilities of the Legislative Clerk, 
as well as the various other floor-related responsibilities of the 
Secretary, approximately half of the legislative staff are currently 
involved or have recently been involved in cross-training.
    Each office and staff person within the Legislative Department 
participated in numerous ongoing COOP discussions and exercises 
throughout the past year. These discussions and exercises are a joint 
effort involving the Office of the Secretary and the Office of the 
Sergeant at Arms.
Succession Planning
    The average number of years of Senate service among the Secretary's 
Legislative Department supervisors is 19 years. It is critical that the 
Secretary's Legislative Department attract and keep talented employees, 
especially the second tier of employees just behind the current 
supervisors because of the unique nature of the Senate as a legislative 
institution. The arcane practices and voluminous precedents of the 
Senate make institutional experience and knowledge extremely valuable.
                               bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's staff keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices through the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, resolutions, reports, amendments, cosponsors, public law 
numbers, and recorded votes. The Bill Clerk is responsible for 
preparing for print all measures introduced, received, submitted, and 
reported in the Senate. The Bill Clerk also assigns numbers to all 
Senate bills and resolutions. The Bill Clerk's office is generally 
regarded as the most timely and most accurate source of legislative 
information because all the information received in this office comes 
directly from the Senate floor in written form within moments of the 
action involved.
Legislative Activity
    The Bill Clerk's staff processed 773 fewer legislative items into 
the database than in the previous Congress' first session, an overall 
decrease of slightly more than 9 percent. Only three legislative 
categories (Senate Bills introduced, House Bills received, and House 
Messages) saw increases in activity during this legislative period. For 
comparative purposes, below is a summary of the first sessions of the 
110th and 111th congresses:

----------------------------------------------------------------------------------------------------------------
                                                                       110th           111th
                                                                   Congress, 1st   Congress, 1st    Percentage
                                                                      Session         Session         Change
----------------------------------------------------------------------------------------------------------------
Senate Bills....................................................           2,524           2,920          +15.69
Senate Joint Resolutions........................................              27              25           -7.41
Senate Concurrent Resolutions...................................              64              48          -25.00
Senate Resolutions..............................................             418             387           -7.42
Amendments Submitted............................................           3,892           3,298          -15.26
House Bills.....................................................             513             382          -25.54
House Joint Resolutions.........................................               9              10          +11.11
House Concurrent Resolutions....................................              93              67          -27.96
Measures Reported...............................................             428             199          -53.50
Written Reports.................................................             254             113          -55.51
                                                                 -----------------------------------------------
      Total Legislation.........................................           8,222           7,449           -9.40
                                                                 ===============================================
Roll Call Votes.................................................             442             397          -10.18
House Messages \1\..............................................             263             292          +11.03
Cosponsor Requests..............................................           8,859           7,205          -18.67
----------------------------------------------------------------------------------------------------------------
\1\ This number reflects how many messages from the House are typed up by the Bill Clerks for inclusion in the
  Congressional Record. It excludes additional activity on these bills.

Assistance from the Government Printing Office (GPO)
    The Bill Clerk's staff maintains an exceptionally good working 
relationship with the Government Printing Office and seeks to provide 
the best service possible to meet the needs of the Senate. GPO 
continues to respond in a timely manner to the Secretary's requests, 
through the Bill Clerk's Office, for the printing of bills and reports, 
including the expedited printing of priority matters for the Senate 
chamber. To date, at the request of the Secretary through the Bill 
Clerk, GPO expedited the printing of 60 measures for floor 
consideration by the Senate during the first session of the 111th 
Congress.
                          captioning services
    The Office of Captioning Services (OCS) provides real-time 
captioning of Senate floor proceedings for the deaf and hard-of-hearing 
and unofficial electronic transcripts of Senate floor proceedings for 
Senate offices on Webster, the Senate intranet.
General Overview
    Captioning Services strives to provide the highest quality closed 
captions. For the 16th year in a row, the office has achieved an 
overall accuracy average above 99 percent. Overall caption quality is 
monitored through daily translation data reports, monitoring of 
captions in real-time, and review of caption files on Webster.
    The real-time searchable closed caption log, available to Senate 
offices on Webster, continues to be an invaluable tool for the Senate 
community. In particular, legislative staff continue to depend upon its 
availability, reliability and content to aid in the performance of 
their duties. Additionally, the Senate Recording Studio introduced a 
complementary video component in 2009 called Video Vault, which now 
adds searchable video to the audio and text.
Continuity of Operations (COOP)
    Continuity of operations (COOP) planning and preparation continues 
to be a top priority and was brought to the forefront this year by 
additional pandemic planning with regard to the H1N1 virus. Regular 
testing and review of COOP procedures as well as the additional 
component of pandemic planning ensures that the staff are prepared and 
confident about the ability to relocate and successfully function from 
a remote location and/or reduced personnel in the event of an emergency 
or pandemic. The OCS also participates with the Senate Recording Studio 
in an off-site location exercise at least once a year.
                              daily digest
    The Office of the Senate Daily Digest is pleased to transmit its 
annual report on Senate activities during the first session of the 
111th Congress. First, a brief summary of a compilation of Senate 
statistics:
Chamber Activity
    The Senate was in session a total of 191 days, for a total of 1,420 
hours and 39 minutes. There were 3 quorum calls and 397 record votes. 
(See Attachment for 20-Year Comparison of Senate Legislative Activity).

                                                                        20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1990          1991          1992          1993          1994          1995          1996          1997          1998          1999
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................          1/23           1/3           1/3           1/5          1/25           1/4           1/3           1/3          1/27           1/6
Senate Adjourned....................................         10/28        1/3/92          10/9         11/26         12/01        1/3/96          10/4         11/13         10/21         11/19
Days in Session.....................................           138           158           129           153           138           211           132           153           143           162
Hours in Session....................................      1,25014"      1,20044"      1,09109"      1,26941"      1,24333"      1,83910"      1,03645"      1,09307"      1,09505"      1,18357"
Average Hours per Day...............................           9.1           7.6           8.5           8.3           9.0           8.7           7.8           7.1           7.7           7.3
Total Measures Passed...............................           716           626           651           473           465           346           476           386           506           549
Roll Call Votes.....................................           326           280           270           395           329           613           306           298           314           374
Quorum Calls........................................             3             3             5             2             6             3             2             6             4             7
Public Laws.........................................           410           243           347           210           255            88           245           153           241           170
Treaties Ratified...................................            15            15            32            20             8            10            28            15            53            13
Nominations Confirmed...............................        42,493        45,369        30,619        38,676        37,446        40,535        33,176        25,576        20,302        22,468
Average Voting Attendance...........................         97.47         97.16          95.4          97.6         97.02         98.07         98.22         98.68         97.47         98.02
Sessions Convened Before 12 Noon....................           116           126           112           128           120           184           113           115           109           118
Sessions Convened at 12 Noon........................             4             9             6             6             9             2            15            12            31            17
Sessions Convened after 12 Noon.....................            17            23            10            15            17            12             7             7             2            19
Sessions Continued after 6 p.m......................           100           102            91           100           100           158            88            96            93           113
Sessions Continued after 12 Midnight................             6             4             9             7             3             1  ............  ............  ............  ............
Saturday Sessions...................................             3             2             2             2             3             5             1             1             1             3
Sunday Sessions.....................................             2  ............  ............  ............  ............             3  ............             1  ............  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          2000          2001          2002          2003          2004          2005          2006          2007          2008          2009
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................          1/24           1/3          1/23           1/7          1/20           1/4           1/3           1/4           1/3           1/6
Senate Adjourned....................................         12/15         12/20         11/20          12/9          12/8         12/22          12/9         12/31           1/2         12/24
Days in Session.....................................           141           173           149           167           133           159           138           189           184           191
Hours in Session....................................      1,01751"      1,23615"      1,04323"      1,45405"      1,03131"      1,22226"      1,02748"      1,37554"        98831"      1,42039"
Average Hours per Day...............................           7.2           7.1           7.0           8.7           7.7           7.7           7.4           7.2          5.37          7.44
Total Measures Passed...............................           696           425           523           590           663           624           635           621           589           478
Roll Call Votes.....................................           298           380           253           459           216           366           279           442           215           397
Quorum Calls........................................             6             3             2             3             1             3             1             6             3             3
Public Laws.........................................           410           136           241           198           300           169           313           180           280           125
Treaties Ratified...................................            39             3            17            11            15             6            14             8            30             1
Nominations Confirmed...............................        22,512        25,091        23,633        21,580        24,420        25,942        29,603        22,892        21,785        23,051
Average Voting Attendance...........................         96.99         98.29         96.36         96.07         95.54         97.41         97.13         94.99         94.36         96.99
Sessions Convened Before 12 Noon....................           107           140           119           133           104           121           110           156           147           148
Sessions Convened at 12 Noon........................            25            10            12             4             9             1             4             4             4             2
Sessions Convened after 12 Noon.....................            24            21            23            23            21            36            24            32            33            41
Sessions Continued after 6 p.m......................            94           108           103           134           129           120           129           144           110           152
Sessions Continued after 12 Midnight................             2             3             8             2             3             3             4             4             2             2
Saturday Sessions...................................             1             3  ............             1             2             2             2             1             3             5
Sunday Sessions.....................................             1  ............  ............             1             1             2  ............             1             1             4
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

Committee Activity
    Senate committees held a total of 1,138 meetings during the first 
session, as contrasted with 823 meetings during the second session of 
the 110th Congress.
    All hearings and business meetings, including joint meetings and 
conferences, are scheduled through the Office of the Senate Daily 
Digest and are published on its Web site on the Webster intranet, in 
the Congressional Record, and entered in the Web-based Legislative 
Information System (LIS). Meeting outcomes are also published by the 
Daily Digest in the Congressional Record each day and continuously 
updated on the website.
Computer Activities
    The Digest staff continue to work closely with Senate computer 
staff to refine the LIS/DMS system, including further enhancements to 
the Senate Committee Scheduling application which will improve the data 
entry process.
    The Digest office staff continues to electronically transmit the 
publication at the end of each day to the Government Printing Office 
(GPO). The Digest staff continues the practice of sending a disc along 
with a duplicate hard copy to GPO, even though GPO receives the Digest 
copy by electronic transfer long before hand delivery is completed 
adding to the timeliness of publishing the Congressional Record. The 
Digest office staff continue to feel comfortable with this procedure, 
both to allow the Digest Editor to physically view what is being 
transmitted to GPO, and to allow GPO staff to have a comparable final 
product to cross reference.
Government Printing Office
    The Daily Digest staff work closely with the GPO on printing issues 
and are pleased to report that with the onset of electronic transfer of 
the Digest copy, occurrences of editing corrections or transcript 
errors are infrequent.
                            enrolling clerk
    The Enrolling Clerk prepares, proofreads, and prints all 
legislation passed by the Senate prior to its transmittal to the House 
of Representatives, the White House, the National Archives, the 
Secretary of State, and the United States Claims Court.
    During the first session of the 111th Congress the Enrolling 
Clerk's office prepared the enrollment of 34 bills (transmitted to the 
President), 4 enrolled joint resolutions (transmitted to the 
President), 10 concurrent resolutions (transmitted to the National 
Archives) and 94 appointments (transmitted to the House of 
Representatives). In addition, approximately 94 House of 
Representatives bills (including 12 Appropriations bills, the Budget 
Concurrent Resolution, 33 House Concurrent Resolutions and 7 House 
Joint Resolutions) were either amended or acted on in the Senate 
requiring action on the part of the staff of the Enrolling Clerk's 
office.
    A total of 478 pieces of legislation were passed or agreed to 
during the first session of the 111th Congress. Many other Senate bills 
were placed in the calendar, all of which were processed in the 
Enrolling Clerk's office including 66 engrossed Senate bills, 5 Joint 
Resolutions, 22 Concurrent Resolutions and 249 Senate Resolutions.
    During the First Session of the 111th Congress, the Enrolling Clerk 
delivered 78 messages to the House Chamber and 55 messages to the House 
Clerk's office, along with 94 appointments prepared and transmitted to 
the House of Representatives, informing the House of Senate actions on 
legislation passed or amended.
    The Senate Enrolling Clerk is also responsible for electronically 
transmitting the files of engrossed and enrolled legislation to the 
Government Printing Office for overnight printing. The office also 
follows up on all specific requests and special orders for printing 
from the Senate floor.
Continuity of Operations (COOP)
    In addition to updating the office's COOP plan, the Enrolling Clerk 
has begun training additional staff from GPO in the office's operations 
to provide backup in the event the office is displaced.
                            executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares daily the Executive Calendar as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the Executive Clerk's staff processes all executive 
communications, presidential messages and petitions and memorials.
Nominations
    During the first session of the 111th Congress, there were 1,341 
nomination messages sent to the Senate by the President, transmitting 
24,951 nominations to positions requiring Senate confirmation and 15 
messages withdrawing nominations sent to the Senate. Of the total 
nominations transmitted, there were 2,526 nominees in the following 
``civilian list'' categories: Foreign Service, Coast Guard, National 
Oceanic and Atmospheric Administration, and Public Health Service. An 
additional 696 were for other civilian positions. Military nominations 
received this session totaled 21,729 (7,870 Air Force; 7,223 Army; 
4,442 Navy and 2,194 Marine Corps). The Senate confirmed 23,050 
nominations this session. Pursuant to the provisions of paragraph six 
of Senate Rule XXXI, 8 nominations were returned to the President 
during the first session of the 111th Congress.
Treaties
    There were 4 treaties transmitted to the Senate by the President 
during the first session of the 111th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 111-1 through 111-4). The Senate 
gave its advice and consent to one treaty with one condition, and one 
declaration to the resolution of advice and consent to ratification.
Executive Reports and Roll Call Votes
    There was one executive report relating to a treaty ordered printed 
for the use of the Senate during the first session of the 111th 
Congress (Executive Report 111-1). The Senate conducted 38 rollcall 
votes in executive session, all on or in relation to nominations.
Executive Communications
    For the first session of the 111th Congress, 7,072 executive 
communications, 84 petitions and memorials and 39 Presidential messages 
were received and processed.
Environmental Impact
    In an effort to save money and eliminate unnecessary paper, the 
Executive Clerk reduced the copies of nominations printed for the 
committees by 95 percent. All but one committee allows the paperwork to 
be transmitted by e-mail, decreasing the need for duplicate paper 
copies.
LIS Update (Projects)
    The staff consulted with the Senate Computer Center during the year 
concerning ongoing improvements to the LIS pertaining to the processing 
of nominations, treaties, executive communications, presidential 
messages and petitions and memorials.
                             journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The content of the Senate Journal is governed by Senate 
Rule IV. The Senate Journal is published each calendar year, and in 
2009, the Journal Clerk completed the production of the 964 page 2008 
volume. It is anticipated that work on the 2009 volume will conclude in 
June 2010.
    The Journal staff take 90-minute turns at the rostrum in the Senate 
chamber, noting the following by hand for inclusion in the Minute Book: 
(i) all orders (entered into by the Senate through unanimous consent 
agreements), (ii) legislative messages received from the President of 
the United States, (iii) messages from the House of Representatives, 
(iv) legislative actions as taken by the Senate (including motions made 
by Senators, points of order raised, and rollcall votes taken), (v) 
amendments submitted and proposed for consideration, (vi) bills and 
joint resolutions introduced, and (vii) concurrent and Senate 
resolutions as submitted. These notes of the proceedings are then 
compiled in electronic form for eventual publication of the Senate 
Journal at the end of each calendar year. Compilation is efficiently 
accomplished through utilization of the LIS Senate Journal Authoring 
System. The Senate Journal is published each calendar year.
Continuity of Operations (COOP)
    In 2009, in continuing to support the Office of the Secretary's 
commitment to continuity of operations programs, the Journal Clerk 
required the daily Minute Book pages to be scanned into a secure 
directory. Additionally, the files are copied onto a flash drive 
storage device weekly and transported off-site each night. Although the 
actual Minute Books for each session of a Congress are sent to the 
National Archives the year following the end of a Congress, having 
easily-accessible files, both on a remote server and on portable 
storage device, will ensure timely reconstitution of the Minute Book 
data in the event of damage to, or destruction of, the physical Minute 
Book.
    Preparations undertaken by the Office of the Journal Clerk in 
support of continuity of Chamber operations in anticipation of H1N1 
pandemic helped to strengthen overall COOP procedures. Such 
preparations included successful testing and exercise of remote work 
capabilities using Senate-provided equipment and accessing servers 
through public computers of those functions not requiring physical 
attendance in the Chamber.
                     official reporters of debates
    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief and the Coordinator 
functions as the technical production manager of the Senate portion of 
the Record. The office interacts with Senate personnel on additional 
materials to be included in the Record.
    On a continuing basis, all materials to be printed in the next 
day's edition of the Record are transmitted electronically and on paper 
to the Government Printing Office (GPO).
    Each day the Senate is in session roughly 90 percent of the 
transcript of Senate floor proceedings and Morning Business is sent to 
GPO electronically, permitting the Congressional Record to be viewed on 
the Internet at approximately 7 a.m. every day.
    The Official Reporters of Debate have placed continued emphasis on 
cross training of personnel.
                            parliamentarian
    The Parliamentarian's Office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the chair, Senators and their staff, 
committee staff, House members and their staffs, administration 
officials, the media and members of the general public on all matters 
requiring an interpretation of the Standing Rules of the Senate, the 
precedents of the Senate, unanimous consent agreements, as well as 
provisions of public law affecting the proceedings of the Senate.
    The Parliamentarian or one of his assistants is always present on 
the Senate floor when the Senate is in session, standing ready to 
assist the Presiding Officer in his or her official duties, as well as 
to assist any other Senator on procedural matters. The parliamentarians 
work closely with the Vice President of the United States and the staff 
of the Vice President whenever he performs his duties as President of 
the Senate.
    The Parliamentarians serve as the agents of the Senate in 
coordinating the flow of legislation with the House of Representatives 
and with the President, and ensure that enrolled bills are signed in a 
timely manner by duly authorized officers of the Senate for 
presentation to the President.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep track of time on the 
floor of the Senate when time is limited or controlled under the 
provisions of time agreements, statutes or standing orders. The 
Parliamentarians keep track of the amendments offered to the 
legislation pending on the Senate floor, and monitor them for points of 
order. In this respect, the Parliamentarians reviewed more than 3,298 
amendments during 2009 to determine if they met various procedural 
requirements, such as germaneness. The parliamentarians also reviewed 
thousands of pages of conference reports to determine what provisions 
could appropriately be included therein.
    The office is responsible for the referral to the appropriate 
committees of all legislation introduced in the Senate, all legislation 
received from the House, as well as all communications received from 
the executive branch, state and local governments, and private 
citizens. In order to perform this responsibility, the Parliamentarians 
do extensive legal and legislative research. During 2009, the 
Parliamentarian and his assistants referred 3,482 measures and 7,193 
communications to the appropriate Senate committees. The office staff 
worked extensively with Senators and their staffs to advise them of the 
jurisdictional consequences of particular drafts of legislation, and 
evaluated the jurisdictional effect of proposed modifications in 
drafting. In 2009, as in the past, the parliamentarians conducted 
several briefings on Senate procedure to various groups of Senate 
staff, on a non-partisan basis.
    During 2009, as has been the case in the past, the staff of the 
Parliamentarian's Office was frequently called on to analyze and advise 
Senators on a great number of issues arising under the Congressional 
Budget Act of 1974, the Trade Act of 1974, the Congressional Review 
Act, and many other provisions of law that authorize special procedural 
consideration of measures.
    During all of 2009, the parliamentarians were deeply involved in 
interpreting the ethics reform proposals adopted in 2007, especially 
the language dealing with earmark accountability and scope of 
conference.
    Since the election in 2008, all of the parliamentarians have 
participated in orientation sessions for the newly elected and 
appointed Senators, and have assisted each of them in their initial 
hours as Presiding Officers. The parliamentarians also participated in 
an orientation session on the Senate floor for Senate staff.
    Throughout 2009, as is the case following each general election, 
the parliamentarians received all of the certificates of election of 
Senators elected or re-elected to the Senate as well as those Senators 
appointed to fill vacancies, and reviewed them for sufficiency and 
accuracy, returning those that were defective and reviewing their 
replacements.
    The parliamentarians have each been trained on and successfully 
remotely accessed to the office's computers facilitating 
communications, research, and other work after hours, enabling them to 
have the office function during possible emergencies. The 
Parliamentarian's Office continues to participate extensively in 
emergency preparedness training for the Senate Chamber and has been 
heavily involved with the Sergeant at Arms Office of Police Operations, 
Security and Emergency Preparedness for years in the planning phases of 
the Senate's evacuation and shelter-in-place procedures.
                          financial operations
                           disbursing office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the offices of the United States Senate and 
to members and employees of the Senate. The Senate Disbursing Office 
manages the collection of information from the distributed accounting 
locations within the Senate to formulate and consolidate the agency 
level budget, disburse the payroll, pay the Senate's bills, and provide 
appropriate counseling and advice. The Senate Disbursing Office 
collects information from members and employees that is necessary to 
maintain and administer the retirement, health insurance, life 
insurance, and other central human resource programs and provides 
responsive, personal attention to members and employees on an unbiased 
and confidential basis. The Senate Disbursing Office also manages the 
distribution of central financial and human resource information to the 
individual member offices, committees, administrative and leadership 
offices in the Senate while maintaining the confidentiality of 
information for members and Senate employees.
    The organization is structured to enhance its ability to provide 
quality work, maintain a high level of customer service, promote good 
internal controls, efficiency and teamwork, and provide for the 
appropriate levels of supervision and management. The long-term 
financial needs of the Senate are best served by an organization 
staffed with highly trained professionals who possess a high degree of 
institutional knowledge, sound judgment, and interpersonal skills that 
reflect the unique nature of the United States Senate.
Executive Office
    The primary responsibilities, among others, of the Executive Office 
are to:
  --oversee the day to day operations of the Disbursing Office (DO);
  --respond to any inquiries or questions that are presented;
  --maintain fully and properly trained staff;
  --ensure that the office is prepared to respond quickly and 
        efficiently to any disaster or unique situation that may arise;
  --provide excellent customer service;
  --assist the Secretary of the Senate in the implementation of new 
        legislation affecting any of her departments; and
  --handle all information requests from the Committee on 
        Appropriations and the Committee on Rules and Administration.
    After finalizing procedures and requirements to stand up the 
Congressional Oversight Panel established by the Emergency Economic 
Stabilization Act of 2008, Public Law 110-343, Disbursing continues 
reporting to the U.S. Department of the Treasury the amounts incurred 
by the panel on a monthly basis. Disbursing continues to work with the 
Committee on Rules and Administration, the House of Representatives, 
and the U. S. Treasury on funding of the panel.
    As in previous years, the Financial Clerk and the Assistant 
Financial Clerk continue to attend Legislative Branch Financial 
Managers Council (LBFMC) meetings to share issues that affect other 
Congressional managers. In addition, the Financial Clerk and the 
Assistant Financial Clerk, along with key Disbursing Office staff and 
the Sergeant at Arms (SAA) technical support staff, completed the 
requirements and participated in vendor demonstrations for the 
procurement of a new payroll system. The new payroll system has been 
selected, and Disbursing and the SAA are now in the process of 
selecting a payroll system integrator through an open competition. The 
selection is anticipated to be made by the end of March with the 
expectation to begin implementation early this summer.
    Disbursing, in coordination with the Committee on Rules and 
Administration, worked on the collection of excess mileage 
reimbursements for privately owned vehicles (POV) paid to staff between 
January and April 2009. The office prepared letters to all affected 
staff and notified them of the excess mileage and the options they had 
to pay it back, processing all the checks received and making the 
deposit to each office account. For those that did not pay it back by 
the stipulated date, adjustments were made to their W-2s for calendar 
year 2009.
    In addition to the regular work derived by a new election cycle at 
the beginning of each session of Congress, additional letters for 
displaced staff were necessitated for Senate staff working for Senators 
filling several cabinet positions. Towards the end of the fiscal year, 
Disbursing handled matters related to the resignation of Senator Mel 
Martinez and the death of Senator Edward M. Kennedy.
    Under the Legislative Branch Appropriations Act for 2010, Public 
Law 111-68, an administrative provision to change the distribution 
method for the Report of the Secretary of the Senate was approved. The 
provision requires the Report be published and publicly posted online 
by the end of the 112th Congress. Meetings and discussions have started 
with the Office of the Secretary of the Senate, the Committee on Rules 
and Administration and the Government Printing Office (GPO). During the 
next few months, a project plan and timeline will be developed to meet 
the mandated deadline.
Deputy for Benefits and Financial Services
    The principal responsibility of this position is to provide 
expertise and oversight on Federal retirement, benefits, payroll, and 
financial services processes. The deputy also coordinates the 
interaction between the Front Office, Employee Benefits, and Payroll 
Sections, and is responsible for the planning and project management of 
new computer systems and programs. The deputy ensures that job 
processes are efficient and up-to-date, modifies computer support 
systems as necessary, implements regulatory and legislated changes, and 
designs and produces up-to-date forms and information for use in all 
three sections.
            General Activities
    The staff worked to assist incoming and outgoing members and staff 
personally. There was need for extensive research relating to various 
administrative situations (e.g. contested elections, resignations to 
accept cabinet posts, transition of Senators to vice president and 
president, chairmanship changes, etc.).
    After the year-end processing of payroll for calendar year 2008 was 
completed, the Disbursing Office issued W-2 forms promptly and made 
them immediately available to Disbursing Office staff on the document 
imaging system (DIS). During March and April, the delayed cost of 
living adjustment (COLA) was administered and processed over two cycles 
to accommodate the ``retroactive'' portion of that COLA. Throughout the 
year, other minor changes were made to the Human Resources Management 
System (HRMS) as a result of changes in regulations, policies and 
needs.
    The Disbursing Office, in tandem with SAA Technical Support, 
continued research and procurement of a new payroll system. Staff 
diligently assessed current system requirements and parameters as well 
as requirements and parameters for a new system. The staff continued to 
work with the SAA Technical Support group and the contractors to draft, 
edit and modify current and future system requirements. Staff drafted 
specific and technical scripts for two series of vendor demonstrations 
as well as methods for ranking results. Staff attended several day-long 
demos and interacted with vendors to determine system capabilities. 
Specific attention was paid to how the vendors would accommodate the 
Senate's unique requirements, laws and regulations governing the 
services and programs administered by the payroll system. After 
extensive coordination, feedback and assessment, a software selection 
was made. During the early part of 2010, the Disbursing Office and SAA 
will begin the process of selecting a new system integrator through an 
open competition.
    As part of continuing efforts to achieve full continuity of 
operations compliance, the office requested an upgrade to the DIS. 
Needed and desired programming modifications were identified, 
documented, developed and tested during 2009. Final implementation took 
place late in 2009. The system now has increased functionality and 
provides greater flexibility of use. Post system implementation follow-
up and trouble-shooting are currently in process. Procedures to take 
advantage of the increased functionality will be developed and 
implemented in 2010.
    Several pieces of legislation passed in 2009 required action and 
administration by the Disbursing Office. The Economic Stimulus package 
provided for Federal Employees Health Benefits Program (FEHB) Premium 
Assistance for Federal employees who were displaced from their jobs. 
Staff worked to draft guidance and information for affected employees 
and implement procedures within the office and with Office of Personnel 
Management (OPM) and the National Finance Center for administration of 
this new provision. Also passed was a provision to supplement the pay 
of Federal employee reservists who were placed in leave without pay 
(LWOP) due to a call to active duty. Although OPM and Department of 
Defense (DOD) guidance on implementation of this provision was slow in 
coming, staff worked extensively with OPM and the affected employees to 
ensure that we were prepared for implementation as soon as practicable. 
Also passed, was a provision for credit of Federal Employees Retirement 
System (FERS) sick leave upon retirement. The legislation was assessed 
and guidance was issued by this office within the parameters of 
established policies and procedures. Additionally, legislation which 
allowed for Thrift Savings Plan (TSP) agency contributions to begin 
immediately upon hire took effect during the summer. Staff worked with 
the SAA Technical Support group and determined system requirements and 
made programming modifications to accommodate this change. 
Informational guidance was drafted and distributed to affected staff.
Front Office--Administrative and Financial Services
    The Front Office is the main service area for all general Senate 
business and financial activity. The Front Office staff maintains the 
Senate's internal accountability of funds used in daily operations. The 
reconciliation of such funds is executed on a daily basis. The Front 
Office staff also provides training to newly authorized payroll 
contacts along with continuing guidance to all contacts in the 
execution of business operations. It is the receiving point for most 
incoming expense vouchers, payroll actions, and employee benefits 
related forms, and is the initial verification point to ensure that 
paperwork received in the Disbursing Office conforms to all applicable 
Senate rules, regulations, and statutes. The Front Office is the first 
line of service provided to Senators, officers, and employees. All new 
Senate employees (permanent and temporary) who will work in the Capitol 
Hill Senate offices are administered the required oath of office and 
personnel affidavit. Staff is also provided verbal and written detailed 
information regarding pay and benefits. Advances are issued to Senate 
staff authorized for official Senate travel. Cash and check advances 
are entered and reconciled in Web FMIS. After the processing of 
certified expenses is complete, cash travel advances are repaid. 
Numerous inquiries are handled daily, ranging from pay, benefits, taxes 
and voucher processing, to reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the Front 
Office and become part of the Senate's accountability of Federally 
appropriated funds and are then processed through the Senate's general 
ledger system. The Front Office maintains the Official Office 
Information Authorization Forms that authorize individuals to conduct 
various types of business with the Disbursing Office.
            General Activities
    Processed approximately 1,000 cash advances, totaling approximately 
$700,000 and initialized 1,200 check/direct deposit advances, totaling 
approximately $900,000;
    Received and processed more than 23,600 checks, totaling over 
$1,700,000;
    Administered oath and personnel affidavits to more than 2,800 new 
Senate staff and advised them of their benefits;
    Maintained brochures for 14 Federal health insurance carriers and 
distributed approximately 4,000 brochures to new and existing staff 
during the annual Federal Benefits Open Season; and
    Provided 32 training sessions to new administrative managers.
    The Front Office continues its daily reconciliation of operations 
and strengthening of internal office controls. Security devices were 
tested and some were replaced with more modern equipment. Training and 
guidance to new administrative managers and business contacts continued 
and was enhanced by the revamping of training materials that were 
provided to newly authorized personnel. A large number of committee 
leadership changes prompted a major increase in the number of S. Res. 9 
certifications. This required additional processing of documentation 
necessary to execute the continuance of compensation to certified 
employees. The Front Office successfully processed over 1,400 such 
payments.
    Due to the reimbursement of mileage for POV over the Internal 
Revenue Service (IRS) maximum allowable rate, the Front Office received 
and documented over 550 cash returns related to the overpayment of 
previously processed POV vouchers. Front Office staff received many 
positive comments regarding the use of the DIS, which immediately 
reproduces W-2 forms and other documents for employees who request 
duplicates. As more information was imaged into the DIS, more inquiries 
were able to be processed immediately. Several pieces of legislation 
were passed during 2009 that affected Senate employee's deductions and 
benefits. The adoption of these new regulations created many inquiries 
from Senate staff. Front Office staff continued assisting employees in 
maximizing their TSP contributions and making them aware of the TSP 
catch-up program. The Front Office continued to provide the Senate 
community with prompt, courteous, and informative advice regarding 
Disbursing Office operations.
Payroll Section
    The Payroll Section maintains the Human Resources Management System 
(HRMS) and is responsible for processing, verifying, and warehousing 
all payroll information submitted to the Disbursing Office by Senators, 
committees and other appointing officials for their staffs, including 
appointments of employees, salary changes, title changes, transfers and 
terminations. It is also responsible for input of all enrollments and 
elections submitted by members and employees that affect their pay 
(e.g. retirement and benefits elections, tax withholding, TSP 
participation, allotments from pay, address changes, direct deposit 
elections, levies and garnishments) and for the issuance of accurate 
salary payments to members and employees. The Payroll Section is 
responsible for the administration of the Senate Student Loan Repayment 
Program (SLP) and for the audit and reconciliation of the Flexible 
Spending Accounts (FSAs) and Federal Employees Dental and Vision 
Insurance Program (FEDVIP) bill files received each pay period. The 
Payroll Section jointly maintains the Automated Clearing House (ACH) 
FedLine facilities with the Accounts Payable Section for the normal 
transmittal of payroll deposits to the Federal Reserve. Payroll 
expenditure, projection and allowance reports are distributed 
electronically to all Senate offices twice a month. The Payroll Section 
issues the proper withholding and agency contribution reports to the 
Accounting Department and transmits the proper TSP information to the 
National Finance Center. In addition, the Payroll Section maintains 
earnings records, which are distributed to the Social Security 
Administration and employees' taxable earnings records, which are used 
for W-2 statements. This section is also responsible for the payroll 
expenditure data portion of the Report of the Secretary of the Senate 
and calculates, reconciles and bills the Senate Employees Child Care 
Center for their staff employee contributions and forwards payment of 
those contributions to the Accounting Section. The Payroll Section 
provides guidance and counseling to staff and administrative managers 
on issues of pay, salaries, allowances and projections.
            General Activities
    In January 2009, the Payroll Section conducted all year-end 
processing and reconciliation of pay records and produced W-2 forms for 
employees and state tax agencies, which are also maintained in the DIS. 
The Payroll Section maintained the normal schedule of processing TSP 
election forms.
    In March 2009, an employee COLA of 4.78 percent was authorized and 
administered. Because the language afforded a retroactive COLA, the 
salary changes were administered over both March and April. Statutory 
rates and program caps were updated in HRMS.
    The Payroll staff participated extensively in the selection of a 
new payroll system. They provided job and task summaries, records of 
reports and system output, and attended numerous strategy sessions to 
determine current system requirements as well as future system 
requirements. Staff attended and reviewed numerous vendor 
demonstrations and participated in the drafting of demo scripts.
    The Payroll Section administers the SLP, which includes initiation, 
tracking and transmission of the payments, determination of eligibility 
and coordination and reconciliation with office administrators and 
program participants. The program is very popular and participation 
remains high. The SLP Administrator continues to improve processes for 
administration of the program and document procedures.
    In 2009 Senate travelers were allowed to repay the excess amount of 
POV mileage reimbursement that exceeded the IRS maximum. For those that 
did not repay, the overpayments needed to be reported as taxable 
income. The Payroll Section staff was required to research and 
implement processes and program modifications to accommodate the 
reporting of several hundred mileage overpayments on the 2009 W-2s.
    As a result of the 2008 elections, the Payroll Section provided 
assistance and guidance to the offices of numerous incoming and 
outgoing Senators, as well as the President and Vice President-elects. 
The payroll group also assisted Senator Edward M. Kennedy's staff upon 
his death. In addition, the Disbursing Office staff looked into the 
specifics of applicable Senate resolutions to determine their impact, 
if any, on outgoing and potentially outgoing staff in order to ensure 
that current procedures allowed for the proper administration of the 
resolutions and provided guidance to staff on those resolutions.
Employee Benefits Section (EBS)
    The primary responsibilities of the Employee Benefits Section are 
administration of health insurance, life insurance, TSP, and all 
retirement programs for members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of retirement and benefits laws and 
regulations. EBS staff is also expected to have a working knowledge of 
the Federal Flexible Spending Account (FSA) Program, the Federal Long 
Term Care (LTC) Insurance Program and FEDVIP. In addition, the 
sectional work includes research and verification of all prior Federal 
service and prior Senate service for new and returning appointees. EBS 
provides this information for payroll input. It also verifies the 
accuracy of the information provided and reconciles, as necessary, when 
official personnel folders and transcripts of service from other 
Federal agencies are received. Senate transcripts of service, including 
all official retirement and benefits documentation, are provided to 
other Federal agencies when Senate members and staff are hired 
elsewhere in the government. EBS is responsible for the administration 
and tracking of employees placed in leave without pay to perform 
military service. EBS participates fully in the Centralized Enrollment 
Clearinghouse System (CLER) Program sponsored by OPM to reconcile all 
FEHB enrollments with carriers through the National Finance Center. EBS 
is responsible for its own forms inventory ordering and maintenance, as 
well as all benefits, TSP, and retirement brochures, for the Disbursing 
Office. EBS processes employment verifications for loans, bar exams, 
the Federal Bureau of Investigation (FBI), OPM, and DOD, among others. 
Unemployment claim forms are completed, and employees are counseled on 
their eligibility. Department of Labor billings for unemployment 
compensation paid to Senate employees are reviewed in EBS and submitted 
by voucher to the Accounting Section for payment, as are the employee 
fees associated with FSAs. Designations of Beneficiary for Federal 
Employees' Group Life Insurance (FEGLI), retirement, and unpaid 
compensation are filed and checked by EBS.
            General Activities
    The year began with EBS finalizing retirement estimates and 
processing many retirement cases associated with outgoing Senators and 
their staffs, as well as those staff on committees who were affected by 
the changes. Many regular retirement, death, and disability cases were 
also processed throughout the year.
    After the 2008 elections, EBS met with all new Senators to go over 
benefit choices available to them. New members appointed numerous 
employees from the House and the Executive Branch, and many other 
employees left with their outgoing members, many of whom were appointed 
to positions in the Executive Branch. This resulted in a significant 
increase in the number of appointments to be researched and processed, 
retirement records to be closed out, termination packages of benefits 
information to be compiled and mailed out, and health insurance 
enrollments to be processed. Transcripts of service for employees going 
to other Federal agencies, and other tasks associated with employees 
changing jobs were at a high level this year. These required prior 
employment research and verification, new FEHB, FEGLI, FSA, FEDVIP, 
CSRS, FERS and TSP enrollments, and the associated requests for backup 
verification. Also EBS counseled many employees who were affected by 
these employment changes. In addition, transcripts of service for the 
110 Capitol Guide Service employees transferred to the payroll of the 
Architect of the Capitol were prepared and forwarded in early 2009.
    Many employees changed health plans during the annual Benefits Open 
Season. These changes were processed and reported to carriers very 
quickly. This year, the Disbursing Office again offered Senate 
employees access to the online ``Checkbook Guide to Health Plans'' to 
research and compare FEHB plans. This tool will remain available to 
staff throughout the year. The Disbursing Office also hosted an Open 
Season Benefits Fair, which was informational and well attended. The 
Benefits Fair included representatives from local and national FEHB 
plans, as well as representatives from LTC, FSA and FEDVIP.
    The year saw many benefits and retirement changes due to changes in 
laws and regulations. EBS interpreted the legislation as it applied to 
their administration, determined policies and procedures and provided 
guidance or informational material where needed. Public Law 111-5 
provided for ``premium assistance'' for the continuation of health 
insurance for employees who lost their jobs. Public Law 111-8 provided 
for the non-reduction in pay for Reservists and National Guard members 
who were called to active duty. Public Law 111-31 enhanced the TSP to 
immediately eliminate the waiting period for new employees to receive 
agency matching contributions. Public Law 111-84 allowed for several 
retirement changes, of greatest impact was the availability of credit 
for unused sick leave under FERS, the repayment of refunds under FERS, 
and the expansion of the class of retirees eligible for the actuarially 
reduced annuity under CSRS. The LTC program offered extensive program 
and premium changes, which required many enrollees to make an 
alternative coverage decision, which required assistance from EBS.
    EBS conducted agency-wide seminars on CSRS and FERS and attended 
interagency meetings as a result of the many ongoing changes to the TSP 
Program. EBS participated in a number of meetings and presentations 
with potential payroll system contractors to try and determine the best 
fit for our needs.
Disbursing Office Financial Management
    Headed by the Deputy for Financial Management, the mission of this 
group is to coordinate all central financial policies, procedures, and 
activities; to process and pay expense vouchers within reasonable 
timeframes; and to provide professional customer service, training and 
confidential financial guidance to all Senate accounting locations. In 
addition, the Financial Management group is responsible for the 
compilation of the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations, and for the 
formulation, presentation and execution of the budget for the Senate. 
On a semiannual basis, this group is also responsible for the 
compilation, validation and completion of the Report of the Secretary 
of the Senate. Disbursing Office Financial Management is segmented into 
two functional departments: Accounting and Accounts Payable. The 
Accounts Payable Department is subdivided into three sections: Vendor 
(formerly Senate Automated Vendor Inquiry, also known as SAVI), 
Disbursements and Audit. The Accounting Department is subdivided into 
two sections: Budget and Accounting. The Deputy coordinates the 
activities of the functional departments, establishes central financial 
policies and procedures, and carries out the directives of the 
Financial Clerk and the Secretary of the Senate.
    As part of its continuity of operations (COOP) plans, the 
management visited the Alternate Computing Facility (ACF) on several 
occasions during the year to make sure the location was operational and 
adequately stocked. Additionally, the Deputy was able to log in 
remotely to accomplish a few predetermined tasks, and to assess the 
viability of performing more sensitive and complicated tasks in the 
future.
Accounting Department
    During 2009, the Accounting Department approved 53,537 expense 
reimbursement vouchers (an increase of 2,322 vouchers, or 5 percent, 
over the previous year) and 26,972 certification and vendor uploads, 
processed 2,170 deposits for items ranging from receipts received by 
the Senate operations, such as the Senate's revolving funds, to 
cancelled subscription refunds from member offices (an increase of 820 
deposits, or 61 percent, over the previous year). Of the increase of 
820 deposits, 559 (or 41 percent) are attributed to the POV 
reimbursement, which resulted from the overpayment of POV rates. 
General ledger maintenance also prompted the entry of thousands of 
adjustment entries that include the entry of all appropriation and 
allowance funding limitation transactions, all accounting cycle closing 
entries, and all non-voucher reimbursement transactions such as payroll 
adjustments, COLA budget uploads, stop payment requests, travel 
advances and repayments, and limited payability reimbursements. The 
department continues to scan all documentation for journal vouchers, 
deposits, accounting memos, and letters of certification to facilitate 
both storage concerns and COOP backup.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including two Web FMIS 
releases. The Accounting Department requested that some of its manual 
prepared reports be made into Web FMIS reports. One of the reports, the 
General Ledger Account Relationship Reconciliation, and a Status of 
Committee Funding report were developed for the fall 2009 release and 
made it into production in January 2010.
    During January 2009, the Accounting Department completed the fiscal 
year 2008 year-end process to close and reset revenue, expense, and 
budgetary general ledger accounts to zero. Currently, Accounting is in 
the process of testing the closing of fiscal year 2009 accounts which 
is expected to be done in the production environment the second week-
end in February.
    The Department of the Treasury's monthly financial reporting 
requirements includes a ``Statement of Accountability'' that details 
all increases and decreases to the accountability of the Secretary of 
the Senate, such as checks issued during the month and deposits 
received, as well as a detailed listing of cash on hand. Also, reported 
to the Department of the Treasury on a monthly basis is the ``Statement 
of Transactions According to Appropriations, Fund and Receipt 
Accounts,'' a summary of all activity of all monies disbursed by the 
Secretary of the Senate through the Financial Clerk of the Senate. All 
activity by appropriation account is reconciled with the Department of 
the Treasury on a monthly and annual basis. The annual reconciliation 
of the Treasury Combined Statement is also used in the reporting to the 
Office of Management and Budget (OMB) as part of the submission of the 
annual operating budget of the Senate.
    This year, the Accounting Department transmitted 10 months' worth 
of Federal tax payments for Federal, Social Security, and Medicare 
taxes withheld from payroll expenditures, as well as the Senate's 
matching contribution for Social Security, and Medicare to the Federal 
Reserve Bank. In November, the Accounting Department was set up in the 
IRS Electronic Federal Tax Payment System, or EFTPS, and made the 
November and December Federal withholding tax payments electronically 
through this system. EFTPS will also be used to transmit the 2009 
fourth quarter 941 report to the IRS. The department also performed 
quarterly reporting to the IRS and annual reporting and reconciliation 
to the IRS and the Social Security Administration. Payments for 
employee withholdings for state income taxes were reported and paid on 
a quarterly basis to each state with applicable state income taxes 
withheld. System modifications installed in 2008 that allow automated 
clearing house (ACH) payment of quarterly state taxes has resulted in a 
50 percent participation rate by taxing jurisdictions. Numerically, 21 
of 42 tax jurisdictions are receiving their quarterly state tax 
payments via ACH. The remaining 21 tax jurisdictions require a one-time 
``Pre-Note'' to be transmitted prior to making ACH payments. The 
Accounting Department is working to get the remaining 21 tax 
jurisdictions set-up for ACH. Monthly reconciliations were performed 
with the National Finance Center regarding the employee withholdings 
and agency matching contributions for the TSP.
    There are also internal reporting requirements, such as the monthly 
ledger statements for all member offices and all other offices with 
payroll and non-payroll expenditures. These ledger statements detail 
all of the financial activity for the appropriate accounting period 
with regard to official expenditures in detail and summary form. It is 
the responsibility of the Accounting Department to review and verify 
the accuracy of the statements before Senate-wide distribution. The 
Accounting Department is working with the IT Department and SAA 
Technical Support Staff to research the feasibility of electronically 
distributing these reports.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management and the Assistant Financial Clerk, continues to 
work closely with the SAA Finance Department in completing a new draft 
of the Senate-wide financial statements for fiscal year 2008 in 
accordance with OMB Bulletin 01-09, ``Form and Content of Agency 
Financial Statements'' and any updates required by OMB Circular A-136, 
``Form and Content of the Performance and Accountability Reports''. 
Work to finalize the implementation of the fixed asset system 
continues. Statements and other issues and priorities are discussed in 
monthly accounting meetings.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The Budget 
division is responsible for the preparation, issuance and distribution 
of the budget justification worksheets. Because of a continuing 
resolution and a change in Administration in fiscal year 2009, the 
budget justification worksheets for fiscal year 2010 were mailed to the 
Senate accounting locations and processed in February and March 2009. 
The budget baseline estimates for fiscal year 2010 were reported to OMB 
by mid-March. The budget analyst is also responsible for the 
preparation of 1099 forms and the prompt submission of forms to the IRS 
before the end of the January.
Accounts Payable: Vendor Administration (formerly Senate Automated 
        Vendor Inquiry Section)
    The Vendor Administration Section maintains the accuracy and 
integrity of the Senate's central vendor (payee) file for the prompt 
completion of new vendor file requests and service requests related to 
the Disbursing Office's Web-based payment tracking system, which was 
previously known as SAVI. SAVI was decommissioned, and the vendor 
tracking system was incorporated into Web FMIS. This section also 
assists the Information Technology (IT) department by performing 
periodic testing and by monitoring the performance of the vendor 
system, including the conversion from SAVI to Staffer Functionality in 
Web FMIS. Currently, more than 17,300 vendor records are stored in the 
vendor file, in addition to approximately 10,000 employee records. 
Daily requests for new vendor addresses or updates to existing vendor 
information are processed within 24 hours of receipt. Besides updating 
mailing addresses, the section facilitates the use of ACH by switching 
the mode of vendor payment from paper check to electronic deposit. 
Whenever a new remittance address is added to the vendor file, a 
standard letter is mailed to the vendor requesting tax and banking 
information, as well as contact and e-mail information. If a vendor 
responds indicating they would like to receive ACH payments in the 
future, the method of payment is changed.
    The conversion from SAVI to Staffer Functionality was done in 2008, 
but SAVI was not decommissioned until 2009 as some offices still had 
records in the old system. All Web FMIS users are using the Staffer 
Functionality exclusively, and new offices are automatically 
established with it. Senate employees can electronically create, save, 
and file expense reimbursement forms, track their progress, and get 
detailed information on payments. The most common service requests are 
for system user identification and passwords and for the reactivation 
of accounts. Employees may also request an alternative expense payment 
method. Employees can choose to have their payroll set up for direct 
deposit or paper check, but can have their expenses reimbursed by a 
method that differs from their salary payment disposition.
    The Vendor section works closely with the A/P Disbursements group 
to resolve returned ACH payments. ACH payments are returned 
periodically for a variety of reasons, including incorrect account 
numbers, incorrect routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    During 2009, the Vendor section processed over 2,600 vendor file 
additions, completed more than 4,370 service requests, mailed 
approximately 2,000 vendor information letters, and converted more than 
650 vendors from check payment to electronic payment. The increased 
activity in service requests stemmed from an unusually large number of 
14 new offices. The Vendor section electronically scans and stores all 
supporting documentation of existing vendor records and new vendor file 
requests. When this section receives replies asking for ACH 
participation, the vendors are asked if they wish to be notified by e-
mail when payments are sent. Currently, over 2,600 of the 3,200 ACH 
participants also receive e-mail notification of payment. Scanning and 
e-mail reduce the need for paper and envelopes.
    The Vendor section sent out 530 Web FMIS information e-mails to 
assist the IT department with the Staffer Functionality conversion. A 
mass mailing was sent to our 88 landlords, and 30 of them were 
converted to ACH payment as a result.
Accounts Payable: Disbursements Department
    The Disbursements Department is the entry and exit point for 
voucher payments. The department physically and electronically receives 
all vouchers submitted for payment. It also pays all of these vouchers, 
as well as the items submitted by upload and the various certifications 
and adjustments that are submitted periodically. The department 
received 153,000 vouchers and paid an additional 26,000 uploaded 
expenses. All of these items were paid by the department via Treasury 
check or ACH. Multiple payments to the same payee are often combined. 
As a result, 22,600 checks were issued, while 62,780 ACH payments were 
required. The decreased check volume and increased ACH volume is a 
desired result as the department continues its efforts to substantially 
reduce reliance on paper checks.
    The checkwriter system was upgraded and is now incorporated into 
Web FMIS. The new functionality allows greater ease of access to 
payment schedules for COOP purposes, but still maintains the security 
necessary to prevent unauthorized use of the system. Payment schedules 
may be retrieved, but payments cannot be made without proper 
authorization.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Files are maintained in-house for the current period and two 
prior periods, as space is limited. Older documents are stored in the 
Senate Support Facility (SSF). The inventoried items are sorted and 
recorded in a database for easy document retrieval. Several document 
retrieval missions were successfully conducted, and the department 
continues to work closely with warehouse personnel. Approximately 3,000 
vouchers involving POV travel needed to be retrieved to validate POV 
overpayments. Additionally several trips to the SSF were necessary to 
pull documents to meet the request of offices.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied, and include re-issuance of items 
held as accounts receivable collections, re-issuance of payments for 
which non-receipt is claimed, and various supplemental adjustments 
received from the Payroll Department. Such adjustments are usually 
disbursed by check, but an increasing number are now handled 
electronically through ACH. The department maintains a spreadsheet that 
tracks cases of non-receipt of salary checks, including stop payment 
requests and re-issuances.
    While experiencing an increase in ACH payments, Disbursing also 
experienced an increase, though small, in the number of ACH returns. 
Returns are usually the result of receiving incorrect account or 
routing information and are easily corrected with payee contact. Some 
returns result from account closings or non-participating financial 
institutions and, while a bit more difficult; these items are resolved 
either by receiving updated information or simply converting the 
payment to a check.
    The department also prepares the stop payments forms as required by 
the Department of the Treasury. Stop payments are requested by 
employees who have not received salary or expense reimbursements, and 
vendors claiming non-receipt of expense checks. This year, the PACER 
system was replaced by the Treasury Check Information System (TCIS). 
TCIS allows the department to electronically submit stop-payment 
requests and provides online access to digital images of negotiated 
checks for viewing and printing. Once a check is viewed, it is printed 
and may be scanned. Scanned images are then forwarded to the 
appropriate accounting locations via e-mail. During 2009, over 500 
requests were received for check copies. TCIS saves the Disbursing 
Office a $7.50 processing fee for each request, is Web-based, and is 
accessible from multiple workstations in Disbursing.
Accounts Payable: Audit Department
    The Accounts Payable Audit Section is responsible for auditing 
vouchers and answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations; identifies duplicate payments submitted by 
offices; monitors payments related to contracts; trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's Financial Management Information System; and 
assists in the production of the Report of the Secretary of the Senate.
    A major function of the section is monitoring the fund advances for 
travel and petty cash. Travel advances must be repaid within 30 days of 
trip completion, and petty cash advances must be repaid whenever new 
funding authority is established. Web FMIS accommodates the issuance, 
tracking, and repayment of advances. It also facilitates the entry and 
editing of election dates and vouchers for Senators-elect to ensure 
compliance of Senate Rules. In addition to other functionality, an 
advance type of petty cash was created and is in use. Regular petty 
cash audits are performed by the section and all petty cash accounts 
were successfully audited in 2009.
    The Accounts Payable Audit Section processed more than 152,600 
expense vouchers in 2009, as well as 26,400 uploaded items. Audit 
sanctioned more than 83,000 vouchers under authority delegated by the 
Senate Committee on Rules and Administration. This translates to 
roughly 13,800 vouchers processed per auditor, and 27,600 vouchers 
posted per authorized sanctioner. The voucher processing consisted of 
providing interpretation of Senate rules, regulations and statutes and 
applying the same to expense claims, monitoring of contracts, and 
direct involvement with the Senate's central vendor file. On average, 
vouchers greater than $100 that do not have any issues or questions are 
received, audited, sanctioned electronically by the Senate Committee on 
Rules and Administration using Web FMIS, and are expected to be paid 
within 8 to 10 business days. In 2009, the average for Committee on 
Rules and Administration sanctioned items was 6 days and the average 
for Disbursing sanctioned items was 4 days.
    Uploaded items are of two varieties: certified expenses and vendor 
payments. Certified expenses have been around since the 1980's, and 
include items such as stationery, telecommunications, postage, and 
equipment. Currently, the certifications include mass mail, franked 
mail, excess copy charges, Photography Studio, and Recording Studio 
charges. Expenses incurred by the various Senate offices are certified 
to the Disbursing Office on a monthly basis. The expenses are detailed 
on a spreadsheet which is also electronically uploaded. The physical 
voucher is audited and appropriate revisions are made. Concentrated 
effort is put forth to ensure certified items appear as paid in the 
same month they are incurred.
    Vendor uploads are used to pay vendors for the Stationery Room, 
Senate Gift Shop and state office rentals, and refund security deposits 
for the Senate Page School. The methodology is roughly the same as that 
for certifications, but the payments rendered are for the individual 
vendors. Although these items are generally processed and paid quickly, 
the state office rents are generally paid a few days prior to the month 
of the rental, which is consistent with the general policy of paying 
rent in advance.
    The Disbursing Office has sanctioning authority for vouchers of 
$100 or less, subject to post-payment audit by the Committee on Rules 
and Administration. These vouchers comprised approximately 54 percent 
of all vouchers processed and are usually paid within 5 business days. 
As in the previous year, Disbursing passed two post-payment audits 
performed by the Senate Committee on Rules and Administration, and no 
exceptions were found.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, and 
the permissibility of expenses; and participated in seminars sponsored 
by the Secretary of the Senate, the SAA, and the Library of Congress. 
The section trained eight new administrative managers and chief clerks 
and conducted four informational sessions for Senate staff through 
seminars sponsored by the Congressional Research Service (CRS). The 
Accounts Payable group also routinely assists the IT department and 
other groups as necessary in the testing and implementation of new 
hardware, software, and system applications. Web FMIS 2009-1 and 2009-2 
were implemented, testing continued for a voucher imaging prototype, 
testing began for electronic invoicing, and all employee numbers have 
now been completely converted to a non-Social Security Number format.
    Web FMIS 2009-1 concerned the addition of certification language on 
vouchers, and field additions to the expense summary report, all of 
which save time for voucher preparers and auditors. This will also be 
helpful for the imaging and digital signature functionalities. Now that 
initial testing for imaging and electronic invoicing has been 
completed, discussions have begun in 2010 to revisit these initiatives. 
Digital signature functionality is essential for imaging to proceed. 
Information regarding laws and current and past practices has been 
gathered, so the next phase is to hold meetings with all concerned 
parties.
    One of the major benefits of electronic invoicing is a reduction of 
paperwork and postage, as the need for separate mailings of individual 
bills is not necessary. It also fits well into imaging. Major benefits 
of imaging are a reduction in paperwork as well as the elimination of 
physically receiving paper documents.
    The major functionality for Audit in Web FMIS 2009-2 was the 
creation of a Web-based contract tracking module to replace an existing 
legacy system. In addition to incorporating the data into the new 
system, additional functionality was established so that all AP Audit 
staff can access the system from their own workstations. Contracts can 
now be monitored and linked to their respective purchase orders and 
funding periods.
Disbursing Office Information Technology
            Financial Management Information System
    The Disbursing Office Information Technology (IT) department 
provides both functional and technical assistance for all Senate 
financial management activities. Activities revolve around support of 
Web FMIS which is used by staff in 140 Senate accounting locations 
(i.e., 100 Senate personal offices, 20 committees, 20 leadership and 
support offices, the Office of the Secretary of the Senate, the SAA, 
the Senate Committee on Rules and Administration Audit section, and the 
Disbursing Office). The group consists of six full time staff.
    Responsibilities of the department include:
  --supporting current systems;
  --testing infrastructure changes;
  --maintaining contact with system users to ensure their needs are 
        met;
  --managing and testing new system development;
  --planning;
  --managing the FMIS project, including contract management;
  --administering the Disbursing Office's Local Area Network (LAN); and
  --coordinating the Disbursing Office's disaster recovery activities.
    The Disbursing Office is the ``business owner'' of FMIS and is 
responsible for making the functional decisions about FMIS. The SAA 
Technology Services staff is responsible for providing the technical 
infrastructure, including hardware (e.g., mainframe and servers), 
operating system software, database software, and telecommunications; 
technical assistance for these components, including migration 
management and database administration; and regular batch processing. 
The office utilizes the support of a contractor, along with the SAA who 
are responsible for operational support and application development. 
The three organizations work cooperatively.
    Highlights of the year include:
  --implemented three releases of FMIS, including the first release of 
        WebPICS, which provides a Web-based front end to ADPICS plus 
        additional functionality that is being used by the SAA staff;
  --tested infrastructure changes that included upgrades to the 
        mainframe operating system (Z/OS), the database (DB2), and Web 
        Sphere;
  --supported the Senate Committee on Rules and Administration's post 
        payment audit of a statistically valid sample of vouchers of 
        $100 or less;
  --upgraded PC software throughout the Disbursing Office; and
  --conducted monthly classes and seminars on Web FMIS.
            Supporting Current Systems
    IT supports Web FMIS users in all 140 accounting locations, the 
departments in the Disbursing Office (e.g., Accounts Payable (A/P), 
Accounting, Disbursements, Vendor Administration and Front Office 
sections), and the Senate Committee on Rules and Administration Audit 
staff. The activities associated with this responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; answer 
        hundreds of questions; and meet with chiefs of staff, 
        administrative managers, chief clerks, and directors of various 
        Senate offices as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities such as those for database access 
        optimization;
  --Security--maintain user rights for all ADPICS, FAMIS, and Web FMIS 
        users;
  --System administration--design, test and make entries to tables that 
        are at the core of the system;
  --Support of accounting activities--perform functional testing and 
        production validation of the cyclic accounting system 
        activities. This includes rollover, the process by which tables 
        for the new fiscal year are created, and archive/purge, the 
        process by which data for the just lapsed fiscal year are 
        archived for reporting purposes and removed from the current 
        year tables;
  --Support the Senate Committee on Rules and Administration post 
        payment voucher audit process--provide the data from which the 
        Committee on Rules and Administration audit staff selects a 
        statistically valid sample of vouchers for $100 or less. In 
        this way, the Committee on Rules and Administration audit staff 
        review vouchers sanctioned under authority delegated to the 
        Financial Clerk; and
  --Training--provide functional training to all Senate FMIS users.
            Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
and the telecommunications network. Activities for changes to the 
infrastructure include testing of all functionality prior to 
implementation and validating critical functionality post 
implementation. During 2009, the SAA implemented two major upgrades to 
the FMIS infrastructure. In addition, the SAA made regular micro-code 
updates, operating system ``maintenance'' releases, and maintenance for 
the virtual tape library.
            Maintaining Contact With System Users to Ensure Their Needs 
                    are Met
    Communicating with our large user base is critical to providing the 
service that we provide. IT meets on a regularly scheduled basis with 
representatives from Accounting, A/P, and the SAA. In addition, IT 
meets with user groups as it gathers requirements for new 
functionality. Meetings are advertised, and users self-select to 
participate. This year, IT met with the administrative managers, chief 
clerks and their staff who prepare expense summary reports (ESRs) to 
discuss changes to the data entry for the ESRs; and SAA users who 
prepare requisitions, or who approve requisitions to discuss the 
functionality to be addressed in the first phase of ``WebPICS'', a Web-
based front end to ADPICS with additional functionality developed to 
address SAA user needs.
    The administrative manager, chief clerk and ESR users pointed out 
the need for an ``itinerary wizard'' that would assist travelers enter 
an itinerary correctly. As a result, IT will develop a new ESR 
interface that enables travelers to enter expenses by date and have the 
system rearrange them into the four expense categories required by the 
Committee on Rules and Administration. This strategy will also build 
the itinerary based on the information provided. The functionality will 
be developed during 2010 and is scheduled to be implemented on a pilot 
basis in the FMIS 2010-2 release in the summer of 2010.
    WebPICS functionality for the SAA requisition and approver users 
was developed during 2009, and delivered in FMIS 2010-1, which was 
implemented in January 2010.
            Managing and Testing New System Development
    During 2009, IT supervised development, performed extensive 
integration system testing, and implemented changes to FMIS subsystems. 
The implementation and production verification activities were 
completed over a weekend in order to minimize system downtime to users. 
Since 2006, multiple sub-system upgrades have been consolidated into 
two or three releases each year. This reduced the amount of regression 
testing required. In order to accurately reflect the variety of changes 
in each release, the releases are now numbered by fiscal year. During 
2009, Disbursing implemented the following three major releases:
  --FMIS r2009-1, implemented in March 2009;
  --FMIS r2009-2, implemented in August 2009; and
  --FMIS r2010-1, implemented in January 2010.
    In addition, IT worked on functionality that will be included in 
future releases, of which one, the FMIS Imaging Product Analysis is 
especially important.
                FMIS 2009-1
    FMIS 2009-1 was implemented in March 2009. The major new 
functionality delivered in this release related to the following four 
things:
  --Web FMIS reports, including the document print;
  --Improved document search features;
  --Real-time e-mail notification; and
  --Changes to the Expense Summary Report (ESR).
    The Web FMIS reports were re-written to provide such functionality 
such as drill downs from the summary level report to voucher detail 
level reports and to retire obsolete hardware and software. Additional 
report changes with this release included (1) adding a new unallocated 
subtotal at the end of the summary reports, so that the unbudgeted 
figure would be more clearly visible, and (2) defining the commuting/
mass transit expense category codes as non-payroll expenses.
    The improved document search feature enabled searching on more 
criteria (e.g., a range of dates) and enabled printing documents from 
the search criteria. Using the search function to print documents 
created today with a single button click on ``today's documents'' was 
especially well received by the user community.
    The release included real-time e-mail for two functions: e-mail 
notification to a staffer that an ESR had been returned and e-mail 
notification to Disbursing requesting that a User ID be established for 
a staffer. Prior to this release the notification was done as part of 
the overnight batch process. Bringing these into real time solved two 
different problems. For the ESR return, it eliminated confusion for the 
staff getting an e-mail notice in the morning that an ESR had been 
returned when s/he may have already resolved the issue with the ESR the 
afternoon before. For the User ID request, it enabled Disbursing to 
respond more quickly to requests for establishing staff User IDs.
    The changes to the ESR were originally requested by the SAA Finance 
staff, but were applicable to all offices and include fields for 
providing additional information, such as the dollar amount of a travel 
advance, any charges that were paid on the office credit card, and a 
field for the signature of an office-level approver. It also corrected 
a problem with the calculation of POV mileage by requiring the entry of 
mileage in whole miles only.
                FMIS 2009-2
    FMIS 2009-2 was implemented in August 2009. This release included a 
small number of enhancements for WebFMIS users, but was focused on 
implementing new functionality for the Disbursing staff, including:
  --Contract tracking--this functionality brings information previously 
        tracked in a database into WebFMIS, with the added bonus that 
        staff at the Committee on Rules and Administration can view the 
        same information;
  --ADPICS document viewers--this functionality enables Disbursing 
        staff to see, via Web FMIS, information on documents created in 
        ADPICS, including requisitions, purchase orders and invoices. 
        For the Disbursing A/P staff, these documents can be supporting 
        documentation to a voucher;
  --The advance-related Web FMIS reports used by Disbursing were 
        rewritten in new software;
  --Changes to the checkwriter software--these changes enabled us to 
        integrate the checkwriter functionality into WebFMIS; and
  --Refresh several security pages used by the WebFMIS system 
        administrators.
    Three items composed the major new functionality for Senate offices 
delivered in this release, including:
  --display of an additional category (``unallocated'') on the budget 
        summary shown on users' home page, which matched the changes to 
        the subtotals on the summary reports implemented in the prior 
        release;
  --implementation of four new queries that are available as of prior 
        months in the Reports/Reconciliation function, and as of now in 
        the Reports/Main List function:
    --Certifications (Total):
    --Payroll (Total);
    --Documents Posted to FAMIS (DO Total);
    --Documents Posted to FAMIS (Office Total); and
  --implementation of eight new reports, the first four of which were 
        especially appreciated by administrative managers:
    --Traveler Summary by Month;
    --Cross fiscal year Summary by Location;
    --Cross fiscal year Summary by Month;
    --Cross fiscal year Historical Projections;
    --Payroll and Non-Payroll Summary by DC vs. State Office;
    --Committee--Payroll and Non-Payroll Summary by Party and Location;
    --Committee--Payroll and Non-Payroll Summary by Location and Party; 
            and
    --Leadership--Cross fiscal year Summary by Appropriation.
                FMIS 2010-1
    FMIS 2010-1 was originally scheduled for implementation in December 
2009, but was moved to January 2010 in order to provide more testing 
time for the WebPICS functionality. This release included a small 
number of enhancements for WebFMIS users, but was focused on 
implementing the first of three planned releases for WebPICS. The 
WebPICS project enables SAA users to access ADPICS functionality 
through a web-based front end, and provides additional functionality, 
such as a robust search function. The SAA follows a structured 
procurement process that includes creating requisitions, creating 
purchase orders from requisitions, receiving goods, entering invoices, 
and creating vouchers from purchase orders. For many years, the SAA has 
used ADPICS, a mainframe system, to perform these activities. This was 
especially difficult for occasional users. Using a variety of 
technologies, the WebPICS project replaces use of ADPICS with access to 
user-friendly web pages. This release focused on the needs of 
requisitioners and requisition approvers, who are occasional users, and 
included:
  --a robust requisition search function, through which a user can find 
        a requisition, its related purchase order, any change orders, 
        and the document's history, by entering minimal information, 
        such as the create date, the commodity code used, by whom it 
        was created or the department for whom it was created;
  --links to purchase orders via a viewer that formats mainframe data 
        into web pages;
  --a streamlined requisition create function that displays data from 
        multiple ADPICS screens on three tabs--basic information on the 
        header tab; what is being requested and who will pay for it 
        (i.e., commodity information, commodity specifications, and the 
        accounting information) on the items tab; and additional 
        information for the vendor on the terms tab;
  --a streamlined requisition change order function that shows, on the 
        same page, the old information and the new information;
  --look-up tables for selecting, rather than entering, information 
        such as commodity codes and accounting codes when searching for 
        and creating requisitions; and
  --use of the existing Web FMIS inbox to identify, check out, view, 
        and approve or reject requisitions.
    A pilot of SAA requisitioners and requisition approvers began using 
WebPICS in early January. Based on feedback from users involved in the 
acceptance testing as well as a few others who have seen the new 
application, the SAA staff is excited about using WebPICS. Additional 
users will be trained beginning in February; all requisitioners should 
be using the new functionality by the summer of 2010. The second 
release will focus on the SAA Accounts Payable process (e.g., receipt 
of goods, invoice processing and approval, voucher creation, and 
approval). The third release will focus on purchase order creation and 
approval.
    The functions in the 2010-2 release for WebFMIS users included:
  --an automated password reset feature available for all users--by 
        selecting and answering security questions users who forget 
        their passwords will be able to reset their passwords and 
        receive the temporary password via e-mail;
  --online travel expense summary report (ESR) and the 60-day 
        moratorium rule for ESR users--the online travel ESR will warn 
        staffers when their travel expenses violate the 60-day 
        moratorium;
  --graphs on summary reports for administrative manager and chief 
        clerk users--four of the summary reports now display two pie 
        charts of information; the first shows payroll vs. non-payroll 
        expenditures; the second pie chart shows six pieces of non-
        payroll expenditures: the top five non-payroll expense 
        categories and one with all other expense categories combined; 
        and
  --electronic invoicing for credit card charges for use by 
        administrative manager and chief clerk users--with this release 
        we have begun a pilot of making credit card invoices received 
        electronically from the Senate's credit card vendor available 
        via Web FMIS for use in easily creating vouchers. This 
        functionality is similar to the ESR ``import'' functionality 
        and users are able to select some or all charges and create a 
        voucher with minimal typing.
            FMIS Imaging Product Analysis
    During 2008, Disbursing implemented a prototype imaging system in 
which paper vouchers and supporting documentation were imaged by 
Disbursing staff and routed electronically. The hands-on experience of 
this prototype was especially useful in refining system requirements. 
The work begun in 2009 and to be completed in 2010 revolved around 
selecting software for the image database and image viewer, and to 
finalize imaging and electronic signature requirements. During 2010 
this information will be used in planning necessary software purchases 
and coordinating with a separate SAA smart card ID project. The smart 
cards will be used for electronic signatures.
            Planning
    The Disbursing IT department performs two main planning activities:
  --Schedule coordination--planning and coordinating a rolling 18-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
                Schedule Coordination
    In 2009, this department continued to hold two types of meetings 
between Disbursing and the SAA to coordinate schedules and activities. 
These were:
  --project specific meetings--a useful set of project-specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., archive/purge meetings 
        and Web FMIS budget function meetings); and
  --technical meetings--a weekly meeting to discuss the active 
        projects, including scheduling activities and resolving issues.
                Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
18-month timeframe of the technical meeting schedule. It is designed to 
set the direction and priorities for further enhancements. In 2002 a 
strategic plan was written by the Disbursing IT and Accounting staff 
for Disbursing Office Strategic Initiatives. This detailed description 
of five strategic initiatives formed the base for the Secretary of the 
Senate's request in 2002 for $5 million in multi-year funds for further 
work on the FMIS project. The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, this will implement new technology, including imaging 
        and electronic signatures, in order to reduce the Senate's 
        dependence on paper vouchers. This will enable the continuation 
        of voucher processing operations from an alternate location 
        should an emergency occur;
  --Web FMIS.--Respond to requests from the Senate's accounting 
        locations for additional functionality in Web FMIS;
  --Payroll system.--Respond to requests from the Senate's accounting 
        locations for online real time access to payroll data;
  --Accounting Subsystem Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.
    We have almost completed these objectives and during 2009 held 
meetings to ``envision the future.'' The implementation of a new 
payroll system will require substantial changes to current systems, 
including the interface from payroll into the General Ledger (FAMIS) of 
payroll expenditures and projections, the interface from the payroll 
system into the master vendor file (in FAMIS), and the payroll reports 
provided to the offices via Web FMIS. Additionally, Disbursing is 
beginning to investigate the issues around replacing the Senate's 
General Ledger and procurement systems (FAMIS and ADPICS) with software 
that runs on a server instead of a mainframe.
            Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the Disbursing IT department during the summer of 2003, and includes 
developing the task orders with contractors, overseeing their work and 
reviewing invoices. In 2009, the following two new task orders were 
executed:
  --Service Year 2010 extended operational support, which covers 
        activities from September 2009 to August 2010; and
  --FMIS Imaging Product Analysis, which will help Disbursing determine 
        what software will be used for paperless voucher processing, 
        including managing images, viewing images, annotating images 
        and reading smart cards, which will have a component of the 
        electronic signature.
    In addition, work continued under three task orders executed in 
prior years:
  --Imaging and signature design and electronic invoicing enhancement 
        continuation;
  --Web FMIS reporting enhancements; and
  --Service year 2009 extended operational support (covered activities 
        from September 2008 to August 2009).
            Administering the Disbursing Office's Local Area Network 
                    (LAN)
    Disbursing continued to administer its own local area network 
(LAN), which is separate from the network used by the rest of the 
Secretary's Office. It is used by over 50 staff. Upkeep of the LAN 
infrastructure, including performing routine daily tasks and replacing 
equipment regularly, is critical to providing services. During 2009, 
LAN administration activities included:
  --maintaining and upgrading the Disbursing Office's LAN;
  --installing specialized software; and
  --maintaining projects for the payroll and benefits section.
                Maintaining and Upgrading the Disbursing Office LAN
    Disbursing maintained the existing workstations with appropriate 
upgrades including:
  --upgrading PC software on Disbursing Office desktop and laptop 
        computers;
  --installing a client/server version of Reveal, software used to view 
        mainframe reports;
  --installing new laptops for COOP users; and
  --managing seven blackberry devices.
                Installing Specialized Software
    During 2009, the IT staff transitioned its processes to Senate-
supplied software, which improved efficiency and improved communication 
with the SAA technical staff. The improved processes include:
  --Problem Reporting.--Began using new software to report problems 
        with FMIS, improving the IT staff's efficiency; the SAA staff 
        testing WebPICS were able to enter their own problem reports.
  --Migration Management.--We began to use an electronic review/
        approval function in SharePoint for management of documents 
        relating to migration of software (e.g., the DO approval for 
        software to be migrated from acceptance to production). This 
        required establishing a one-way trust to the SAA domain for 
        access to a server available to the SAA, our support vendor, 
        and now the DO staff.
                Maintaining Projects for Payroll and Employee Benefits 
                    Sections
    Disbursing continued to support the Payroll/Benefits imaging system 
developed by SAA staff. This system electronically captures and indexes 
payroll documents submitted at the front counter, and is critical for 
the Payroll and Employee Benefits sections. During 2009, a new version 
of this software was installed. In addition, IT worked with the SAA 
Network Operations staff to establish point-to-point security for 
access to CLER, a benefits validation service.
            Coordinating the Disbursing Office's Disaster Recovery 
                    Activities
    In prior years, the Disbursing Office and the SAA have conducted a 
FMIS-only disaster recovery test during the year. As in previous years, 
the 2009 test was scheduled to include fail-over of our systems to the 
ACF, activity at the ACF, and a new activity, fail-back of the changed 
production data. This testing did not occur during 2009, but Disbursing 
anticipates testing will occur in August 2010.
                         administrative offices
                      chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established in 1993 at the direction of the Joint 
Leadership after enactment of the Government Employee Rights Act 
(GERA), which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), as amended, Senate 
offices became subject to the requirements, responsibilities and 
obligations of twelve employment laws. The CAA also established the 
Office of Compliance (OC). Among other things, the OC accepts and 
processes legislative employees' complaints that their employer has 
violated the CAA.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. Also, 
on a daily basis, the SCCE provides legal advice to Senate offices 
about their obligations under employment laws. Accordingly, each Senate 
office is an individual client of the SCCE, and each office maintains 
an attorney-client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (defending Senate offices in courts and at 
        administrative hearings);
  --Mediations to resolve lawsuits;
  --Court-ordered alternative dispute resolutions;
  --Union drives, negotiations, and unfair labor practice charges;
  --Occupational Safety and Health Act (OSHA) compliance;
  --Americans With Disability Act (ADA) compliance;
  --Layoffs and office closings in compliance with the law;
  --Management training regarding legal responsibilities; and
  --Preventive legal advice.
Litigation; Mediations; Alternative Dispute Resolutions
    The SCCE defends each of the Senate employing offices in all court 
actions, hearings, proceedings, investigations and negotiations 
relating to labor and employment laws. The SCCE handles cases filed in 
the District of Columbia and cases filed in any of the 50 states.
Compliance with the OSHA and the ADA
    The CAA mandates that, at least once each Congress, the OC shall 
inspect each Senate office to determine whether each office is in 
compliance with the OSHA and the public accommodation portion of the 
ADA. The CAA authorizes the OC to issue a public citation to any office 
that is not in compliance.
    The SCCE provides legal assistance and advice to each Senate office 
to ensure that it is complying with the OSHA and the ADA. The SCCE also 
represents each Senate office during the OC inspections and advises and 
represents each Senate office when a complaint of an OSHA or ADA 
violation is filed against the office or when a citation is issued.
    In 2009, the SCCE pre-inspected 4,976 Senate rooms to ensure that 
Senate offices are complying with the ADA and the OSHA. Inspections 
included all member offices in the Hart, Dirksen and Russell buildings, 
and offices and work spaces of other buildings used by the Office of 
the Sergeant At Arms and the Office of the Secretary of the Senate.
    The SCCE is very proud of the safety record in the Senate offices. 
During 2009, the enthusiasm and participation of Senate offices in 
SCCE's safety pre-inspection program resulted in 64 Senators receiving 
Safe Office Awards for perfect safety records. Other Senate offices had 
no significant OSHA or ADA problems.
Management Training Regarding Legal Responsibilities
    The SCCE regularly conducts legal seminars for the managers of 
Senate offices to assist them in complying with employment laws, 
thereby reducing their liability.
    In 2009, the SCCE gave 90 legal seminars to Senate offices, 
including, among others:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --Laws You Must Follow When Setting Up and Managing Your Office;
  --Understanding Sexual Harassment in the Workplace;
  --Dealing with Harassment Complaints and Avoiding a Hostile Work 
        Environment;
  --A Manager's Guide to Complying with the Family and Medical Leave 
        Act;
  --Hiring the Right Employee: Advertising and Interviewing;
  --Avoiding Legal Landmines in Your Office 2009; and
  --Military Service Academies Interview Training.
    The SCCE also conducted a series of monthly seminars covering all 
major employment laws that govern Senate offices. The SCCE just 
completed its second year of this widely-attended seminar series. The 
purpose of the seminars is to educate all Senate management staff about 
their responsibility to ensure that their respective offices comply 
with the CAA. The series is open to all chiefs of staff, staff 
directors, administrative directors, chief clerks and office managers. 
Individuals who complete the series receive a certificate of completion 
signed by the Secretary of the Senate. The following topics were 
covered:
  --An Overview of the Congressional Accountability Act;
  --$1,000 Fine Per Employee: Is Your Office Meeting Its Legal 
        Obligations Under the I-9 & E-Verify Laws?;
  --Overtime Pay: Who is Owed It, and How is It Calculated?;
  --Diversity in the Workplace: Lessons Learned from Dunder Mifflin;
  --He Interviewed So Well . . . And Then We Saw His Facebook Page: How 
        to Interview and Check the Backgrounds of Job Applicants;
  --The Family and Medical Leave Act: When Do Employees Get FMLA Leave, 
        and How Much Do They Get?;
  --Evaluating, Disciplining, and Firing Employees without Violating 
        the Law;
  --The Americans with Disabilities Act: What Managers Must Know about 
        Complying with the Law;
  --You Can't Act that Way in Our Office: Dealing with Harassment 
        Complaints and Avoiding a Hostile Work Environment; and
  --Common Employment Law Mistakes Managers Make.
    The SCCE, working with Chiefs of Staff and Administrative Directors 
of member offices, created and added new content to its Web site 
targeted exclusively to chiefs of staff, staff directors, 
administrative directors and chief clerks of incoming members to 
facilitate the opening of the new members' offices in compliance with 
employment laws. The Web site was used extensively.
Legal Advice
    The SCCE meets daily with members, chiefs of staff, administrative 
directors, office managers, staff directors, chief clerks and counsel 
at their request to provide legal advice. For example, on a daily 
basis, the SCCE advises Senate offices on matters such as interviewing, 
hiring, counseling, disciplining and terminating employees in 
compliance with the law; handling and investigating sexual harassment 
complaints; accommodating the disabled; determining wage law 
requirements; meeting the requirements of the Family and Medical Leave 
Act; management's rights and obligations under union laws and the OSHA; 
and management's obligation to give leave to employees for military. In 
2009, the SCCE had over 3,428 client legal advice meetings.
    Also, the SCCE provides legal assistance to Senate offices to 
ensure that their office policies, job descriptions, interviewing 
guidelines and performance evaluation forms comply with the law. In 
2009, the SCCE prepared or significantly revised 154 policy manuals for 
member offices.
Union Drives, Negotiations and Unfair Labor Practice Charges
    In 2009, the SCCE provided guidance to managers and supervisors 
regarding their legal and contractual obligations under union 
contracts.
Environmental, Cost and Space Savings
    In 2001, the SCCE became the first Senate office to convert to a 
``paperless'' office, which has greatly reduced paper usage by 
minimizing the need for copying documents and storing hard copies. In 
2009, the SCCE undertook a new project to further benefit the 
environment, cut costs, and clear office space. This project involved 
eliminating 50 percent of the office's hard copy legal books and 
reference documents through a combination of scanning and converting to 
electronic books. In addition to benefiting the environment, this 
project resulted in a cost savings of over $6,000 annually and freed 
129 square feet of valuable office space.
                     conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. Initiatives include: 
deacidification of paper and prints, phased conservation for books and 
documents, collection surveys, exhibits, and matting and framing for 
the Senate Leadership.
    For the past 26 years the Office of Conservation and Preservation 
has bound a copy of Washington's Farewell Address for the annual 
Washington's Farewell Address ceremony. In 2009 a volume was bound and 
read by Senator Mike Johanns.
Senate Library
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the office continued to conduct an annual treatment of books identified 
by the survey as needing conservation or repair. Conservation of a 
7,000 volume collection of House hearings start that same year, and in 
2009 conservation treatments were completed for 70 volumes of the 
collection. Specifically, treatment involved recasing each volume as 
required, using alkaline end sheets, replacing acidic tab sheets with 
alkaline paper, cleaning the cloth cases, and replacing black spine 
title labels of each volume as necessary. The Office of Conservation 
and Preservation staff will continue preservation of the remaining 
3,583 volumes.
    The Office of Conservation and Preservation staff assists the 
Senate Library with technical issues involving books being sent and 
returned from the Government Printing Office's (GPO) Library Binding 
section. The Senate Library sent 468 books to the Library Binding 
section for binding. The GPO has been returning books to the Senate 
Library on schedule.
    Conservation and Preservation assisted the Senate Library with one 
exhibit located in the Senate Russell building basement corridor. In 
addition, the staff assisted the Curator's Office with preparing for 
the installation of Henry Clay in the U.S. Senate in the East Brumidi 
Stairway.
Preservation
    The Office of Conservation and Preservation staff completed 173 
volumes of House and Senate hearings and Congressional Records for the 
Senate Library. These books were rebound with new end sheets and new 
covers using the old spines when possible.
Objectives for 2010
    Continue with the preservation work on the approximately 3,600 
remaining volumes of the of House committee hearings collection in the 
Senate Library. Monitor the temperature and humidity in the Senate 
Library storage areas and other Senate collection storage areas.
    Continue training six Senate Library staff members for repairing 
Senate Library materials at the warehouse. The six Senate Library staff 
are showing progress in book repair.
    Begin work on fifteen old books in the Office of the Senate Curator 
collection that require phased box conservation for storage.
    Continue training the Assistant Conservator in conservation 
techniques of books and paper. The Assistant Conservator is steadily 
progressing in learning these conservation techniques.
    Continue to update aging equipment in the office.
                                curator
    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Curator collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and the Curator exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the Curator educates the public about the Senate and 
its collections.
Collections: Commissions, Acquisitions, and Management
    A painting of Senator Trent Lott by artist Steven Polson was 
unveiled in the Old Senate Chamber on September 16, 2009, as part of 
the Senate Leadership Portrait Collection. A portrait of Senator Bill 
Frist is underway and will be unveiled in 2010.
    One hundred and four objects were accessioned this year into the 
Senate collection, including four Senate Chamber gallery passes; 69 
artifacts from the 2009 Presidential Inauguration; 15 examples of pins 
from the Secretary of the Senate's Service Award program; tickets from 
various Joint Sessions of Congress held during the 1st session of the 
111th Congress; an envelope franked by Senator Charles Sumner; two 
stereo views of the Supreme Court Chamber (when the Court met in what 
is now the Old Senate Chamber); tickets from the Senate Nomination 
Hearing for Sonia Sotomayor as Associate Justice of the Supreme Court 
of the United States; and an historic porcelain shaving mug once used 
by Senator Frederick George Payne of Maine in the Senate's barber shop.
    Forty-one new foreign gifts were reported in 2009 to the Select 
Committee on Ethics and deposited with the Curator on behalf of the 
Secretary of the Senate. The Office maintains 240 foreign gifts, which 
are catalogued and maintained by the office in accordance with the 
Foreign Gifts and Decorations Act. Appropriate disposition of 38 
foreign gifts was completed following established procedures.
    Implementation of a plan to provide expert care for the Senate's 
collection of historic clocks began in 2009. A clock expert conducted 
on-site maintenance for the clocks, starting with those in greatest 
need of care. By December 2009, all of the working clocks had received 
general maintenance, except for two that received complete 
conservation, and two others scheduled for conservation in 2010.
    In 2008 the office conducted a comprehensive survey of original 
Russell Senate Office Building furniture located in Senate spaces of 
the Capitol and Senate office buildings. The survey resulted in the 
identification and location of 1,133 furnishings made for the Senate's 
first office building. Of particular interest to Senators and staff are 
the flat-top desks, 60 of which are still in use today. In 2009 the 
office launched a yearly desk survey program to document the occupant 
of each desk. Results are recorded in a database and can be easily 
queried for interested Senators and staff. In addition, the search for 
Russell furniture located in private collections, museums, and 
libraries continued: a total of 56 furnishings (18 more than last year) 
were identified.
    Following conservation treatment, nine Senate collection objects, 
eight historic Russell furniture pieces, and the painting, Henry Clay 
in the U.S. Senate, by Phineas Staunton, were professionally 
photographed for documentation, disaster preparedness, use on 
Senate.gov, and publications promoting the Senate's collections.
    The last phase of an environmental monitoring program in the two 
Curator storage rooms of the Capitol Visitor Center (CVC) was completed 
with the addition of electronic monitors. The monitors record 
temperature and relative humidity in the rooms and send alarms when the 
environment exceeds the desired temperature and humidity ranges. 
Environmental monitors are already present in the Curator spaces in the 
Capitol and the Senate Support Facility. Unlike the old paper system of 
recording temperature and humidity, these new monitors gather data 
remotely and more frequently. In addition, the monitors send out alarms 
to staff who can then immediately address the conditions or problems. 
The environmental monitors are critical in protecting and preserving 
the Senate's collections and maintaining proper storage environments.
    The Curator's Office continued to work with CVC project staff and 
Architect of the Capitol (AOC) representatives to resolve problems in 
the new CVC storage spaces. In June, the AOC determined that the HVAC 
equipment installed in the storage rooms was not capable of meeting 
environmental requirements and needed replaced. The design for new 
equipment is underway, and installation is expected to be completed by 
summer 2010.
    Keeping with scheduled procedures, all Senate collection objects on 
display were inventoried, noting any changes in location. In addition, 
as directed by S. Res. 178 (108th Congress, 1st session), the office 
submitted inventories of the art and historic furnishings in the Senate 
to the Senate Committee on Rules and Administration. The inventories, 
which are submitted every 6 months, are compiled by the Curator's 
Office with assistance from the Senate Sergeant at Arms (SAA) and AOC's 
Senate Superintendent.
    The office focused attention on the protection of the Senate's 
historic mirror collection. A plinth program was instituted, so now all 
mantel mirrors de-installed for conservation are outfitted with a 
protective plinth. By raising the mirrors from the mantels and creating 
a larger footprint, the plinths shield the mirror frames from spills, 
damage from objects displayed on the mantels, and routine dusting. To 
date, 10 mirrors have been furnished with plinths that meet the new 
design standard. The office also outlined display guidelines to better 
protect the mirrors, and cleaned four mirrors.
    The Curator's staff created a first-of-its-kind Senate fragment 
collection. Examples of such objects being considered for the 
collection include various carpet and curtain samples, fireplace 
inserts and removed state seals from the Leadership suites, This new 
collection preserves original, unique, significant, and informative 
objects that are removed from the Capitol. The collection will serve as 
a resource for future research, enhance knowledge of the Senate, and 
heighten understanding of the architecture, ornamentation, and 
decoration of the Capitol.
Conservation and Restoration
    The complex conservation treatment required to restore the 
monumental painting, Henry Clay in the U.S. Senate, by Phineas 
Staunton, was completed in May 2009. The painting and frame were then 
reassembled in the conservation studio for the first time in more than 
50 years. Created in 1865 for a competition it did not win, the 
portrait is one of three known paintings showing the Senate meeting in 
the Old Senate Chamber. It subsequently fell into obscurity until 2006 
when it was rediscovered in a New York historical society storage area 
scheduled for renovation and then donated to the Senate. In order to 
access the Capitol, the frame was disassembled and carried up the East 
Front steps separately from the canvas. Final assembly took place on a 
scaffold-supported platform in the East Brumidi stairwell, where the 
painting is now prominently displayed. As part of the project, custom 
lights were fabricated and installed in the stairwell to create optimum 
viewing of the painting from the second floor landing.
    In addition to the regular maintenance required to keep the 
Senate's historic clocks working properly, conservation treatment is 
occasionally necessary to thoroughly clean all working parts and 
replace material that has worn away. A condition assessment completed 
in 2008 identified those clocks in greatest need of treatment to 
prevent serious damage from occurring. Two clocks, the Simon Willard 
gallery clock purchased for the Supreme Court in 1837, and the mahogany 
floor clock purchased for the President's Room in 1887, were conserved 
in 2009. The Willard clock is particularly historic, and research into 
the lore surrounding the clock's significance as a timepiece for the 
justices is ongoing in the Curator's Office, to support its 
interpretation for the public.
    Continuing to address the most critical conditions in the 94 
mirrors that compose the Senate's mirror collection, the office 
completed conservation treatment of four mirrors. The frames required 
comprehensive conservation: structural issues were repaired; 
inappropriate previous work was removed; losses were filled; and the 
gesso, a plasterlike substance used to prepare surfaces for coatings, 
was cleaned, repaired, and gilded. In order to minimize the impact to 
offices caused by sending mirrors out for conservation, the Curator's 
Office acquired two suitable contemporary reproduction mirrors to fill 
the voids. Senate offices appreciated this solution and it has helped 
conservation scheduling.
Historic Preservation
    The Senate's historic preservation program, established 10 years 
ago, seeks to formulate a solid preservation policy reflective of the 
Senate's interests and the need to preserve the Capitol's historic 
fabric and historical artistic intent. Through various initiatives, the 
preservation program has positioned itself as a valuable resource for 
the Senate, ensuring that all projects are carefully considered and 
weighed in light of sound preservation practices.
    The Curator's Office continued to work closely with the AOC and the 
SAA to review, comment, plan, and document Senate side construction 
projects (many of which are long-term initiatives) that involve or 
affect historic resources. Construction and conservation efforts that 
required considerable review and assistance included: the Brumidi 
corridor mural conservation and scagliola conservation. Through this 
work, the Curator's Office was able to ensure that the highest 
preservation standards possible were applied to all Capitol projects.
    The staff also originated several building projects in order to 
repair existing damage and minimize future loss. On the second floor, 
the office worked with AOC craftsmen to repair areas of the historic 
mosaic floor tile that were missing. The holes created by the missing 
tiles resulted in a situation where tiles continued to become dislodged 
by carts and other foot traffic at an alarming rate. The in-kind 
replacement restored the aesthetic of the floor and stopped the loss of 
significant building fabric. Similarly, the Curator's Office worked 
with the AOC shops to construct a picture rail in the Strom Thurmond 
Room in order to protect the Senate's last remaining example of a 1900 
wall canvas. Prior to the installation of the picture rail, which was 
custom designed to be minimally intrusive, the wall canvas was 
routinely damaged by picture nails.
    In response to longstanding concerns about the appearance of and 
wear to public spaces and reception areas, Curator's Office formed a 
working group to identify the causes of incidental damage and devise 
workable solutions. The group is using the Lyndon B. Johnson Room as a 
pilot space. The group is also looking at various utilitarian items in 
public spaces in an attempt to refine the aesthetic of the building.
    The challenging Senate Reception Room restoration and 
rehabilitation project, developed by the Senate Curator and the AOC 
Curator, has successfully moved forward. Following paint analysis, 
large exposures of the original trompe l'oeil and Greek key patterns 
were revealed in an effort to determine the extent of remaining 
original paint, its condition, and the ability to remove the overpaint. 
The Senate Reception Room Advisory Board met in July to consider the 
issues and offer recommendations. During testing performed on the gold 
elements in the room, the staff discovered that the decorative 
plasterwork was originally gilded with brilliant, shiny gold leaf. The 
gilded surfaces are undergoing treatment testing to determine the best 
course of action. Aside from looking at the wall decoration, the 
Curator considered the state of the Reception Room furniture. A 
condition assessment of the eight historic benches purchased in 1899 
for the room was completed, and the desk and cabinetry in the adjacent 
stair landing are being redesigned to improve functionality and 
appearance.
    At the 2009 meeting of the Senate Curatorial Advisory Board, the 
staff presented the panel with several restoration issues related to 
the Old Senate Chamber. Board members responded with invaluable advice 
on the historic nature of the room, and its importance as an historic 
restoration and as a cultural icon for the American people and the U.S. 
Senate. This feedback will provide a sound basis for the Curator to 
develop long-term strategies and policies for the future 
interpretation, preservation, and management of this historic space.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court chambers and coordinated periodic use of both rooms for 
special occasions. The office staff worked closely with the U.S. 
Capitol Police to continue procedures developed to record the after-
hours access to the historic chambers by current members of Congress. 
Fifty-eight requests were received from current members of Congress for 
after-hours access to the Old Senate and Old Supreme Court Chambers.
    By order of the U.S. Capitol Police, the Old Senate Chamber was 
closed to visitors after September 11, 2001. However, in February 2009, 
the Senate Leadership (as Leaders of the Senate Commission on Art) 
approved the opening of the room to Capitol Guide and staff-led tours 
during week days. For the last 7 years the Old Senate Chamber was only 
open to the public when the Senate was in recess for a week or more.
    The re-enactment swearing-in ceremonies for Senators elected during 
the 111th Congress were of special significance in the Old Senate 
Chamber. In addition, various filming occurred in the historic chambers 
throughout the year for educational projects. Of particular interest 
was the filming in the Old Supreme Court of certain scenes for the 
Seventh Circuit Bar Association in Chicago, Illinois, for a symposium 
titled Abraham Lincoln--His Legal Career and His Vision for America. 
Chief Justice John Roberts provided the narration of the Supreme Court 
case Lewis v. Lewis, which was argued in the room by Abraham Lincoln in 
1849.
Loans To and From the Collection
    A total of 57 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate leadership and offices in 
the Senate wing of the Capitol. The staff returned four loans, 
coordinated 13 new loans, and renewed loan agreements for 37 other 
objects. 19 loans are projected to be renewed next year.
    For the 2009 Inaugural Luncheon, the Curator's office facilitated 
the loan of the New-York Historical Society's painting by Thomas Hill, 
entitled View of Yosemite Valley, to the Joint Congressional Committee 
on Inaugural Ceremonies. The Curator's staff was also responsible for 
coordinating the loan of the Lincoln Table from the Massachusetts 
Historical Society, the Eagle Podium from the Daughters of the American 
Revolution, and the Lincoln Bible from the Library of Congress for the 
Inaugural Luncheon.
    The official Senate chinaware was inventoried and used at 23 
receptions for distinguished guests, both foreign and domestic. The 
Secretary's china was inventoried and used at seven receptions. It was 
used for the Inaugural luncheon.
Publications and Exhibitions
    In March of 2009, offices of the Secretary of the Senate and AOC 
came together to celebrate the 100th anniversary of the Richard B. 
Russell Senate Office Building. Several initiatives planned for the 
event were unveiled, including: the installation of informational 
panels at locations throughout the building highlighting the social and 
architectural history of various spaces; a publication and poster on 
the historic furnishings; an exhibition in the Russell basement rotunda 
showcasing nine restored original furnishings; various merchandise 
available at the Senate Gift Shop; as well as lectures and tours. The 
office also published an extensive exhibit on Senate.gov featuring 
hundreds of historic images of the Russell building and its 
construction from the collections of the AOC, Library of Congress, and 
Senate Historical Office. The exhibit traces the construction progress 
as documented by official photographers, and presents various aspects 
of life in the building during its early years.
    A second major Web exhibit educates the Senate community and the 
public about the history, rediscovery, and conservation of the 
monumental painting Henry Clay in the U.S. Senate by Phineas Staunton. 
The Web site details the history of this significant portrait, and 
contains interactive links to lead the viewer through the ``before'' 
and ``after'' phases of restoration as well as a thorough comparison of 
``then'' and ``now'' images of the historic Old Senate Chamber, the 
setting for the painting. The site also features a 20-minute video 
documentary about the painting and its restoration, produced by the 
Curator's Office in conjunction with the Senate Recording Studio and 
Senate Photographic Studio.
    The Curator's staff updated the Senate Chamber Desk Web site with 
the new map for the first session of the 111th Congress, as well as 
posting maps for all recently appointed Senators. In addition, 261 
historic chamber seating maps (26th Congress to 106th Congress) from 
the Congressional Directory were added to the site with the assistance 
of the Senate Library; and two new stories were developed: A Record-
Setting Filibuster by Strom Thurmond, and Thomas Constantine, 
Cabinetmaker.
    Unveiling and artifact pages were created for the paintings of 
Senators Daschle and Lott; an online exhibition was posted highlighting 
the Senate's collection of 72 Senate Chamber gallery passes dating back 
to 1890; a feature exhibit was completed on the Senate Leadership 
Portrait Collection; and staff contributed to the Joint Congressional 
Committee on Inaugural Ceremonies Web site by providing information on 
the painting borrowed for the 2009 Inaugural Luncheon also on 
Senate.gov.
    The office staff worked with the Government Printing Office (GPO) 
to develop a comprehensive series of exhibit signs for the Hart 
Building atrium to interpret Alexander Calder's Mountains and Clouds. 
The signs will be fabricated and installed in 2010.
    Five brochures were updated and reprinted during 2009: The U.S. 
Senate Appropriations Committee; The U.S. Senate Foreign Relations 
Committee; The Old Senate Chamber, 1810-1859; The U.S. Senate 
Republican Leader's Suite; and The Vice Presidential Bust Collection. 
As part of an ongoing program to provide more information about the 
Capitol and its spaces, GPO created digital files of the new 
publications and added them to the Senate's Web site.
    At the direction of the Committee on Rules and Administration, the 
Curator's staff supervised the fabrication and installation of a bronze 
plaque outside Room 713 of the Hart Senate Office Building, the former 
office of Senator Barack Obama, commemorating his Senate service. This 
plaque is similar to five other plaques previously placed in the 
Russell Senate Office Building to identify the offices of Senators who 
later became President. Also at the request of the Rules Committee, and 
pursuant to S. Res. 53, the office commissioned a bronze plaque 
honoring the work of African-American slaves in building the U.S. 
Capitol. The plaque will be installed in the third floor east front 
connecting corridor of the Senate wing, where a portion of the 
Capitol's original 1800 exterior wall can be seen.
Collaborations, Educational Programs, and Events
    The Curator's staff assisted the National Archives again this year 
with two exhibits for display in the vault at the Center for 
Legislative Archives. Several objects from past Presidential Inaugural 
Luncheons were installed, and in July, objects related to the Senate 
Chamber went on display in honor of the room's 150th anniversary.
    The Curator and staff assisted with numerous CVC-related projects 
throughout the year. The Curator, Associate Curator, and Administrator 
provided support for the Congressional Historical Interpretation 
Program (CHIP), attending planning meetings and presenting lectures to 
congressional staff at the 1-day and 2-day programs; assisted with 
brief question and answer sessions to the Capitol Guides to better 
inform them on Senate art and history; contributed to the development 
of the new e-learning program; and at the request of the CVC oversight 
for the Senate, the Senate Committee on Rules and Administration, 
continued to work closely with the House Curator and AOC Curator to 
review products and publications for the CVC gift shop.
    Other joint congressional projects included planning and review for 
the Rosa Parks statue and participating in the Slave Labor Task Force 
Working Group assigned to develop solutions to Congress' recommendation 
to honor slave labor in the Capitol.
    The Senate Curator and staff gave lectures on the Senate's art and 
historical collections to various historical groups and art museums. 
The staff also assisted with the Secretary's Senate staff lecture and 
tour series and were regular contributors to Unum, the Secretary's 
newsletter.
Office Administration and Automation
    In the area of file management, the Curator's staff continued work 
on the electronic files by applying a new file matrix organization and 
file naming protocols. This standardization and consistent records 
collation will greatly improve the usability of the office resources, 
streamline office record keeping, and enhance research efforts. The 
office reviewed the video media collection and developed a disposition 
plan to convert essential footage to standard preservation medium. 
Additionally, the collection database was reviewed and assessed by an 
outside contractor which resulted in a reconfiguration of the artist 
database, updates to loans and inscriptions, and the creation of an 
object maintenance table. This work will allow more efficient searching 
capabilities, a stable database, and an easier way of transferring 
information into reports.
    In the area of continuity of operations (COOP) planning, all new 
loan agreements were digitized in PDF format for easy retrieval off-
site, and a map noting the current location of loaned objects was 
created to allow quick identification of loans that may be affected in 
an emergency situation. The Curator's Office also greatly increased its 
COOP-readiness through the assignment of remote desktop access for all 
staff members. The office also participated in the Secretary's pilot 
pandemic response tests in preparation for the full implementation of 
the plan. In conjunction with this and COOP preparedness, the office 
conducted several table top and work-at-home exercises to test 
readiness.
    The Curator's Office, in conjunction with the Office of Web 
Technology, posted the newly redesigned Senate Art Web site. Visitors 
to the site may now explore the Senate's art and historical 
collections, online exhibits, and publications using an interface that 
is more intuitive and that allows better access to Senate art 
resources. In addition to being more user-friendly, the new site's 
information architecture has been reconfigured to enable easier updates 
and expansion, permitting the addition of more categories and enhancing 
the ability to feature specific subject-related aspects of the 
collections. For the first time, the more than 1,000 graphic art images 
in the Senate collection are now available online.
    Staff from the Office of Police Operations, Security and Emergency 
Preparedness provided the Curator's Office with nine personalized 
emergency training classes this year. The training enhanced staff 
emergency preparedness skills, awareness, and readiness. The office 
emergency action plan was updated and processed into the new format 
required by the SAA, and new emergency action plans were created for 
the office's two collection storage rooms in the CVC.
    The 111th Congress Senate Curatorial Advisory Board was empanelled. 
Two new and 11 returning members were welcomed at the first meeting 
held in November. Composed of respected scholars and curators, this 13-
member board provides expert advice to the Commission on Art regarding 
the Senate's art and historic collections and preservation program and 
assists in the acquisition and review of new objects for the 
collection.
Objectives for 2010
    The Curator's staff will continue to confer with the AOC regarding 
preservation issues related to Senate restoration and remodeling 
projects, disseminate project information to the Senate, develop 
preservation projects at the request of the Senate, conduct condition 
inspections, and arrange necessary maintenance. The bulk of the 
office's project management will involve advancing the restoration and 
rehabilitation of the Senate Reception Room. Specific efforts to be 
addressed in 2010 include updating the Senate Reception Room Advisory 
Board and the Senate community on the wall decoration and gilding 
treatment studies; working with the AOC to outline and implement a 
treatment approach and schedule for the walls (paint and gilding); 
conserving eight historic benches; and testing the functionality of 
different furnishings. The Curator's staff will also work with the AOC 
to devise a restoration treatment plan and schedule for the murals and 
historic wall canvas in the Strom Thurmond Room. The office has 
monitored this highly significant space for many years and now has the 
opportunity to study the materials and outline a thoughtful course of 
action to restore this lone remaining example of artist Elmer Garnsey's 
1900 work in the Capitol.
    Regarding the historic chambers, the Curator's Office will 
undertake a review of the 1970s restoration efforts in the Old Senate 
and Old Supreme Court chambers, looking at the decisions made, the 
research conducted, and the restoration justifications. The 
investigative findings will be placed within the context of 1970s 
preservation philosophy but will be critiqued by current preservation 
standards. This research project will greatly expand the staff's 
knowledge of the historic chambers and will highlight areas for further 
study. In addition, it will provide the basis for much needed paint, 
plaster, and drapery repairs, tentatively scheduled for 2011, and will 
help determine if there are opportunities for improving the 
interpretation of the room.
    The conservation and preservation of the Senate's collection 
continue to be a top priority, and several projects are planned for 
2010. Two of the Senate's most historic clocks are scheduled for 
conservation treatment. Both the case and the clock mechanism of the 
``Ohio'' tall case clock, purchased by the Senate in 1816, have 
significant condition problems that will be addressed by a furniture 
conservator and a clock expert. The 1846 architectural shelf clock 
located over the door in the Old Senate Chamber is also scheduled to 
receive treatment to ensure its continued operation.
    Plans are underway to professionally conserve the recent additions 
to the Senate Leadership Portrait Collection. Within a year or so of 
completion, each portrait is carefully examined and cleaned of surface 
dust, then given a final protective coating of varnish. Additionally, 
the office will address critical frame (mirror and painting) 
conservation priorities, focusing on on-site treatments. Staff also 
will review the mirror files and bring them in line with established 
collection recordkeeping standards.
    The office will move forward with conservation treatment for the 
inkwells and sanders in each of the 100 Senate Chamber desks. These 
delicate artifacts date to about 1930 and are starting to show their 
age--hinges are loose or broken, glass is cracked, and metal parts have 
varying states of patina. Staff also will work with the SAA Cabinet 
Shop to survey the writing tops of the Chamber desks and develop a 
comprehensive plan for their repair and ongoing maintenance.
    In 2011 conservation is planned for two of the Senate's most iconic 
works of art in the Old Senate Chamber: the Eagle and Shield sculpture 
and the portrait George Washington (Patriae Pater), by Rembrandt Peale. 
In preparation, a detailed review of past treatments and analyses will 
be undertaken in 2010. The Curator's Office will assemble a panel of 
experts to guide the development of treatment goals for the painting 
and sculpture, based upon findings from analyses conducted in 1998 and 
2004, and conditions noted during previous conservation treatments.
    With regard to future preservation, the office will work toward 
developing and instituting procedures and policies for the refinishing 
and protection of the historic Russell Office Building furnishings. 
Preservation priorities will be based on findings identified by the 
conservator during the 2008 Russell furnishings survey. The office will 
work closely with the Committee on Rules and Administration, the AOC, 
and the SAA on this initiative.
    The Curator will continue efforts to locate and recover objects 
associated with the Senate, specifically Senate Chamber gallery passes, 
tickets to past inaugural events, and historic furnishings. In 
addition, staff will continue efforts to identify Russell flat-top 
desks outside the Senate, and where possible, return the desks to the 
Senate. New works of art for 2010 will include the portrait of Senator 
Bill Frist for the Senate Leadership Portrait Collection.
    In the area of collections management, the office will review 
photographs in the collections database to ascertain that each object 
has a documentation photograph and that it meets required size 
parameters. Standardizing image sizes is important to ensure the 
functionality of the database.
    Several publications and exhibitions are scheduled for 2010. 
According to its enabling legislation, the Senate Commission on Art is 
required ``at least every 10 years'' to publish as a Senate document a 
list of all works of art, historical objects, and exhibits currently 
within the Senate wing of the Capitol and the Senate Office Buildings. 
The Curator's staff will work with GPO to publish this document. 
Encompassing over 4,000 works of art and artifacts, the inventory 
records the growth of the Senate collection over the last 10 years; 
demonstrates the office's concerted effort to acquire objects that 
enhance the collection; and provides a list of the entire collection.
    The Curator's staff will begin work on a supplement to the United 
States Senate Catalogue of Fine Art, highlighting the art collected by 
the Senate since the catalogue was published in 2002. Also, with the 
upcoming Gold Medal ceremony in honor of Constantino Brumidi, the staff 
will work closely with other offices to develop exhibits, publications, 
oral histories, and various lectures and tours.
    Several other exhibitions are also planned. A new exhibit will 
feature the 150th anniversary of the Civil War and replace the 
inaugural exhibit in the Senate wing's first floor connecting corridor. 
The exhibit will highlight items from the Senate's collections 
illustrating the war and its impact on the Senate and the Capitol. In 
conjunction with the Senate Library and Senate Historical Office, staff 
will complete two exhibits outside the newly remodeled Dirksen G-50 
hearing room, as requested by the Committee on Rules and 
Administration. The exhibits will be placed in the showcases built into 
the walls of the room's vestibule. One case will highlight Senator 
Everett Dirksen, for whom the building was named; the other case will 
feature the building--its origins, construction, and architectural 
details.
    Educational efforts also will focus on Senate.gov. Staff will 
develop a decorative art section. Decorative art slated for inclusion 
in this pilot project include gilded mirrors, historic clocks, and 
Russell Building furniture. In addition, an online exhibition featuring 
artifacts related to funerals held in the Senate Chamber will be 
posted, along with an online exhibit dispelling myths and rumors often 
heard about Senate art. A new Web section titled, ``Curator's Picks'' 
will feature the Curator's favorite works in the Senate collection. 
Additionally, staff will design and outline an historic spaces section 
for the Web site. This section will guide visitors through such 
treasures as the Old Senate and Old Supreme Court Chambers, the 
President's Room, and other significant historic spaces.
    The office will continue to prepare for emergency situations that 
may affect the collection by identifying local disaster recovery 
companies to assist in the recovery of collection objects, as well as 
finalizing a binder with disaster recovery procedures. In the area of 
COOP preparedness, the office will conduct its annual table top 
exercise and will train staff to use remote desktop access through a 
series of work-from-home exercises.
                         education and training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington, DC and the states. There are three branches within the 
office: Technical Training, Professional Training, and Health 
Promotion. The Technical Training branch is responsible for providing 
technical training support for approved software packages and equipment 
used in either Washington, DC or the state offices. This branch 
provides instructor-led classes; one-on-one coaching sessions; 
specialized vendor provided training; computer-based training; and 
informal training and support services. The Professional Training 
branch provides courses for all Senate staff in areas including: 
management and leadership development, human resources issues and staff 
benefits, legislative and staff information, new staff and intern 
information. The Health Promotion branch provides seminars, classes and 
screenings on health and wellness issues. This branch also coordinates 
an annual Health Fair for all Senate employees and plans blood drives 
every year.
Training Classes
    The Joint Office of Education and Training offered 1,225 classes 
and events in 2009, drawing 13,178 participants. The registration desk 
handled over 25,000 e-mail and phone requests for training and 
documentation.
    In the Technical Training area 300 classes were held with a total 
attendance of 1,077 students. An additional 425 staff received coaching 
in 273 sessions on various software packages and other computer-related 
issues. In the Professional Development area 302 classes were held with 
a total attendance of 3,738 students. The staff managed or assisted the 
Employee Assistance Program; Police Operations, Security and Emergency 
Preparedness; Disbursing; and Committee on Ethics with 110 training 
classes for 1,369 students.
    The Office of Education and Training staff is available to work 
with teams on issues related to team performance, communication, or 
conflict resolution. During 2009, Professional Development met over 160 
requests for special training and team building for 1,038 staff.
    In the Health Promotion area, 2,535 staff participated in 53 Health 
Promotion activities throughout the year. These activities included: 
lung function and kidney screenings, eight blood drives, the Health and 
Fitness Day and seminars on health related topics and the Annual Senate 
Health Fair.
    The Office of Education and Training provides an annual Senate 
Service Expo for Senate office staff. This year 35 presenters from the 
offices of the Secretary of the Senate, the Sergeant at Arms, the 
Architect of the Capitol, the U.S. Capitol Police and the Library of 
Congress provided an overview of their services to 230 staff.
    Working with Leadership, the Senate Committee on Rules and 
Administration and the Executive Offices of the Sergeant at Arms and 
Secretary of the Senate, the Office of Education and Training assisted 
in coordinating orientation sessions for the new Senators and their 
staff.
State Training
    Since most of the classes that are offered are only practical for 
D.C.-based staff, the Office of Education and Training continues to 
offer the ``State Training Fair'' which began in March 2000. In 2009, 
three sessions of this program were attended by 171 state staff. Fifty-
eight state administrative managers and directors attended the State 
Directors Forum, while 55 state staff attended a Constituent Services 
Forum.
    In addition to classroom based learning, the ``Virtual Classroom,'' 
which is an Internet-based training library of 3,000+ courses, is 
available to Senate staff. To date, 350 state office and Washington, DC 
staff have registered and accessed a total of 1,142 different lessons 
and publications using this training option. Additionally, the office 
offered 24 video teleconferencing classes, which were attended by over 
624 state staff. Education and Training also provides 51 Senate-
specific self-paced lessons that have been accessed by an estimated 
1,000 staff.
                               gift shop
    Since its establishment in 1992 (2 U.S.C. 121d), the Senate Gift 
Shop has continued to provide outstanding service and products that 
maintain the integrity of the Senate while increasing the public's 
awareness of its mission and history. The Gift Shop serves Senators, 
their spouses, staffs, constituents, and the many visitors to the U.S. 
Capitol complex.
    The products available include a wide range of fine gift items, 
collectables, and souvenirs created exclusively for the U.S. Senate.
Facilities
    In addition to three physical locations, the Gift Shop has an 
online presence on Webster, the Senate's Intranet. The Web site 
currently offers an increasing selection of products that can be 
purchased by phone, e-mail, or by printing and faxing the order form 
provided on the site. Along with offering over-the-counter sales, walk-
in sales and limited intranet services, the Gift Shop Administrative 
Office provides mail order service via phone or fax and special order 
and catalogue sales via in person visit, e-mail, phone or fax.
    The Gift Shop maintains two warehouse facilities. The bulk of the 
Gift Shop's stock is held in the Senate Storage Facility (SSF), an 
offsite warehouse. While the Senate Sergeant at Arms (SAA) is in charge 
of the overall management of the SSF, the Director of the Gift Shop has 
responsibility for the operation and oversight of the interior spaces 
assigned for Gift Shop use. Storing inventory in this centralized, 
climate-controlled facility provides protection for the Gift Shop's 
valuable inventory in terms of physical security as well as improved 
shelf life for perishable and non-perishable items alike.
    The second Gift Shop warehouse is maintained in the Hart Building. 
This facility serves as the point of distribution to the Gift Shop 
store and the Capitol Gift Shop counter, both of which have limited 
storage space. The Hart warehouse accommodates the Gift Shop's 
receiving, shipping, and engraving departments, and also supplies the 
inventory sold through the administrative and special order office.
Sales Activities
    Sales recorded for fiscal year 2009 were $1,694,967.39. Cost of 
goods sold during this same period was $1,278,890.29, accounting for a 
gross profit on sales of $416,077.10.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2009, the balance in the revolving fund was 
$2,782,416.14. The inventory purchased for resale was valued at 
$2,904,681.69.
Additional Activity
    The Gift Shop participated in the 2009 U. S. Senate Environmental 
and Energy Fair sponsored by the Architect of the Capitol (AOC). 
Environmentally friendly products that were displayed included wooden 
flag and desk boxes, wooden pens, custom designed wrapping paper 
produced from recycled paper, biodegradable travel mugs and a travel 
mug produced from 100 percent U.S. natural corn products.
    In addition, the AOC installed energy efficient lighting in the 
Dirksen store. The lights in both the ceiling fixtures and product 
showcases were switched over to ``LED'' style bulbs.
Select Accomplishments in Fiscal Year 2009
            Official Congressional Holiday Ornaments
    This year marked the 16th year of the Congressional Holiday 
ornament. Each ornament in the 2006-2009 series of unique collectables 
depicts an image celebrating the day-to-day activities taking place on 
the Capitol grounds. The four images of the series are based on 
original oil paintings commissioned by the Gift Shop.
    Sales of the 2009 holiday ornament exceeded 29,000 ornaments, of 
which more than 5,606 were personalized with engravings designed, 
proofed, and etched by Gift Shop staff. This highly successful effort 
was made possible by the combined efforts of our administrative, 
engraving, and store staff members.
            Webster Intranet Site
    The Gift Shop Web site was completely redesigned this year to 
improve readability and to provide a more intuitive shopping 
experience. The Web site continues to expand with the addition of new 
merchandise which is professionally photographed by the Senate 
Photography Studio. Product descriptions are written inhouse.
    The Gift Shop staff contributes an article to each issue of the 
Secretary's UNUM newsletter highlighting Gift Shop products. In turn, 
the Web site links to the electronic version of the UNUM. This practice 
has increased traffic to the site and may be responsible for an 
increase in the use of the Gift Shop services by state offices.
Projects Recently Produced and New Initiatives for 2010
            Bookmarks
    Bookmarks depicting the art and architecture of the Old Senate 
Chamber, Old Supreme Court Chamber and Ohio Clock were introduced in 
2009. These historically significant bookmarks are fabricated in gold 
plated metal and are embellished in enameled colors closely resembling 
the authentic elements of each featured subject. The individual 
packaging contains text highlighting the significant, historical and 
architectural features of each bookmark.
            Capitol Visitor Center
    The Gift Shop provided the Capitol Visitor Center gift shops with a 
wide variety of inventory, offered service when needed, and guided the 
stores' management through the purchase order and invoice process. The 
Gift Shops plans to continue providing the CVC with products that have 
proven to be popular with their clientele.
            Congressional Plate Series
    The release of the 111th Congressional Plate in 2009 completes the 
most recent four-plate Congressional series. Plans and specific designs 
for a new 8 year, four-plate series of the 112th, 113th, 114th and 
115th Congress are well under way. This new series will once again be 
designed and produced by Tiffany and Company. The designs for the new 
series will depict art and architecture from four of the most 
historically significant rooms in the Capitol. The spaces include the 
Senate Appropriations Room, Old Senate Chamber, Old Supreme Court 
Chamber and President's Room.
            Wilton Armetale
    As a complement to the original metal service pieces created with 
Wilton Armetale Company of Columbia, Pennsylvania, the Gift Shop has 
added a new four compartment tray. This piece, as well as the rest of 
the set, is decorated with the ``Brumidi Rinceau'' pattern replicating 
the borders of a series of vignettes decorating the ceiling of the 
Capitol's North Brumidi Corridor.
            Russell Building ``Centennial'' Product
    In conjunction with the Centennial Commemoration of the Russell 
Senate Office Building, several new products with unique designs were 
introduced. Ties depicting architectural shapes found in the lattice 
and rosette patterns throughout the building, as well as a scarf 
depicting the elegance of the sophisticated Beaux-arts style designs 
have been introduced. The ties and scarf, both of which are 100 percent 
silk, are exclusive to the United States Senate. In addition to the 
ties and scarf, a series of small magnets and photo note cards were 
produced, both containing images highlighting some of the more unique 
interior and exterior design elements of the building.
            President's Room Oblong Scarf and LBJ Room Square Scarf
    Working with Echo Design Company of New Jersey, two new scarves 
depicting art of the President's Room and LBJ Room were completed and 
delivered. The President's Room scarf is an oblong shape and is adorned 
with a fresco image detailing one of the many paneled walls of the 
room. The LBJ scarf is square and depicts the entire ceiling fresco as 
well as the unique architectural shape of the curved ceiling.
            Senate Donkey and Elephant Ties
    New Senate ties depicting whimsical donkey and elephant images were 
designed and produced just in time for the 2009 holiday sales season. 
The packaging includes a brief brochure which provides information 
regarding the origins of the political donkey and elephant images.
            Musical Jewel Box
    The Gift Shop worked with the Splendid Music Box Company of New 
York in 2009 to create a beautiful Senate music box depicting a highly 
detailed image of the Capitol West Laylight. The laylight, designed by 
the Philadelphia architect Thomas U. Walter, is located in the ceiling 
of the grand staircase in the Senate wing of the Capitol. Designs for a 
second, smaller box are in developmental stages and should be completed 
sometime in 2010. The smaller box will depict a historical cutaway 
architectural drawing of the Capitol.
            Stemware
    New designs of stemware etched with the were incorporated into our 
crystal line in 2009. The three styles of glasses are unique and 
environmentally friendly, as they are produced lead free and have 
shatter-resistant properties.
            Hand Towels
    Working with Creative Arts Company of Idaho, the staff produced 
high quality paper hand towels depicting images from the Brumidi art in 
the Capitol. The towels are packaged in quantities of sixteen and 
depict six panels of beautifully reproduced butterfly or bird frescos 
that are part of the Brumidi corridors on the Senate side of the 
Capitol.
            Additional Products and Projects
    Additional products that were either worked on or delivered in 2009 
include new porcelain trays, night lights with Brumidi fresco designed 
shades, table linens and napkins with Capitol art, two styles of Minton 
tile boarder mirrors, children's activity books, puzzles for children 
depicting images from the frieze of the Capitol, two new Tiffany 
scarves, and a pocket map of the Capitol complex.
                           historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The Office staff advises Senators, officers, 
and committees on cost-effective disposition of their non-current 
office files and assists researchers in identifying Senate-related 
source materials. The historians keep extensive biographical, 
bibliographical, photographic, and archival information on the more 
than 1,900 former and current Senators. The staff edits for publication 
historically significant transcripts and minutes of selected Senate 
committees and party organizations, and conducts oral history 
interviews with key Senate staff. The photo historian maintains a 
collection of approximately 40,000 still pictures that includes 
photographs and illustrations of Senate committees and nearly all 
former Senators. The Office staff develops and maintains all historical 
material on the Senate Web site, Senate.gov.
Editorial Projects
            Revised Senate Chamber Brochure
    The Historical Office staff revised and redesigned the guide that 
is given to visitors to the Senate Chamber. Previously, the booklet was 
published each Congress and included the seating chart and committee 
rosters, which increasingly resulted in publication delays. The seating 
chart and committee rosters were removed, making the 16-page brochure a 
timeless publication that can be distributed throughout each Congress. 
The text has been updated, with new images added, including a labeled 
photograph of the Senate floor that identifies the floor leaders, 
officers, and staff at the dais. This effort will result in significant 
savings, since print runs can be larger, at a lower price per copy, and 
copies will no longer need to be discarded at the end of each Congress.
            ``Documentary Histories of the U.S. Senate''
    In 2009, the Historical Office developed a new online documentary 
history series that would include case studies and primary-source 
documentation for all contested Senate elections, censure and expulsion 
cases, impeachment trials, and major investigations. Intended for use 
within the Senate and by the general public, these documentary 
histories will be particularly valuable for teachers who seek to 
include primary-source documents in their lesson plans. This project 
also allows the Historical Office to update case studies of past 
events, and to add new case studies as needed, eliminating the need for 
new print editions of past publications, reducing costs and paper use. 
Three parts of this five-stage project have been completed.
            ``States in the Senate''
    In this collaborative project, staff historians have created 
timelines and compiled selected illustrative images for each of the 
fifty states. The ``States in the Senate'' will highlight persons and 
events in the state's history that relate to the U.S. Senate to be 
featured on Senate.gov, which informs senators, staff, and constituents 
alike. A Web design for the project has been created that will provide 
an interactive timeline for each state, with links to relevant 
documentary and visual material.
            Joint Congressional Committee on Inaugural Ceremonies
    The Historical Office staff assisted the Joint Congressional 
Committee on Inaugural Ceremonies (JCCIC) in preparation of printed 
materials, including the platform program, luncheon program, and the 
commemorative edition of Inaugural Addresses of the Presidents of the 
United States, for the presidential inauguration on January 20, 2009. 
Historical Office staff researched precedents and compiled historical 
data on previous inaugurations in response to queries by the JCCIC, the 
media, and the public.
            Administrative History of the Senate
    The associate historian continued to prepare a historical account 
of the Senate's administrative evolution since 1789. This study traces 
the development of the offices of the Secretary of the Senate and 
Sergeant at Arms, considers 19th- and 20th-century reforms that 
resulted in reorganization and professionalization of Senate staff, and 
looks at how the Senate's administrative structure has grown and 
diversified.
            Rules of the United States Senate, Since 1789
    In 1980, Senate parliamentarian emeritus Floyd M. Riddick, at the 
direction of the Senate Committee on Rules and Administration, prepared 
a publication containing the eight codes of rules that the Senate 
adopted between 1789 and 1979. In the 1990s, the Senate Historical 
Office staff, in consultation with Dr. Riddick, developed a project to 
incorporate an important feature not contained in the 1980 publication. 
Beyond simply listing the eight codes of rules, the Office's goal is to 
show how--and why--the Senate's current rules have evolved from earlier 
versions. The Senate's historian emeritus has continued work on this 
project, which will contain eight narrative chapters outlining key 
debates and reasons for significant changes. Appendices will include 
the original text of all standing rules and, for the first time in one 
publication, all changes adopted between each codification.
            Biographical Directory of the U.S. Congress, 1774-present
    Since publication of the 2005 print edition of The Biographical 
Directory of the United States Congress, the Historical Office has 
added new biographical sketches and bibliographical citations that 
incorporate recent scholarship to the online database (http://
bioguide.congress.gov). The associate historian and historical writer 
continue to work closely with the staff of the House of Representatives 
Office of History and Preservation to maintain accuracy and consistency 
in this joint Senate-House database, and to promote this valuable 
resource among historians, teachers, students and the public. Senate 
and House historians and technical staff for the House of 
Representatives have cooperated in an ongoing effort to update the 
online site in appearance and functionality. Over the past year, the 
Historical Office also began selecting printed obituaries for 19th-
century Senators for inclusion in their online profile.
            Party Conference Minutes, 1965-1977
    In 1998 and 1999 the Historical Office staff edited, indexed, and 
published the Minutes of the Senate Democratic and Republican 
Conferences covering the years prior to 1964. The Historical Office is 
currently preparing a similar volume for the Democratic Conference 
including its minutes from 1965 to 1977. After January 1973, verbatim 
transcripts were prepared for each Conference meeting, considerably 
enlarging the documentation. This project has involved scanning and 
editing 2,869 pages of transcripts for 102 meetings of the Conference 
and inclusion of explanatory annotations. With the approval of the 
Conference, the minutes will be published, and a similar editorial 
project will be proposed for the Republican Conference minutes for this 
time period.
            Everett Dirksen and the Dirksen Senate Office Building 
                    Exhibits
    The remodeling of the auditorium in the Dirksen Senate Office 
Building into a hearing room also created two large exhibit cases at 
its entrance. Working with the staff of the Senate Curator and the 
Senate Library, the Historical Office has been preparing exhibits on 
the life and career of Senator Everett M. Dirksen, Senate Republican 
leader from 1959 to 1969, and on the design and functioning of the 
office building named in his memory.
Oral History Program
    The Historical Office staff conducts a series of oral history 
interviews to record personal recollections of various Senate careers. 
Interviews were conducted with former Senator Charles McCurdy ``Mac'' 
Mathias (R-Maryland); Charles Ferris, former director of the Senate 
Democratic Policy Committee; two former Democratic secretaries, Martin 
Parone and Robert G. Baker; and W. Lee Rawls, the former staff director 
to Senators Pete Domenici and Bill Frist. The office has also continued 
to seek and conduct interviews with current and former Senate spouses, 
and expanded on its collection of interviews highlighting the role of 
women on Capitol Hill. The complete transcripts of 30 interviews 
conducted since the 1970s have been posted on Senate.gov. Each month, 
that site features a different oral history interview series, including 
digital audio-clips along with the interview transcripts. The 
Historical Office has worked with the National Archives to digitize 
past oral history interviews, which had been archived on magnetic tape, 
for preservation purposes. Digitization also allows for inclusion of 
short audio segments on Senate.gov. For Unum, the Secretary of the 
Senate's newsletter, the staff has created a regular series entitled 
``Senate Voices,'' which includes excerpts from the oral histories with 
a contextual introduction.
Member Services
            Educational Outreach: ``Senate Historical Minutes''
    The historian and associate historian deliver a series of ``Senate 
Historical Minutes'' at the weekly Democratic and Republican Conference 
luncheons. These ``minutes'' highlight significant events and 
personalities associated with the Senate's institutional development. 
Many of them are now included on Senate.gov as ``Historical Minute 
Essays.''
            Members' Records Management and Disposition Assistance
    The Senate archivist assisted members' offices with planning for 
the preservation of their permanently valuable records, stressing the 
importance of managing electronic records and eventually transferring 
valuable records to a home-state repository with a digital asset 
management system. Special attention was devoted to ensuring the 
preservation of the entire collections of Senators Barack Obama and 
Joseph Biden and overseeing the completion of comprehensive inventories 
because the collections were being stored at the National Archives 
Center for Legislative Archives. The archivist also worked closely with 
the National Archives and the Sergeant at Arms to ensure complete 
archiving of Vice President Richard Cheney's office.
    Senator Edward M. Kennedy's death brought challenges for ensuring 
that his personal office records and committee records were archived in 
the proper places. The archivist revised the Handbook for Closing a 
Senator's Office and met with personal office and committee staff to 
meet these needs. As a result of particularly close work with the 
Biden, Cheney, Clinton, and Obama offices, the archivist perceived a 
need for enhanced education of all office staff with regard to managing 
and archiving their electronic records. To meet this need, the office 
staff developed archiving ``Quick Cards'' that are available on the 
Secretary's Webster site. The three basic cards include ``Is it a 
Historical Record?'' (a series of questions that train staff on how to 
recognize a historical record) and two related cards, ``Archiving 
Electronic Records'' and ``Archiving Paper Records.'' These cards 
promote best practices at all staff levels.
    To meet the electronic records management challenges as offices 
transition to all electronic recordkeeping, the archivist worked with 
the Sergeant at Arms staff to have ``V'' drives established in all new 
Senate offices and made available on request for older offices. These 
drives are for placement of electronic records that have been tagged 
for the archives.
    Brown-bag lunch discussions continued with one focusing on the 
topic: ``What Can an Archivist Do for You?'' Material gathered for this 
session was used to create a PowerPoint presentation aimed at 
persuading offices to either hire an archivist or train a staffer to 
perform the duties of an archivist. Archivists increase Senate office 
efficiency and ensure that staff members have the information they need 
when they need it, and are key to preserving electronic records since 
they are able to arrange, describe and document electronic records for 
the long term.
    The Archivists Listserv has been used effectively for training and 
information updates about matters of records management and historical 
interest. A video seminar, first created in 2008, was re-worked and 
made available to members' state offices. The Senate archivist 
continued to work with staff from all repositories receiving senatorial 
collections to ensure the adequacy of documentation and the transfer of 
appropriate records with adequate finding aids. The archivist created a 
special in-depth records management seminar for Senate offices for the 
Modern Archives Institute, which is now available for Senate staff on 
demand.
            Committee Records Management and Disposition Assistance
    The Senate archivist provided each Senate committee with staff 
briefings, record surveys, guidance on preservation of information in 
electronic systems, and instructions for the transfer of permanently 
valuable records to the National Archives' Center for Legislative 
Archives. The archivist surveyed all committee chief clerks and systems 
administrators to ascertain the status of their electronic archiving, 
and discovered that many committees have voluminous electronic record 
backlogs requiring review for archiving. These backlogs fall into three 
categories: files of committee staff who have departed the committee; 
files of share drives, some going back for many years; and 
accumulations of e-mail. She distributed information on best practices 
for managing electronic records and encouraged committee chief clerks, 
systems administrators, staff directors, and chief counsels to consider 
hiring archivists to focus on electronic archiving. As a result, three 
committees each hired an archivist. The Senate archivist oversaw the 
transfer to the Archives of 691 accessions of Senate records totaling 
3,350.5 cubic feet of textual records and 7.2 terabytes of electronic 
records. The archivist has noticed a growing gap between the 
documentary quality of records being archived from committees with 
archivists and those without archivists.
    To further assist committee clerks with their responsibilities for 
maintaining committee records, the archivist devised three basic Quick 
Cards similar to those for members' staff. These cards supplement the 
Guidelines for Committee Staff pamphlet that is updated annually. The 
cards went to all staff directors, chief clerks, and systems 
administrators, with a request that they be distributed to all staff. A 
records-preservation PowerPoint briefing was also distributed to all 
staff directors and chief clerks and is available on the Secretary's 
Webster site. While this material has helped communicate the importance 
of record keeping to committee staff, it does not replace the 
effectiveness of a trained archivist being added to the staff to focus 
on archiving electronic records and adequacy of documentation for 
significant legislation. Training sessions were conducted for those 
Senate interns tasked with archiving committee records. The archivist 
and deputy archivist responded to 214 requests for loans of records 
back to committees, totaling nearly 1,544 boxes.
    A project is underway to scan committee record transfer sheets to 
the National Archives, dating from 1982 through 2004, into the OnBase 
document management system supported by the Sergeant at Arms. To date, 
records of the Committees on Agriculture, Appropriations, Armed 
Services, Banking, Budget, Energy, Environment and Public Works, 
Finance, Foreign Relations, HELP, Homeland Security, and Judiciary have 
been processed. The Center for Legislative Archives has received this 
information on CD-ROM both as a security measure and to enhance future 
researcher access to the records as they become open for research. The 
archivist and deputy archivist have participated in the task force 
established by the Advisory Committee on the Records of Congress to 
develop criteria to improve the finding aids for the Senate's archival 
records. They have commenced work on improving the level of description 
of records that committees send to the archives and devising an 
electronic form to help standardize this data.
Advisory Committee on the Records of Congress
    This eleven-member permanent committee, established in 1990 by 
Public Law 101-509, meets semiannually to advise the Senate, the House 
of Representatives, and the Archivist of the United States on the 
management and preservation of the records of Congress. Its membership 
representing the Senate includes the Secretary of the Senate, who 
chaired the panel during the 110th Congress; the Senate historian; and 
appointees of the secretary and the majority and minority leaders. The 
Historical Office furnishes support services for the advisory 
committee's regular meetings.
Educational Outreach
    The Historical Office's correspondence with the general public has 
increasingly taken place through Senate.gov. The historians maintain 
and frequently update the Web site with timely reference and historical 
information, and each month select related material to be featured on 
the site. In 2009, the Office responded to more than 1,200 inquiries 
from the public, the news media, students, family genealogists, 
congressional staffers, and academics, through the public e-mail 
address listed on Senate.gov. The diverse nature of their questions 
reflected varying levels of interest in Senate operations, 
institutional history, and former members. Research assistance from the 
Historical Office was enhanced by the comprehensive scanning of the 
Office subject files into the OnBase document management system, 
allowing staff to search the full text of these files electronically.
    Working with the Web team, the historians have added to Senate.gov 
such items as fourteen featured biographies; four front-page features 
on the Constitution, Photographs of Senate Life, the Russell Building 
Centennial, and the 150th Anniversary of the Senate Chamber; a special 
feature commemorating the 40th anniversary of the first moon walk; and 
added transcripts of four oral history interviews and digital audio 
clips for six interviews.
    The historians also met with the Senate webmaster to plan a new 
feature for Senate.gov, ``Learn about the Senate.'' This feature is 
specifically being designed to serve the educational needs of teachers 
and students at various grade levels. A reference page has been 
developed, using a list of frequently-asked questions to guide visitors 
to relevant information already available on the site.
    Staff presented seminars on the general history of the Senate, 
Senate committees, women Senators, Senate floor leadership, relations 
between the press and the Senate, and the U.S. Constitution. The 
historians also participated in Senate staff seminars and members' 
office retreats, and conducted dozens of briefings for specially 
scheduled groups. The associate historian participated in the Dirksen 
Congressional Center's annual ``Congress in the Classroom'' conference, 
where she presented the ``Ten Top Questions to Ask Students about the 
Senate,'' and collaborated with secondary school teachers from nearly 
every state in coordinating classroom activities to promote a better 
understanding of Congress.
Photographic Collections
    The Senate photo historian continued to ensure history-focused 
photographic coverage of the contemporary Senate by photographing 
Senate committees, collecting formal photo portraits of new Senators, 
and capturing significant Senate events in cooperation with the Senate 
Photographic Studio. She continued to provide timely photographic 
reference service by phone and e-mail, while cataloging, digitizing, 
relocating, and expanding the Office's 40,000-item image collection. As 
a member of the Russell Building Centennial committee, the photo 
historian was actively involved in the events surrounding the 
centennial of the building in March, working with the Government 
Printing Office to design and print tent cards and bookmarks for the 
centennial. She collaborated with the historical editor to redesign and 
publish the new Senate Chamber brochure. The photo historian oversaw 
the move of the entire photograph collection to a larger space mid-
year. In conjunction with this move, she performed increased collection 
maintenance, including creating an inventory of the image collection. 
She completed cataloging the images of hundreds of Senators, collected 
in the early 1900s by John Pappas, which were donated to the Senate, 
and which have now been transferred to the National Archives. She 
assisted more than a dozen Senate offices in creating collages of all 
the Senators who previously served in that seat. She worked with 
Conservation and Preservation and the Senate Curator to replace the 
images in the Arthur Scott photographic exhibit on the third floor of 
the Capitol, provided poster-size enlargements of more than thirty 
historical prints from the collection to the Senate Recording Studio 
for the walls of their new office, and worked with the Senate Press 
Gallery to select images for their walls. The photo historian also 
assisted the Capitol Police in arranging their photographic negatives 
for eventual transfer to the National Archives.
Continuity of Operations (COOP)
    As the Historical Office's COOP Action Officer and Emergency 
Coordinator, the photo historian completed the transfer of the Office's 
COOP plan into the LDRPS system. She created an extensive pandemic plan 
for the Office to ensure the ability of staff to maintain essential 
functions in the event of a pandemic situation and made back-ups of the 
office's vital electronic records to store off-site. She trained new 
staff members in the Office's emergency evacuation procedures.
Capitol Visitor Center
    The historians continued to supply information and guidance to the 
staff of the Capitol Visitor Center (CVC) related to the educational 
component of the exhibition gallery. They have participated in the 
training program for staff-led tours, and provided text and images for 
a new Web-based training program for staff and tour guides. They made 
regular presentations on the history of the Senate in training seminars 
for Senate staff and interns, and gave morning ``briefings'' to the 
Capitol Guide Service. They contributed to the training of visitor 
assistants who guide visitors through the exhibition gallery, worked 
with exhibit staff to plan rotations of documents and images, and 
advised the CVC staff on its educational outreach programs.
                            human resources
    The Office of Human Resources was established in June 1995 by the 
Secretary as a result of the Congressional Accountability Act. The 
office focuses on developing and implementing human resources policies, 
procedures, and programs for the Office of the Secretary of the Senate 
that fulfill the legal requirements of the workplace and complement the 
organization's strategic goals and values.
    These responsibilities include recruiting and staffing; providing 
guidance and advice to managers and staff; training; performance 
management; job analysis; compensation planning, design, and 
administration; leave administration; records management; maintaining 
the employee handbooks and manuals; internal grievance procedures; 
employee relations and services; and organizational planning and 
development.
    The Human Resources staff administers the following programs for 
the Secretary's employees: the Public Transportation Subsidy program, 
Student Loan Repayment Program, FMLA program, parking allocations, and 
the summer intern program that offers college and other post-graduate 
students the opportunity to gain valuable skills and experience in a 
variety of Senate support offices. Human Resources staff has completed 
migration of eligible commuters to the Smart Benefits Program, which is 
operated by the Washington Metropolitan Area Transit Authority.
Recruitment and Retention of Staff
    Human Resources staff have the ongoing task of advertising new 
vacancies or positions, screening applicants, interviewing candidates, 
and assisting with all phases of the hiring process. Human Resources 
staff coordinate with the Sergeant at Arms (SAA) Human Resources 
Department to post all SAA and Secretary vacancies on the Senate 
intranet, Webster, so that the larger Senate community may access the 
posting from their own offices. In an effort to reach a larger and more 
diverse applicant pool, the department uses multiple posting forums to 
reach potential applicants for employment. As a result, the Human 
Resources Department processed more than 4,000 applications for 
vacancies in the Secretary's Office, including review of applications, 
coordinating scheduling of candidates for interview, sending out 
notices to both successful and unsuccessful candidates, and finalizing 
new hire paperwork. All new hires also receive orientation from the 
Human Resources staff when they come on board.
Training
    In conjunction with the Senate Chief Counsel for Employment, staff 
continue to develop and deliver training for department heads and 
staff. Training topics include sexual harassment, interviewing skills, 
Family Medical Leave Act administration, and an overview of the 
Congressional Accountability Act. Human Resources staff also works with 
different department employees on topics specific to their group in 
outreach efforts to enhance teamwork in the workplace.
Interns and Fellows
    Human Resources staff manage the Secretary's internship program. 
From posting vacancies, conducting needs analyses, communicating, 
screening, placing and following up with all interns, the staff keeps a 
close connection with these program participants in an effort to make 
the internship most beneficial to them and the organization.
Combined Federal Campaign
    The office has again taken an active role in the Combined Federal 
Campaign (CFC) for the Senate community at-large. The office staff 
serve as co-directors of the program. The staff participates in kick-
off meetings, identifies key workers in each office, and disseminates 
and collects necessary information and paperwork.
                      interparliamentary services
    The Office of Interparliamentary Services (IPS) has completed its 
28th year of operation as a department of the Secretary of the Senate. 
IPS staff is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and/or Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences are:
  --NATO Parliamentary Assembly;
  --Mexico-United States Interparliamentary Group;
  --Canada-United States Interparliamentary Group;
  --British-American Interparliamentary Group;
  --United States-Russia Interparliamentary Group;
  --United States-China Interparliamentary Group; and
  --United States-Japan Interparliamentary Group.
    In May, the 50th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in Canada. In June, the 48th Annual 
Meeting of the Mexico-U.S. Interparliamentary Group was held in 
Seattle, Washington. In September, the British-American Parliamentary 
Group was held in the United Kingdom. The U.S.-China Interparliamentary 
Group also met in China. IPS staff handled arrangements for these 
events.
    As in previous years, all foreign travel authorized by the Majority 
and Minority Leaders is arranged by the IPS staff. In addition to 
delegation trips, IPS provided assistance to individual Senators and 
staff traveling overseas. Senators and staff authorized by committees 
for foreign travel continue to call upon this office for assistance 
with passports, visas, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader and 
the Minority Leader, IPS assists staff members of Senators and 
committees in filling out the required reports.
    IPS maintains regular contact with the Department of State and 
foreign Embassy officials. The office staff frequently organizes visits 
for official foreign visitors and assists them in setting up meetings 
with leadership offices. The staff continues to work closely with other 
offices of the Secretary of the Senate and the Sergeant at Arms in 
arranging programs for foreign visitors. In addition, IPS is frequently 
consulted by individual Senators' staffs on a broad range of protocol 
questions. Occasionally state officials or the general public contact 
IPS regarding Congressional protocol.
    On behalf of the Majority and Minority Leaders, the staff arranges 
receptions in the Senate for heads of state, heads of government, heads 
of parliaments, and parliamentary delegations. Required records of 
expenditures on behalf of foreign visitors under authority of Public 
Law 100-71 are maintained in IPS.
            Continuity of Operations (COOP) Planning
    The Office of Interparliamentary Services created a Pandemic 
Preparedness Plan this year and continues to fine tune its continuity 
of operations plan each year.
              legislative information system (lis) project
    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.
Background: LISAP
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information. Following the implementation of the 
Legislative Information System (LIS) in January 2000, the LIS Project 
Office shifted its focus to the data standards program and established 
the LIS Augmentation Project (LISAP). The over-arching goal of the 
LISAP is to provide a Senate-wide implementation and transition to XML 
for the authoring and exchange of legislative documents.
    The current focus for the LISAP is the continued development and 
implementation of the XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC), the 
Office of the Enrolling Clerk, the Committee on Appropriations, and the 
Government Printing Office (GPO). The XML authoring application is 
called LEXA, an acronym for the Legislative Editing in XML Application. 
LEXA replaces the DOS-based XyWrite software used by drafters to embed 
locator codes into legislative documents for printing. The XML tags 
inserted by LEXA provide more information about the document and can be 
used for printing, searching, and displaying a document. LEXA features 
many automated functions that provide a more efficient and consistent 
document authoring process. The LIS Project Office has worked very 
closely with the SLC, the Enrolling Clerk, and the editorial and 
printing staff of the Committee on Appropriations to create an 
application that meets the needs for legislative drafting.
LISAP: 2009
    In early 2009, LIS staff trained the editorial and printing staff 
of the Appropriations Committee on using LEXA to produce appropriations 
bills in XML. The two groups also worked with House and GPO staff to 
convert prior year appropriation bills and text from the Budget 
Appendix to XML to be used as the basis for the 2010 fiscal year bills. 
The Committee staff provided feedback on their production requirements, 
and the LIS staff added or altered features in LEXA to make the 
drafting process faster, more efficient, and more consistent. By the 
end of the year, all thirteen Senate Appropriations bills, amendments, 
and conference report documents had been prepared in XML.
    The LIS staff also worked with staff from GPO and the Committee on 
Armed Services to prepare and include military data and information in 
XML tables in the National Defense Authorization bill. The data was 
prepared in Excel spreadsheets by the Committee, and GPO staff imported 
the data into LEXA into XML table structures so that the tables could 
be printed as part of the introduced and engrossed versions of the 
Senate bill. The House Committee was able to use many of the tables and 
the same processes to produce the tables in the enrolled bill.
    The LIS Project Office continued to provide support to the Senate 
Enrolling Clerks and the Senate Legislative Counsel in their use of 
LEXA for drafting. Several new features and fixes were added in LEXA 
releases to improve the process, including upgrading the underlying 
software, Xmetal, for the customized LEXA application. Xmetal 5.5 is a 
Vista-compatible version of the software, and the upgrade project 
required extensive testing of LEXA on both an XP platform and a Vista 
platform. GPO testers assisted with the testing.
    The XML versions of Senate measures were made available on LIS and 
Thomas starting with the 111th Congress. The HTML version produced from 
the XML data more closely resembles the printed document. This improved 
HTML format will eventually replace the HTML version currently 
available on the Web.
    LIS staff also worked on internal projects to make the office more 
efficient. These included implementing new defect tracking software 
called OnTime. This software provides a means to collect defects and 
new feature requests, record help call incidents, and manage releases. 
The staff also worked on developing a Sharepoint repository to organize 
documentation, requirements documents, test cases, and test documents.
LISAP: 2010
    The LIS Project Office staff will continue to work with and support 
all the offices now using LEXA to produce legislative documents. 
Enhancements to LEXA make the process more efficient and consistent so 
that most all of the legislative measures produced by those offices 
will be created as XML documents.
    The LIS Project Office staff will continue to work with the House, 
GPO, and the Library of Congress on projects and issues that impact the 
legislative process and data standards for exchange. These groups are 
currently participating in two projects with GPO--one to define 
requirements for replacing the Microcomp composition software and 
another to improve the content submission and exchange processes. The 
staff will work with the SLC and their House counterpart office to 
implement new functionality for maintaining and printing the 
compilations of existing law in XML. A Windows 7 version of Xmetal will 
be available in the second quarter, and the LIS Project Office will 
build and test all LEXA functions on this platform in anticipation of 
offices moving to a Windows 7 operating system in the future.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and re-verified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary document type definitions have been designed for these 
documents, and applications could be built to construct XML document 
components by extracting and tagging the LIS/DMS data. These 
applications would provide a faster, more consistent assembly of these 
documents and would enhance the ability to index and search their 
contents. The LIS Project Office staff will coordinate with the Systems 
Development Services Branch of the Office of the Sergeant at Arms to 
begin design and development of XML applications and interfaces for the 
LIS/DMS and legislative documents. As more and more legislative data 
and documents are provided in XML formats that use common elements 
across all document types, the Library of Congress will be able to 
expand the LIS Retrieval System to provide more content-specific 
searches.
                                library
    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The Library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; a popular collection of audio books; 
and a wide array of online resources. The Library also authors content 
for three Web sites--LIS.gov; Senate.gov, the Senate's public Web site; 
and Webster, the Senate's intranet.
    Management transition of the Senate Information Services program 
from the Senate Sergeant at Arms (SAA) to the Library continued as the 
Library designed and conducted an online survey of the Senate user 
community in November 2009. The survey of Senators' state and 
Washington, DC offices, Senate committees, and support offices 
requested feedback about current program offerings and training, and 
sought suggestions for change. Analysis of the results will form the 
basis for further program content review.
    The Library's creation of new Web-based content, advanced and fine-
tuned online resources, expanded outreach and training opportunities, 
and use of technology to support alternative means for information 
delivery continue to meet the Senate's increasing demand for 
information.
Notable Achievements
    The Senate Library increased its service statistics in 2009, 
serving every member and committee office. Including Web-based 
inquiries, there was an 8 percent increase from 2008.
    Two new tables were added to the Library's Virtual Reference Desk 
on Senate.gov, Senate Action on Cloture Motions and Summary of Bills 
Vetoed, 1789-present. This table is also published on Webster.
    All printed House hearings in the Library's collection are 
completely searchable in the Library catalog. This retrospective 
project has taken 26 years to complete and is a testament to the hard 
work and dedication of Senate Library catalogers.
    Four informational display cases, a special issue of Unum, 
bookmarks, and restaurant table cards were created to mark the Russell 
Senate Office Building centennial in March.
    Design and implementation of a new online book request form in the 
Library catalog and increased exposure of online book lists resulted in 
a 47 percent increase in online book requests over 2008 levels.
    Focus on new and more frequent Library instructional classes 
resulted in a 48 percent increase in Library instructional offerings in 
2009.
    An emphasis on careful negotiation or renegotiation of vendor 
contracts and purchases has already saved over $55,831 in database 
expenses over the next 4 years.
Senate Library Inquiries and Online Book Requests
    The rise in electronic requests for materials, the availability of 
new and enhanced electronic database offerings, and the expanded 
availability of resources on the Web combined with efficient content 
management have dramatically increased the demand for Library 
resources. Inquiries for 2009 increased 8 percent from 2008.

                                            SENATE LIBRARY INQUIRIES
----------------------------------------------------------------------------------------------------------------
                                                            Web Page Visits                          Change From
                                                ---------------------------------------               Prior Year
               Year                 Traditional                                            Total         (in
                                                   Webster        LIS       Senate.gov                 percent)
----------------------------------------------------------------------------------------------------------------
2009..............................       27,318       70,461       21,092    2,612,897    2,731,768           +8
2008..............................       27,283       51,048       29,468    2,429,380    2,537,179          +67
2007..............................       26,309       65,793       32,121    1,392,947    1,517,170          -10
2006..............................       31,032       80,375       20,156    1,561,138    1,692,701          +88
2005..............................       33,080       57,608       26,775      782,588      900,051          +42
2004..............................       33,750      ( \1\ )       20,749      581,487      635,986          +61
2003..............................       46,234      ( \1\ )       18,871      329,327      394,432     \2\ +751
2002..............................       40,359      ( \1\ )        6,009      ( \1\ )       46,368      ( \3\ )
----------------------------------------------------------------------------------------------------------------
\1\ Not available.
\2\ Web inquiry statistics, first available in 2003, increased the total from the previous year by 751 percent.
\3\ Baseline.

    A 47 percent increase in online book requests for 2009 can be 
attributed not only to the continued popularity of audio books, but 
also because the Library links the online bibliographies for audio 
books, new books, and travel books to the catalog and the online 
request form.
Senate Library Content Creation
    Two new tables were added in July to the Virtual Reference Desk on 
Senate.gov. Summary of Bills Vetoed, 1789-present lists the President, 
coinciding Congresses, type of veto, the total number of vetoes, and 
whether a veto was overridden by Congress. The table is also published 
on Webster. Senate Action on Cloture Motions lists the Congress, 
coinciding years, motions filed, votes on cloture, and the number of 
times cloture was invoked for all cloture motions since the 66th 
Congress (1919-1920).
Senate Knowledge Base
    Projects to publish authoritative, standardized Senate data sources 
for multipurpose use continue to be a Library priority, ensuring 
accurate and timely dissemination of Senate information. The Senate 
knowledge base is an institutional repository for data to support these 
projects: the newly modernized Webster site, the Senate Library Webster 
site, and a senator biography database.
            Webster Modernization
    A greatly enhanced version of Webster was launched in September. 
The launch was a culmination of a multi-year collaborative effort of 
Webster's four stakeholders: the Secretary of the Senate, the SAA, the 
Senate Chaplain, and the Committee on Rules and Administration. The 
Senate Library and the Web Technology department represent the 
Secretary on the Webster Advisory Group (WAG), which oversees site 
management.
    Since its debut in 1995, Webster has been the most-visited site for 
Senate staff seeking information about internal operations, support 
services, and employee benefits. The large-scale redesign initiative, 
launched by the WAG last fall, was intended to help staff easily 
navigate the ever-expanding volume of online information and to locate 
the resources staff need to do their jobs.
    The improved Webster enterprise-level search functionality is 
popular with staff: there were 123,339 searches in 2009. Librarians 
improve search results by analyzing monthly statistics and matching 
popular search terms with topically relevant pages or search engine 
``key matches.'' During 2009, 346 ``key matches'' were established. To 
date, 969 document records and 1,393 term records in the Senate 
knowledge base are supporting the Webster search and taxonomy projects.
    Web page visits for the five taxonomy-based indexes totaled 10,499 
since their deployment in October 2008 as part of the Webster 
modernization project.

                 WEBSTER TAXONOMY USAGE STATISTICS, 2009
------------------------------------------------------------------------
                        Taxonomy                            Page Visits
------------------------------------------------------------------------
Services................................................           1,875
Leadership..............................................             681
Legislative.............................................           1,357
News & Research.........................................             835
About the Senate........................................           1,380
                                                         ---------------
      Total Taxonomy Usage..............................           6,128
------------------------------------------------------------------------

            Senate Library Webster Site
    All existing Web files and images that supported both the Library 
Webster site and the catalog were moved to a content management system 
(CMS) in December with the assistance of the Office of Web Technology. 
The move enhanced the portability of the content and facilitated the 
upgrade of the CMS. CMS-published data is repurposed for Senate.gov, 
further economizing staff time and labor. The Senate Library Webster 
site is a research service and information portal for Senate staff. An 
intra-departmental team has continued to revise and update both the 
design and functionality of the site, improving the computer intern 
account registration pages and the ``Library Class and Seminars'' page. 
New interactive features were added to allow scheduling of online book 
pickups and fillable PDF registration forms for Library computer 
accounts. Work on the site will continue into 2010.
Instruction and Professional Outreach
    The experienced and knowledgeable reference team from Information 
Services also teaches. A renamed class, ``Research Tools on Your 
Desktop,'' joined the Library's instructional offerings, thus targeting 
need. Increasing the number of sessions taught allowed the Librarians 
to teach to smaller groups, increasing interaction and retention.

                      SENATE LIBRARY CLASSES, 2009
------------------------------------------------------------------------
                      Subject                        Students   Classes
------------------------------------------------------------------------
Insider's Guide to Webster........................         25          8
LIS Savvy.........................................        228         39
Research Tips and Tricks..........................         34          8
Research Tools on Your Desktop....................        108         29
Services of the Senate Library and Got Questions          259         33
 Tours............................................
                                                   ---------------------
      Totals......................................        654        117
------------------------------------------------------------------------

    The number of classes taught and the number of sessions taught 
increased by 48 percent in 2009. However, attendance at those classes 
decreased 16 percent, resulting in fewer Senate staff trained in 2009. 
Because the Senate schedule and staff workload affect staff 
availability for training, the Library plans to schedule classes during 
Senate recess periods as well.

                                     SENATE LIBRARY CLASSES BY CALENDAR YEAR
----------------------------------------------------------------------------------------------------------------
                                                                           Change from               Change from
                            Year                               Attendees    Prior Year    Classes     Prior Year
                                                                 Total      (percent)      Total      (percent)
----------------------------------------------------------------------------------------------------------------
2009........................................................          654          -16          117          +48
2008........................................................          782           +2           79          +23
2007........................................................          770          +49           64           +7
2006........................................................          518          +25           60         +114
2005........................................................          416      ( \1\ )           28      ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Baseline.

    The Library also gave tours to Senate groups and to outside library 
professionals. These tours ranged from an introduction to each 
semester's Senate Page School class to hosting librarians from the 
National Library of China and the Law Library Association of Maryland. 
The Library also participated in the Senate Services Fair and in giving 
tours for National Library Week. The Library continued its 
participation in the Federal Library Institute, which introduces 
interested library school graduate students to Federal libraries, 
resources, and career opportunities.
Collection Development
            Audio Books Program
    The Library acquired 44 new audio book titles in 2009. Designed to 
assist users with diverse needs, including those who may be visually 
challenged, as well as to draw patrons into the Library, the program 
remains popular with patrons whose 606 loans were equivalent to 
circulating each item in the collection six times over. An online 
bibliography highlights the collection with links to the catalog and 
the online book request form.
            New Digital Resources
    The Library provides a number of digital resources to the Senate. 
New in 2009, and acquired with negotiation to reduce purchase and 
subscription costs, are the Hein Online Congressional Documents 
Library, the Gale Encyclopedia of Governmental Advisory Organizations, 
and A-Z Maps Online from World Trade Press. The Encyclopedia of 
Governmental Advisory Organizations and A-Z Maps Online are available 
to the Senate community through links on Webster.
    The Library maintains an A-Z journal title index on Webster that 
lists electronic full-text journal titles available to the Senate. The 
Library has continued efforts to customize and refine the database 
content lists and to allow easier access to LexisNexis content, which 
has increased usage by 167 percent from 2008.
            Expansion of Special Collections
    As a participant in the Government Printing Office's (GPO) Federal 
Depository Library Program (FDLP), the Library receives selected 
categories of legislative, executive, and judicial branch publications. 
The Library received 9,683 government publications in 2009. In response 
to the trend of issuing government documents in electronic format, 
2,962 links were added to the Library catalog, bringing the total to 
more than 28,938. The links provide Senate staff desktop access to the 
full text of each document.

                           ACQUISITIONS, 2009
------------------------------------------------------------------------
                        Category                               Total
------------------------------------------------------------------------
Congressional Documents.................................           7,566
Executive Branch Publications...........................           2,117
Books (including Audio and E-books).....................             832
Electronic Links........................................           2,962
                                                         ---------------
      Total Acquisitions................................          13,477
------------------------------------------------------------------------

Legislative Validation
    The Library's Legislative Validation Clerk verifies and edits the 
accuracy and consistency of data and legislative information published 
by Secretary of the Senate staff via the Legislative Information System 
(LIS), the Document Management System (DMS), the Congressional Record, 
Senate.gov, and Webster. The clerk's work also requires the 
verification of selected Congressional Record Index entries (print and 
electronic), and includes comparing electronic entries made by 
legislative staff or data entry clerks from various agencies with the 
printed Congressional Record Index and notifying the offices of 
discrepancies.
    Between January and December 2009, the Legislative Validation Clerk 
submitted 290 corrections.
Cataloging
    The Library's productive cataloging staff draws on years of 
experience to produce and maintain a catalog of more than 208,000 
bibliographic items. During 2009, 6,791 new titles were added to the 
catalog. The catalog is updated nightly to ensure that Senate staff 
will retrieve accurate and current information on Library holdings. The 
addition of nearly 300 book jacket images for the new titles enhanced 
visual appeal and utility.
    All printed House hearings in the Library's collection can now be 
found in the Library catalog. This project, completed in August 2009, 
has taken 26 years to complete and is a testament to the hard work and 
dedication of many present and former staff.
    Catalogers created 816 bibliographic records for Senate hearings 
not yet printed from information in the Congressional Record Daily 
Digest and the combined hearings schedule on Webster. This includes 
field hearings that are not listed in the Daily Digest. These records 
remain in the catalog until the printed hearing is received and 
cataloged.
    A new electronic resources page was added to the catalog home page 
in June with the goal of creating a comprehensive list of resources by 
category. Senate staff increasingly use the Library catalog as an 
information resource, accounting for 6,585 visits in 2009.

                 INFORMATION SERVICE SUPPORT ACTIVITIES
------------------------------------------------------------------------
                        Category                               Total
------------------------------------------------------------------------
Circulation:
    Document Deliveries.................................           4,371
    Item Loans..........................................           3,118
Pages Printed:
    Microform Pages Printed.............................           1,378
    Photocopies.........................................          71,756
                                                         ---------------
      Document Delivery Total...........................          80,623
------------------------------------------------------------------------

Library Automation
    Library staff were provided with additional access to tools to 
facilitate remote access to their e-mail accounts and, where needed, 
secure access to the Senate network. Remote access was successfully 
tested on routine tasks to simulate a continuity of operations event 
and for pandemic flu planning.
    Self-paced online database training was provided to staff working 
on the Senate Knowledge Base through the Office of Education and 
Training. These modules provide an introduction to client software.
Preservation, Binding, and Collection Maintenance
    Technical Services staff and summer interns completed the shifting 
necessary to yield 10 years of growth for book collection shelving 
space in the Russell Senate Office Building. Judicious collection 
management will help to ensure that the Library's collections are 
focused on the needs of the Senate community.
    Technical Services staff continued to participate in book repair 
training sessions led by the director of the Office of Conservation and 
Preservation. Trainees repaired 190 historic volumes, an increase of 24 
percent from 2008, making significant progress in the preservation of 
the Library's bound book collection.
    The Library worked with GPO to secure binding for rare and fragile 
materials. The first shipment of 11 volumes was completed in December 
with excellent results.
Budget
    In addition to the substantial savings in purchasing new databases, 
budget savings from price reductions in 2009 subscriptions totaled 
$55,831 over the next 4 years; and, after 12 years of budget 
monitoring, savings total $136,908. This continual review of purchases 
eliminates materials not meeting the Senate's current information 
needs. This oversight is also critical in offsetting cost increases for 
core materials and for acquiring new materials.
Special Projects
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter, has been produced by 
Senate Library staff since October 1997. It serves as an historical 
record of accomplishments, events, and personnel news in the Office of 
the Secretary of the Senate. The newsletter is distributed throughout 
the Senate. Highlights from the 2009 Unum issues include a special 
issue on the Russell Senate Office Building centennial, covering the 
architecture and history of the building and special publications 
produced by Secretary offices; excerpts of Secretary Nancy Erickson's 
legislative branch appropriations testimony; an article on the 150th 
anniversary of the Senate Chamber that also featured a booklet issued 
by the Historical Office; an article on the Senate's role in the 
presidential inaugural ceremonies; features on the Trent Lott 
Leadership Portrait and the acquisition of a painting of Henry Clay; 
and the continuation of the ``Senate Voices'' series prepared by the 
Historical Office that contains excerpts of oral histories of former 
staffers.
            National Library Week
    The National Library Week events were well attended, with about 100 
people attending the Library's reception. The Library made a special 
effort to invite staff from offices of new Senators. The talk by 
Senator George S. McGovern on his book, Abraham Lincoln, drew a 
standing room only crowd of 85 attendees.
Cooperative Projects
    Working in cooperation with the Senate Historical Office and the 
Curator's office, Library staff completed the digitization of available 
Senate seating charts. The charts are now available on Senate.gov to 
enhance historical information about the Senate Chamber. Work continues 
on a printed compilation of the charts.
    Library staff made significant contributions to the 2009 Russell 
Senate Office Building Centennial celebration. Four display cases were 
installed in March 2009 to highlight the Caucus Room, the Russell 
Building's architectural features, a historical chronology of events 
that have taken place in the building, and a look back at office life 
in the oldest Senate office building. A special Unum issue on the 
Russell Building's centennial was published. The Library worked with 
the Senate Historical Office, the Senate Curator, Printing and Document 
Services, and GPO to design a logo for use in all publications created 
for the event, and to create a set of table cards used in the Senate 
Restaurants as well as two versions of a commemorative bookmark. The 
bookmarks were a popular souvenir with staff.
    Hearing URL data from the Library catalog is exported weekly to 
provide LIS and THOMAS with full-text links to Senate hearings for the 
111th Congress. The Library contributed 702 new Senate hearing links to 
the LIS database during 2009.
    The Library's Cataloging Supervisor worked with Joint Committee on 
Taxation staff on a project to supply bibliographic records for a set 
of committee documents submitted for scanning at the Federal Scanning 
Center at the Library of Congress. The cataloging portion of the 
project began in July and has added 580 titles to the catalog and 
contributed an additional 1,000 records for documents to be scanned. 
The scanning center will extract the data needed to enhance retrieval 
of the scanned documents on its public digital archive site.
Major Library Goals for 2010
    Complete the assumption of eco-direction of the Senate Information 
Services Program in preparation for transition to full direction at the 
end of 2010;
    Complete the analysis of the Senate Information Services survey 
results and seek additional user input regarding the program services;
    Begin work on enhancements to the Senate Knowledge Base to 
streamline maintenance of the Webster taxonomy and improve search 
results;
    Continue work on the redesign of the Library's Webster site;
    Establish an outreach program for Senate office staff; and
    Expand training opportunities to staff.

                                                   SENATE LIBRARY ACQUISITIONS FOR CALENDAR YEAR 2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         36         58        434         26        242          7        101        220      1,088
February.............................................         23         52        110  .........        324         16         79        102        683
March................................................         15         53         89         11        330         40        114        221        858
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         74        163        633         37        896         63        294        543      2,629
                                                      ==================================================================================================
April................................................         27         48        104         84        295         31        124        164        850
May..................................................         16        106         35          6        193         16        113        227        696
June.................................................         24         86        120         50        256         16         99        317        944
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         67        240        259        140        744         63        336        708      2,490
                                                      ==================================================================================================
July.................................................         21         42        135         30        429         11        119        292      1,058
August...............................................         21         58        140         92        334         12         30        188        854
September............................................         73         82         85         24        359         15         82        114        761
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................        115        182        360        146      1,122         38        231        594      2,673
                                                      ==================================================================================================
October..............................................         17        136        106         67        386         16         99        243      1,053
November.............................................         30         53         61         16        352         13         93        241        829
December.............................................         11         57        234         58        160         11        109        211        840
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................         58        246        401        141        898         40        301        695      2,722
                                                      ==================================================================================================
2009 Total...........................................        314        831      1,653        464      3,660        204      1,162      2,540     10,514
2008 Total...........................................        331        901      2,200        797      3,631        129        829      3,645     12,132
Percent Change.......................................      -5.14      -7.77     -24.86     -41.78      +0.80     +58.14     +40.17     -30.32     -13.34
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                               SENATE LIBRARY CATALOGING STATISTICS FOR CALENDAR YEAR 2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  Bibliographic Records Cataloged
                                               S.    -----------------------------------------------------------------------------------------
                                            Hearing           Books               Government Documents           Congressional Publications      Total
                                            Numbers  -----------------------------------------------------------------------------------------  Records
                                            Added to                                                                                  Docs./   Cataloged
                                              LIS       Paper     Audio/E-    Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                   Books                                                             Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..................................          5        173          3         12  .........          18        222         55          1        484
February.................................  .........        111          4          6         12          28        307         16          3        487
March....................................         80         81          2         26          1          11        458         33         17        629
                                          --------------------------------------------------------------------------------------------------------------
      1st Quarter........................         85        365          9         44         13          57        987        104         21      1,600
                                          ==============================================================================================================
April....................................         52         51          6          5  .........          45        461          6         25        599
May......................................          7         19          9          8         13          10        635         26         21        741
June.....................................         37         24          8          3  .........           6        342         92         13        488
                                          --------------------------------------------------------------------------------------------------------------
      2nd Quarter........................         96         94         23         16         13          61      1,438        124         59      1,828
                                          ==============================================================================================================
July.....................................         83         15         14          5  .........           7        247        552         21        861
August...................................         15         32         43          9         49           1        316        161          4        615
September................................          8         46         49          7         95           7        302        141         34        681
                                          --------------------------------------------------------------------------------------------------------------
      3rd Quarter........................        106         93        106         21        144          15        865        854         59      2,157
                                          ==============================================================================================================
October..................................         19         69         12          7         40           5        234         43         10        420
November.................................         14         44          4          9         46           8        232         42         80        465
December.................................         11         12          1         10         61           7        120         18         92        321
                                          --------------------------------------------------------------------------------------------------------------
      4th Quarter........................         44        125         17         26        147          20        586        103        182      1,206
                                          ==============================================================================================================
2009 Total...............................        331        677        155        107        317         153      3,876      1,185        321      6,791
2008 Total...............................        271        591         64        155         14         214      6,332         56        170      7,596
Percent Change...........................      +22.1      +14.6     +142.2      -31.0    +2164.3       -28.5      -38.8    +2016.1      +88.8      -10.6
--------------------------------------------------------------------------------------------------------------------------------------------------------


                             SENATE LIBRARY DOCUMENT DELIVERY FOR CALENDAR YEAR 2009
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                   Volumes    Materials  Facsimiles   Center Pages      Pages
                                                   Loaned     Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January........................................         330         298          18            26         5,543
February.......................................         208         287          23            37         5,626
March..........................................         234         308          14            21         5,042
                                                ----------------------------------------------------------------
      1st Quarter..............................         772         893          55            84        16,211
                                                ================================================================
April..........................................         254         361          13            13         7,131
May............................................         178         309          12            66         4,807
June...........................................         276         359          24           395         6,821
                                                ----------------------------------------------------------------
      2nd Quarter..............................         708       1,029          49           474        18,759
                                                ================================================================
July...........................................         379         424          22           207         7,346
August.........................................         257         354          15           171         7,344
September......................................         202         356          17            88        13,843
                                                ----------------------------------------------------------------
      3rd Quarter..............................         838       1,134          54           466        28,533
                                                ================================================================
October........................................         263         338          23            72         4,137
November.......................................         323         501          11           102         4,116
December.......................................         214         264          20           180   ............
                                                ----------------------------------------------------------------
      4th Quarter..............................         800       1,103          54           354         8,253
                                                ================================================================
2009 Total.....................................       3,118       4,159         212         1,378        71,756
2008 Total.....................................       4,337       3,405         258         3,513       100,266
Percent Change.................................      -28.11      +22.14      -17.83        -60.77        -28.43
----------------------------------------------------------------------------------------------------------------

                              page school
    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the nation's capital, within the 
limits of the constraints imposed by the work situation.
Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues through April, 2013.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 5, 2009, and January 22, 
2010, the last day of school for each semester.
    Orientation and course scheduling for the Spring 2009 and Fall 2009 
pages were successfully completed. Needs of incoming students 
determined the semester schedules.
    English usage pre- and post-tests were administered to students 
each semester, and the results were reviewed by faculty to determine 
what usage instruction or remediation was needed.
    Study skills sessions were provided to identified students in need 
of training.
    Faculty and staff provided extended educational experiences to 
pages, including 23 field trips, two guest speakers, opportunities to 
play musical instruments and vocalize, and foreign language study with 
the aid of tutors. Eight field trips to educational sites were provided 
for summer pages as an extension of the page experience.
    National tests were administered for qualification in scholarship 
programs. Seventeen pages took 28t Advanced Placement exams in nine 
subjects.
    The evacuation plan and COOP have been reviewed and updated. Pages 
and staff continue to practice evacuating to primary and secondary 
sites.
    Staff and pages participated in escape hood training, and staff 
continues certification in CPR/AED procedures.
    Staff attended continuing education seminars.
    Staff computers were upgraded by Computer Services to include 
Microsoft 2007.
    Tutors and the substitute teacher completed training in evacuation 
procedures.
    Communication among the Sergeant at Arms, Secretary of the Senate, 
party secretaries, the Page Program, and the Page School is ongoing.
Summary of Plans
    Our goals include:
  --Teachers will continue to offer individualized small group 
        instruction and tutoring on an as-needed basis, as well as 
        optional academic support for students preparing to take AP 
        tests.
  --Foreign language tutors will provide assistance to students, and a 
        foreign language seminar on basic grammar terminology will be 
        offered on a trial basis in the fall of 2010.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --English Usage pre- and post-tests will be administered to students 
        each semester to assist faculty in determining needs of 
        students for usage instruction.
  --Staff development options include attendance at seminars conducted 
        by Joint Office of Education and Training and subject matter 
        and/or educational issue conferences conducted by national 
        organizations.
  --The community service project will continue.
                     printing and document services
    The Office of Printing and Document Services (OPDS) serves as 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, U.S. Code as it relates to Senate documents, hearings, 
committee prints and other official publications. The office staff 
assists the Senate by coordinating, scheduling, delivering and 
preparing Senate legislation, hearings, documents, committee prints and 
miscellaneous publications for printing, and provides printed copies of 
all legislation and public laws to the Senate and the public. In 
addition, the office staff assigns publication numbers to all hearings, 
committee prints, documents and other publications; orders all blank 
paper, envelopes and letterhead for the Senate; and prepares page 
counts of all Senate hearings in order to compensate commercial 
reporting companies for the preparation of hearings.
Printing Services
    During fiscal year 2009, OPDS prepared 4,395 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record, an 11 percent increase over 
the previous year. Since the requisitioning done by OPDS is central to 
the Senate's printing, the office is responsible for reviewing invoices 
and bids for Senate print jobs.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. OPDS also 
coordinates a number of publications for other Senate offices, such as 
the Curator, Historian, Disbursing, Legislative Clerk, and Senate 
Library, as well as the U.S. Botanic Garden, U.S. Capitol Police, 
Architect of the Capitol, and the U.S. Capitol Visitor Center. These 
tasks include providing guidance for design, paper selection, print 
specifications, monitoring print quality and distribution. Last year's 
major printing projects included:
  --Semi-Annual Report of the Secretary of the Senate;
  --Tributes to Retiring Senators;
  --U.S. Senate Leadership Portrait Collection brochure;
  --U.S. Senate Foreign Relations Committee brochure;
  --U.S. Senate Appropriations Committee brochure;
  --U.S. Senate Republican and Democratic Leader's Suite brochures;
  --2009 Senate Telephone Directory;
  --Senate gallery passes and visitor badges; and
  --Capitol Visitor Center tour tickets and informational brochures.
            Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. OPDS 
processes billing verifications for these transcription services 
ensuring that costs billed to the Senate are accurate. OPDS utilizes a 
program developed in conjunction with the Sergeant at Arms Computer 
Division that provides greater billing accuracy and information 
gathering capacity; and adheres to the guidelines established by the 
Senate Committee on Rules and Administration for commercial reporting 
companies to bill the Senate for transcription services. During 2009, 
OPDS provided commercial reporting companies and corresponding Senate 
committees a total of 1,136 billing verifications of Senate hearings 
and business meetings, a 33 percent increase over the previous year. 
Over 83,000 transcribed pages were processed at a total billing cost of 
$652,412.
    The software program used to process the hearing verifications 
required by Senate Disbursing to pay vendors for transcription services 
was completely updated in 2008. OPDS worked with the Senate Committee 
on Rules and Administration to draft updated regulations governing the 
production and reimbursement of transcripts. In addition, input was 
solicited from vendors and committee clerks to ensure consideration of 
current transcription practices and costs. The new software program was 
fully tested by all current Senate transcription vendors and is now 
fully implemented.
    During 2009, the office continued processing all file transfers, 
and billing verifications, between committees and reporting companies 
electronically ensuring efficiency and accuracy.
            Secretary of the Senate Service Center
    The Service Center within OPDS is staffed by experienced GPO 
detailees who provide Senate committees and the Secretary of the 
Senate's office with complete publishing services for hearings, 
committee prints, and the preparation of the Congressional Record. 
These services include keyboarding, proofreading, scanning, and 
composition. This allows committees to decrease, or eliminate, 
additional overtime costs associated with the preparation of hearings, 
improving the management of Congressional Printing and Binding funds. 
Additionally, the Service Center provides work for GPO detailees 
assigned to legislative offices during Senate recesses.
Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record, a printed record of Senate and House floor 
proceedings, Extension of Remarks, Daily Digest and miscellaneous 
pages, is one of the many printed documents provided by the office on a 
daily basis. In addition to the Congressional Record, the office 
processed and distributed 10,875 distinct legislative items during the 
first Session of the 111th Congress, including Senate and House bills, 
resolutions, committee and conference reports, executive documents, and 
public laws.
    The demand for online access to legislative information continues 
to be strong. Before Senate legislation can be posted online, it must 
be received in the Senate through OPDS. Improved database reports allow 
the office to report receipt of all legislative bills and resolutions 
received in the Senate which can then be made available online and 
accessed by other Web sites, such as LIS and Thomas, used by 
Congressional staff and the public.
            Customer Service
    The primary responsibility of OPDS is to provide services to the 
Senate. However, the responsibility and this office's dedication and 
assistance to the general public, the press, and other government 
agencies are virtually indistinguishable from the services provided to 
the Senate. During 2009, over 15,000 requests for legislative material 
were received at the walk-in counter, through the mail, by fax, and 
electronically. Online ordering of legislative documents and the 
Legislative Hot List Link, where Members and staff can confirm arrival 
of printed copies of the most sought after legislative documents, 
continued to be popular. The site is updated several times daily each 
time new documents arrive from GPO to the Document Room. In addition, 
the office handled thousands of phone calls pertaining to the Senate's 
official printing and document requests. Orders received by recorded 
messages, fax, and e-mail are processed as they are received, as are 
mail requests.
            On-Demand Publication
    The office supplements depleted legislation where needed by 
producing additional copies in the DocuTech Service Center, staffed by 
experienced GPO detailees who provide Member offices and Senate 
committees with on-demand printing and binding of bills and reports. 
On-demand publication allows the department to cut the quantities of 
documents printed directly from GPO and reduces waste. The DocuTech is 
networked with GPO, allowing print files to be sent back and forth 
electronically. This allows OPDS to print necessary legislation for the 
Senate floor, and other offices, in the event of GPO experiences a 
continuity of operations situation.
            Accomplishments & Future Goals
    Over the past year, OPDS has provided new services for customers 
and improving existing ones. Of particular note is the office's 
commitment to help ``green'' the Senate. During 2009 Senate offices 
ordered over 4.5 million sheets of 100 percent recycled paper, a 57 
percent increase over 2008.. The office works diligently to track 
document requirements, monitoring print quantities, and reducing waste 
and associated costs. Over 400 new and revised print jobs were routed 
electronically for customer approval, improving turnaround time and 
efficiency. Additionally, blank paper orders, now transmitted 
electronically to GPO as they are processed, save time and move toward 
the office's goal of paperless ordering.
    The office's future goals include working with GPO on their Federal 
Digital and Microcomp Replacement Systems to improve efficiency and 
help answer the evolving needs of the Senate. Focus on continuity of 
operations planning and the offices emergency preparedness will 
continue. The Office of Printing and Document Services continues to 
seek new ways to use technology to assist Members and staff with added 
services and improved access to information.
                             public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995, as amended; the Senate Code of 
Official Conduct: Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; and Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and publication of 
these documents. From October 2008 through September 2009, the Public 
Records office staff assisted more than 2,000 individuals seeking 
information from reports filed with the office. This figure does not 
include assistance provided by telephone or e-mail, nor help given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995, as amended (collectively, the ``LDA''). A total 
of 77,702 photocopies were sold in the period. In addition, the office 
works closely with the Federal Election Commission, the Senate Select 
Committee on Ethics, and the Clerk of the U.S. House of Representatives 
concerning the filing requirements of the aforementioned Acts and 
Senate rules.
Fiscal Year 2009 Accomplishments
    The office continued to implement S. 1, the Honest Leadership and 
Open Government Act (HLOGA), which amended the LDA and the Senate Code 
of Conduct. The office posted two guidance updates and concentrated on 
compliance issues, referring close to 4,400 cases of potential non-
compliance to the U.S. Attorney for the District of Columbia. The 
Senate Office of Public Records conducted a continuity of operations 
(COOP) exercise in August which required half of the staff to work from 
a remote location in preparation for a potential H1N1 pandemic.
Plans for Fiscal Year 2011
    The Public Records office will assess the need to update the LDA 
guidance semiannually and will continue to concentrate on LDA 
compliance issues.
Automation Activities
    During fiscal year 2009, the Senate Office of Public Records worked 
with the Sergeant at Arms to enhance the lobbying database performance 
in terms of public query programs for Senate.gov, and to create an 
internal compliance monitoring application.
Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly and pre- and 
post-election reports. Filings totaled 4,298 documents containing 
292,496 pages.
Lobbying Disclosure Act of 1995, as amended
    The LDA requires semi-annual financial and lobbying activity 
reports. As of September 30, 2009, there were 5,700 registrants 
representing 20,007 clients. The total number of individual lobbyists 
disclosed on 2009 registrations and reports was 14,847. The total 
number of lobbying registrations and reports processed was 134,925.
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2009. The reports were made available to the public and press by June 
12, 2009. Public Records staff provided copies to the Select Committee 
on Ethics and the appropriate state officials. A total of 3,137 reports 
and amendments were filed containing 18,528 pages. There were 253 
requests to review or receive copies of the documents.
Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records received 214 reports during 
fiscal year 2009.
Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 487.
                            stationery room
    The United States Senate Stationery Room is the provider of office 
and administrative supplies, personalized stationery and special order 
items for official government business. We serve all Members, support 
offices, and other authorized people and organizations.
    The Stationery Room fulfills its mission by:
  --Utilizing open market, competitive bid, statutorily required and/or 
        GSA schedules for supply procurement.
  --Maintaining sufficient in-stock quantities of select merchandise in 
        order to best meet the immediate needs of the Senate community.
  --Developing and maintaining productive business relationships with a 
        wide variety of vendors to ensure sufficient breadth and 
        availability of merchandise.
  --Maintaining expense accounts for all authorized customers and 
        preparing monthly activity statements.
  --Managing all accounts receivable and accounts payable 
        reimbursement.
  --Ensuring the integrity of all funds and other government assets 
        under our control.

------------------------------------------------------------------------
                                      Fiscal Year 2009  Fiscal Year 2008
                                         Statistics        Statistics
------------------------------------------------------------------------
Gross Sales.........................     $3,594,733.94     $4,547,289.64
Sales Transactions..................            47,459            41,704
Purchase Orders Issued..............             6,586             6,224
Vouchers Processed..................             7,073             6,832
Office Deliveries...................             5,661             6,985
Number of Items Delivered...........           134,191           160,538
Number of Items Sold................           439,042           503,238
Full time Employees (FTE)...........                14  ................
------------------------------------------------------------------------

Fiscal Year 2009 Overview
            Sales Comparison Analysis
    While sales for fiscal year 2009 appear to reflect a decrease of 
$952,555.70 when compared to fiscal year 2008, it should be noted that 
the Stationery Room discontinued sales of the Metro Transit Subsidy 
Media in September of 2008. When taking Metro sales out of the 
equation, fiscal year 2009 sales ($3,594,733.94) increased $811,828.01 
or approximately 29 percent, over fiscal year 2008 ($2,782,905.93). The 
Stationery Room experienced increases of 3 percent to 13 percent in 
such areas as total sales transactions, purchase orders issued, and 
vouchers processed.
            ``Suggestion Box''
    With the assistance of the Office of Web Technology, the Stationery 
Room introduced an electronic ``suggestion box'' accessible to Senate 
employees from various areas on Webster. Linked to a Stationery e-mail 
address, the ``suggestion box'' is intended to request ideas for 
products customers would like to see available for purchase with 
official funds. Suggestions are collected and evaluated for 
appropriateness and usefulness and acted upon accordingly.
            E-Commerce
    Also with the assistance of the Office of Web Technology, 
Stationery staff began work on an expanded electronic commerce site 
available to authorized customers within the framework of the Senate 
intranet. Still in the development phase, the site will allow customers 
the ability to purchase in-stock items from Stationery online, request 
delivery to the office and charge the transaction to their account. 
Some initial features include product thumbnails and a shopping cart. 
The new system is expected to launch in June.
            Electronic Document Delivery
    Stationery sends hardcopies of sales receipts and office account 
statements daily through inside mail. Often those mailings number in 
the hundreds. Because of the volume of consumption of paper supplies 
(envelopes, receipt paper) and the impact on staff time and resources, 
the Stationery Room began to e-mail the documents instead. 
Administrative personnel set up and maintain distribution lists for 
each office account, convert each paper document to digital and then e-
mail it to those on the appropriate distribution list. The program has 
eased the workload for staff and helped to ensure more secure delivery 
of documents to the offices served. Additionally, through the 
implementation of this program, Stationery staff has been able to 
substantially reduce its use of paper and envelopes.
Efforts to Green the Senate
    The Stationery Room carries a wide variety of environmentally 
friendly options: recycled copy paper and toner cartridges; binders, 
pencils and pens made with recycled components; and custom printed 
options on recycled stock with soy based inks. Additionally, Stationery 
has partnered with the Senate Superintendent as a repository for 
battery recycling and in 2009 helped the Senate recycle 2,300 pounds of 
alkaline and rechargeable batteries.
Continuity of Operations (COOP)
    Opening an office after an emergency relocation is of paramount 
importance to the Senate Stationery Room. To allow for quicker response 
and decreased office down-time, Stationery has packed 200 COOP boxes 
with a selection of basic office supplies. Staged offsite, they are 
available for immediate distribution if the need arises.
                             web technology
    The Department of Web Technology is responsible for the Web sites 
that fall under the purview of the Secretary of the Senate:
  --the Senate Web site (Senate.gov)--available to the world;
  --the Secretary's internal Web site (Webster.senate.gov/secretary)--
        available to the Senate Staff;
  --the central portion of Senate Intranet (Webster.senate.gov)--
        available to all Senate Staff; and
  --the Senate Legislative Branch Web site (Legbranch.senate.gov)--
        available to the Senate, House of Representatives, Library of 
        Congress (LOC), Architect of the Capitol (AOC), Government 
        Accountability Office (GAO), Government Printing Office (GPO), 
        Congressional Budget Office (CBO), and U.S. Capitol Police 
        (USCP).
The Senate Web Site--Senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Senate Web site content is maintained by over 30 contributors 
from seven departments of the Secretary's office and three departments 
of the Sergeant at Arms (SAA). Content team leaders meet regularly to 
share ideas and coordinate the posting of new content. All content is 
controlled through the Secretary's Web Content Management System (CMS) 
managed by the Department of Web Technology.
            Major Additions to the Site in 2009
  --Roll Call Votes in XML http://www.senate.gov/legislative/LIS/
        roll_call_lists/vote_menu_111_2.xml
    --Published all roll call votes in XML back to the 1st Session of 
            the 101st Congress and created a system to have future roll 
            call votes automatically display in close to real time. 
            Providing this data in a raw form enables greater access to 
            this sought information. The project was realized through 
            interactions with the Senate Committee on Rules and 
            Administration and member offices. The posting of XML votes 
            did not require any changes in the clerks' established work 
            processes nor result in any system downtime.
  --Russell Senate Office Building Bicentennial standalone Web site 
        http://www.senate.gov/RSOB/
    --Worked with the Historical Office, Curator's Office, and the GPO 
            to design, create, implement, enhance, and maintain a 
            photographic history of the Russell Senate Office Building, 
            meeting firm deadlines and accessibility requirements. 
            While the site looks entirely different than other portions 
            of Senate.gov, it is fully implemented through the content 
            management system to allow for further modifications and 
            additions by content experts.
  --Henry Clay in the U.S. Senate standalone Web site http://
        www.senate.gov/Clay1851
    --Designed, built, enhanced, delivered and maintained a new 
            standalone Web site that details the history and 
            restoration of a portrait of Henry Clay hung in the East 
            Brumidi Stairway during the spring of 2009. Many multimedia 
            and interactive features exist in the site making for an 
            interesting and educational visitor experience applicable 
            to a wide range of audiences. Capitalizing on advances in 
            the Senate's information technology infrastructure, such as 
            streaming flash video, greatly enhances the user's 
            experience.
  --Art Section Overhaul http://www.senate.gov/art
    --Completely revamped the art section of Senate.gov, exposing more 
            content in a much more visually appealing, organized, and 
            useful manner. Created and implemented multiple advanced 
            slideshow applications and new layout concepts to 
            compliment the sections new information architecture and 
            collection spotlights. The pages highlight the over 1,000 
            objects now published online. While creating a much richer 
            user experience through utilizing thumbnails, subject-based 
            collection lists, Web slideshows, and an art specific 
            search, the Curator's office was also able to gain greater 
            control over this content through implementing everything 
            through the content management system in conjunction with 
            the office's maintained object database.
  --Contested Senate Elections http://www.senate.gov/artandhistory/
        history/common/contested_elections/intro.htm
    --Historic exhibit delineating 56 past contested elections in the 
            United States Senate. In-depth information provided for 
            each instance including background information, facts 
            relating to each case, response of the Senate, conclusions, 
            and Committee reports.
  --Expulsion and Censure http://www.senate.gov/artandhistory/history/
        common/briefing/Expulsion_Censure.htm
    --Developed and launched exhibit on expulsion and censure in the 
            United States Senate in conjunction with the Historical 
            Office. The exhibit offers a wealth of information 
            regarding cases of expulsion and censure and the 
            individuals involved. Thirty-one expulsion cases are 
            described and details of eight censure instances are 
            explained.
  --Senate Impeachment Trials http://www.senate.gov/artandhistory/
        history/common/briefing/Senate_Impeachment_Role.htm#4
    --Enhanced the online report regarding impeachments with a complete 
            listing of all impeachment trials in the Senate. Great 
            detail given in several of the cases with more to be added 
            in the future.
  --Gallery Passes http://www.senate.gov/artandhistory/art/common/
        slideshow/Gallerypass/GalleryPass_Intro.htm
    --Drawing from many previously created features, designs, 
            slideshows, and layouts this exhibit contains gallery 
            passes dating back to the 51st Congress. Relevant 
            information regarding the galleries and their histories is 
            interwoven, leveraging great content from multiple parts of 
            the Web site.
  --Placement Office Job Postings http://www.senate.gov/reference/
        Index/Employment.htm
    --Implemented a completely new system for the Placement Office of 
            the SAA to post and manage their job listings. Content is 
            now delivered in a format that aligns with the one used 
            throughout the Secretary's content management system. 
            Besides providing a much more useful and searchable display 
            to users and a more efficient system from the Placement 
            Office, this also allows all job postings listed on 
            Senate.gov to be combined on a single page.
  --Sergeant at Arms Job Postings http://www.senate.gov/employment/saa/
        positions.htm
    --Developed a system to allow the Human Resources Department of the 
            SAA to begin posting job openings. This new system is 
            coupled with their existing content management system to 
            streamline workflow. SAA job openings now simultaneously 
            appear on Senate.gov in conjunction with http://SAANET.
  --Capitol Camera http://www.senate.gov/general/capcam.htm
    --Takes advantage of the new flash streaming video servers to 
            display a constant feed of the Capitol Dome from the 
            Russell Building. The template originally created for this 
            page has been reused many times as more video is added to 
            the Web site.
  --Senate Chamber Maps http://www.senate.gov/artandhistory/art/
        special/Desks/earlychambermaps.cfm
  --Historic maps added to interactive Desks site dating back to 1840.
  --Fourteen Featured Biographies http://www.senate.gov/pagelayout/
        history/one_item_and_teasers/featured_biographies.htm
  --Six Audio Clips http://www.senate.gov/artandhistory/history/
        oral_history/AudioClipsList.htm
    and
  --Four Oral Histories http://www.senate.gov/pagelayout/history/
        g_three_sections_with_teasers/oralhistory.htm
            Homepage feature articles were published on the following 
                    topics:
  --The Senate Chamber: 1859-2009;
  --Russell Senate Office Building: First Century, 1909-2009;
  --Celebrate National Library Week: Browse Senate Art Publications;
  --Moments in Senate History: Photographs of Senate Life;
  --An Historic Painting, Rediscovered: Henry Clay in the U.S. Senate; 
        and
  --Focus on the Constitution: Advice & Consent of the Senate.
Secretary's Intranet--Webster.senate.gov/secretary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The new Secretary of the Senate intranet (http://
Webster.senate.gov/secretary) grew considerably during its first full 
year online. An electronic newsletter managed by the Executive office 
was created and implemented, proving information specific to the 
Secretary's office. Web-based order forms were created and enhanced for 
use in requesting specific legislative documents, class registration, 
blank paper, room reservations, and stationery product suggestions.
    Web Technology worked with the SAA and the Senate Archivist to 
establish a Web page (http://Webster.senate.gov/secretary/departments/
Historical_office/Archiving/archiving_services.htm) to house 
information on archive management. Additionally, the office devised 
displays and organization for the information set.
    A catalog-based ordering system is being developed for the 
Stationery Room, which will enable staff to order online. The new 
system will be managed with the content directly from the Stationery 
Room's existing retail management system. The ordering system is 
intended to be especially helpful to state offices. The new system is 
expected to launch in June.
    A new virtual server was created to host the Secretary's content 
separate from the other officers on Webster. To facilitate this 
transition, legacy content was either deleted from the existing Webster 
server or migrated into the Secretary's content management system. 
Isolating Secretary's content onto a virtual machine leverages some of 
the newest technology offerings from the SAA, is more environmentally 
friendly as it replaces multiple physical servers, is easily recovered 
in emergency instances, and makes all systems involved operate more 
efficiently.
Webster Central Web Site--Webster.senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In conjunction with the SAA, Chaplain, and Senate Committee on 
Rules and Administration, Web Technology continued administering, 
managing, and enhancing the central section of Webster. As part of the 
Webster Advisory Group (WAG), Web Technology collaborated on the 
creation, distribution, and interpretation of a Webster user survey. 
Based on the feedback, WAG implemented changes to enhance users' 
experiences and increase ease of use of the site.
    To streamline the management of content on the central site we 
repurposed many files that are already updated through existing systems 
on Senate.gov. The expansion of repurposing data has reduced 
duplicative efforts, increased consistency, relevancy, and timeliness 
of data displayed on Webster. Standardizing XML across both sites and 
having it integrated to Web Technology's content management system was 
essential to making this possible.
    Another heavily utilized content system for the central portion of 
Webster is the Senate Library's taxonomy system, which generates the 
content used to produce the hierarchical data used in the ``Service,'' 
``Legislative,'' ``News & Research,'' and ``About the Senate'' tabs 
accessible from all Webster pages. The system is also used to direct 
suggested matches based on keywords or phrases. Web Technology and the 
Senate Library work closely to ensure timely updates in an efficient 
and user-friendly matter, as well as to modify the displays based on 
the desires and needs of Senate Staff, and offer continued support of 
the various systems and their integrations.
Senate Legislative Branch Web site (Legbranch.senate.gov)
    The Legbranch server is accessible by the Senate, House of 
Representatives, LOC, AOC, GAO, GPO, CBO, and USCP. The Department of 
Web Technology maintains a basic Web site for a Capitol Hill e-mail 
messaging working group managed by the SAA. In the future the server 
will be used to share more information with other Capitol Hill 
entities.
Accomplishments of the Office of Web Technology in 2009
    Began the upgrade of the content management system upgrade. Planned 
completion date of the upgrade project is the beginning of April when 
new hardware will host the most currently released versions of the 
software that comprises our content management system.
    Audited the Senate.gov Web pages regularly, updating, enhancing, 
and correcting pages; verifying content; and reviewing individual page 
designs throughout Senate.gov for accessibility and usability.
    Constantly monitored data feeds from the LIS/DMS system, ensuring 
content on Senate.gov was current and all processes were functioning 
properly. This is of vital importance, particularly regarding committee 
hearing schedules, vote data, and member contact information.
    Worked with new Senate offices to establish and maintain temporary 
Web pages including a picture, biography, and contact information until 
they were able to get permanent Web sites established.
    Responded to approximately 2,000 e-mails from the general public 
regarding Senate.gov sites. Worked with various content providers, Web 
support groups, the SAA, member, and committee offices to make 
suggestions and resolve issues.
    Continually reviewed and adjusted search operations and canned 
matches for both Senate.gov and Webster.senate.gov based on user 
tendencies and requests.
    Conducted user testing with Senate staff and interns to increase 
understanding of current Web site interactions, desires, and best 
practices.
    Participated in Capitol Hill working group determining ideal manner 
of providing public legislative data in a secure, downloadable, and 
searchable format. Other entities involved in this project are the 
House of Representative, GPO, and the LOC.
    Helped organize Capitol Hill wide Webmaster meetings, where best 
practices were shared across entities. Regularly gave presentations and 
facilitated conversations during meetings. Led a separate discussion 
relating to content management systems which had representatives from 
Republican Conference, DLC, SDMC, LOC, CRS, House Chief Administrative 
Officer, House Clerk, AOC, Capitol Visitor Centerm and CBO.
    Continually trained and practiced working from remote locations to 
be prepared should the need arise. All staff are now fully capable of 
accomplishing their job functions from any location with Internet 
access. This was accomplished largely through configuring virtual 
machines that mimic workstations on office laptops.
    Bibliography production greatly simplified for both Senate.gov and 
Webster. To enable Senate users to directly borrow books from 
bibliographies separate versions for Webster are implemented, and, when 
applicable, the data is drawn from Senate.gov bibliographies. This 
aligns the data between two sites, while displaying the appropriate 
options to the two separate audiences. The new system tremendously 
simplifies the process for creating and updating bibliographies in both 
sites.
    Aided the Senate Library in aspects of Senate Information Services 
transition. Worked closely with the SAA to offer a variety of Web-based 
survey options for the Library to select from. Customized survey to 
meet the Senate Library's data collection and reporting requirements.
    Published XML data for individual roll call votes and votes lists 
from the present back to the 101st Congress, 1st Session. Enacted and 
implemented a system to publish future roll call votes in XML format in 
addition to the already existing HTML renditions.
    Worked extensively with the Senate Library in the continual 
development, implementation, and maintenance of taxonomies. 
Participated in the planning and approach to including the ``Red Book'' 
data to be integrated in the knowledge base.
    Knowledge base data is now published directly to Senate.gov. 
Through modifications in the content management system, Web Technology 
has established a system with the Senate Library to allow for the 
direct export of reports to display as Web pages on Senate.gov and 
Webster, decreasing the need for human interaction and increasing 
efficiency.
    Implemented algorithms to tally vital statistical calculations 
related to cloture and veto counts, streamlining the process and 
reducing the chance of errors.
    Created virtualized production server for the Secretary's intranet. 
Cleaned legacy data from legacy physical server and migrated 
appropriate content into the content management system.
    Worked with the Historical Office and GPO in the design of a new 
standalone site for states.
    Worked with the Curator's Office to reorganize their content within 
the Art and History bucket. Instituted new information architecture for 
the artifact pages making editing much more efficient. Designed new 
layout concepts for the Curator's Office areas of focus. Built subject-
based collection lists, initially organizing art objects by sitters, 
which was then expanded to other subject areas, all drawn from the 
Curator's maintained object database.
    Maintained and continued to implement the use of handles 
established by the LOC for legislation, ensuring functional links to 
pieces of legislation regardless of changes to other systems. Handles 
are now used on the many different statistical tables maintained by the 
Senate Library reflecting information on currently active legislation, 
cloture motions, nominations, and vetoes. Also, summary tables were 
created for the various data sets to further ensure the accuracy and 
usability of data reported.
    Expanded a system established for the Senate Placement Office to 
post employment offerings publically on Senate.gov, to include job 
openings from SAA Human Resources Department. Collaborated with the SAA 
in integrating the data across two separate content management systems. 
Having both sets of data in XML allows for the integration of all job 
postings from the SAA and the Placement Office into one comprehensive, 
searchable list.
    Helped maintain back-up server for the CMS at the Alternate 
Computer Facility (ACF) with the SAA, ensuring our continuity of 
operations plan. The ACF server is an exact replica of the production 
system and is continually tested to serve as a real time replacement 
should the production server become inoperable.
Senate.gov Usage Statistics
    In 2009 an average of over 350,000 visits occurred per day on the 
Senate.gov domain. Twenty-six percent of them entered through the main 
Senate homepage while the majority came to the site through a 
bookmarked page or to a specific page from search results; this 
indicates a slight rise in visitors entering through the homepage of 
Senate.gov from the previous year.

----------------------------------------------------------------------------------------------------------------
                                                                                                     2008-2009
                        Title of Web Page                          2008 Visits/    2009 Visits/       Percent
                                                                       Month           Month         Increase
----------------------------------------------------------------------------------------------------------------
Visits--Entire Site.............................................       8,521,779      10,754,581             +26
Senate Homepage.................................................       1,704,697       2,526,741             +48
----------------------------------------------------------------------------------------------------------------

    Reviewing statistics on Web page usage helps the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. Visitors are drawn to the 
following content items, listed in order of popularity.

                                           MOST VISITED PAGES IN 2009
----------------------------------------------------------------------------------------------------------------
                                                                   2008 Visits/    2009 Visits/
                            Top Pages                                  Month           Month      Percent Change
----------------------------------------------------------------------------------------------------------------
Senators Contact Info List......................................         546,847         698,084             +27
Roll Call Votes.................................................         182,691         169,276              -7
Committees......................................................          78,810          94,446             +20
Legislation & Records...........................................          64,010          91,689             +43
Active Legislation..............................................          37,860          74,199             +96
Votes...........................................................          58,277          57,463              -1
Senate Leadership...............................................          19,981          20,663              +3
Committee Hearings Scheduled....................................          16,668          21,726              +3
----------------------------------------------------------------------------------------------------------------

    By a huge margin, the most popular page on the main Senate Web site 
is the list of Senators with links to their Web sites and comment 
forms. Visitors also continue to be interested in legislative matters 
in 2009 with Roll Call Vote Tallies, the Active Legislation table, 
Committee assignments and schedules being particularly popular. The 
visits per month did decrease across some of the most visited pages on 
the site. The decrease is most likely attributed to the information on 
the pages being consumed by other Web sites and then being redisplayed. 
Additionally, some of the most sought information began being offered 
in XML, Roll Call Votes, in 2009 making the consumption and 
dissemination faster and easier. Thus, although the actual visits to 
Senate.gov decreased on some pages more people are utilizing the 
information being provided across the site.

                    Sergeant at Arms and Doorkeeper

STATEMENT OF HON. TERRANCE W. GAINER, SENATE SERGEANT 
            AT ARMS
    Senator Nelson. Mr. Gainer.
    Mr. Gainer. Thank you, Mr. Chairman and ranking member and 
Senator Pryor. I appreciate the opportunity this afternoon to 
discuss the work we have been doing in our budget for the 
upcoming fiscal year. I, too, ask that my written report be 
submitted and made part of the record.
    Senator Nelson. It will. Thank you.
    Mr. Gainer. The budget request I have submitted, as you 
indicated, requests a 7 percent increase, just over $15 million 
more than fiscal year 2010, a total of nearly $240 million. 
Last year we requested a 10.5 percent increase; the year 
before, 11.5 percent; 13.9 in 2008; and 12.8 in 2007. So we 
thought we were heading in the right direction.
    I was on the floor last year when you sought the 
approximately 3 percent increase in the legislative branch, and 
as your opening remarks indicated, it was not well received 
again, even though all of us thought we were getting where we 
needed to be. I was also on the floor when there was an attempt 
to take a couple hundred million dollars from all of us, and we 
appreciate your defense of our budgets because it was so very 
important. But these events highlight the difficulty we all 
have in this.
    We work together, the Secretary of the Senate, the Capitol 
Police, the Architect of the Capitol (AOC), and the Rules 
Committee, providing quality service to the Senate. Our SAA 
team does great work. They are industrious, honest, and very 
self-actualized. They are guided by leaders like my deputy, 
Drew Willison; Bret Swanson in operations; Chris Dey, our CFO; 
Pat Murphy in HR; Kim Winn, the Chief Information Officer; 
Christie Preach, who serves the entire Senate in the EAP 
program; Peggy Greenberg, who does so much training here and 
throughout the Nation; Mike Heidingsfield in Police Operations; 
Becky Daugherty, our Protocol Officer; Rick Edwards, on all 
issues related to the floor; Dave Bass in the Recording Studio; 
Joe Collins, the Postmaster. These are a few of the people who 
contribute.
    Our services are not only in the D.C. area, but also in the 
454 offices throughout the Nation.
    My submitted 40-plus pages of testimony covers the 
accomplishments so that you and your staff know how hard we 
work for you. Allow me to mention a few highlights.
    For instance, in IT, we have a 96 percent rating of 
satisfactory or better for help desk calls. You and your staff 
know how important that is. We have a 99 percent or better on-
time arrival for IT installation. We processed some 247 million 
Internet messages last year. We have established the online 
purchasing of your office technology needs. A recent example of 
how IT continues to adjust to the workload of the Senate; 
recently we helped process 800,000 e-mails sent by one Senator 
in a single day. Your expectations of IT are very high.
    From a security standpoint, every day we are monitoring 
what goes on in the IT area, and daily we deal with about 13.9 
million network security events.
    As the Secretary of the Senate indicated, we have opened 
the Senate galleries for the first time since 9/11.
    Our cabinet shop has seen a 130 percent increase in repair 
and refurnishing of over 200 pieces of furniture.
    Our printing and graphics, direct mail (PGDM) produced 7 
million letters for you last year. They work in a space of 
about 30,000 square foot in the basement of the Postal Square, 
when every expert says they should be operating in an area of 
at least 50,000 square feet. In this past year in that 
particular unit, they suffered two massive floods of raw 
sewerage that they contended with themselves, while they kept 
up their work.
    Our recording studio doubled the number of TV productions 
to 2,700 this past year. Live broadcasts were increased 44 
percent.
    In the customer support area, the 15 new Senators--we 
helped them set up their offices.
    We negotiated leases on 171 State offices.
    We increased the number of parking spaces, alleviating a 
problem.
    For the duration of the snowstorm, several of the Capitol 
operators never went home. They slept on cots and couches in 
order to make sure the telephones were answered.
    Capitol facilities reduced the number of employees by five 
over the year and kept up the workload that has increased in 
the Capitol Visitor Center (CVC).
    Through process improvements, our post office reduced their 
head count by four FTEs which we moved over into the CVC to 
support the appointments desk. They processed 14.4 million 
pieces of mail. That is a 50 percent increase.
    The expectations of you and your office administrators are 
very high. They are very demanding for you and for the 
constituents.
    Having said that, I am truly well aware of the financial 
impact. As a small anecdote, I ran my budget by so many people 
in my own office, but spent some time with a good friend of 
mine in Chicago. We grew up together: grade school, high 
school, college roommates. He went off in the Navy as an 
aviator. I went off in the Navy in surface warfare. He runs two 
businesses in Chicago and is a part of a bank. Ron Fisher of 
Thompson Stainless Steel Polishing and Finished Metals.
    When I talked to him about our budget and how he was 
working through this and what he expected of what we are doing, 
Ron related that the family has been in this business over 60 
years. His dad started it. He has 35 employees. They are in 
their third year of no raises for those employees. They are in 
their third quarter of 32-hour work weeks in order to keep the 
people employed with health benefits. He indicates he pays 
about $20 an hour, plus benefits for work in this area. Work 
that could be done in China for 20 cents an hour.
    So, I understand how he is struggling. And he wants to know 
how we are doing; what steps the elected officials are taking, 
and how I am going to run my office? He readily admits he does 
not have the answers to all the problems, but he believes like 
you that Government needs to be somewhat reduced.
    Our budget is very real. This is the 17th budget I have 
participated in as the head of an agency, 7 or 8 years as the 
director of the Illinois State Police, running our Capitol 
Police, as Phil did, the Metropolitan Police Department, the 
Chicago Police Department, and this agency. I do understand the 
budget process. Our budget is transparent, and it is our 
professional recommendation how best to serve the Senate.
    Having said that, I believe we can make changes. I believe 
we can deliver the same level of today's service for one more 
year at our current expense level. I believe that we can zero 
out the $7.7 million that we have requested in non-salary 
areas. We can sustain our existing technology and provide for 
current services. I do believe, though, that given the demands 
placed on us, it will be much more difficult to upgrade 
existing technology, to acquire new technologies which improve 
existing services, or introduce new services. That is where we 
would tighten our belt.
    We have already put a freeze on the 19 vacancies we have 
currently. In our budget, we asked for five people. I would 
withdraw that and not ask to hire anybody. I would respectfully 
ask that our unobligated balance funds of $13.9 million that we 
have accumulated over the last couple of years, remain under 
our control. We would work with you over the year to reprogram 
as needed. So I am very much supportive of moving us to a flat 
budget.
    Now, in the area of the cost-of-living adjustments (COLAs), 
and the merit increases, and the other adjustments, I will have 
to admit that is a bit more confusing. Our COLA increase of 
$1.1 million seems insignificant when compared to the overall 
budget of the legislative branch or the deficit, but I do 
believe that we should work with you to figure out whether this 
is a year for COLAs for us or not. Now, I say that not wanting 
to destroy the very morale of the people who have served all of 
us so ably, but again, reflecting back as you have on your 
constituents, on what is going on in the business world, I do 
have a personal, ethical problem with awarding ourselves the 
cost-of-living increases. By the same token, I certainly do not 
want to be the only organization on the Hill that asks our 959 
employees not to take a raise that they fully deserve. The 
adjustments of some $4.4 million account for the people we have 
hired thus far through the year. So we would need to work very 
closely with you on how to ensure that we can maintain the 
level of services, keep the people on board, and exceed the 
expectations you have for us.
    As I mentioned, the Senators and your staff are very 
demanding. For instance, I was down in the Hart subway today 
and people tried to come through on their way to the Capitol. 
The police officers, as we have instructed them to do, turned 
them around and told them to head to Russell. And I know how 
frustrating that is. Working with the Rules Committee and 
yourselves, you have said you want a way to get from the Hart 
building where so many of you work, to the Capitol building. So 
we have been working over the past year on how to develop that. 
It would require putting additional police officers in Hart, 
additional magnetometers in Hart, and additional people from 
our staff to direct visitors to where they want to go. That is 
the type of thing we do and costs money that you have 
requested.
    So assuming we zero out our budget as close as possible, it 
really means your staffs must have a different expectation. The 
Secretary mentioned the Senate payroll system. One of the items 
that I would suggest we would not fund is the Senate office 
personnel system, highly sought by your office administrators 
in the Rules Committee. The two systems are related. The 
personnel system probably would not be turned on if we 
installed it until after the Senate payroll system is done, but 
in order to be ready to flip that switch, we would have to 
begin on that now. If we delay that now, and in 18 months, as 
the Secretary indicates, the Senate payroll system conversion 
is complete, someone is going to be standing on that side of 
the desk wanting to know why we are not flipping on the Senate 
office personnel system. So, when we work on our budget and 
reduce it, we have to have a multiyear approach on what that 
impact will be.

                           PREPARED STATEMENT

    And let me conclude with this, if I might, and put on my 
police board hat for a second. I sat in Chief Morse's chair and 
our Police Board strongly supports what he is doing. We are as 
disappointed, probably less so than Phil is, on the missteps in 
his budget. But I think Phil Morse and his team are putting the 
department in the right direction, and we can get through this 
error. I stand and the Police Board stands firmly behind Phil.
    I look forward to your questions. Thank you.
    Senator Nelson. Thank you. I will do what I can to get my 
colleagues to be less demanding.
    Remember, my name is Benjamin not Merlin.
    [The statement follows:]
                Prepared Statement of Terrance W. Gainer
                              introduction
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Sergeant at Arms (SAA) has made over the 
past year and our plans to enhance our contributions to the Senate in 
the coming year.
    For fiscal year 2011, the Sergeant at Arms respectfully requests a 
total budget of $239,286,000--an increase of $15,685,000 (or 7 percent) 
over the fiscal year 2010 budget. This request will allow us to 
maintain and improve the level of service we provide to the Senate 
community. It will also fund the development and maintenance of 
business and network security applications, among other support 
services. The Appendix accompanying this testimony elaborates on the 
specific components of our fiscal year 2011 budget request.
    In developing this budget and our operating plans, we are guided by 
priorities framed in our Strategic Plan to include ensuring the United 
States Senate is as secure and prepared for an emergency as possible 
and providing the Senate with outstanding service and support, 
including the enhanced use of technology.
    Our accomplishments in the areas of security and preparedness, 
information technology, and operations are impressive. This year, I am 
pleased to highlight some of this office's activities, to include the 
furtherance of our efforts toward enhanced systems for better 
communication across the Hill during emergencies; added training 
courses and instruction on emergency preparedness, including personal 
preparedness at home; updated pandemic plans; and exercises to test our 
abilities to work remotely. Our IT successes included a 99 percent and 
better on-time arrival for our IT installation team and customer 
surveys that revealed a 96 percent rating of satisfactory or excellent 
in resolution of our Help Desk calls. We expect this level of 
performance to continue through fiscal year 2011 and always strive for 
perfection. Our robust messaging infrastructure processed approximately 
247 million e-mail messages during the past calendar year. We also 
supported and enhanced the Senate's video conferencing capability. We 
enhanced security technology for devices used during international 
travel, enhanced secure video conferencing, and continued to test our 
ability to support mission-essential systems under adverse conditions. 
In other services, our Cabinet Shop repaired and refinished nearly 200 
pieces of furniture--a 130 percent increase from the previous year--and 
designed, built, and installed 129 pieces of furniture, a 42 percent 
increase. Our Printing, Graphics and Direct Mail branch utilized the 
latest technology in digital printing to produce 6.7 million letters, 
an increase of 36 percent. In 2009, PGDM printed 9,434 posters for use 
on the Floor during debate.
    My organization continues to be a good steward of taxpayers' 
dollars as we continue to elevate our performance. Our productivity 
increased to unprecedented levels, exemplified by the Senate Post 
Office processing the most mail in over a decade with four fewer 
people. With the Senate being in session for more days during 2009 than 
any year since 1995, our Senate Recording Studio, Doorkeepers, 
Appointment Desks and Media Galleries generated more broadcasts, 
assisted more visitors and facilitated more media than at any time in 
the Senate's history. Last year, for example, Senate Floor proceedings 
telecasts increased by 44 percent; the number of Senate television 
productions doubled to 2,749, radio productions increased by 38 percent 
and Senate committee hearing broadcasts increased by 21 percent. We 
accomplished this increase in our efficiency through our dedicated 
staff improving processes, using improved technology, and leveraging 
existing resources--not by increasing staff. Our customer satisfaction 
and employee morale levels have never been higher. All of this is to 
say that the Sergeant at Arms Team is working toward the vision of our 
Strategic Plan: Exceptional Public Service . . . Exceeding the 
Expected.
    Assisting with all of the efforts of the Office of the Sergeant at 
Arms is an outstanding senior management team including Drew Willison, 
who serves as my Deputy; Administrative Assistant Rick Edwards; 
Republican Liaison Mason Wiggins; General Counsel Joseph Haughey; 
Senior Assistant Sergeant at Arms for Police Operations, Security and 
Emergency Preparedness Michael Heidingsfield; Assistant Sergeant at 
Arms and Chief Information Officer Kimball Winn; Chief Financial 
Officer Christopher Dey; and Assistant Sergeant at Arms for Operations 
Bret Swanson. The many goals and accomplishments set forth in this 
testimony would not have been possible without this team's leadership 
and commitment.
    The Office of the Sergeant at Arms also works with other 
organizations that support the Senate. I would like to take this 
opportunity to mention how important their contributions have been in 
helping us achieve our objectives. In particular, we work regularly 
with the Secretary of the Senate, the Architect of the Capitol (AOC), 
the Office of the Attending Physician, and the United States Capitol 
Police (USCP). When appropriate, we coordinate our efforts with the 
United States House of Representatives and the agencies of the 
Executive and Judicial Branches. I am impressed by the people with whom 
we work and pleased with the quality of the relationships we have built 
together.
    I am very proud of all the men and women of the Sergeant at Arms 
team who help keep the Senate running. While serving as Sergeant at 
Arms, I have seen their great work and devotion to this institution. 
The employees of the Office of the Sergeant at Arms are among the most 
committed and creative in government.
    As always, my staff and I are grateful for the support and guidance 
of your subcommittee, the full Committee and also the Senate Committee 
on Rules and Administration.
        police operations, security, and emergency preparedness
    The Police Operations, Security, and Emergency Preparedness (POSEP) 
division of the Office of the Sergeant at Arms represents the 
integrated plans and programs for:
  --Successful execution of law enforcement support and coordination,
  --Security of the Senate as both an institutional body and a campus,
  --Protection of Members and staff in the District of Columbia and 
        respective state offices,
  --Counterterrorism measures taken to physically guard against attack,
  --Continuous Senate operations during minor or major disruptions, and
  --Necessary testing, training, and exercising in preparation for any 
        catastrophic event.
Contingency and Emergency Preparedness Operations
            Emergency Communications and Accountability
    The Senate collaborated with the House Sergeant at Arms' Office of 
Emergency Management to jointly procure and install the WebFusion 
software application for use in our emergency operations centers. The 
Senate and House are the first Federal entities to connect their WebEOC 
(Web Emergency Operations Center) applications using WebFusion within 
and between their departments. As a result, the Senate, House, and 
Government Accountability Office can now seamlessly share information 
during special events and emergency incidents.
    The ability to account for Senators and staff remains a priority in 
all emergency plans and evacuation drills. Several years ago, we began 
to improve procedures for offices to report accountability information 
to the USCP and SAA quickly and accurately using proximity card-enabled 
laptops and a BlackBerry-based application that allows office emergency 
coordinators to account for staff remotely. The backbone of this 
capability is the Accountability and Emergency Roster System (ALERTS), 
which allows each office to manage staff rosters and designate 
individuals receiving e-mail and phone alerts. Senate staff and USCP 
personnel are trained to use ALERTS during personalized and classroom 
sessions.
    We continued to improve notification and communication programs 
this year to ensure devices and systems are ready to support the Senate 
during local or large-scale emergencies. The primary alert and 
notification system for Senate ALERTS provides a single interface for 
delivering emergency e-mail, Personal Identification Numbers (PIN), and 
voice messages to the Senate population. AIRCON procedures for the 
fourth floor of the Capitol were improved.
    In conjunction with the USCP, Secretary of the Senate, party 
secretaries, and other stakeholders, we conduct monthly Senate ALERTS 
tests for staff and biannual tests for Senators. These tests are 
designed to ensure our emergency messaging system is reaching all 
intended recipients and transmitted through e-mail, PIN, voice, 
annunciator, and public address systems. Additional capabilities to be 
implemented this year include an emergency alert system that will 
provide a text and/or voice messaging service broadcast over existing 
and new Senate cable television network channels. The system's capacity 
was recently demonstrated to the Committee on Rules and Administration 
to finalize standard operating procedures prior to use.
            Training and Equipment
    Three distinct areas serve as the foundation of our training 
program and provide essential knowledge regarding office emergency 
coordinator responsibilities, emergency preparedness basics, and 
emergency equipment use. Additional training courses focus on the 
specialized features of emergency preparedness on the Capitol campus. 
Our staff conducts personalized training covering such topics as 
accountability, shelter-in-place, evacuations, and internal relocation. 
One hundred sixty training sessions were conducted in 2009 to train 
5,300 staff. We also recognize staff commitment though our newly-
established Office Emergency Coordinator Certificate Program. Staff 
awareness and personal preparedness outside the workplace has been an 
equally important goal for which the Personal Preparedness Plan 
Tutorial was refined to provide step-by-step planning instructions that 
allows staff to create customized preparedness plans. We released an 
updated version of the Roadmap to Readiness in 2009 and included an 
Emergency Response Guide--a condensed, portable version of critical 
emergency information.
    Each office receives an array of emergency equipment that is 
distributed, inventoried, and maintained by emergency preparedness 
staff annually. The caches include escape hoods, Victim Rescue Units, 
Wireless Emergency Annunciators, and emergency supply kits. Equipment 
accountability and functionality is ensured through testing and 
replacement of expired items such as batteries, food, and water. Over 
18,800 escape hoods are currently deployed throughout the Senate. This 
number includes both adult and baby escape hoods located in Senate 
offices and public caches. Additionally, we positioned 1,229 Victim 
Rescue Units alongside escape hood bags and in emergency supply kits.
    Nearly 1,600 Wireless Emergency Annunciators are deployed 
throughout the Senate complex. These devices allow the USCP to provide 
verbal instructions to staff during emergencies and other significant 
events and to provide periodic updates. A squelch issue reported by 
numerous Senate offices was resolved through software and charger base 
upgrades completed by January 2010 under warranty at no cost to the 
Senate and with limited interruption to offices. This solution has 
improved overall system functionality (reception, audibility) and 
customer satisfaction throughout Senate office buildings.
            Emergency Plans, Operations, and Facilities
    Emergency plans emphasizing life safety and continuity of 
operations after a disaster continue to be strengthened and fortified. 
All new Member offices will receive assistance in developing emergency 
action procedures, taking into account that many of these offices will 
initially be assigned temporary office spaces. When completed, each new 
office will have a functional emergency action plan, established 
primary and secondary evacuation routes, mobility-impaired evacuation 
procedures, and a complete collection of emergency contact records.
    Senate SAA and House planners joined forces with the U.S. Capitol 
Police's Emergency Management Division and the AOC to establish 
procedures in response to respiratory threats requiring the use of 
internal relocation sites. Select facilities throughout the Capitol 
complex have been structurally improved and modified to allow for short 
term (2-3 hour) sheltering. Fifty-eight Senate office internal 
relocation plans were updated with general information and an 
additional 65 offices received internal relocation assignments. All 
Senate offices now have plans in place. Signage and increased training 
have improved awareness of internal relocation sites and procedures.
    We developed a new Continuity of Operations (COOP) planning 
template for committees in addition to a new program to review existing 
Senate office plans that are more than 2 years old. This initiative has 
resulted in more than 80 percent of D.C. Member offices being equipped 
with updated COOP plans that will allow operations to continue in the 
event of relocation. A program has also been implemented to provide 
assistance in developing and executing tabletop exercises for D.C. 
Member offices to test their published plans. This capability allows 
offices to discuss individual roles and responsibilities that must be 
performed in order to continue legislative and constituent operations 
offsite. The Living Disaster Recovery Planning System is a new software 
tool that is being tested and piloted. It will allow Senate offices to 
quickly develop COOP plans that denote essential functions and vital 
records needed during a COOP incident and store them electronically.
            Exercises
    A comprehensive exercise program is structured to ensure Senate 
plans are practiced and validated regularly. The Sergeant at Arms and 
Secretary of the Senate conduct several joint exercises annually with 
the USCP, AOC, Office of Attending Physician, party secretaries, and 
other key Congressional stakeholders. A new exercise support contract 
was successfully put into place with no interruption to existing 
services. This year's exercise plan is designed to maintain and 
strengthen existing capabilities while addressing emerging needs and 
solutions. A total of eight Senate-wide exercises, four tabletops or 
guided discussion exercises, and four functional exercises were 
completed in 2009. Additionally, a Special Events Planning Guide and 
professional development and training program for security, 
contingency, and emergency preparedness staff have been developed for 
implementation in 2010. We successfully executed a telecontingency 
exercise for Pandemic (H1N1) 2009 and updated pandemic plans to reflect 
lessons learned from the spring 2009 outbreak. Additionally, we 
distributed pandemic health kits and telecommuting guidelines to 
facilitate preparation.
    The office conducted ``no-notice'' exercises to test select 
preparedness functions at various locations in partnership with the 
USCP, Office of Attending Physician, Secretary of the Senate, AOC, 
Committee on Rules and Administration, and several entities within the 
U.S. House of Representatives. The general exercise format included 
functional capabilities demonstrations and tabletop scenarios designed 
to test the Senate's ability to function during an event that requires 
relocating to alternate facilities or contingency sites. After-action 
reports were generated after each exercise to document lessons learned 
for future plan improvement.
Law Enforcement and Security Operations
            Congressional Delegations
    Law Enforcement and Security Operations supports Senators and their 
staff as they travel overseas to conduct Senate business by providing 
security consultation services to prospective travelers in 
collaboration with the U.S. Department of State, USCP, and Secretary of 
the Senate. Actual budgetary requirements remain relatively low in this 
area but must be included in annual requests to support the security 
responsibility vested in the SAA organization.
            State Office Security and Preparedness Programs
    State office programs provide a level of security and preparedness 
in participating state offices similar to D.C. offices. There are over 
400 state offices, varying from single to multiple staff offices, 
located everywhere from commercial storefronts to Federal courthouses. 
Several violent incidents in and around Federal buildings and offices 
and numerous high-profile and contentious issues arose in 2009, making 
these programs critical even with their voluntary implementation 
status. To combat these threats, offices receive equipment, training, 
and consulting for secure reception areas, access control, and duress 
and burglar alarms.
    One hundred and one Senate state offices received assistance in 
completing a Comprehensive Emergency Plan (CEP) in 2009. The plan 
combines security, emergency preparedness, and continuity of government 
processes into one document that meets the requirements of the 
Congressional Accountability Act. Additionally, all new state offices 
received program briefings and emergency equipment and supplies similar 
to D.C. offices. Pandemic (H1N1) 2009 information was promptly 
disseminated to state offices and approval from the Committee on Rules 
and Administration allowed state offices to procure supplies to combat 
the spread of the virus. The focus will turn to providing an improved 
online software tool for creating CEPs and offering additional 
preparedness classes online in 2010.
    The State Office Security Enhancement Program provided security 
enhancements in 65 Senate state offices in 2009. These enhancements 
included building secure reception areas where visitors can be screened 
for signs of hostility, intoxication, etc., before allowing them into 
the work space; duress buttons; closed-circuit cameras with digital 
video recorders; burglar alarms; and other items which provide 
increased security. To date, the program has provided security 
enhancements in 77 percent of offices located in commercial space and 
58 percent of offices located in Federal buildings. Additionally, over 
300 state office alarm systems were tested and inspected. The focus 
will turn to utilizing a new all-hazard risk assessment to survey all 
state offices and offer security enhancements to non-participating 
offices in 2010. Collaboration with representatives from the USCP, 
General Services Administration, Federal Protective Service, and the 
U.S. Marshals Service will continue as will onsite visits.
            Senate Campus Access Accommodations
    During 2009, we collaborated with the USCP to coordinate and 
approve over 259 requests for vehicles requiring special access to the 
Senate campus. This total does not include the military and government 
arrivals that were also organized. Requests for access continue to grow 
with the opening of the Capitol Visitor Center (CVC). Our organization 
works closely with our House counterparts to coordinate access on both 
sides of Capitol Hill for groups with special needs. This service 
involves working directly with Member offices and their constituents to 
help resolve accessibility issues and create memorable, meaningful, and 
safe trips to the Hill without compromising security. The program's 
webpage was recently updated to better facilitate accessibility 
requests from Senate offices.
            USCP Command Center Support
    To refine communication between the USCP and the Senate community 
during critical incidents, POSEP staff monitor and support the SAA 
Command Center Duty Desk while the Senate is in session.
            Campus Security Vulnerabilities
    The SAA, USCP, U.S. Secret Service and the Defense Threat Reduction 
Agency continue to identify and mitigate security vulnerabilities 
throughout the Senate complex. Area-specific security experts are 
dedicated to identifying vulnerabilities and implementing solutions. 
The Senate's physical presence extends well beyond Capitol Hill and 
into Senate state offices across the country.
                         information technology
Enhancing Service, Security and Stewardship
    We continue to provide a wide range of effective information 
technology solutions to facilitate the Senate's ability to perform its 
legislative, constituent service, and administrative duties; to 
safeguard the information and systems the Senate relies upon; and to be 
ready to respond to emergencies and disruptions. As in our other areas, 
we also emphasize stewardship--the careful use of all our resources, 
including the funding we are provided, our personnel and the external 
resources that we consume--in all aspects of our information technology 
operation.
    As we do each year, we have updated and are performing under our 2-
year Information Technology Strategic Plan. The current revision, under 
which we will be operating in fiscal year 2011, continues to emphasize 
our five strategic information technology goals and the supporting 
objectives that drive our information technology programmatic and 
budgetary decisions:
  --Secure.--A secure Senate information infrastructure.
  --Customer Service Focused.--A customer service culture, top-to-
        bottom.
  --Effective.--Information technology solutions driven by business 
        requirements.
  --Accessible, Flexible & Reliable.--Access to mission-critical 
        information anywhere, anytime, under any circumstances.
  --Modern.--A state-of-the-art information infrastructure built on 
        modern, proven technologies.
    Our fourth information technology strategic goal--``Accessible, 
Flexible & Reliable''--may have the most impact of the five goals. The 
other goals might be considered self-evident, and we certainly spend a 
great deal of effort on them, but this fourth goal undergirds 
everything we do from a technology standpoint. We must ensure that 
almost every system and every service we deploy can withstand 
disruptions to our operating environment; can be reconfigured, if 
necessary, to cope with disruptions; and can be used regardless of 
whether the person trying to use it is located within one of our spaces 
or elsewhere. We continuously re-evaluate existing services and systems 
to identify areas for improvement and make those improvements as soon 
as we can, in an effort to ensure the Senate can continue to do its 
work under any circumstances.
    From a budgetary standpoint, more than half of the Chief 
Information Officer (CIO) organization's fiscal year 2011 request will 
go to direct support of offices through economic allocations, 
installing and supporting the equipment they acquire through the 
economic allocation, and for other programs that benefit offices 
directly. Another third will be devoted to providing services at the 
enterprise level, such as information security, the Senate data 
network, electronic mail infrastructure, and telephone systems. The 
remainder is almost equally divided between supporting the Secretary of 
the Senate with payroll, financial management, legislative information, 
and disclosure systems and our own administrative and management 
systems.
Enhancing Service to the Senate
            Customer Service, Satisfaction, and Communication
    Our information technology strategic plan stresses customer service 
as a top priority, and we actively solicit feedback. We solicit 
customer feedback for every Help Desk ticket opened. In major contracts 
that affect our customers, we include strict service levels that are 
tied to the contractors' compensation--if they do well, they get paid 
more; if they do poorly, they get paid less. For instance, during the 
past year, the percentage of on-time arrivals for the IT installation 
team never dropped below 99 percent. The percentage of IT Help Desk 
calls that were resolved during the initial call averaged 54 percent, 
and 96 percent of customer surveys rated the IT Help Desk and 
installation services as either very satisfactory or excellent. We 
expect this excellent level of performance to continue through fiscal 
year 2011.
    Also in fiscal year 2011, we will continue to communicate 
effectively with our customers through a well-developed outreach 
program that includes information technology newsletters; periodic 
project status reviews; encouraging customer participation in 
information technology working groups; weekly technology and business 
process review meetings with customers; and joint monthly project and 
policy meetings with the Committee on Rules and Administration, the 
Senate Systems Administrators Association, and the Administrative 
Managers' Steering Group.
            Robust, Reliable and Modern Communications
    We provide modern, robust, and reliable data network and network-
based services that the Senate relies upon to communicate 
electronically within and among D.C. and state offices, to and from 
other Legislative Branch agencies, and through the Internet to the 
public, other agencies and organizations.
    We spent a good portion of this past year enhancing the data 
network and the services it delivers in a number of ways to ensure they 
do, and will continue to, meet the evolving and increasing needs of the 
Senate. We will maintain these efforts in fiscal year 2011 and beyond.
    We made several upgrades to our network on Capitol Hill to improve 
reliability and respond to the growing demands posed by the 
proliferation of multimedia network traffic. We have tripled the amount 
of Internet bandwidth available to the Senate and, through the use of 
new contracts, are saving approximately $350,000 per year. We expect 
that bandwidth demands will continue to grow in fiscal year 2011 and 
that we will be able to meet them.
    As part of our ongoing effort to improve the ability of state 
office staff to work more effectively, we awarded a new contract for 
the wide-area network services that support them, and began the 
installation of optimization equipment, which compresses and caches 
data packets to deliver faster response to state office staff. The new 
services contract has lower costs for the existing services, the 
savings from which we will use to improve network speeds to those state 
offices that have the greatest requirement for them. In fiscal year 
2009, we invested $664,000 in the optimization technology, which we are 
installing initially in approximately 100 state offices. Our fiscal 
year 2010 budget includes funding for an additional 100 units, the 
locations of which will be determined by identifying the sites most 
likely to benefit from performance gains. We expect these investments 
to yield savings through cost containment in fiscal year 2011 and 
beyond by reducing the demand for increased bandwidth through the use 
of optimization, and by reducing the cost of increased bandwidth 
through the terms of the new contract.
    We are working with other Legislative Branch agencies to improve 
interagency communication technology by implementing and securing an 
upgraded Capnet network that connects all the agencies, with the goal 
of making this network the preferred path for all interagency 
communication.
    In addition to our robust messaging infrastructure that processed 
approximately 247 million Internet e-mail messages during the past 
calendar year, we also support effective communication through the use 
of video conferencing. During the last and current fiscal years, we 
enhanced our video conferencing infrastructure to allow participation 
in a high-definition video conference from virtually anywhere in the 
world using an inexpensive Web camera and the Internet. We also 
developed capabilities for offices to easily create video content for 
their websites or approved external sites using the video 
teleconferencing equipment they own.
    We continue to make progress toward modernizing the Senate's entire 
telecommunications infrastructure to provide improved reliability and 
redundancy in support of daily and emergency operations, and a more 
flexible and robust infrastructure by taking advantage of technological 
advances. We will be replacing systems such as the voice messaging, 
group alert, and operational support and billing systems over the 
coming year, while we continue to move forward with the replacement of 
the main telephone switch.
            Web-Based and Customer-Focused Business Applications
    As in past years, we continue to add functionality to TranSAAct, 
which is our platform for moving business online. Based on the business 
requirements of offices and the Committee on Rules and Administration, 
we continue to develop TranSAAct to eliminate paper-based manual 
processes and move them to the Web. Because it is built on an 
extensible modern database framework, TranSAAct allows indefinite 
expansion as new requirements are identified and fulfilled. We look 
forward over the coming months and years to moving additional business 
process to the Web, delivering increasing functionality to office 
administrative staff, and reducing the time, paper and errors 
associated with the current manual processes.
            Showcasing and Promoting Modern Information Technology in 
                    the Senate
    We will continue to highlight new technologies in the Information 
Technology Demonstration Center through our well-attended demo days, 
which feature live demonstrations of new and emerging technologies. 
After products are tested and validated in our technology assessment 
laboratory, they are then available for offices to try in the demo 
center.
    In order to perform technology assessments, feasibility analyses, 
and proof of concept studies, and to ensure we are considering 
technologies that will directly support the Senate's mission, we 
continue to improve the capabilities in our technology assessment 
laboratory. Technologies and solutions are vetted and tested here prior 
to being announced for pilot, prototype, or mass deployment to the 
Senate. To ensure we focus on the most relevant technologies and 
solutions, the Technology Advisory Group, consisting of CIO staff and 
our customers, performs high-level requirements analysis and 
prioritizes new technologies and solutions for possible deployment in 
the Senate. Among the technologies that we look forward to supporting 
over the next few months are the Apple iPhone and a means of 
transferring large files outside of the e-mail system. Software is 
becoming available that will allow us to support the Apple iPhone with 
the security, reliability and performance that our customers expect. 
Providing a solution to the problem of transferring large files will 
allow media-based and other large files to be moved in a secure and 
reliable fashion.
    We will continue or intensify these efforts in fiscal year 2011 to 
ensure that the Senate is always well-equipped to perform its 
functions. To keep our customers informed of our efforts, we publish 
the results of our studies on the emerging technology page of the CIO's 
area on Webster.
            Enhancing Security with Accessible, Flexible and Reliable 
                    Systems
    As previously mentioned, we build security, accessibility, 
flexibility and reliability into every system and service. In addition 
to those efforts, there are two projects to specifically mention.
    This past year, we expanded the BlackBerry scanning program 
designed to detect security intrusions on wireless devices used during 
international travel. By increasing our education efforts, we found 
potential security compromises on BlackBerry devices that were taken to 
foreign countries. Our strong partnership with the National Security 
Agency helped mitigate the risk to the Senate once the discrepancies 
were found. We also installed a secure voice conferencing system that 
allows up to 20 participants using secure telephone equipment to join 
in a secure conference call. We plan to expand the system in the coming 
fiscal year to allow up to 60 participants.
            Alternate Sites and Information Replication
    We continue to test our technology in scenarios in which we are 
unable to access our primary infrastructure and primary work locations. 
This includes the simulated loss of our primary data and network 
facilities, as well as staff work space. All mission-essential Senate 
enterprise information systems continue to be replicated at our 
Alternate Computing Facility, using our upgraded optical network and 
storage area network technology. We conduct a variety of exercises to 
ensure we are prepared to cope with events ranging from a burst water 
pipe, to a pandemic, to an evacuation of Capitol Hill. In August, we 
conducted an unprecedented exercise by shutting down most of the 
Senate's mission-critical systems at our primary site, letting them 
fail over to or bringing them up at our alternate site, and running 
them at the alternate site for a week before reversing the process. 
These exercises demonstrate our ability to support mission-essential 
systems under adverse conditions and the ability to support substantial 
numbers of people working remotely.
    We also will continue to invest in storage systems that 
automatically replicate information from our primary site to our 
alternate site. These storage systems support our mission-critical 
systems as well as individual offices.
            Securing our Information Infrastructure
    As a result of the information security initiatives that we 
completed during fiscal year 2009, and were described in last year's 
testimony, and continuing information sharing relationships we have 
with other government agencies, we improved our insight into the 
sources and the dynamic nature of global cyber threats. This improved 
insight, combined with the flexible technologies we use in our 
information security operations centers, allows us to monitor and 
quickly respond to changes in the level of operational risk present in 
our information technology environment.
    We continue to improve our active prevention and detection 
capabilities by deploying technologies and processes that help detect 
and prevent most malware infections and attempts to exploit 
vulnerabilities. This capability to detect and prevent attacks in real 
time is crucial in light of attacks targeting previously unknown 
vulnerabilities (``zero-day attacks''). These processes and 
technologies shield information technology assets from attack, thereby 
reducing the operational impact of downtime on offices and lowering 
remediation costs.
    Similar to security in the physical world, protecting information 
and technology resources requires vigilance and the capability to 
detect and deter attacks. We operate in an escalating attack 
environment in which the threats to our information infrastructure are 
increasing in both frequency and sophistication. This is not just our 
own assessment based on our direct experience but also that of the 
Director of National Intelligence, who, in his testimony before the 
Senate Select Committee on Intelligence on February 2, 2010, stated:

    ``Malicious cyber activity is occurring on an unprecedented scale 
with extraordinary sophistication. While both the threats and 
technologies associated with cyberspace are dynamic, the existing 
balance in network technology favors malicious actors, and is likely to 
continue to do so for the foreseeable future. Sensitive information is 
stolen daily from both government and private sector networks, 
undermining confidence in our information systems, and in the very 
information these systems were intended to convey. We often find 
persistent, unauthorized, and at times, un-attributable presences on 
exploited networks, the hallmark of an unknown adversary intending to 
do far more than merely demonstrate skill or mock a vulnerability. We 
cannot be certain that our cyberspace infrastructure will remain 
available and reliable during a time of crisis. Within this dynamic 
environment, we are confronting threats that are both more targeted and 
more serious. New cyber security approaches must continually be 
developed, tested, and implemented to respond to new threat 
technologies and strategies.''

    Our raw numbers bear this out, so we must remain on guard. In 2008, 
we averaged 8 million network security events per month; in 2009, 1.6 
billion per month; and so far in 2010, 1.8 billion per month. 
Fortunately, automated systems detect and defend against the vast 
majority of those events.
    The threats we face include exposure to attacks that continuously 
target vulnerabilities using a variety of malware infection vectors, 
including viruses, worms, trojan horses, spyware, spybots, adware, 
keyloggers, and rootkits. During the last calendar year, this general 
threat environment shifted in focus toward application software that is 
vulnerable without the latest patches. Over the course of the year, 
vulnerabilities in products as diverse as Adobe Acrobat, Oracle Java, 
Microsoft Office, and Internet Explorer were increasingly targeted by 
varied means of infection. Many such attacks were facilitated by social 
engineering. As we are one of our nation's core government 
institutions, we continue to see not only general attacks that affect 
all Internet-connected organizations, but also sophisticated and 
targeted attacks originating from numerous foreign and domestic 
sources.
    Last year, the Senate experienced an increase in spear-phishing 
attacks. These attacks used socially engineered e-mail messages to 
invite specifically-targeted Senate staff members to open malicious 
attachments or links. We began detailed tracking of this trend in 
August 2009 and through December saw an average of 18 attacks per 
month, of which approximately 4 per month resulted in successful 
delivery of malicious content. The attacks were widespread during this 
period and included the offices of 87 Senators, 13 committees, and 7 
others.
    Countering the risks inherent in this evolving threat environment 
requires situational awareness and robust processes, as well as 
continual research, testing and deployment of emerging security 
technologies. Recent infections have been highly virulent in nature and 
difficult to detect because they exploit newly-identified or 
previously-unknown vulnerabilities. These attacks are probably launched 
by determined and sophisticated adversaries, and we have very little 
advance notice of new types of attacks. Responding to these attacks 
requires significant investment in flexible security control structures 
and processes that can be rapidly revised and adjusted in response. As 
part of this effort, we strengthened our external relationships and use 
of external sources to improve our overall threat awareness.
    As the global threat environment shifts and intensifies, we 
continually modify our processes and technologies to better protect the 
Senate's information and IT infrastructure. We also continue to reach 
out to Senators and staff to educate them as to securing their 
information and avoiding exploitation.
            Enhancing Stewardship through Fiscal and Environmental 
                    Responsibility
    Stewardship of our resources is intertwined in everything we do, as 
well as being a driving force for some of our activities. We continue 
to look for ways to improve our processes or technologies to save time, 
money, electricity, paper, or other resources. Our CIO organization 
consistently and continuously improves the services offered to our 
customers while seeking only modest increases in funding. Many 
initiatives save offices hundreds or thousands of dollars in costs that 
would otherwise be borne out of their official accounts. As most of 
these initiatives save money due to a reduction in the purchase of some 
commodity, they also fit in with our efforts toward environmental 
stewardship. Some examples of our efforts to enhance fiscal and 
environmental stewardship are:
  --Continuation of our virtualization efforts, where we now reduce 
        energy and maintenance and support costs by running more than 
        170 of our servers in a virtual environment. We will continue 
        an aggressive campaign to virtualize servers until every server 
        that can be virtualized is.
  --Offices, especially those of the new Senators, have taken great 
        advantage of our virtual machine infrastructure to centrally 
        host their file and application servers on shared hardware at 
        our primary and alternate facilities, which greatly increases 
        server hardware efficiency, and through system duplication and 
        data replication, offers enterprise class data redundancy and 
        recovery in the event of a critical local failure or crisis. 
        The virtual solution also relieves offices of considerable 
        noise, excess heat, and will increase usable office working 
        areas for staff. It removes the single point of failure from 
        existing office servers and meets continuity of operations and 
        data replication requirements for approximately half the cost 
        of existing solutions. To date, we are hosting 44 Senate office 
        file servers on our virtual infrastructure. Virtual servers 
        running in the data center consume only 15 percent of the 
        energy of a comparable number of physical servers, reducing 
        power consumption and air conditioning requirements and saving 
        Senate funds while enhancing our ability to provide reliable 
        and redundant services. Fewer servers used by the Senate also 
        means fewer servers will need to be manufactured and, 
        therefore, fewer servers will have to be disposed of at their 
        end of life, which is greening on a national scale.
  --We used our catalog to highlight the energy-efficient aspects of 
        our supported information technology and general office 
        equipment, and we conducted ``green'' demo days where vendors 
        could answer questions about their products' environmental 
        friendliness.
  --We continue our efforts to dispose of surplus electronic equipment 
        through such programs as the Computers for Schools program. 
        Last year we fulfilled 28 Member office requests and packed and 
        shipped 345 surplus computers to eligible public schools. We 
        send other surplus equipment to the General Services 
        Administration for redistribution or resale.
  --We also ensure that the devices we recommend to the Senate meet the 
        applicable EnergyStar guidelines and, where feasible, the 
        guidelines for the responsible manufacture of information 
        technology equipment.
                               operations
Capitol Facilities
    SAA Capitol Facilities serves the Senate community by providing a 
clean and professional work environment through its Environmental 
Services Division. This division moves Capitol furniture, provides 
special event setups in the Capitol--including the ten event spaces in 
the Senate expansion space of the CVC--and completes other service 
requests. Given the cyclical nature of requests for event setups and 
furniture movement, Capitol Facilities was able to improve labor cost 
efficiency by supplementing our full-time work force with contracted 
labor to meet customer demands during peak request periods. This 
resulted in eliminating five vacant full-time positions in the 
Environmental Services Division, realizing a first-year cost savings of 
approximately $150,000.
    In addition to supporting the administrative needs of Capitol 
Facilities, the Administrative Division provides event planning 
services to the Senate community and their constituents. During the 
past year, they assisted in planning 1,188 events in the newly-opened 
Senate expansion space of the CVC, in addition to the 2,057 events in 
the Capitol event spaces. They also coordinated the 111th Congress 
Congressional tag distribution.
    The Furnishing Division provides framing services to all Senators 
and committees, custom cabinets and other high quality furniture, 
carpeting and draperies. Demand for framing services increased by 9 
percent over the previous year, while the response time from initial 
request to delivery decreased from an average of 6 weeks to 4 weeks in 
fiscal year 2009. Recycling furniture is being emphasized. The 
Furnishing Division also installed carpeting in 36 offices, including 
14 offices created due to expansion to the CVC. The renovation of the 
Senate Dining Room was a substantial project and included procurement 
of dining chairs, carpeting, draperies, and anteroom furniture, as well 
as the design and construction of five cabinets and a Victorian 
armoire, completed prior to the Presidential Inauguration.
Printing, Graphics, and Direct Mail
    The Printing, Graphics, and Direct Mail (PGDM) branch provides 
high-level, direct customer support to the Senate community in 
photocopying, graphic design, printing, mailing, archiving, logistics, 
and security. During fiscal year 2009, PGDM met a growing demand for 
Constituent Services System imaging by scanning, digitizing, and 
electronically transferring 1.4 million pages of constituent mail 
responses, an increase of 197 percent over fiscal year 2008. The 
production of charts was another area with a high interest during 
fiscal year 2009; PGDM handled this increase by utilizing upgraded 
equipment that eliminated multiple production steps that were required 
in the past. In fiscal year 2009, PGDM produced 8,052 charts, an 
increase of 20 percent over fiscal year 2008.
    PGDM is customer-focused and achieved high levels of customer 
satisfaction through maintaining reliable, easy-to-use copiers in 
convenient satellite copy centers, which produced over 7.7 million 
copies in fiscal year 2009. PGDM also maintained a high level of color 
printing, producing over 21.1 million color pages utilizing traditional 
offset printing and digital printing. Of the 21.1 million color pages, 
2 million were produced digitally, an increase of 33 percent over 
fiscal year 2008.
    PGDM saved the Senate over $2.2 million in postage costs by 
presorting 11.1 million pieces of Senate franked mail, a 2 percent 
increase over fiscal year 2008. PGDM continually reviews operations to 
ensure the most efficient use of Senate resources and to provide 
postage savings to Senate offices. To validate, correct, or remove bad 
addresses prior to mailing, new software systems were integrated in a 
number of processes. Addresses on constituent letters are validated or 
corrected before printing, mass mail address files are validated or 
corrected before addressing, and addresses are validated or corrected a 
final time while mail is being sorted and discounted. PGDM is testing a 
system to provide address correction and validation, and delivery 
tracking for shipping of constituent flag requests. PGDM's commitment 
to teamwork and excellent customer service extends to our Senate 
partners as well. The department's collaborative work with the 
Architect of the Capitol fulfilled 70,614 flag requests during fiscal 
year 2009 and, in tandem with the Government Printing Office, delivered 
over 2.5 million documents (Pocket Constitutions, Our Flag, Our 
American Government, etc.) to requestors.
    Through effective communication and teamwork, PGDM's Senate Support 
Facility upheld the SAA mission for operational security in fiscal year 
2009 by receiving 67,740 items from the USCP off-site inspection 
facility and transferring them to the Senate Support Facility. This 
eliminated 628 truck deliveries to the Capitol complex, while reducing 
traffic and allowing the USCP to focus on other safety aspects.
    As fiscal year 2009 was an election year, PGDM's ability to 
maintain a flexible and responsive organization enabled us to provide 
additional support for a variety of essential services. After the 
elections, PGDM's Logistics and Operations section assisted with 14 
office closings and relocated 4,169 pieces of office equipment. In 
addition, PGDM managed logistics for 12 repository shipments consisting 
of 10,180 boxes of documents. This repository shipping provided by the 
SAA resulted in a savings of $92,979 to Senate offices. PGDM's Printing 
and Mailing section shredded 3,705 boxes of documents, an increase of 
35 percent over fiscal year 2008.
    PGDM's contributions to a successful fiscal year 2009 Presidential 
Inauguration included printing, logistics, and security support. PGDM 
printed 9,000 letters for the Joint Committee on Inaugural Ceremonies 
to be included with Inauguration Invitation packets, which PGDM 
addressed and mailed at a discounted rate, saving $1,500 in postage. 
PGDM produced 237 signs or banners and 54 charts for a variety of uses 
from ceremony planning to crowd control. In support of security 
operations for the Inauguration, PGDM produced 200 Presidential 
Inauguration booklets for SAA Law Enforcement and Security Operations, 
4,000 Threat Assessment action plans and 5,000 vehicle security 
placards with reflective labels for the USCP. PGDM's Logistics and 
Operations section provided support by assembling and disassembling 31 
viewing sites throughout the Capitol, setting up equipment for the 
Office of the Attending Physician on the west front of the Capitol, and 
receiving and delivering 50,000 invitations.
Central Operations
            Smart Card Programs--ID Office
    The implementation of Homeland Security Presidential Directive 
(HSPD) 12--Policy for a Common Identification Standard for Federal 
Employees and Contractors will significantly impact Senators and their 
staff whose offices are located in Federal buildings across the 
country. While Legislative Branch adoption of HSPD-12 is optional, 
compliance will allow Members and staff unhindered access to work 
freely within these facilities. We are currently collaborating with our 
Executive Branch counterparts to implement compatible access cards to 
paid staff beginning with the 112th Congress.
    Although a substantial cost is associated with system architecture, 
we continue to explore the advantages of Smart Card deployment. 
Sophisticated Smart Card credentials can provide multiple functions 
beyond current ``flash pass'' identification badges. While maintaining 
the proximity technology used in the USCP's current physical access 
control system, digital certificates placed on the cards may be used 
for encryption of personally-identifiable information exchanged with 
Executive Branch agencies in the processing of constituent casework. 
Within the Senate community, digital certificates may be used as 
digital signatures for financial documents and to facilitate secure, 
single network sign-on.
    The First Responder Authentication Credential system launched under 
the auspices of the Department of Homeland Security outlines issuing 
cards to individuals who require access to controlled areas during 
emergencies. We envision limited Senate staff receiving these badges at 
the beginning of the 112th Congress and are working with our 
Legislative Branch partners and other program administrators within the 
National Capital Region to determine the Senate's involvement in this 
program.
            Transportation and Fleet Operations
    Transportation and Fleet Operations safely and securely procures, 
manages, maintains and disposes of SAA vehicles; provides 
transportation and logistics solutions for offices; manages the Senate 
Parking Shuttle Service; and operates the parking sticker booth located 
in the Russell Garage. The SAA fleet, numbering 57 vehicles in fiscal 
year 2009, includes trucks, vans, buses and SUVs used to support the 
Senate community. Senate leadership vehicles are leased and 
administered by Fleet Operations under the Executive Lease Plan on a 
biannual basis. Transportation and Fleet Operations is responsible for 
completing work orders, equipment installations, tag/registration 
renewals and vehicle inspections for all fleet vehicles, performing 
over 400 of these services in fiscal year 2009. Fleet staff scheduled 
over 300 transportation requests and transported over 16,000 passengers 
through the SAA parking shuttle service in fiscal year 2009, while 
issuing over 8,500 permanent and temporary parking permits.
    We added 18 additional motorcycle parking spaces to the Thurgood 
Marshall Garage, Lot 12 and North East Drive. By altering existing 
parking spaces on First Street, NE (north of C Street), from parallel 
to angled spaces, we created eight additional parking for visiting 
government agency vehicles without negatively affecting available 
spaces for First Street permit holders.
    Transportation and Fleet Operations is a leader in ``Go Green'' 
initiatives with 24 flex E-85 fuel vehicles, two hybrids, and one 
electric vehicle. Fleet Operations will continue to explore use of 
alternative fuel vehicles and currently plans to purchase additional 
hybrid and all-electric vehicles in fiscal year 2010.
    To further the Senate's ``Go Green'' initiative by reducing fuel 
usage and harmful emissions, three electric Segways were purchased for 
parking enforcement. Representatives of the Segway Corporation and the 
D.C. Metropolitan Police Department trained and certified Parking and 
Fleet Operations employees in safe Segway operation. Use of Segways for 
parking enforcement resulted in an initial increase of over 25 percent 
in the number of parking violations issued. The number is now trending 
downwards as more and more drivers are ``taking heed'' and parking off 
campus or, if staff, in their assigned areas.
            Senate Parking Office
    The 31 Senate Parking Office employees are responsible for managing 
parking for over 2,500 parking spaces in 28 parking areas, maintaining 
accurate records for over 5,700 active permit holders, and providing 
transportation needs for Hill staffers, while insuring safety and 
security of the Senate campus. With no disruption in service to the 
Senate community, the Senate Parking Office relocated seamlessly in 
November 2009. To better serve the Senate community during morning and 
evening rush hours and to help accommodate the 100 non-reserved permit 
holders displaced by the AOC's closure of Lot 575, SAA parking shuttle 
service expanded to include extended hours and additional stops. These 
steps contributed to a 16 percent increase in ridership during the 
first full month of operation. Due to traffic restraints placed during 
the 2009 Inauguration, Fleet management organized bus transportation 
for Senate staffers to offer an alternative to taking Metro and 
driving.
            Photography Studio
    The Photography Studio provides photography and imaging services 
for Senate offices, capturing more than 83,000 photo images and 
producing more than 100,000 photo prints in fiscal year 2009. The 
Studio's popular image archiving service was used to scan, organize, 
and transfer more than 128,000 photo images for archiving purposes in 
fiscal year 2009. The Photography Studio is currently replacing the 
Photo Browser application with a fully supported digital asset 
management product that is well-architected and meets all modern, open 
architecture programming standards. Vendors are working with 
Photography Studio staff to finalize the configuration and 
customization of the Order Fulfillment Module and plan to pilot to 
Senate offices by March 2010.
            Senate Hair Care
    Senate Hair Care serves our customers by offering the latest trends 
in hair styling to Senators and thousands of customers, including staff 
and the general public. In fiscal year 2009, revenue increased by 
$25,290 (5.6 percent), the highest in 10 years. Continuing to build on 
the diverse customer base and supplying additional retail products and 
services, Senate Hair Care will remain a profitable and indispensable 
service offered by the SAA.
            Office Support Services
    During the past year, Customer Support assisted nine newly-elected 
and six appointed Senators in setting up their offices. Additionally, 
support of the Hart renovation project continued, as well preparations 
for the renovation of the Democratic Policy Committee Studio. The State 
Office Liaison negotiated 171 leases for state Senate offices, 
including 104 in new commercial space, 32 in new Federal buildings, and 
35 renewals. Both Customer Support and the State Office Liaison have 
begun preparations for the upcoming elections by ensuring that all 
documentation and procedures are current.
            Mail Processing
    Mail remains a primary medium for constituents to communicate with 
Senators and their staff. During 2009, the total volume of mail was 
significant, representing the most mail that the Senate has received 
and processed in over a decade. Our Senate Post Office received, 
tested, and delivered 20,853,000 safe items to Senate offices, 
including 14,400,000 pieces of United States Postal Service (USPS) 
mail; over 6,000,000 pieces of internal mail that were routed within 
the Senate or to or from other government agencies; 95,000 packages; 
and 277,000 courier items. Total mail and packages processed increased 
by 35 percent and the USPS delivered over 50 percent more mail to the 
Senate during 2009 than in 2008.
    Protecting the Senate and its staff is the SAA's highest priority. 
We work collaboratively with this Committee, the Committee on Rules and 
Administration, our science advisors, the USCP, USPS, the White House 
Office of Science and Technology Policy, and the Department of Homeland 
Security to develop safe and secure mail protocols, and created two of 
the best mail processing facilities of this type in the world.
    All mail and packages addressed to the Senate's Washington, D.C. 
offices are tested and delivered by Senate Post Office employees. The 
organizations that know the most about mail safety cite our highly-
trained staff and the Senate mail facilities as among the most 
efficient and secure in existence. We have been asked to demonstrate 
our procedures and showcase our facilities to other government 
agencies, including the Departments of Defense and Homeland Security. 
In many ways, our facilities have become the model for others.
    We also worked with this Committee and the Committee on Rules and 
Administration to build and operate one of the best facilities within 
the government to process time-sensitive documents that are delivered 
to the Senate. Our Courier Acceptance Site ensures that all same-day 
documents are X-rayed, opened, tested, and safe for delivery to Senate 
offices. The 277,000 items we processed during 2009 represented a 113 
percent increase as compared to the total items processed during 2008. 
This also represented the most documents processed at this facility 
since it opened in August 2006. We were able to absorb this additional 
volume through cross-training our existing staff and by instituting 
process improvements rather than increasing our workforce.
    Additionally, our organization worked collaboratively with our 
science advisors to introduce the first device designed to provide 
Senate staff who work in state offices a level of protection when 
handling mail. Our science advisors believe that the Postal Sentry, if 
used properly, provides the best level of protection to state offices 
and their staff should they receive mail containing a potentially 
harmful substance. I have requested that all Senate state staff utilize 
the Postal Sentry mail processing system whenever mail is opened in 
their offices.
    Despite the expansion of our capability and the significant 
increases in mail volume, we continue to be good stewards of taxpayer 
dollars. This is best evidenced by the initiatives we took in 2009 to 
further reduce our costs. During 2009, we implemented a technology 
solution to replace the manual ``clip and jog'' process that had been 
employed for the past 8 years. We worked with our science advisors to 
create a solution that would be less damaging to letter mail, without 
compromising safety to Senate offices. This process improvement enabled 
our Senate Post Office to reduce our full-time employees by four, 
without compromising safety or customer service.
    We compared our costs to other agencies and discovered that we have 
one of the most efficient and cost-effective operations of this type. A 
comparative analysis with similar organizations that contract out mail 
processing found that the Senate is able to process its mail for up to 
62 percent less costs than others.
            Capitol Visitor Center
    Calendar year 2009 marked the first full year that the Capitol 
Visitor Center was open. Many SAA departments were impacted as our 
volume of tasks escalated. And, despite the wide variance as to what to 
expect, I am pleased to report that all of the SAA departments involved 
with the CVC completed all of their tasks on time and within budget.
    Our office has been involved with the CVC since its inception. We 
worked collaboratively with others, including representatives of this 
Committee, to ensure that many of the operational aspects of the 
facility achieve desired results. Our participation and the challenges 
presented have been vast and varied, including, but not limited to 
security, hours of operation, transitioning the Capitol Guide Service, 
emergency preparedness, information technology, furnishings for the 
Senate side of the CVC, Senate Meeting Rooms setup and maintenance, bus 
routes, Capitol tour routes, coat checks, official appointments, 
accommodating visitors to the Senate Gallery, broadcast media 
infrastructure, ATM service, telephone service and other communications 
infrastructure.
    Over 2.3 million visitors experienced the CVC during 2009, more 
than doubling the number of visitors to the Capitol during 2008, and 
represented the most visitors in the Capitol in a decade. Feedback from 
our guests has been extremely positive. Each of our departments 
affected by the CVC adjusted its processes when this magnificent 
addition to the Capitol opened. The impacts to their operations were 
significant, yet by maximizing our resources, we were able to achieve 
desired results.
            Senate Appointment Desks
    To improve security and the flow of visitors to the Capitol, we 
expanded the Senate Appointment Desks by 100 percent by adding two 
desks in the CVC, one located near the main entrance and the other 
located outside of the Senate Meeting Rooms on the lower level. These 
two additions required four additional FTEs to staff the desks. 
Improved technology and process improvements achieved by the Senate 
Post Office enabled the transfer of four FTEs from the Senate Post 
Office to the Senate Appointment Desks in the CVC. This is another 
example where my office exercised fiscal responsibility by finding 
resources within our organization rather than increasing costs by 
adding to the compliment of employees assigned to the Sergeant at Arms 
organization.
    Our four Senate Appointment Desks collectively processed 174,484 
guests during 2009. The total badges issued were the most in a given 
year since the Appointment Desks were created over 25 years ago and 
represented a 135 percent increase in guests over 2008. Nearly 55,600 
guests entered through the CVC with its state-of-the-art security 
features and accommodations. Without the CVC, these guests would have 
entered through the North Door of the Capitol, waiting in line, and 
baring the elements. 70,099 guests entered via the Russell Appointment 
Desk, including 60,994 who were destined for the CVC. This represented 
a 912 percent increase over 2008 in the number of badges issued by the 
Russell Appointment Desk.
    Improving security by reducing the number of guests who enter 
through the Capitol's North Door was one of the goals for opening the 
CVC. The Capitol Appointment Desk reduced its number of guests by 28 
percent, as compared to 2008, to 48,787. This reduction of guests in 
the Capitol reduced wait time for entrance through the North Door of 
the Capitol, improved visitor flow, and reduced congestion within the 
Capitol proper.
            Senate Gallery Visitors
    We improved the visitor experience for those who want to witness 
Senate proceedings from the Gallery. We now process these guests 
through the CVC rather than through the Capitol's North Door. This 
process enhancement improved security by eliminating the long lines and 
congestion that had been commonplace throughout the Capitol. Our Senate 
Doorkeepers manage a staging room in the CVC that facilitates the 
collection of Gallery prohibited items and the movement of people in a 
secure and efficient manner.
    The number of visitors to the Senate Gallery increased to 226,690 
during 2009. Beginning in August 2009, our Senate Gallery remained 
opened during scheduled recesses for the first time since September 11, 
2001. 21,359 people visited the Senate Gallery during these recesses 
during the latter half of 2009. Our Gallery remains open during 
scheduled recesses for 2010.
    Even with the increase in visitors, the feedback has been extremely 
positive. Senate Gallery visitors have complimented our processes, 
including the elimination of long lines, waiting in the elements, the 
speed of gaining access to the Gallery, and the educational 
opportunities afforded by the CVC.
            Doorkeepers
    In addition to their work in processing visitors to the Senate 
Gallery, our Doorkeepers play an important role in supporting the 
Senate. This group of dedicated professionals remains on call to assist 
the Senate when needed. A primary role of our Doorkeepers is to support 
the Senate Chamber by providing access to those with Senate Floor 
privileges and enforcing the rules of the Senate. Additionally, our 
Doorkeeper team facilitates the needs of Senators, Senate Floor staff, 
and Pages. Despite the fact that our Doorkeepers' footprint of 
responsibility increased by over 70 percent, we were able to improve 
our performance by utilizing existing resources and by refining 
Doorkeepers' job descriptions. This was another opportunity where our 
team was able to make significant improvements without adding FTEs.
    The year 2009 proved to be one of the busiest and most demanding 
years in the history of the Senate Doorkeepers. Our Doorkeepers' work 
is yet another example where our process improvements and solid 
management principles have enabled us to expand our capability without 
adding FTEs. The Senate was in session for 191 days during 2009, 
including five Saturdays and four Sundays. This represents the most 
days that the Senate was in session for the past 15 years. 
Additionally, the Senate was in session for 25 consecutive days from 
November 30 through December 24, 2009. This consecutive day streak was 
the second longest in Senate history, superseded only in 1917.
    The past 3 years have been extraordinary in that the Senate has 
been in session an average of 188 days from 2007 through 2009. This 
represents a 25 percent increase to the 150 average numbers of days the 
Senate was in session from 1996 through 2006. The year 2009 was not 
only busy but also an extraordinary and historical year. Our 
Doorkeepers provided exceptional support for special events including 
the 56th Presidential Inauguration; the swearing-in of Senators elected 
during 2008; the swearing-in of new Senators who replaced Members who 
left office during 2009; the confirmation of Supreme Court Justice 
Sonia Sotomayor; and the impeachment of Samuel Kent.
    Our Doorkeepers facilitate the movement and seating of Senators 
during Joint Sessions of Congress conducted in the House of 
Representatives. During 2009 there were five Joint Sessions, including 
the counting of electoral ballots for the 2008 election; the 
President's initial address to Congress; the German Prime Minister's 
address to Congress; the British Prime Minister's address to Congress; 
and the President's address on healthcare.
    Congressional tributes and Congressional Gold Medal ceremonies 
require the services of Doorkeepers. During 2009, Doorkeepers 
facilitated the seating of Members and guests for President Lincoln's 
200th birthday; Days of Remembrance; unveiling of the bust of Sojourner 
Truth; the President Reagan statue dedication; 9/11 ceremony; the Helen 
Keller statue dedication; and the Senator Edward Brooke Congressional 
Gold Medal ceremony.
            Recording Studio
    Our Senate Recording Studio was one of the first departments to 
move into the CVC. Our facility has received accolades from guests 
since its opening, including Senate Leadership, Senators and their 
staff. The convenience of the Studio's location and proximity to the 
Senate Floor and Senate subway system please Senators and staff. The 
Studio is responsible for providing gavel-to-gavel coverage of Senate 
Floor proceedings, broadcasting Senate committee hearings, and 
providing radio and television production studios and equipment for 
Senators' use.
    The year 2009 represented one of the busiest years in the Recording 
Studio's history. Senate Floor proceedings telecasts increased by 44 
percent; the number of Senate television productions doubled to 2,749; 
radio productions increased by 38 percent; and Senate committee hearing 
broadcasts increased by 21 percent. Additionally, our Recording Studio 
produced Democratic Media Center and Republican Conference shows while 
their studios were being renovated. During this 2-week period, the 
Recording Studio produced 250 shows, representing a 635 percent 
increase from the Senate Recording Studio norm.
    The Committee Hearing Room Upgrade Project continued during 2009. 
Demand for additional committee broadcasts has been ever increasing, 
evidenced by a 21 percent increase in committee hearing broadcasts 
during 2009. In 2003, we began working with this Committee and the 
Committee on Rules and Administration to upgrade and install multimedia 
equipment in Senate rooms. The project includes digital signal 
processing audio systems and broadcast-quality robotic camera systems.
    To date, we have completed 28 rooms. Room enhancements include 
improved speech intelligibility and software-based systems that we can 
configure based on individual committee needs. The system is networked, 
giving committee staff the ability to easily and automatically route 
audio from one hearing room to another when there are overflow crowds. 
Additionally, the system's backup will take over quickly if the primary 
electronics fail.
    As part of the upgrades, we installed technologies in our new CVC 
Recording Studio to enhance our ability to provide broadcast coverage 
of more hearings simultaneously without adding staff. For example, the 
Committee Hearing Room Upgrade Project allows us to cover a hearing 
with one staff member. Before the upgrade, three staff members were 
required to adequately cover a hearing. These technology enhancements, 
coupled with the expansion of the number of control rooms for committee 
broadcasts to twelve, has enabled us to increase our simultaneous 
broadcast coverage of committee hearings from five to as many as 
twelve.
    Our Senate Recording Studio is another shining example of where we 
have increased productivity by utilizing process improvements and 
technology rather than adding FTEs.
Media Galleries
    The four Senate Media Galleries are comprised of the Senate Daily 
Press Gallery, the Senate Periodical Press Gallery, the Press 
Photographers' Gallery and the Senate Radio and Television Press 
Gallery. The unique structure of the four Media Galleries requires them 
to work closely with their respective Standing and Executive 
Correspondent's Committees, our organization, the USCP and the Senate 
Committee on Rules and Administration in order to facilitate media 
arrangements and credentials for the over 7,000 credentialed media 
covering Senators, Senate committees and related media events.
    While the media industry has recently seen historic shifts in 
formats and structures of media outlets which appear to have caused a 
general decline in revenue and circulation for traditional media, the 
Media Galleries have seen a burgeoning population of new and emerging 
media. The staff of the Media Galleries have diligently worked to 
accommodate this new population through the current credentialing 
process.
    In the past year and a half, the Media Galleries handled record 
numbers of media credential applications for the 2008 Presidential 
Conventions and the 2009 Inauguration. The vast number of national and 
international media outlets interested in covering the Presidential 
Conventions and Inauguration forced the Media Galleries and their small 
staffs to innovate the way we process credential applications, assign 
media workspace, and distribute press passes, using cutting-edge 
technology as a guide. The Media Galleries worked closely with the 
Sergeant at Arms Computer Design teams to create new software database 
information management programs that took advantage of the growing 
reliance on the Internet. While the systems were designed to handle 
larger capacities, they were occasionally overwhelmed by the volume of 
requests that poured into the Media Galleries. When the application 
period finally closed, the Media Gallery staffs had to quickly process 
thousands of documents in order to assign the limited media resources 
available to cover the Inauguration. If not for the diligent work of 
all our Media Gallery staff, the process would never have been 
completed on time.
    The growth of 24-hour news channels and websites has increased the 
demands for constant news. As a result, Congress may be covered in more 
detail than ever before. In response to the changing needs of the 
reporters covering Capitol Hill, all four Media Galleries worked with 
the office of the SAA Chief Information Officer to upgrade the 
technical infrastructure of the Media Galleries offices including 
incorporating Wi-Fi in all four Media Galleries.
            Senate Daily Press Gallery
    Just over a year ago, we completed remodeling and rewiring the 
Daily Press Gallery. This was the first such renovation since the early 
1980s. Restoring the suite of rooms that has been occupied by the press 
since before the Civil War was a mammoth undertaking that involved a 
number of SAA and AOC offices. Furniture was replaced; wires were 
completely removed and redone; and walls, ornate ceilings, Minton-tiled 
floors and historic mirrors were completely restored down to the 
smallest detail. The renovation not only improved the gallery's 
appearance and working conditions for reporters, it did away with piles 
of haphazard wires that had evolved over the years.
            Senate Periodical Press Gallery
    While high-profile hearings garner the most attention by staff and 
media, the Senate Periodical staff always strives to work with all 
Senate committees on their media arrangements for typical hearings and 
events. Senate Periodical Press Gallery staff worked with new Committee 
and Senator Press Secretaries in order to familiarize them with the 
Periodical Gallery's functions at committee hearings. Constant 
collaboration occurs with various Senate committees to set up media 
arrangements for a number of widely-viewed hearings, including 
confirmation hearings for all Presidential nominations, Senate Budget 
consideration, Senate Appropriations Committee events, and Senate 
Banking Committee consideration of the automobile industry and banking 
crises.
            Press Photographers' Gallery
    The primary role of the Press Photographers' Gallery is to 
credential photographers and to assist at news events at the Senate. 
Our staff also has the unique responsibility of assisting at large news 
events and hearings in the House of Representatives.
    The demand for news images has increased as Web publications expand 
and gain popularity. Also, deadlines for pictures have shifted from 
daily to constantly, as organizations and publications strive to have 
the latest pictures available for online publications. These radical 
changes in how events are captured have increased the number of 
photographers covering Capitol Hill on a daily basis, as more news 
organizations seek to the fill the demand for more images.
            Senate Radio and Television Press Gallery
    In an effort to address new requirements for electronic media 
coverage of Senate events, improvements were made in upgrading the 
technical infrastructure of Senate committee hearing rooms and other 
news event locations throughout the Senate campus. For example, in a 
collaborative effort with the Senate Committee on Rules and 
Administration, Gallery staff oversaw the installation of fiber optic 
cable in 14 Senate committee rooms. Along with the Senate committee 
rooms, several meeting rooms in the Capitol and the Senate wing of the 
CVC were outfitted with fiber optic cable.
    In addition to upgrading the Senate committee rooms, the backdrop 
in the Senate Radio-TV Gallery studio was renovated to accommodate 
high-definition news broadcasts. The improved backdrop enhances 
Senators' appearances by incorporating several enriching elements such 
as columns and LED lighting.
            Employee Assistance Program
    Our Employee Assistance Program (EAP) offered a variety of services 
to staff, Pages, interns, and family members. In 2009, 4.6 percent of 
Senate employees and/or their family members met with/spoke to an EAP 
Counselor, 263 employees took a mental health on-line screening, and 
2,042 employees attended EAP training. EAP expanded outreach programs 
through updating materials on a wide variety of mental health topics; 
providing an interactive and informative Web page that includes 
confidential mental health screenings, self-paced training modules and 
access to mental health, management and trauma response resources; and 
offering a variety of training programs including video 
teleconferencing training programs for state offices. EAP continued to 
hone, expand and utilize the skills of the 32 members of the Senate 
Peer Support Team through a series of presentations, trainings and 
informational lectures. In July 2009, EAP began working with a vendor 
to provide Senate employees and their family members with access to 
personalized information and referrals for childcare and parenting, 
adult care and aging, education, legal and financial concerns. Between 
July 1 and December 31, 2009, 1,751 employees and their family members 
utilized these services.
               appendix.--fiscal year 2011 budget request
           attachment i.--financial plan for fiscal year 2011

                                                EXECUTIVE SUMMARY
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year 2011 vs. fiscal year 2010
                                                            ----------------------------------------------------
                                                                          Fiscal year                 Increase/
                                                             Fiscal year      2011        Amount       decrease
                                                             2010 budget    request                   (percent)
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries...............................................      $70,000      $78,000       $8,000         +11.4
    Expenses...............................................      $90,409      $92,403       $1,994          +2.2
                                                            ----------------------------------------------------
      Total General Operations and Maintenance.............     $160,409     $170,403       $9,994          +6.2
                                                            ====================================================
Mandated Allowances and Allotments.........................      $52,239      $53,596       $1,357          +2.6
Capital Investment.........................................       $4,503       $9,612       $5,109        +113.5
Nondiscretionary Items.....................................       $6,450       $5,675        ($775)        -12.0
                                                            ----------------------------------------------------
      TOTAL................................................     $223,601     $239,286      $15,685          +7.0
                                                            ====================================================
Staffing...................................................          961          962            1          +0.1
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2011 
budget request of $239,286,000, an increase of $15,685,000 or 7 percent 
compared to fiscal year 2010. The salary budget request is $78,000,000, 
an increase of $8,000,000 or 11.4 percent, and the expense budget 
request is $161,286,000, an increase of $7,685,000 or 5 percent. The 
staffing request is 962, an increase of one.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$78,000,000, an increase of $8,000,000 or 11.4 percent compared to 
fiscal year 2010. The salary budget increase is due to the addition of 
one FTE, a COLA, merit funding, and other adjustments. The additional 
staff will support increased demand for services, as well as advancing 
technology.
    The general operations and maintenance expenses budget request for 
existing and new services is $92,403,000, an increase of $1,994,000 or 
2.2 percent compared to fiscal year 2010. Major factors contributing to 
the expense budget increase are escalating costs of the IT Support 
Contract and other IT Support agreements, $2,042,000; replacement of 
the Senate Office Personnel System (SOPS), $2,000,000; IT Security 
consulting and equipment, $1,000,000; audio visual equipment intended 
for the Senate Emergency Operations Centers (EOCs), $1,000,000; and a 
decrease due to Research Services' transfer to the Secretary of the 
Senate, $3,889,000.
    The mandated allowances and allotments budget request is 
$53,596,000, an increase of $1,357,000 or 2.6 percent compared to 
fiscal year 2010. This budget supports state office rents, $16,594,000; 
voice and data communications for Washington, D.C. and state offices, 
$15,385,000; purchase of computer and office equipment, $13,894,000; 
procurement and maintenance of member office constituent services 
systems, $4,500,000; wireless services and equipment, $1,548,000; and 
state office security enhancements, $1,275,000.
    The capital investment budget request is $9,612,000, an increase of 
$5,109,000 or 113.5 percent compared to fiscal year 2010. The fiscal 
year 2011 budget request includes funds for equipment purchases for the 
Storage Area Network (SAN), $2,775,000; hardware related to the network 
upgrade project $2,500,000; data network expansion, $1,600,000; Senate 
Floor Camera replacement, $1,500,000; PGDM server replacement, 
$400,000; replacement of a digital printer, $200,000; layout and design 
upgrades, $162,000; and EPPN upgrade, $100,000.
    The nondiscretionary items budget request is $5,675,000, a decrease 
of $775,000 or 12 percent compared to fiscal year 2010. The request 
funds projects that support the Secretary of the Senate: contract 
maintenance for the Financial Management Information System, 
$3,824,000; maintenance and necessary enhancements to the Legislative 
Information System, $885,000; support for public records systems, 
$500,000; and support for payroll systems, $466,000.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF HON. PHILLIP D. MORSE, SR., CHIEF
ACCOMPANIED BY:
        DAN NICHOLS, ASSISTANT CHIEF
        GLORIA JARMON, CHIEF ADMINISTRATIVE OFFICER
    Senator Nelson. Chief Morse.
    Mr. Morse. Chairman Nelson, Senator Murkowski, Senator 
Pryor, I am honored to be here today and I appreciate the 
opportunity to be able to present the United States Capitol 
Police (USCP) budget for fiscal year 2011.
    Behind me is sitting my executive management team, along 
with my Assistant Chief, Dan Nichols and my Chief 
Administrative Officer, Gloria Jarmon.
    And with your permission, sir, I would like to submit a 
written testimony for the record.
    Senator Nelson. Without objection.
    Mr. Morse. Thank you.
    First, I would like to thank the subcommittee for its 
sustained and unwavering support for the men and women of the 
United States Capitol Police. You and your staff have continued 
to generously support both the mission, as well as our 
personnel, not just in a monetary way, but also in a private 
and public recognition of our role and responsibilities. The 
security and protection of this great institution is, indeed, 
our job, but we consider it to be a sacred duty and it is a 
privilege to serve you, the congressional staff, and the 
millions of visitors from every corner of the world who come to 
the United States Capitol complex every day of the year.
    Over the last year, the department has, with your support, 
successfully implemented the Library of Congress police merger. 
We have transitioned our primary fleet to a fleet leasing 
program through the General Services Administration and 
replaced ballistic vests for our officers. We have proceeded 
with the migration of our financial system to the Library of 
Congress for cross-servicing.
    Our mission focused request is grounded in the USCP's 
strategic goals that describe our mission and frame our budget 
planning, assessing the threat, taking proactive measures to 
mitigate the threat, responding in the event of a disruption, 
and supporting the USCP's mission through constructive internal 
business processes and controls that foster effective and 
efficient mission delivery.
    This budget is in strong support of these goals. Yet, the 
department is flexible enough to achieve and maintain solid 
mission-critical results with efficient use of resources at a 
funding level near the fiscal year 2010 appropriated level, if 
necessary.
    The proposed 2011 budget is designed to address and 
mitigate identified security challenges that potentially affect 
the safety and security of the Capitol complex and keep up with 
the changing security environment and threat level. And it also 
contains requests to solidify innovative protective technical 
initiatives previously funded and that are underway, for 
example, the radio modernization initiative and continuing to 
support the alternate computer facility.
    In addition, it incrementally augments our force 
development goals to maximize personnel depth and strength.
    Based on the department's rigorous force development 
business process that includes a review of our budget 
requirements by our executive management team, our executive 
team, and the Police Board, the department has identified for 
fiscal year 2011 budget consideration only those increases most 
critical to further our mission and support certain projects 
planned by our legislative partners. We are well aware and we 
understand the economic climate and the effects on our country, 
the legislative branch, and the entire Federal Government, and 
we want to assure you that the USCP will successfully adapt our 
resources and continue to safeguard the congressional 
community.
    As for the budget shortfall and resulting budget amendment, 
when things do not go right in the police department, I take 
full responsibility for it. I take quick action to stabilize 
the situation. I assess it and I find a way to fix it. And then 
I ensure that it never happens again. In this case, I have 
taken responsibility for it. I have found solutions and 
proposed those solutions to the Capitol Police Board. Security 
of the complex and personnel programs will not be affected, and 
I want to pledge to you that this type of incident will not 
happen again.

                           PREPARED STATEMENT

    Finally, I would like to thank all the men and women of the 
Capitol Police for their support of me and their outstanding 
performance yet again another year in keeping this campus safe.
    Thank you.
    Senator Nelson. Thank you, Chief.
    [The statement follows:]
              Prepared Statement of Phillip D. Morse, Sr.
    Chairman Nelson, Senator Murkowski, and Members of the Committee, I 
am honored to be here today, and appreciate the opportunity to present 
the United States Capitol Police budget request for fiscal year 2011.
    First, I would like to thank the Committee for its sustained and 
unwavering support for the men and women of the United States Capitol 
Police. You and your staff have continued to generously support both 
the mission as well as our personnel--not just in a monetary way, but 
also in private and public recognition of our role and 
responsibilities. The security and protection of this great institution 
is indeed our job, but we consider it a sacred duty and privilege to 
serve you, the congressional staff, and the millions of visitors from 
every corner of the world who come to the United States Capitol complex 
every day of the year.
    Due in large part to your support, the Department continues to 
progress and evolve toward our shared vision of becoming a premier 
security and law enforcement agency.
    With your support, the Department has over the last year 
successfully implemented the Library of Congress Police Merger, 
transitioned our primary fleet to a fleet leasing program through the 
General Services Administration, replaced ballistic vests for our 
officers, and proceeded with the migration of our financial management 
system to the Library of Congress for cross-servicing.
    With regard to our progress on addressing administrative 
deficiencies and improving corresponding business practices, we 
continue to experience challenges.
    In recent weeks, we discovered some calculation errors that 
occurred with regard to the formulation of our fiscal year 2011 budget 
request. I am able to report to you however, that we identified the 
sources and scope of the errors, and have submitted an amended budget 
request to the Congress for consideration.
    These calculation errors originated in our fiscal year 2010 budget 
causing a need to identify funds within our accounts to address funding 
requirements. We have identified these funds and will be asking for 
your support through a reprogramming request in the near future.
    The modifications to our intended fiscal year 2010 budget execution 
will ensure our ability to maintain the security of the Capitol Complex 
and to support our workforce by maintaining our critical human capital 
programs. They will not be without pain for the Department, but are 
necessary for our mission capability.
    Our amended fiscal year 2011 budget request does not change the 
scope of the mission requirements within the request before you. It is 
still with two basic principles in mind--moving forward and achieving 
continuous improvement--that our fiscal year 2011 budget request is 
based.
    Our mission-focused request is grounded in the USCP strategic goals 
that describe our mission and frame our budget planning: (1) assessing 
the threat to the Capitol community, (2) taking proactive measures to 
mitigate the threat so as to prevent disruption to the legislative 
process, (3) responding in the event of a disruption so that Congress 
can continue to operate, and (4) supporting USCP's mission through 
constructive internal business processes and controls that foster 
effective and efficient mission delivery.
    This budget is strong in support of those goals--with modest 
increases and initiatives that move us soundly toward our vision of a 
model, state-of-the-art Federal law enforcement agency--yet it is 
flexible enough to achieve and maintain solid mission-critical results 
with efficient use of resources at a funding level near our fiscal year 
2010 appropriated level.
    The proposed fiscal year 2011 budget is designed to address and 
mitigate identified security challenges that potentially affect the 
safety of the Capitol complex and keep up with the changing security 
environment and threat level, and also contains requests to solidify 
innovative, protective technological initiatives previously funded and 
underway, for example, the Radio Modernization Initiative and 
continuing support of the Alternate Computer Facility. In addition, it 
incrementally augments our force development goals to maximize 
personnel depth and strength.
    I would first like to offer the Committee an overarching summary of 
our fiscal year 2011 request. I will follow the summary with a 
discussion of specific budget items of particular significance to you 
and the Department.
    The fiscal year 2011 request totals $385 million representing an 
overall increase of 17 percent, or $57 million over the enacted fiscal 
year 2010 funding level of $328 million. Our request represents 
increases in three areas: (1) Personnel or ``salaries''; (2) General 
expenses; and (3) Special projects and new initiatives.
    With regard to personnel, we are requesting an overall increase 
which includes funding for 52 new sworn positions and 12 new civilian 
positions.
    With regard to general expenses, we are requesting an overall 
increase which is primarily due to the modifications made to general 
expenses in 2010 including funding for operational travel; outfitting 
and training new sworn personnel, if approved; enhanced management 
systems, et cetera.
    With regard to the third area of special projects and new 
initiatives, we are requesting funding that would support the final 
phase of the Radio Modernization Initiative and certain other new 
annual and multi-year initiatives that would fund security requirements 
primarily associated with projects expected to be undertaken by the 
Architect of the Capitol, as well as other security related programs.
    The combined bottom line for all three of these areas represents an 
overall increase of 17 percent over enacted fiscal year 2010 funding 
levels.
    The first subject area that I would like to provide more detail for 
is in the area of personnel salaries and overtime, where we are 
requesting an increase of which includes staffing enhancements and 
funding for overtime.
    Personnel costs are reflective of salaries and benefits--to include 
an anticipated cost-of-living increase, insurance benefits and 
retirement, within-grade step increases and promotions, and overtime. 
In addition, personnel costs also include funding for workers 
compensation, specialty-assignment pay for sworn personnel, metro-
transit subsidy, incentive awards, and student loan repayment programs.
    The Department's fiscal year 2011 personnel request reflects our 
continuous efforts at all levels of management to effectively manage 
our existing resources to achieve the best possible balance of staff-
to-mission requirements. We are constantly analyzing our workforce to 
align job functions, assignments, workload, risk management, and 
organizational readiness along with the ever-changing threat 
assessments and mandatory mission requirements of a dynamic 
Congressional community and its environs.
    Using the 2007 Enlightened Leadership Solutions (or ELS) manpower 
study, we now have a multi-year roadmap to help guide our budget and 
staffing recommendations regarding the resources needed to accomplish 
each operational process as identified in the study.
    To better manage our sworn resources and to work toward determining 
the actual manpower needed to meet our existing mission, in conjunction 
with the ELS study, a custom-designed formula was devised to determine 
the true number of work-hours in a year that each officer is available 
to perform work. This ``utility'' number is used to determine overall 
staffing requirements, and balances the utility of available staff with 
annual salary and overtime funding along with known mission 
requirements such as post coverage, projected unscheduled events such 
as demonstrations, late sessions, holiday concerts, et cetera, and 
unfunded requirements that occur after the budget is enacted, such as 
unforeseen critical emergency situations.
    The Department's current authorized sworn strength does not 
entirely provide the necessary resources to meet all our mission 
requirements within the established utility. Thus, mission requirements 
in excess of available personnel must be addressed through use of 
overtime, identification of efficiencies such as post realignment and/
or reductions, technology, and cutbacks within the utility, such as 
reductions in the number of hours of training.
    With that in mind, our requested fiscal year 2011 personnel costs 
support the current authorized staffing levels of 1,800 sworn and 443 
civilians as well as a request for 52 new sworn and 12 new civilian 
positions, resulting in a total overall increase in personnel from 
2,243 to 2,307.
    In fiscal year 2011, the addition of 52 new sworn positions would 
address mission needs and work toward our goal of closing the gap--as 
validated by the ELS manpower study--between existing mission 
requirements and current staffing levels through assignment of the 
additional personnel to the Uniformed Services Bureau.
    The approval of additional sworn strength in fiscal year 2011 will 
have a positive effect on our ability to manage the inter-related 
balance of mission requirements, overtime use, and officer training.
    The request for 12 new civilian positions will provide much needed 
professional and technical support for the Department in the areas of 
fleet management; budget analysis; IT security, network operations, 
systems administration, and telecommunications; and physical security 
operations, as well as three positions in the Office of Inspector 
General, consisting of one criminal investigator, one financial 
management and internal control auditor, and one information technology 
and contract auditor.
    It should be noted that half of the requested new civilian 
positions would replace existing contract employees, with the resulting 
savings in contract dollars offsetting the cost of additional personnel 
added to the permanent employment rolls.
    At current overtime levels, we are able to meet our mission by 
continuing to adjust officers' training hours and finding efficiencies 
in post requirements. However, any additional or new mission 
assumptions will require additional sworn personnel or equivalent 
overtime to meet new requirements.
    At current staffing levels, the Department's fiscal year 2011 basic 
overtime projection of approximately $27 million reflects an increase 
over the $25.5 million that was provided for in fiscal year 2010. This 
increase of $1.5 million adjusts for mostly cost-of-living.
    Other requested increases to overtime include an additional 
$201,000 in funding to cover Library of Congress' non-reimbursable 
events, and $1.84 million for overtime necessary to secure new multi-
year AOC initiatives, to include the Capitol Dome Skirt, and Utility 
Tunnel projects.
    These items bring the total fiscal year 2011 overtime request to 
$29.094 million which is an increase of $3.6 million--or 14.1 percent 
over the enacted fiscal year 2010 level for overtime.
    The second area of detail is our requested general expenses budget, 
which includes protective travel; hiring, outfitting, and training of 
new sworn personnel; supplies and equipment; management systems; et 
cetera.
    Significant savings in our general expense budget provides an 
offset to our requested increases by realizing reductions in major 
areas such as contractual services, executing efficiencies in physical 
security systems, movement of our financial systems from the Department 
of the Interior's National Business Center to the Library of Congress, 
and the realigning of core training requirements to specific and 
critical job competencies.
    The third and final area of detail is a request for multi- and no-
year funding for special projects and new initiatives, to include the 
final phase of the Radio Modernization Initiative, Alternative Computer 
Facility fit-out, and the design and installation of security equipment 
and systems for utility tunnels, hallways, and garages throughout the 
Capitol complex. The total funding requested for these special projects 
is $32.187 million, of which $15.956 million is for the final phase of 
the Department's multi-year Radio Modernization Initiative.
    Over the past 2 fiscal years, the Congress approved the USCP's 
requests to develop an encrypted, interoperable digital radio system 
able to communicate securely and immediately across the Capitol campus 
as well as with other first responding Federal, state and local law 
enforcement partners.
    The upgrade to a new-generation VHF trunked radio communications 
system will achieve reliable, secure radio contact in routine day-to-
day operations and in emergency situations from any location within the 
jurisdiction of the USCP.
    We are grateful for the Congress' substantial response to our 
previous requests in the fiscal year 2009 Supplemental and fiscal year 
2010 annual appropriation that addressed this critical communications 
vulnerability, supporting our endeavor to provide dynamic 
enhancements--in this post-9/11 security environment--to our aging, 
outdated radio equipment and infrastructure.
    I am especially pleased to report that the system delivery for 
Phase I of the radio modernization is on schedule and within budget for 
completion within budget estimate.
    The current fiscal year 2011 budget request of $15.956 million over 
2 years is for the final indoor portion of this highly complex project. 
This request falls within the contract's broadly estimated range of 
costs, including contingencies, which we provided for you during the 
fiscal year 2010 budget discussion. The final phase will provide the 
infrastructure changes necessary to support the new radio system.
    To calculate the cost of completing the Radio Modernization 
Project, our NAVAIR contractors--who are highly experienced in design 
and implementing communications systems for other Federal agencies--
conducted a detailed design engineering study of each building, garage, 
tunnel, and outdoor site in the Capitol complex--each with unique 
characteristics requiring different engineering design solutions. With 
Congressional approval of this request, we expect the project to be 
completed on-time and within budget by 2012.
    Further, the Department is requesting $16.231 million to support 
eight additional new security initiatives. These include: security 
enhancements for the Alternate Computer Facility; security designs for 
the utility tunnel system; design and installation of a security 
program for the AOC's Dome Skirt Rehabilitation project; design of a 
security management system for the Federal Office Building 8; design 
and installation of a security camera system in egress points within 
House and Senate office buildings; design and installation of security 
management systems within House and Senate parking garages; a perimeter 
security and a garage and tunnel screening.
    Based on the Department's rigorous Force Development business 
process that includes review by our Executive Management Team, 
Executive Team, and Police Board of our budget requirements, the 
Department identified for fiscal year 2011 budget consideration only 
those increases most critical to further our mission and support 
certain projects planned by our legislative partners.
    We are well aware of and understand the economic climate that 
affects our country, the Legislative Branch and the entire Federal 
government, and I want to assure you that the USCP will successfully 
adapt our resources and continue to safeguard the Congressional 
community.
    I appreciate the opportunity to appear before you today and would 
be glad to answer any questions you may have at this time.

              <greek-l>SOS deg.SENATE INFORMATION SERVICES

    Senator Nelson. Let us do a 5-minute round.
    Nancy, the $32 million, which really stands out, involves a 
multiyear request for certain continuing services. Is that 
something that has to be done on a multiyear basis? Because the 
implications to the budget are so significant that one wonders 
if it would not be better to spread that out over a longer 
period of time. What have you found about that?
    Ms. Erickson. Well, we would be happy to work with your 
subcommittee staff to work out a funding mechanism for this 
program.
    My concerns are that our staff working with the Sergeant at 
Arms staff and the chairman's staff--we have looked at the 
trends, the cost increases in this program over the years. 
There has been real consolidation in the news industry and so 
there is not the competition that there used to be. So it is 
fair to say there has been an average of a 10 percent increase 
in a number of contracts over the years.
    I also know that the Sergeant at Arms has incurred other 
costs associated with this program that required them to tap 
into other funding sources. I want to create a firewall between 
these program funds and my operating budget funds so that it is 
very transparent.
    And then the other reality is, as you well know, we have a 
strong track record of operating under continuing resolutions, 
and it is important, when we are negotiating these contracts 
that are 1-year contracts with the option of a 4-year renewal, 
that we have a little bit of flexibility in our budget to fund 
these contracts.
    But I think it is fair to say, yes, we do have flexibility 
and look forward to working with your subcommittee's staff on 
some other funding options.
    Senator Nelson. Well, as you know, we have trouble even 
with the Medicare doctor fix to get something over some short 
period of time, and if somebody identifies this at 5 years, 
they will ask us why we cannot fix everything for 5 years. So 
that is one of those optic things, but obviously we need to 
look at it and if there is a way to retain some efficiencies 
cost effectively, we ought to seek to do that.
    Ms. Erickson. And I will add I am very proud of our 
library's staff. They have saved just this year $55,000 over 
the next 4 years in negotiating similar contracts that we have 
in the Senate Library. So I can assure you that we are going to 
be shrewd negotiators with these contractors and get the best 
dollar for the Senate.
    Senator Nelson. Well, I think that we would have some 
leverage to be able to do that, but there is a limit to what 
that can do.
    Ms. Erickson. Right.

          <greek-l>SOS deg.SENATE EMPLOYEES CHILD CARE CENTER

    Senator Nelson. Also, could you give us an update on the 
Senate child care feasibility and expansion study that we 
directed last year, together with the AOC?
    Ms. Erickson. Correct. The AOC was charged with the child 
care study, consulting with the Secretary's office. I just 
received the report, and let me report on some good things have 
happened since last year's hearing and issues that Senator 
Pryor and his staff notably have raised.
    There is wait list transparency now. The flip side is, 
unfortunately, there was a long wait list. We have roughly 106 
families that are waiting to get into the infant room, and 
there are currently only nine slots. There is a waiting list of 
over 143 to get into the child center as a whole. But for the 
first time, families now know where they stand on the wait 
list.
    Another positive development is the Parent Cooperative 
Board decided to adopt Senate preference policies. So parents 
who have children get preference. If they have a child already 
in the day care center, they also have sibling preference. 
Right now, 72 percent of the families that are enrolled in the 
Senate child care center have one parent who is a Senate 
employee. I believe over 82 percent of the families have at 
least one parent who works in the legislative branch.
    I think it is fair to say the goal is to increase the size 
of the Senate day care center from 68 to 134 slots overall. I 
think it is also fair to report that it is probably unrealistic 
that we can expand the current site or reconfigure the current 
space. So I think the subcommittee will receive recommendations 
for building or leasing property. I think it is also unlikely 
that we will be able to find another child care center to 
partner with. But we will be providing that report to you and 
your staff shortly.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

              <greek-l>SOS deg.SENATE INFORMATION SERVICES

    Nancy, let us go ahead and continue with the SIS program, 
the Senate information services program. Tell me why we are 
moving it from the Sergeant at Arms to your offices.
    Ms. Erickson. Well, it actually was a recommendation that 
was made by the Sergeant at Arms staff. Tom Meenan, who manages 
the program and another colleague--one colleague had retired 
and Tom Meenan is nearing retirement. And he looked at the 
model that is used in the Government to finance other similar 
enterprise contracts such as the SIS program, and they are 
typically run and managed by people with a library of science 
degree. So it was a decision that we embraced. It was something 
that we spent a great deal of time deliberating, and the 
recommendation was that we felt that our folks who already 
negotiate such contracts for our Senate library would be in the 
best position to take over this program.
    And I do think there are some improvements that can be made 
in the program. I think we need to do a better job of doing 
outreach in the Senate community to make sure they are aware of 
these free online services that your offices----
    Senator Murkowski. That is one of the questions that I have 
of you. To what extent are these services actually utilized? 
Who uses them? Are all of the services necessary? Are there 
some that can be eliminated? And as this transfer is being 
made, are you doing that kind of a review to figure out whether 
we are current? We know that access to information today--what 
is current today is not current tomorrow, and users change 
dramatically. So are we giving this that level of scrutiny?
    Ms. Erickson. We are. The services can be found on Webster, 
and some of the examples of some of these services we provide 
would be CQ, National Journal, BNA, Roubini Economics, 
Newswatch. These are real live, up-to-the-minute news 
developments that you can have sent to your desk to track 
information on a Member or issue.
    Senator Murkowski. Do we survey the Members to ask them----
    Ms. Erickson. Well, the last study, Senator, that was 
conducted was in 1999 by the Sergeant at Arms, and our library 
staff initiated a recent study. We decided to do it on our own 
as a cost-saving mechanism rather than to hire an outside firm. 
So we are in the process of looking at those results and 
looking at usage statistics----
    Senator Murkowski. Will you take those assessments and 
analyses into account before you negotiate with----
    Ms. Erickson. Yes, definitely. And we will--as I mentioned, 
the Senate Rules Committee has close oversight of this program, 
and we will not be making any decisions without getting Senate 
Rules Committee approval, and we will be going over the survey 
results, usage statistics.
    I also think we need to do a better job of providing 
training for offices on how to use these online services.
    Senator Murkowski. Let me ask the math question here. Your 
budget increases $32 million, and as the chairman has noted, 
that raises eyebrows here. But yet, the Sergeant at Arms' 
budget, which is transferring this same system over to you, is 
only being decreased by $4 million. What happens to the money 
in the middle?
    Ms. Erickson. Well, as I mentioned, Senator, we looked at 
the historic cost increases of these programs and money that 
was spent and decided that it was an opportunity to take a 
fresh look at this program and how we can manage it most 
effectively for the Senate. And it was a recommendation of the 
people who had managed the program that multiyear funding would 
provide us with the best leverage for managing this program.
    Senator Murkowski. Even if you were not doing the multiyear 
funding, your numbers still do not add up.
    Terry, do you want to speak to that?
    Mr. Gainer. I was just going to add that if we were 
starting this program anew, it probably would have never been 
in our office, and I think it really ended in our office 
because it involved technology.
    But I also think what the Secretary is trying to do versus 
the $4 million that we are giving up on this is do exactly what 
we talked about earlier. Do you want us to sustain a process 
and give you the same thing that we are doing, or do you want 
to upgrade and acquire and be prepared for the future? So, 
again, I think it is kind of a policy decision.
    I do believe we handled it well. I believe that the 
Secretary and the librarians and the people who do research 
have a vision of enhancing this and reaching out further and 
deeper, and that is part of the decision one makes on whether 
you do the ``same old, same old'' or take the opportunity to do 
it the correct way.
    Senator Murkowski. Well, my time is expired, Mr. Chairman. 
But even if we were to just look at this as a 1-year instead of 
a multiyear request, as you have, the request from the 
Secretary's office is still an increase. So I guess what you 
are suggesting is that it is enhanced services. And I guess 
what I would come back to you with is before we talked about 
enhanced services, let us make sure that we are using all of 
these services and an assessment or an analysis or survey of 
the offices. It sounds like you are underway with that and I 
think that that is a good approach.
    Ms. Erickson. And like I said, we also looked at the 
program and understand that Terry's office tapped into other 
funding options within their budget to finance this program 
outside of SIS funds. An example would be when they received a 
letter from 57 Members requesting that leadership directories 
be added to the SIS program, and so Terry's office did that and 
tapped into other funding sources and options in their budget 
to do that.
    Senator Murkowski. That is helpful.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Nancy, let me start with you if I can and kind of pick up 
where Senator Murkowski left off. This $32 million for the 
Senate information services--I understand that that is 
generally subscription services. And I know it is like Westlaw, 
Lexis/Nexis, et cetera. I do not know if you provided it to 
staff, but I would like to see a breakdown of each of those and 
how much we are paying per year. I know that, on the one hand, 
we just have 100 offices, but I know it is a lot broader than 
that. So I would like to, if I could, understand how that 
contract is structured, and I want to look at it to see if we 
are getting a good deal for that usage.
    And I have a question about, if you know or if you can 
tell, how well the Senate staff is using it. In other words, we 
had an incident when I was in the Attorney General's office. We 
were negotiating a Westlaw contract back then. And we had two 
or three people on the staff that just turned it on in the 
morning and left it on all day, and the clock was just running 
on it, and that caused our contract price to go up. Of course, 
their view was, hey, it is free to me. So it must be okay. I am 
curious about sort of the practices, and if you can monitor 
that. In our office back in the Attorney General's office, we 
could actually monitor that. We knew who was on because of the 
way it was set up. And I do not know how your contract is. But 
I would like to know some of that detail before----
    Ms. Erickson. The services that we provide are stipulated 
by the Rules Committee and require unlimited access. In the old 
days, offices--maybe 1987--were each given $12,000 to enter 
into these contracts. But yes, offices are not incurring costs 
for leaving Westlaw on all day, although we do have those types 
of contracts that we enter into with the Senate library, 
Courtlink, and we restrict that to our librarians because of 
that very reason. But I think you raise a good point. I think 
that we need to take a hard look at user statistics and we will 
be sitting down with the Rules Committee staff to share that 
information with them. But I would be happy to provide you a 
breakdown of what the current contract costs are.
    Senator Pryor. That would be great.
    Also, you mentioned in one of your answers a minute ago 
that you had some savings on some current contracts. Are these 
same subscription services?
    Ms. Erickson. They are similar to ones that our Senate 
library enters into, such as Courtlink. But they were able to 
achieve $55,000 in savings over the next 4 years for those 
contracts.
    Senator Pryor. Do these contracts--both these contracts we 
are talking about there--that is a great savings. I love that. 
But both these contracts here--they also include the hard 
copies of this material or is this the online?
    Ms. Erickson. The online.

                    <greek-l>SAA deg.PGDM RELOCATION

    Senator Pryor. Let us see. Let me ask, if I may, Terry, 
about the $1.2 million request to relocate your printing, 
graphics, and direct mail operation. That is in your budget, if 
I am not mistaken. And you are talking about going out to the 
Maryland suburbs. I understand that that is a pretty expensive 
proposition out there. Could you talk about that? I understand 
you need more space, but could you talk about the decision 
there?
    Mr. Gainer. Yes, Senator. The fact of the matter is it is 
substantially less expensive. So from a purely business point 
of view, if one concurs that we need the additional space--and 
again, I think reasonable people would feel that is the case--
our return on investment over the 20 years would be 
significant.
    Senator Pryor. How so?
    Mr. Gainer. Well, because the rent we are paying at the 
Postal Square versus the rent of the building that we are 
suggesting is substantially different, that we would save 
approximately $500,000 a year. Now, when I say that, I mean the 
money gets saved by our partner, the Architect of the Capitol. 
Now, there is an up-front investment preparing the building for 
that of about between $8 million and $10 million.
    Senator Pryor. Is that $500,000 a year based on a per-foot 
basis or is it based on actual when the rent would be here 
versus there? I know you have a limited space here, so you have 
a smaller space.
    Mr. Gainer. It is per foot.
    Senator Pryor. So in other words, you are paying more there 
but you are getting more space.
    Mr. Gainer. We will be getting more space. We would be 
paying less per square foot and we would be saving $500,000 per 
year.
    Senator Pryor. You would be saving $500,000 over what you 
are paying currently.
    Mr. Gainer. Correct.
    Senator Pryor. I see.
    Mr. Gainer. And Senator, if I can speak on that issue: we 
have added powerful equipment in the Postal Square building. 
There is really not an ounce more of electricity available 
there. So we have worked with the General Services 
Administration (GSA), we have worked with the building owner, 
and we could, tongue in cheek, say if we are running our 
presses and someone plugs in a toaster, we would be in trouble.
    Senator Pryor. Is Postal Square a GSA building?
    Mr. Gainer. It is a private building run by the GSA, as I 
recall.
    Senator Pryor. As I understand it--well, I am out of time. 
So why do you not go ahead and I will do a second round. Thank 
you.

                      <greek-l>SAA deg.IT SECURITY

    Senator Nelson. Terry, your request includes $1 million for 
IT security. What does this involve and is this going to 
require additional funding in the future with respect to that 
IT?
    Mr. Gainer. Senator, I do not think there is ever going to 
be an end in sight for IT security. As I mentioned, the amount 
of people trying to get to our network is continuing.
    Senator Nelson. Do you feel like we are protected?
    Mr. Gainer. I think we are very safe. As I said, we deal 
with some 1.8 million attempts per month. We average about 1.5 
per day that actually penetrate. Once we find out, we then take 
action, along with the Member's office on how that occurred. 
But looking at what is happening to IT across the Nation, the 
Department of Defense (DOD), and Homeland Security, it is a 
continued constant threat. Our adversaries are getting sharper. 
We must also get sharper.
    Senator Nelson. Are we partnering with DOD, as well as 
Homeland Security? Because there is clearly a lot of work that 
is being done protecting against cyber and malware, everything 
that we fear most. I know they are doing a significant amount 
of work on that.
    Mr. Gainer. We do have a good partnership with them. We 
have some great security experts who come from some of those 
agencies. We work closely to look at the best practices of the 
National Security Agency and others. We really are on top of 
it, but again, our adversaries are playing chess with us trying 
to stay one move ahead.
    Senator Nelson. Yes. Offense always seems to be one step 
ahead. We are always playing catch-up.

                <greek-l>SAA deg.SENATE PERSONNEL SYSTEM

    Also, you have got $2 million for a Senate office personnel 
system. Could you explain what that is about?
    Mr. Gainer. Yes. It is somewhat related but separate from 
the Senate payroll system, but the Senate office personnel 
system is really a direct request of your administrative 
officers and the Rules Committee to aid in keeping track of 
your own employees and their time. And we are operating in a 
very antiquated system. This one ought to begin, but again, it 
can be deferred. But your systems administrators will be very 
unhappy with us.
    Senator Nelson. Are you telling me Senator Schumer is 
spending our money over here?
    Mr. Gainer. I am taking the fifth on that.

             <greek-l>SAA deg.TELECOM MODERNIZATION PROGRAM

    Senator Nelson. The telecom modernization project. I know 
there has been some movement on that. Could you give us an 
update on the progress of what is, obviously, a $20 million 
project, what we might be able to expect from it?
    Mr. Gainer. Yes, sir. The telecom modernization project is 
proceeding slowly but steadily. The design phase of the project 
has been completed. We were not particularly happy with the 
contractor, Verizon Business in this case, and we struggled 
with them for well over 1 year to meet the goals and steps that 
we wanted in this. They could not meet our goals. We brought in 
other contractors to take a look at it. The manufacturer of the 
main switch was bought out by another company. We had to wait 
some 6 months to see who was going to buy the company. Then we 
waited longer to see if the company that made the purchase was 
going to continue making the product. We now know that they 
will stay at it for about another 6 years. So looking at it in 
the most positive vein, we would hope we would have the program 
up and running sometime in 2011. The worst case scenario, it 
might be as far away as 2012.
    Again, as time goes by, the technology keeps taking leaps 
and bounds. So the technology will improve as we move closer 
and it is going to drive the price up a little bit. Ultimately, 
the Senate will have a powerful, 21st century telecom system.
    Senator Nelson. And still in the 21st century?
    Mr. Gainer. Yes.
    Senator Nelson. Okay.

              <greek-l>CPB deg.USCP SALARY MISCALCULATION

    Chief Morse, can you give us some background on the salary 
miscalculation? I know there is an in-house review underway. 
Are you looking at every aspect of it, whether there is any 
criminal activity or whether this is a human error of some sort 
without regard to that?
    Mr. Morse. Yes. The salaries shortfall was found during the 
first quarter budget execution review. We do that, obviously, 
to ensure that the budget is being executed as we had planned, 
and there are things that we have to plan for in the next 
quarter, for instance, promotions of our employees, as well as 
recruit classes. During that review, there were salary 
shortfalls identified.
    Our preliminary look at this indicates that those salary 
shortfalls are human error. There were miscalculations in both 
sworn and civilian salaries, as well as the lack of submission 
for funding for lump sum repayment when our employees retire or 
leave the agency and miscalculations associated with night 
differential and premium pay and holiday pay. All those sort of 
pile on top of each other when you have a low attrition rate. 
So I am happy to report we have one of the lowest attrition 
rates in 20 years I am told.
    But because of the miscalculations, there is no dependency 
on any of the salary lag and therefore the shortfall is about 
$5.5 million.
    We have our recommendation to correct this through 
reprogramming monies within our general expenses, as well as 
identifying other money in savings through overtime and perhaps 
if the attrition rate stays as low as it is, savings in general 
expenses and salaries with regard to hiring the next class and 
a look at only hiring civilian staff that are critical to the 
operational mission.
    So we have identified means to correct the problem within 
our budget, and now my focus, obviously, is on exactly what did 
happen and who is responsible so that we can ensure that the 
appropriate oversight is there, that the internal controls and 
processes that we have in place are followed, and that we can 
ensure you that this never happens again.
    Senator Nelson. Have you taken any action thus far against 
any personnel at this point?
    Mr. Morse. No adverse action of any type has been taken 
against any employee because we do not have all the facts yet. 
There are employees who have been put on administrative leave, 
but that is a part of our general performance or discipline 
process. It is a process in which we look at things thoroughly, 
we find out what the facts are, we hear both sides of the 
story, and certainly I make no judgments until that 
adjudication takes place.
    Senator Nelson. I appreciate that.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Let me just continue, if I may, Chief. You have indicated 
that to make up this shortfall of some $5.8 million, that you 
can look to reprogramming and you have also suggested in the 
area of expenses. But in your proposed budget here, in your 
expenses account, you have got an increase of $16 million for 
the final phase of the radio modernization project, but you 
also have $16.2 million for other new initiatives.
    Are you proposing then that you would scale back on some of 
these new initiatives, or how are we going to take care of this 
expense?
    Mr. Morse. With regard to the salary shortfalls, it is in 
the fiscal year 2010 budget that we are currently operating 
under that we will go into the general expenses to pay for the 
salary deficit. With the approval of the subcommittee, we 
resubmitted a fiscal year 2011 budget to ensure that the 
calculations are correct and that the budget that I am 
testifying to reflects the same needs it did before we 
corrected it. But, of course, with the corrected calculations, 
the budget request is higher.
    But with respect to the $16 million radio modernization 
money in 2011 and the remaining $16 million for other new 
initiatives, we will certainly work with the subcommittee in 
some cases where they are or could be multiyear funding.
    So the current problem that we are dealing with is within 
the fiscal year 2010 budget and the general expenses and 
savings to reprogram and pay for that. And we have corrected 
the miscalculations associated with 2011 through a resubmission 
of our fiscal year 2011 budget.

             <greek-l>SAA deg.TELECOM MODERNIZATION PROGRAM

    Senator Murkowski. Mr. Gainer, let me ask you about this 
telecom modernization plan and the situation with Verizon. You 
have indicated that you are not happy with what has happened, 
and you are talking to potentially other vendors. What does 
this do to the timeline that you had anticipated? What does it 
do to the budget that you had anticipated? I know when you try 
to change horses in midstream, oftentimes it can end up costing 
more and taking longer. Can you speak to that?
    Mr. Gainer. Yes, ma'am. It will take longer. And the phase 
that Verizon Business completed, the design phase, is solid. So 
the next vendor that is ultimately selected can take and 
validate that and then use it for implementation. So that is 
not a truly lost opportunity. That is money that was well 
spent, although it took us too long to get there.
    Senator Murkowski. It is your intention, though, to get a 
vendor who will accept that Verizon plan.
    Mr. Gainer. That is correct. And that is entirely doable. 
Again, we have had some other outside experts come in and look 
at the design phase and ascertain whether it is usable. So we 
are not going to lose the work product. We are not going to 
lose the money invested. We are losing time. The only up side 
of the lost time is, again, that technology improves, and we 
will have an even better system when we ultimately get there. 
So, we have been set back a good 1\1/2\ years on the project.
    Senator Murkowski. Is it my understanding that--well, 
obviously, if we have got to bring in a new vendor, we do not 
know what the total cost is expected to be. What are our 
ranges? What do you anticipate?
    Mr. Gainer. Well, the range of new total cost is anywhere 
from $3.5 million to $8.7 million more dollars.
    Senator Murkowski. And that is on top of what we have 
already authorized.
    Mr. Gainer. That is correct.
    Senator Murkowski. So in looking through my notes here, I 
had been under the understanding that we had anticipated a need 
for an additional $2 million to $4 million for implementation, 
but you are suggesting that it is going to be about double 
that.
    Mr. Gainer. I believe so. I can provide additional 
information to clarify that. That is my understanding, Senator.
    Senator Murkowski. If you would.

                  <greek-l>SAA deg.PRIOR YEAR BALANCES

    And let me ask you about the unobligated balances. I 
appreciate your statement and your commitment to really work to 
provide a flat budget under these very difficult times. I think 
the American public appreciates that, and I do not think they 
understand the half of what we ask our staff and the folks that 
you all manage to do. So I appreciate that effort.
    You have indicated that you would like that flexibility 
with these unobligated balances which are somewhere between $14 
million and $15 million. Clearly you have needs for the funds, 
but can you give the subcommittee some parameters in terms of 
what you are looking at?
    For instance, you have mentioned the situation with the 
facility over there at Postal Square. You have got some 
expenses within the Senate personnel system. You have indicated 
that maybe the staff system would not go forward. Where are you 
thinking that you might be plugging in these unobligated 
balances?
    Mr. Gainer. We are still working through that. The 
suggestion of our experts is to prioritize some of the things 
that we are talking about leaving out of the fiscal year 2011 
budget. The Senate office personnel system would be very high 
on the list, as well as the funds to complete the telephone 
modernization program. And quite frankly, in doing the 
briefings I have had in the last 24 hours, I feel pretty 
strongly about what we need over at Postal Square in our PGDM 
operations.
    Number one, we would have to determine where we go if we 
cut the $7.7 million that we suggested, that we think are 
important to improve, and then work with you and the Rules 
Committee and others to decide what is the best use of those 
limited dollars. And we would work with you to do that.
    Senator Murkowski. Mr. Chairman, my time is expired. But I 
think this is a very important part of the conversation, and we 
would like to be working very closely with you on that. Thank 
you.
    Senator Nelson. Thank you.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.

             <greek-l>SAA deg.TELECOM MODERNIZATION PROGRAM

    Terry, let me follow up on the telephone issue, the 
modernization there. Last year, especially during the 
healthcare debate, my understanding is several offices' phone 
systems had problems, and it seems to me like it may have been 
in the capacity in terms of how many calls they were getting 
and voice mail systems, et cetera. Will this modernization fix 
that?
    Mr. Gainer. It would, Senator. That is important 
information. On one of our busiest days for the healthcare 
debate, for instance, we had 770,000 phone calls come into our 
switch in a 24-hour period. During the busiest hour, which was 
at 5 o'clock, we had 155,000 telephone calls come in. Just for 
going to voice mail, I think our current system was developed 
to handle 182 simultaneous voice mails. This system, as I 
understand it, would be about seven times that. Again, what 
your office is doing is what a lot of us are doing at home. 
Calls are going to voice mail so you can kind of pick and 
choose the voice mail. But the current system was never, ever 
designed to handle 155,000 calls an hour, and the new system 
will do that.
    But we are actually on the cutting edge, I believe, of the 
technology to do that. That is some of the difficulty in 
getting some of the best people like Verizon, whose phones we 
all use, to make our system work for us.
    Senator Pryor. Thank you.

                  <greek-l>USCP deg.USCP RADIO PROJECT

    Chief, let me ask you a question about the radio 
modernization project. When it is completed and fully up and 
running, will it be fully interoperable with the systems and 
other first responders in this jurisdiction and your key 
partners in the day-to-day operation of the U.S. Capitol 
Police?
    Mr. Morse. Yes, it will. During the design phase of this 
project and throughout its build-out and implementation, those 
partnerships are used to ensure that we have that 
interoperability.
    Senator Pryor. And have either you or NAVAIR--I am assuming 
you are still working with NAVAIR--sat down with these key 
partners to make sure everything is the way it should be with 
regard to interoperability?
    Mr. Morse. Yes, we have.
    Senator Pryor. When do you anticipate that the new radio 
system will be completely installed and fully operational?
    Mr. Morse. The spring of 2012.
    Senator Pryor. As I understand it, it is kind of a phased 
program, a phased process. Can you give the subcommittee here a 
status report of where you are right now in your phases?
    Mr. Morse. Right now we are in phase two of the project. So 
we are currently in the design for the mirror site, the 
redundant site. It is off campus.
    Senator Pryor. And who is doing that design for you?
    Mr. Morse. Verizon. It is a Verizon building. Verizon is 
doing the design and the AOC has oversight of that design and 
construction.
    Senator Pryor. Do you know who is going to actually be 
doing the construction? Will it be Verizon?
    Mr. Morse. Yes, sir.
    Senator Pryor. So the total cost of this project is how 
much?
    Mr. Morse. The total cost? $97.6 million.
    Senator Pryor. And where are we in terms of our spending of 
that, that has actually gone out the door or is in the process 
of being spent? Where are we in the process of that?
    Mr. Morse. Right now, I believe we have obligated about 
$3.5 million in phase two, but we are currently working on an 
obligation plan to be submitted to you this month that is being 
reviewed by the AOC which will obligate another $10 million to 
begin the cabling work for this project. And if we back up to 
phase one, of course, we had initial funding, I believe, of 
about $10 million that was associated with design and concept 
of this.
    So as we complete the construction of the off-sites, I 
believe we are looking at December for the Manassas off-site, 
as well as February 2011 for the Verizon. We will then begin to 
obligate more money and the pace of this project will begin to 
accelerate.
    Senator Pryor. Given the size of the project, I am just 
concerned--I want to make sure, I should say, that every step 
of it is properly competitively bid and that there is the right 
amount of competition in this. Are you going through this with 
competitive bids, or have you kind of deferred that to some of 
these companies to let them take care of that for you?
    Mr. Morse. Well, first, we have the Government 
Accountability Office (GAO) who is working with us. We meet 
weekly with NAVAIR and GAO keeps the oversight of this project. 
But NAVAIR also recognizes the need to have a very competitive 
process and they also are under the requirements of the Federal 
acquisition regulations. So with that communication, the 
communication from our oversight, the constant review by our 
partners in GAO, we feel certain that this will be a fair and 
competitive process.
    Senator Pryor. Great. Thank you.
    Thank you, Mr. Chairman.

                    <greek-l>USCP deg.USCP OVERTIME

    Senator Nelson. Chief Morse, your fiscal year 2011 request 
assumes an increase of 52 officers and roughly $30 million in 
overtime costs. After a study to try to determine how best to 
manage overtime, have we created, let us say, a fixed part of 
the budget every year that is going to be calculated for 
overtime, just as part of the basic compensation, or is this 
$30 million simply based on an expectation of what might happen 
if we have extraordinary circumstances or something of that 
sort?
    Mr. Morse. We have worked very hard on this particular 
issue with our study and our methodology which our partners 
from S&I from House Appropriations reviewed; and GAO are 
currently reviewing who have reviewed our methodology. We feel 
that we are very on course with being able to project 
accurately what our overtime needs are.
    What we have been able to do with our study is establish a 
utility number, the number of hours an officer is available to 
us in a year, the number of hours of mission requirement. The 
gap between the two is where the overtime comes into play. If 
you reduce the mission, you reduce the overtime. If you add 
officers to that gap, you reduce overtime.
    We have been very innovative and proactive in the way that 
we have tried to internally reduce overtime and produce 
officers, and let me give you a couple of examples.
    First, with the Library of Congress transfer, we were able 
to civilianize some 23 positions within the command center of 
the Library of Congress. Those officers then are able to be put 
back into the field. The civilianization of our off-site 
delivery center--we were able to put officers back into the 
field.
    We most recently--not a savings of overtime but a savings 
of money through contract--we were able to take folks off the 
DOL list, the Department of Labor list, and bring them back to 
our organization, replace the contractors and put them into the 
alarm monitoring where we have better supervision and more 
efficiency and the ability to bring back our employees because 
of that DOL payment that we have to do.
    We are working on technology, for instance, within the 
truck interdiction program. Once that is complete, it will be a 
give-back of officers.
    We also have had some other projects that we are working on 
that would generate less overtime and produce more officers for 
the core business hours. I was actually talking to Mr. Gainer 
yesterday about this issue, as we discussed potential 
questions. But the culture here--and he talked earlier about 
the convenience. I have been on the police department for 25 
years, and I worked many of the doors that are here on the 
campus. Today we have looked at the number of people, for 
instance, the pedestrian counts at many of our doors after 7 
o'clock when the Senate or House stays in late. We still have 
to man those doors.
    We have done a study. We have done a cost analysis based on 
pedestrian counts where we could move some 60 officers to the 
core business hours by closing those doors. Moving them to the 
core business hours enables us to fill some of the empty mags 
that we see during the daytime, to shorten lines, to reduce 
overtime over the year, and provide a more robust presence 
during the most critical times of the day when we have 
subcommittee hearings and dignitary arrivals and both the House 
and Senate are in session.
    So we think that we have done a very good job of managing 
overtime, creating positions within the police department 
without asking for the additional officers that we need, and 
also being creative in the way that we plan to continue to do 
that, to master the overtime issue and to have the best and 
robust protection that we can during the core hours.

                 <greek-l>USCP deg.CIVILIAN CONTRACTING

    Senator Nelson. Have you considered at some of the sites 
civilianizing those who read the magnetometers or the scopes as 
the bags are going through to be x-rayed rather than have a 
uniformed officer do that at particular points in the day, as 
well, maybe the lower traffic locations, lower traffic times? 
If you have considered that, could that result in some savings 
and better utilization of the uniformed officer's time?
    Mr. Morse. It is not something we have considered. It is 
certainly not something that is off the table. But as I think 
back to the 1998 shootings, there were some issues and things 
that we addressed with regard to the simple structure of the 
doors and how the screening equipment and tactical positioning 
of officers could take place because these buildings were not 
built for this type of security.
    So there are situations where internally people have 
already been screened at a certain level, and they are simply 
being screened at a higher level to proceed into the Capitol. 
Those are areas that certainly we could take a look at and, if 
possible, discover savings there. But we want to make sure that 
we keep in mind the safety of all our employees and obviously 
be able to mitigate any threat that would exist at those 
locations.
    Senator Nelson. Absolutely. Security stands first, but from 
time to time, there are other ways to accomplish it, and 
depending on the timeframe, as well as the location, it is 
possible to maybe consider that as well.
    Mr. Morse. Yes, sir.
    Senator Nelson. Thank you.
    Senator.
    Senator Murkowski. Thank you, Mr. Chairman.

                       <greek-l>USCP deg.OVERTIME

    To continue with the discussion about where we are with the 
overtime, I understand that within the budget request here, you 
are seeking to add 52 new sworn, 12 new civilians, and the 
budget justification material provided to the subcommittee 
states that even with the addition of these officers in fiscal 
year 2011, it would not reduce the overtime costs. And you have 
just stated that there are a couple of different ways to reduce 
these overtime expenses, and one of them is obviously moving 
forward with additional staff.
    So tell me how, if you were to fill these positions, we 
would not be getting closer to that management point that we 
seem to discuss a lot around here about how we work to reduce 
that overtime.
    Mr. Morse. The 52 officers--there is, first, a recruiting 
process for that. There is the hiring process for that that 
must take place, and then there are some 30 weeks of training 
that have to take place which include field training. Then we 
look at the schedule of when we can hire those classes 
throughout the year, and when you add all that up, you are not 
going to realize--you will realize some overtime savings in 
2011 dependent upon when those employees are hired, when they 
complete training, and when they are permanently assigned to 
the division. But the real savings comes in 2012.
    Senator Murkowski. Well, let me ask you that then because 
in fiscal year 2010, the plan was to add 24 sworn officers and 
15 civilian staff positions. So where are we in that pipeline?
    Mr. Morse. I believe the 24 you are referring to is the 
backfill, which is already in our base salaries, which is the 
backfill for attrition. And that was the----
    Senator Murkowski. So are those positions filled?
    Mr. Morse. Those positions are currently filled and if 
attrition does not pan out to what we projected--and so far it 
has not because it is extremely low--if that does not pan out, 
then there is not a need to hire those officers. If the 
attrition continues, as we projected, then we will make a 
decision to hire that class because we need for them to be 
brought on board and trained so that we can feel the effects of 
a savings of overtime, which equates to about $1 million for 24 
FTE in 2011.
    Senator Murkowski. So when do you make that decision as to 
whether or not you are at that attrition level that you had 
anticipated?
    Mr. Morse. What we do is we have our recruiting efforts 
continue and we have people in the queue to hire. The decision 
to hire them is made a couple months prior. So for July, we 
would have to be prepared to make the decision to hire them 
based on attrition sometime in April or early June.

                   <greek-l>USCP deg.NEW INITIATIVES

    Senator Murkowski. I appreciate the responses that you gave 
to the Senator from Arkansas about the radio modernization 
project, where you are with that. And there has been a lot of 
discussion in this subcommittee about the expense of that 
undertaking and the need to have this interoperability.
    I would like to know a little bit more about these new 
initiatives that you are proposing, a little over $16 million 
for new initiatives beyond the radio project. It seems like a 
lot of funding--a lot of new projects to be taking on at a time 
when we are looking to really rein in the budget here. As I 
looked down the list, can you give me your top two or three 
absolutely, positively must-haves? I am going to make you 
choose between your favorite children here because I think it 
will be helpful to know what we can anticipate here in terms of 
new initiatives.
    Mr. Morse. I am not going to take the fifth.
    But I will say up front that two of these initiatives of 
the eight that you see are force development, meaning they are 
for the safety and security of the Capitol campus. And that 
would be, for instance, the modernization of our video 
management system upgrade. We have already completed the first 
phase of that, and we would like to be able to complete the 
second phase of that.
    The remaining new initiatives are really from our threat 
analysis of the campus, and it is in partnership with the 
Capitol Police Board. So if I go picking anything right now, 
without my bosses' input, then they will be a little bit mad at 
me. But I think we can certainly take a look at these.
    And as I said before, there are several here that are very 
expensive but, for instance, in one case, can be funded 
throughout fiscal year 2014. So the impact of that from a 
budget standpoint is not that high, but the results of not 
doing this certainly have an impact on the level of security 
that we provide.
    So I can work with the Capitol Police Board to look at this 
as a priority and certainly work with the subcommittee to make 
the best choices we can for the safety of the complex.
    Senator Murkowski. I would certainly appreciate that. If it 
is something in progress--and as I understand what you have 
just said, the only one that is in progress in terms of phases 
is the video management system. But of the other items that are 
listed, I would like to know from a security perspective what 
the must-haves are. If there are some that can be done in a 
phased approach, I would also like to know and understand that.
    I am hesitant, while we are in the midst of a very 
expensive radio modernization project, which again I agree we 
have got to do, that we be taking on other initiatives that may 
be nice but not necessary. So I would like to know what the 
nice and what the necessary are, and if you can help us 
prioritize that, that would be greatly appreciated.
    Mr. Gainer. Senator, I can give him some guidance now. All 
the ones on the Senate side we should approve. All the ones on 
the House side can be deferred.
    Senator Murkowski. See, you have got your first helping 
hand right there.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you.
    I do not know that I have anything further. Do you?
    Senator Murkowski. I am done. That was my last question.
    Senator Nelson. That was mine too.
    I want to thank all three of you and, once again, emphasize 
how appreciative we are of your staff to continue to work so 
diligently on our behalf and on behalf of the American people. 
It is difficult for us to ask you to do more and then ask you 
to do it with less. We understand that that is a challenge that 
you face. It is a challenge we face as well. We appreciate your 
spirit of cooperation and willingness to work with us to find a 
way through, sort of a way forward for all of us to have 
security, have services, and be able to accommodate our offices 
and make certain we do work on behalf of the American people in 
a more diligent way.
    Are you sure that my office did not get all 150,000 of 
those calls in 1 hour?

                     ADDITIONAL COMMITTEE QUESTIONS

    I thought we got at least that.
    So thank you all.
    [The following questions were not asked at the hearing, but 
were submitted to the offices for response subsequent to the 
hearing:]
               Questions Submitted to Terrance W. Gainer
               Questions Submitted by Senator Ben Nelson
                    fiscal year 2011 budget request
    Question. If the Legislative Branch Appropriations bill for fiscal 
year 2011 is held to current year levels, what will be the impact to 
your agency's operations and on the day to day operations of the 
Senate?
    Answer. We will be forced to delay some initiatives and cancel 
others. We will review all of our major spending plans and reevaluate 
each one, setting new priorities, recognizing the reduced resources 
allocated to us. As a note, we constantly evaluate our plans and 
resources and have concluded that about $1 million in the fiscal year 
2011 budget for equipment for an Emergency Operations Center is not 
cost effective and no longer needed.
    Specifically, if we do not upgrade network and data storage 
equipment, we may face increasing maintenance outages and higher future 
maintenance costs. We also planned to add capacity to State office 
Internet connections to improve network speed. We will be forced to 
eliminate that project. As a result, offices will continue to 
experience slower response times when using the Internet.
                     printing department relocation
    Question. The Architect of the Capitol's request includes $1.2 
million to relocate your Printing, Graphics and Direct Mail operation 
to a leased space in the Maryland suburbs. Why is this move necessary 
right now when we are attempting to rein in spending?
    Answer. One of our departments currently runs a large printing 
operation in the basement of a building a few blocks from here. Since 
2007, we have had 2 major sewage floods, 2 clean water floods, 4 
ceiling collapses of tile or concrete, among other events, that disrupt 
work, threaten the health of our staff or pose risk of damage to our 
expensive printing equipment. We have over $20 million in sophisticated 
equipment in the building. We believe that remaining in the facility 
will at some time cause an injury to staff or serious damage to our 
equipment. While we recognize the need to manage spending carefully, we 
believe this move is justified.
    Question. What is the total cost of this relocation?
    Answer. The initial cost to set up the facility will be between 
$7.8 million and $9.7 million depending on construction contingencies. 
In the long term, the government will save millions of dollars. One a 
purely financial basis, the government saves money over the life of the 
lease. The project has a net positive cash flow and a positive return 
on investment. The positive cash flow comes from significantly reduced 
rent and operating costs at the new facility compared to rent and 
operating costs in the heart of the District. We are paying over $54 
per square foot today and would pay about $22 per square foot at the 
new facility. Costs for the space now occupied are projected to be 
about $36 million over the next 20 years. The proposed facility would 
cost about $25 million over the same time period. The funds included in 
the Architect's budget would pay for the rent at the new facility that 
would be shared by us and the Architect. We believe that the Architect 
would use the space to consolidate several storage locations into one 
facility.
                          unobligated balances
    Question. Last year, your office identified a substantial amount of 
unobligated multi-year balances from fiscal year 2006, fiscal year 
2007, and fiscal year 2008. What is the total sum of these balances and 
how can you best utilize these funds to reduce your fiscal year 2011 
request?
    Answer. We have about $14 million in unobligated balances. Some of 
these funds can be used to reduce the fiscal year 2011 request, 
especially some of the capital investments in equipment that we plan to 
make.
    Additionally, there are three important projects that are not fully 
funded at this time. These are the Telecom Modernization Project, 
payroll system replacement and the move of our printing operation to a 
new facility. At the present time, only the costs of the relocation of 
the printing operation are known. As we clarify our priorities and as 
costs for TMP and the payroll system replacement become more defined, 
we will make a recommendation to the Committee on the use of the funds.
    Question. Are there remaining balances from fiscal year 2009 as 
well?
    Answer. We expect that all fiscal year 2009 funds will be obligated 
for the purpose intended and that there will not be unobligated 
balances as we had in fiscal years 2006-2008.
                    fiscal year 2011 budget request
    Question. Your organization has requested a 7 percent increase in 
fiscal year 2011. As we have discussed, increases are going to be very 
difficult in a tight budget year. What projects in your fiscal year 
2011 request can be deferred for another year?
    Answer. If funding is not available, we will defer some of the 
capital investments in network and data storage equipment, and possibly 
replacement for video and printing equipment. We also may have to defer 
development of the Senate Office Personnel System. We will look closely 
at all of our operations and get back to the Committee with more 
specific information.
    Question. Your request includes $1 million for IT security. What 
will this cover and what additional funding if any will be required?
    Answer. The additional funding will primarily cover continued 
migration to Symantec Endpoint Protection version 11, which is a vast 
improvement upon the current software we use for anti-virus protection 
on individual desktop and portable computers; security assessments and 
additional monitoring for new projects, including the payroll system 
and telecommunications modernization; improvements to our IT Security 
awareness program; and development of an enterprise risk-reduction 
``dashboard'' that will help individual offices view and quantify the 
risks present in their networks, assess their adherence to security 
standards and guidelines, and receive rapid feedback on the risk 
reduction effects of their remediation efforts.
    Question. How well is the Senate protected against a cyber-attack?
    Answer. We believe the Senate is well-protected, for now. We employ 
a variety of state-of-the-art security technology, procedures, and 
training to help defend the Senate network against cyber attacks. 
However, the frequency, complexity and sophistication of attacks 
against our systems continue to escalate, particularly in the form of 
targeted attacks from organized adversaries with adequate resources. 
The fact that the Senate has not yet suffered a major incident in the 
face of these escalating attacks is a testament to the people, 
processes, and technology that we commit to our defense. However, as 
the Senate continues to rely more heavily on ever-changing Internet 
technologies that can potentially expose us to new avenues of attack, 
we must also continue to improve our defenses to keep ahead of our 
adversaries.
    Question. Your request includes $2 million for a ``Senate Office 
Personnel System.'' Can you explain this?
    Answer. This project is to replace the antiquated system many 
administrative managers and chief clerks use to manage personnel 
administrative functions such as salaries, leave, and time and 
attendance. One of the key goals is to integrate office personnel 
requests with other automated systems to eliminate redundant data and 
data entry. Once the current requirements gathering effort is 
completed, we will be able to make a decision whether commercial 
systems can meet the requirements or whether we will have to develop a 
system ourselves.
    Question. Is this a one-time cost?
    Answer. Two million dollars is the estimated implementation cost. 
Funding for annual maintenance will be required in an amount to be 
determined after the system acquisition strategy is selected.
                     combined appropriation account
    Question. What economies do you expect to realize by combining your 
salaries and expenses into a single appropriation, which you are 
requesting to initiate in fiscal year 2011?
    Answer. A single appropriation account will reduce the 70 monthly 
manual reconciliations of balances for the accounts we have currently 
to seven reconciliations for the consolidated accounts. At any point in 
time, we have seven active appropriations to manage. Each appropriation 
has 10 subaccounts.
    Also, because salaries and expenses will be combined in one 
structure, managers also will be able to have a complete view of the 
cost of their operations in one report rather than the two at a minimum 
currently needed (one for salaries and one for expenses).
    Additionally, the current appropriation account structure is a 
legacy of Sergeant at Arms' organization structure of the early 1990s 
and the Senate's financial systems at the time. Today, the Senate has a 
financial system that easily can accommodate a consolidated 
appropriation and allow the appropriate level of management reporting 
for tracking both salary and expenses.
                     telecom modernization project
    Question. I understand there has been some movement on the telecom 
modernization project. Can you update the subcommittee on the progress 
of this $20 million project and whether or not additional funding may 
be required?
    Answer. The design phase of the Telecom Modernization Project has 
been completed. At this time, we do anticipate that additional funding 
will be needed for the project. Improvements to the buildings to 
support the solution have proven more expensive than originally 
estimated. In addition, new components to improve security and the 
manageability of the solution were added during the final engineering 
and design effort. We are evaluating that design against recently 
announced product roadmaps to determine what changes, if any, should be 
made to align with the manufacturer's direction. Depending on which of 
various implementation options is chosen, the additional cost is 
projected to be between $3.5 million and $8.7 million. We will continue 
to strive to minimize these increases. Based on these changes we 
anticipate that testing will begin late this year and that the system 
will be installed during fiscal year 2011.
                    telephone/voicemail interruption
    Question. What steps has your office taken to address the 
interruption in telephone and voicemail service that the Senate 
experienced during the Health Care Reform debate last summer?
    Answer. We have identified and rectified several issues over the 
past months to improve the reliability of the system, which will 
address most of the issues that we experienced. However, there is an 
issue we cannot resolve with the current voice mail system: it can 
handle only 132 simultaneous callers being redirected to voice mail. 
That number is not sufficient in this time of organized call-in 
campaigns and increased reliance on the voice mail system for screening 
callers. In the longer term, we will be installing a new voice mail 
system, which will have 782 ports, as one of the early efforts of the 
new telephone system implementation.
                  senate emergency notification system
    Question. There was an event last year where the Senate community 
was not immediately notified of an emergency which caused many road 
closures and interruptions to traffic in and out of Senate parking 
lots. What have you done to improve your system for alerting offices 
during an emergency that affects the Senate community?
    Answer. The Sergeant at Arms works closely with the USCP Command 
Center to ensure the Senate community is notified of potential impacts 
throughout evolving emergency situations. To assist the Command Center 
in keeping the Senate community informed, the Sergeant at Arms moved a 
full time employee to USCP Headquarters to provide a presence during 
normal work hours for real-time information relay. Furthermore, a 
Sergeant at Arms employee fully trained to issue notifications is 
present in the Command Center after normal work hours while the Senate 
is in session to support communication between USCP and the Senate 
community.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                                salaries
    Question. I understand the Sergeant at Arms (SAA) has successfully 
filled 25 positions since our hearing last year. What impact has that 
had on your operations?
    Answer. We have filled over 25 positions since the hearing last 
year. The impact has been real and substantive and has occurred in 
nearly every department. For instance, in Technology Development, one 
major outcome of filling several vacancies during the year was the very 
successful launch of the virtual machine infrastructure service. This 
service allows Senate offices needing new servers to build logical 
servers in the SAA physical environment at Postal Square at a fraction 
of the cost of buying their own physical servers. In addition to the 
cost savings, there are significant savings in office space, power, 
noise, and air handling for these offices. Several of the employees 
recently hired were instrumental to this successful launch. Another new 
staff person will implement electronic leave request and approvals for 
our staff, replacing the manual, tri-part forms now used. This project 
has been planned for 18 months and can be completed now with the 
position filled.
    In Capitol Facilities, we added a night manager and filled three 
vacancies in the night cleaning crew. We needed a manager to oversee 
the work of the 34 staff that keep the Senate side of the Capitol well 
maintained. We have observed a higher degree of good order in the 
Capitol and OSHA compliance since these staff were added.
    Question. I understand there are 23 positions currently vacant and 
that the budget request seeks 7 new positions, proposing to convert 6 
of those into contract employees, for a net gain of 1 new position in 
fiscal year 2011. If we approve the budget request as presented, there 
will be 24 vacancies in SAA. What would be the impact of not filling 
those 24 positions? Which services that you provide would have to be 
scaled back or eliminated?
    Answer. In the case of filling the existing positions, the most 
immediate and significant impact will be delay in completing current 
work. Member office and committee staffs expect rapid turnaround on 
work order and service requests. These response times will lengthen 
somewhat for certain services.
    In the case of the newly requested positions, following are 
explanations of their need.
    In addition to providing support for information technology, 
telecommunications and general office equipment and applications, IT 
Support Services has seen its less visible responsibilities expand 
rapidly over the past 2 years in the areas of contractor oversight, 
financial management of contracts, and asset management. The escalating 
workload has resulted in a strong need for additional FTEs to handle 
the growing demands.
    Three FTEs are requested for the Constituent Services Systems 
Coordination section, one of the areas hardest hit by increasing 
contract oversight and financial management duties. During the past 
year, due to office demands, we added a new vendor to the list from 
which offices could select a constituent services system. Because of 
the complexities of the CSS contracts, each contractor is assigned a 
separate contracting officer's technical representative from the CSS 
Coordination section. With the addition of the newest CSS vendor, the 
COTRs are forced to concentrate primarily on ensuring the contract 
terms and conditions are met. The critical financial management of the 
contract has become, at best, a tertiary duty for the COTRs. This new 
FTE is vital to our ability to fully manage the financial aspects of 
the CSS vendor contracts and ensure the Senate is receiving the best 
value for its money.
    The CSS Coordination section, again due to office demand, is now 
also tasked to provide oversight and support to three new categories of 
contracts covering the areas of website development, SharePoint 
integration, and member scheduling software, with multiple vendors in 
each of those areas. An office can select a vendor from each of those 
categories to perform work. Because current staff levels do not allow 
us to provide adequate oversight for these new areas, we now have an 
additional vendor onsite to oversee the website development contracts. 
We believe it is vitally important for us to have these 
responsibilities in-house due to the sensitive nature of information 
that must be gathered from offices. Having contractors oversee other 
contractors is not in the best interest of the offices. The additional 
FTEs would allow us to absorb the increased workload caused by the new 
contracts and provide the type of detailed contract oversight that the 
Senate community expects.
    The Asset Management section has also seen an expansion of duties 
as a result of the need for more accurate State inventories, the 
addition of service levels to the work being done for offices, and 
additional workload caused by the two new $5 million party recording 
studios. Previously, GSA assisted with State office inventories. GSA 
staff does not have adequate knowledge of the types of assets the 
Senate must capture, and, over the past 2 years, they have been unable 
to perform the inventories at the rate at which we need them. This has 
resulted in inaccuracies in State offices inventories and the need for 
time-consuming research to ensure offices are not forced to pay for 
equipment that may not be missing, or pay twice for equipment that is 
missing. The new equipment for the party recording studios must also be 
tracked by the Asset Management section. The equipment is staged off-
site and in smaller components that are aggregated together to form 
larger units. The only way to ensure accuracy of these inventories is 
to send Asset Management staff to the off-site location leaving the 
rest of the section short-handed. Without the new FTE, we will continue 
to have issues with State offices inventories and GSA interactions and 
will not be able to provide the level of oversight needed for the $10 
million worth of Senate assets in the studios.
    Our Printing, Graphics and Direct Mail group seeks to add a systems 
administrator position. Providing immediate systems support and 
troubleshooting is essential to maintaining a constant work flow. 
PGDM's networked equipment is in six separate locations, and 
troubleshooting, maintenance and general oversight is impossible for 
the current single systems administrator.
    PGDM's one systems administrator will not be able to maintain 
efficiency and quality service for future hardware/software 
acquisitions and for increases in production data. No back up for the 
systems administrator means less support to Postal Square, Senate 
Support Facility and ACF facilities. Another year's delay in filling 
this essential position will ensure delays in service to PGDM 
equipment, PGDM employees and customers.
    Question. How much money would you save?
    Answer. We could save about $1.5 million were these positions not 
filled.
                                expenses
    Question. The budget request includes $2 million for replacement of 
the Senate Office Personnel System (SOPS). Please explain why 
replacement of SOPS is necessary at this time.
    Answer. One of the key goals of the project, as expressed by 
administrative managers and chief clerks, is to integrate office 
personnel-related requests with other automated systems to eliminate 
redundant data and data entry. The current system is built on 
technology no longer supported by its vendor, which leaves the 
application at risk to potential exploits and makes integration with 
related Senate systems more costly and difficult, if not impossible.
    Question. Has a replacement system already been identified? Is the 
$2 million requested the total amount needed for the new system?
    Answer. We have not yet chosen a replacement system. Once the 
current requirements gathering effort is completed, we will be able to 
make a decision to what degree commercial systems can meet the 
requirements and to what degree we will have to develop the system 
ourselves. The $2 million represents the estimated implementation cost. 
Funding for annual maintenance will be required in an amount to be 
determined after the system acquisition strategy is determined.
                          unobligated balances
    Question. I understand that SAA has approximately $14 million 
available in unobligated balances from fiscal year 2006-2008. Do you 
have any anticipated needs for these funds?
    Answer. There are three important projects that are not fully 
funded at this time. These are the Telecom Modernization Project, 
payroll system replacement and the move of our printing operation to a 
new facility. At the present time, only the costs of the relocation of 
the printing operation are known. As we clarify our priorities and as 
costs for TMP and the payroll system replacement become more defined, 
we will make a recommendation to the Committee on use of the funds.
                       telecom modernization plan
    Question. The fiscal year 2011 budget request includes an increase 
of $2 million in the telecommunications portion of the budget, which is 
necessary to maintain two systems in tandem throughout the installation 
of the new system--possibly 18-24 months. Will this $2 million increase 
cover the maintenance costs for the entire installation phase, or will 
additional funding be requested in fiscal year 2012?
    Answer. We will not request additional funding for maintenance in 
fiscal year 2012. We anticipate that the new system will be installed 
in fiscal year 2011 and that the cost to do so will include maintenance 
for the first year. Because maintenance costs on the new system will be 
lower than on our current system, no additional funding will be needed 
for fiscal year 2012.
    Question. Please give us an update on the Telecom Modernization 
Plan. What is the status of the $21 million that was previously 
appropriated for this project?
    Answer. We have awarded contracts for about $8.6 million for the 
following: engineering and design ($2.1 million); electrical and HVAC 
improvements in Senate office buildings ($5.1 million) and independent 
third party reviews and validation of the design ($1.4 million).
    At this time, we anticipate that additional funding will be needed 
for the project, although as mentioned above, we may be able to use 
some of our unexpended balances from prior years. Improvements to the 
buildings to support the solution have proven more expensive than 
originally estimated. In addition, new components to improve security 
and the manageability of the solution were added during the final 
engineering and design effort. Depending on which of various 
implementation options is chosen, the additional cost is projected to 
be between $3.5 million and $8.7 million. We will continue to strive to 
minimize these increases.
    Question. Are you ready to begin the implementation of the new 
system?
    The design phase of the Telecom Modernization Project has been 
completed. We are evaluating that design against recently announced 
product roadmaps to determine what changes, if any, should be made to 
align with the manufacturer's direction. Upon completion of this 
evaluation, we anticipate that testing will begin later this year and 
that the system will be installed during fiscal year 2011.
                         payroll system upgrade
    Question. Please give us an update on the payroll system upgrade, 
which we funded in fiscal year 2010 at the requested level of $2 
million.
    Answer. The $2 million in the fiscal year 2010 budget will cover 
software maintenance costs for both the old and new software and the 
cost of the project management office and independent verification and 
validation of the implementation project. The original estimate for 
implementation was $5 million, but this is only a rough estimate. 
Responses to the solicitation are due at the end of March, at which 
time we will have a range of costs and will be able to determine what 
the cost for implementation would be.
    Answer. Would utilizing a portion of the current unobligated 
balances to fund the contract award for implementation of the new 
payroll system complete the funding necessary for this project?
    Answer. As noted above, there is a possibility that these 
unobligated balances can be used for the payroll system upgrade. We 
will work with the Committee as we review our priorities and funding 
options.
             printing, graphics and direct mail relocation
    Question. SAA is in the beginning stages of developing a plan to 
move the printing facility to a suburban warehouse in Landover, 
Maryland. Projected upfront costs of this relocation could be 
approximately $7.5 million. What will be the long-term savings 
associated with this relocation?
    Answer. Net savings in rent and other operating expenses would be 
$11 million over the life of the lease or approximately $500,000 per 
year when compared against the much higher cost of leasing space in the 
current D.C. facility.
    Question. What is the timeframe for making the decision about 
relocation?
    Answer. Ideally, the decision to relocate the printing facility 
will be made in the next 60-90 days in order to take advantage of 
currently available space and cost estimates.
    Question. Why is a warehouse in Landover, Maryland a better 
location than somewhere closer to Capitol Hill?
    Answer. The current D.C. facility has a decaying infrastructure 
which is not being addressed by the owners/lessee and presents no 
opportunity for our production plant to grow as we expect the 
requirements to entail. Other locations near Capitol Hill do not have 
sufficient open spaces that allow for the efficient layout of 
machinery. The Landover facility also would be in close proximity to 
the Senate's warehouse which would permit economies to be realized by 
use of common transportation equipment.
                                 ______
                                 
              Questions Submitted to Phillip D. Morse, Sr.
               Questions Submitted by Senator Ben Nelson
                         salary miscalculation
    Question. Chief Morse--I want to better understand the 
circumstances surrounding the salary miscalculations which you recently 
discovered and their impact on your fiscal year 2010 appropriation. The 
Capitol Police has long been plagued with financial management problems 
and I had hoped we were moving in the right direction in that regard.
    Regarding the budget shortfall, Chief you say you have identified 
potential reductions in the fiscal year 2010 General Expenses account 
that could, with this committee's approval, provide funds to be 
transferred to the Salaries account. What specific reductions are being 
considered?
    Answer. To address our projected salaries shortfall in fiscal year 
2010, the United States Capitol Police has conducted an internal review 
of available funding and have identified potential areas for the 
reprogramming of funds. In doing so, the Department's primary focus has 
centered on its ability to maintain its security and law enforcement 
mission, as well as mitigate potential impacts to human capital 
programs affecting its workforce.
    The funds identified for potential reprogramming include funding to 
support lifecycle replacement of technology, technology upgrades, 
integration of technology systems, internal and external training and 
lifecycle replacement of uniforms and equipment, as well as general 
administrative mission support functions.
    The elimination of these funding sources in fiscal year 2010 will 
delay the Department's established lifecycle replacement processes and 
result in greater fiscal needs in future years, but it will not affect 
the security of the Capitol Complex. Further, while it will also hamper 
the Department's ability to invest in professional and technical 
training for its workforce, the Department will continue to provide 
mission critical mandatory and certification training.
    Additionally, for the remainder of fiscal year 2010, the Department 
will fill mission critical civilian vacancies through civilian 
attrition salaries savings from within an 393 civilian strength target. 
As civilian positions are vacated through attrition, the vacated 
position will be added to our comprehensive civilian vacancy lists 
based on an analysis of mission critical requirements. Available 
salaries funding will be directed to the next position on the 
prioritized civilian vacancy list for backfill.
    In an effort to make the necessary adjustments to our fiscal year 
2011 budget request, and to remain close to our fiscal year 2010 
enacted appropriation, I have determined that we will limit our onboard 
civilian strength to 393 in fiscal year 2011, unless a mission critical 
requirement makes it necessary to exceed that level. Therefore, I would 
respectfully request that we retain the budgetary authority for our 
authorized civilian positions above our target civilian staffing level 
of 393, so that the Department may take the necessary hiring actions to 
meet unforeseen civilian hiring requirements within appropriated 
funding levels.
    In addition, fewer sworn officers are leaving the Department. This 
has reduced the Department's need to backfill officer attrition, which 
has resulted in available funding that would have otherwise been used 
to recruit, hire, train and equipment new officers.
    Later this fiscal year, the Department has indicated that it plans 
to reevaluate the projected salaries shortfall and will make a request 
to the Committee at that time for the reprogramming of necessary funds 
to its salaries account.
    Question. I would like you to provide this subcommittee with a 
detailed plan outlining the sources of funding you will use to cover 
this shortfall within 30 days.
    Answer. The Department has ``fenced'' the identified funding 
referenced above (total of $5.886 million in annual general expense 
funds and $1.385 million in no-year and 2-year funds). The Department 
plans to reevaluate the salaries shortfall during the fiscal year third 
quarter, at which time we will identify the funding necessary to meet 
the salaries shortfall. Based on this reevaluation, the Department 
plans to submit a request for the approval of funds reprogramming. To 
ensure we have ``fenced'' sufficient funding to address this issue, the 
Department based its salaries shortfall projection on a worst case 
scenario. (Currently estimated at $6.8 million.)
    Because of the security sensitive nature of the information 
included in the Department's response to this question, I am 
respectfully providing my specific response under separate cover. I 
would, therefore, request that the information provided in that 
document not be included as a part of the public record.
    Question. This committee gave your department a 7 percent increase 
in salaries in fiscal year 2010 to maintain your current workforce, yet 
we were still short. The actual total needed for fiscal year 2010 is 
nearly 10 percent over 2009. How do you explain this increase to simply 
maintain your staffing level?
    Answer. The Department began fiscal year 2009 with close to its 
authorized level of 1,702 officers as of September 30, 2008. With the 
Library of Congress Police merger, the backfill of LOC sworn attrition 
and the coverage of the CVC tunnels requirement, our authorized level 
increased in fiscal year 2009 to 1,799. The transferring LOC sworn 
employees were added to the USCP payroll during the last 4 days of 
fiscal year 2009, but the larger authorized staffing level required for 
these employees was carried for the entire fiscal year in 2010.
    Likewise on the civilian side, the authorized levels increased from 
418 in fiscal year 2009 to 444 in fiscal year 2010. This increase of 26 
civilians resulted from the 21 former LOC sworn officers transferring 
as civilians to the Department on October 11, 2009 and the addition of 
5 radio technicians to support our new radio modernization project. 
These increases in sworn and civilian staffing levels contributed to 
the nearly 10 percent increase.
    Question. You have made significant personnel changes within the 
administrative side of your agency. Do you feel you have the right 
personnel in place to put together an accurate budget? If not, how do 
you plan to prevent this from happening again?
    Answer. Over the last 2 years, we have hired a number of employees 
who we felt possessed the requisite knowledge, skills and abilities to 
resolve the ongoing systemic problems within our financial management 
area.
    Unfortunately, in fiscal year 2010 the formulation of our budget 
did not follow our repeatable budgeting process, to include our Force 
Development review for the evaluation of specific mission requirements 
and potential new programs. This deviation from the prior fiscal year 
process resulted in the resubmission of our fiscal year 2010 budget and 
a resulting salaries shortfall. The fiscal year 2010 salaries 
miscalculation was carried forward into our fiscal year 2011 budget 
formulation as well.
    The USCP Inspector General (OIG) is currently auditing the budget 
development processes for fiscal year 2010 and 2011 to determine the 
reasons for the budget formulation miscalculations and why the fiscal 
year 2009 budget process was not utilized as a repeatable process.
    While the OIG audit is being conducted, the Department is reviewing 
the overall financial management function of the Department to 
determine the best method for achieving the budget, accounting and 
procurement functions.
    The outcome of the OIG audit, our internal business process review, 
and our continued interaction with the Capitol Police Board, the 
Government Accountability Office and oversight committees, we believe 
will assist the Department in developing permanent solutions for 
resolving the systemic financial management problem.
                        fiscal year 2011 request
    Question. How confident are you that the revised fiscal year 2011 
numbers you provided to us are accurate?
    Answer. Upon finding the fiscal year 2010 salaries miscalculation, 
the Department notified the Capitol Police Board in its budget 
oversight capacity. To assist the Department in preparing a fiscal year 
2011 budget amendment with accurate and verifiable information, the 
Board convened a budget review panel consisting of the Chief Financial 
Officer for the Senate Sergeant at Arms, the CFO for the Architect of 
the Capitol (AoC), the Director of the Office of Security Programs for 
the AoC, and a technical expert from the House Sergeant at Arms Office. 
Based on this review and the review of the Department's Executive Team, 
we believe the revised fiscal year 2011 submission is accurate based on 
the assumptions at the time of development.
    Question. Your fiscal year 2011 request assumes an increase of 52 
officers and roughly $30 million in overtime costs. How much will it 
cost to maintain your current staffing levels in fiscal year 2011 
without the additional officers you requested?
    Answer. To maintain current staffing levels of 1,800 sworn and 393 
civilians in fiscal year 2011, the Department will require $342.9 
million in Salaries and General Expenses, as well as an additional 
$15.9 million to complete the indoor coverage portion of the radio 
modernization project. This does not include funding for the special 
initiatives included in our fiscal year 2011 budget submission.
    Question. Have you realized any savings as a result of the GSA 
fleet-leasing initiative?
    Answer. From the initial review of the leasing program in fiscal 
year 2009, we estimated a potential cost savings over a 5 year period 
of $2 to $3 million at our current primary fleet size. This projected 
savings reflects the difference between purchasing lifecycle 
replacement vehicles for our primary fleet and leasing the vehicles 
from the General Services Administration (GSA). So far, we have 
realized work hour savings in efficiencies in the vehicle surplus/
disposal process through GSA. More importantly, we are in a consistent 
lifecycle replacement process for our primary fleet, which is critical 
to our mission capability.
    Question. You mentioned in your testimony, that half of the 
civilians you are requesting in fiscal year 2011 will replace contract 
employees. Will adding these individuals to your workforce actually 
save money?
    Answer. First, I would like to clarify a reference in my testimony 
that was derived from our fiscal year 2011 budget submission. In our 
fiscal year 2011 budget submission, we indicate that all five of the 
new Office of Information Systems civilian positions, as well as the 
additional budget analyst position for the Office of Financial 
Management, which we are requesting would replace contractors, when in 
fact only two of the five OIS positions are requested in order to 
replace contractors. Therefore, only three of the civilian positions 
being requested in fiscal year 2011 would replace contractors.
    To address your specific question, yes, we believe that adding 
these individuals to our workforce will save money. We are requesting 
to convert the annual general expense cost for the two contractors 
which is approximately $405,000 to salaries to support two new civilian 
positions, a CP-11 and a CP-7, which fully loaded have an annual FTE 
cost of approximately $225,000. In future fiscal year budget requests 
we intend to request additional conversions where it makes fiscal 
sense.
    In the Information Technology field, for example, it is not 
uncommon for FTE cost to be lower than contractor cost. In situations 
where we have Information Technology staff augmentation contractors 
that cost more than the fully loaded cost of an FTE equivalent we 
should pursue a conversion. OIS conducted an informal review and 
determined it could save over $1 million per year by addressing these 
and other contractor conversions.
    Question. You are requesting $16.2 million in ``new initiatives,'' 
including hallway security, House and Senate garage security, and 
several AOC projects. Could these items be deferred, or funded in 
phases?
    Answer. If these projects are deferred, the vulnerabilities that 
they are designed to mitigate would remain. Some of these projects 
could be funded in phases.
    Because of the security sensitive nature of the information 
included in the Department's response to this question, I am 
respectfully providing my more detailed response under separate cover. 
I would, therefore, request that the information provided in that 
document not be included as a part of the public record.
                          manpower reductions
    Question. What effect has the merger with the Library of Congress 
police had on the USCP's salaries and overtime thus far? What 
additional changes, if any, are expected to result from the merger?
    Answer. In fiscal year 2010, the Department received funding to 
support the sworn and civilian employees who transferred from the 
Library of Congress (LOC) Police to the Department as a part of the 
Library of Congress Police/USCP Merger. When the funding for overtime 
was requested for fiscal year 2010, the fiscal year 2009 overtime 
executed as a part of the LOC's appropriation (approx. 17,000 hours) 
was not requested to be included as an increase to the Department's 
overtime base. Therefore, the Department absorbed these mission 
requirements into our base for fiscal year 2010.
    Following the implementation of the merger, the Department load-
leveled the LOC Division's sworn personnel allocations with other 
mission requirements across the Department. This resulted in an 
overtime allocation of 560 hours of overtime from within the USCP 
overtime base per week to meet current mission requirements associated 
with the LOC Division.
    Currently, the Department is reviewing the results of our physical 
security and threat assessments that were conducted on the LOC 
Buildings post-merger. We are in the process of evaluating potential 
mission set adjustments that may result in sworn personnel and overtime 
savings. Resulting savings would be placed against existing mission 
requirements across the Department. Once we have concluded this review 
and analysis, we will vet potential changes through the Capitol Police 
Board and appropriate stakeholders for consideration.
    Question. Having conducted risk assessments, security testing, and 
coordinating intelligence with other Federal law enforcement agencies, 
in your opinion, do you have the right mix of officers, technology, and 
equipment to provide for the security of the Capitol Complex?
    Answer. To better manage our resources and to work toward 
determining the requirements needed for the Department to meet its 
mission, we undertook, with full support of our committees, a staffing 
study in 2007 focused on the core mission requirements at that time. 
This study resulted in a target sworn officer utility of 1,560 in an 
optimum resource environment, which includes a level of overtime needed 
to address unplanned events.
    USCP plans and projects its resources, to include overtime (OT) 
requirements, based on this target 1,560 hours annual utility for each 
USCP officer. This number includes the use of leave both scheduled and 
unscheduled, holiday, training, and administrative time for each 
officer.
    To determine the overall current staffing requirements for our 
mission in fiscal year 2010, the Department balanced the scheduled core 
mission requirements of today, projected unscheduled events 
(demonstrations, state funerals, heads of state visits, etc.), unfunded 
core mission requirements (those that have been added after the annual 
budget submission and appropriation of funds for the current fiscal 
year), and available annual salary and overtime funding to determine 
the level of sworn officer utility required to perform the mission of 
Department.
    The Department's current authorized sworn strength does not provide 
the necessary utility to meet current core mission requirements within 
the target 1,560 utility. This was determined by applying the 1,560 
utility hours against the hours necessary for base core mission 
requirements. The remaining hours must be met through overtime, post 
reduction, the use of technology, or reductions from within the 
utility, such as training.
    To maximize the utilization of resources, the Department balances a 
number of factors as noted above. For example, in an effort to control 
overtime costs, the Department must maintain a robust sworn strength 
throughout the year. Therefore, the onboard sworn strength must remain 
at or above the authorized sworn strength to accommodate attrition 
without increasing the resource gap. This allows the Department the 
maximum sworn officer utilization to meet core mission requirements.
    However, in doing so, the Department is utilizing its appropriated 
salary funds to their maximum potential throughout the year. A by 
product of this level of funding utilization is the potential slowing 
of civilian hiring to allow for the funding availability for sworn 
hiring.
    Further, the Department has an average of 40-60 sworn officers in 
recruit training during various parts of the fiscal year, which results 
in these sworn officer utility hours not having an immediate direct 
impact of the reducing the resource gap upon their entry on duty with 
the Department. Generally, recruit officers hired and trained after 
March of any given fiscal year will not have a impact on reducing the 
resource gap until the next fiscal year, assuming that the core mission 
does not increase or projected attrition is not exceeded.
    In an effort to reduce requirements and narrow this gap, the 
Department has worked with the Capitol Police Board and its oversight 
committees to review possible requirements reductions. In fiscal year 
2008 and fiscal year 2009, the Department closed a number of non-
security posts, which allowed the Department to remain within the 
appropriated salary and overtime funding levels.
    To further reduce the resource gap, the Department has looked at a 
number of opportunities to civilianize positions currently performed by 
sworn officers, so these sworn staffing resources may be realigned to 
meet other core mission requirements. In fiscal year 2009, the 
Department utilized available civilian positions to return former USCP 
employees from the Department of Labor's Worker's Compensation Roll to 
the Department's Communications Section. This allowed the Department to 
utilize civilian personnel to perform the security camera and alarm 
monitoring function in-house, rather that using contractors. Further, 
this allowed the Department additional general expense funds for 
potential use on technology, as well as allowing for some realignment 
of sworn resources.
    Additionally, the Department civilianized 26 sworn positions in the 
Library of Congress command center during the LOC Police and USCP 
Merger. This allowed the Department to utilize civilianizing former LOC 
Police employees to perform the Command Center functions and realign 
sworn resources to other core mission requirements.
    The Department is currently reviewing other areas that may result 
in civilianization of posts, which may provide additional available 
sworn officer utility. As these are developed, they will be vetted 
through the Capitol Police Board and appropriate stakeholders for 
consideration.
    Even with these reductions efforts and the use of technology, the 
remaining requirements currently exceed the Department's appropriated 
overtime funding level. Therefore, the training hours contained within 
the 1,560 officer utility must be utilized to meet the requirements gap 
between available sworn officer resources and requirements.
    An analysis was conducted by USCP with available data to estimate 
the current sworn officer utility, which is estimated in an approximate 
range of 1,650-1,725 per officer annually, including overtime. Almost 
all of these utility hours are used in support of USCP core mission 
requirement. Based on this estimated utility range, the Department is 
not currently meeting its 80 hour annual training target as contained 
in the target 1,560 sworn officer utility described above.
    A random sampling of USCP officers in the Uniform Service Bureau 
(USB) indicates that approximately 7-20 hours were actually used for 
training in fiscal year 2009, vice the 80 hours allotted for training 
in the utility calculation. By focusing this analysis on USB, we are 
addressing the largest sworn population within the Department. This 
analysis did not include USCP specialty units such as K9, CERT or HDS 
and DPD.
    The reduction of training hours will not have an immediate impact 
on the USCP mission. However the long term impact of reducing core 
training hours, will impact the recertification of officers in certain 
programs, may affect officer response capability and may result in the 
overall degradation of the proficiency of our officers to meet their 
mission. All of these will result in greater risks to the Department 
and create a cycle that will have long-term impacts on the Department.
    In an effort to address this training matter before it becomes a 
serious issue and work toward the optimum sworn officer utility of 
1,560, the Department has requested overtime funding to support a 
minimum of 16 hours of training for 1,500 sworn officers in fiscal year 
2011. Because our current onboard officers cannot work increased 
overtime levels for the long-term without affecting their 
effectiveness, we are also requesting 52 additional officers to begin 
to narrow the resource gap while allowing for the minimum annual 
training level described above. These two resource requests are a part 
of a larger balance that the Department is attempting to reach between 
the use of personnel, overtime, technology and mission balance to meet 
required core mission requirements.
    Question. What effect have these assessments had on post openings 
and closings? To what extent are there opportunities for further post 
closings?
    Answer. In an effort to reduce mission requirements and narrow the 
sworn utility gap referenced above, the Department has worked with the 
Capitol Police Board and its oversight committees to review possible 
requirements reductions. In fiscal year 2008 and fiscal year 2009, the 
Department closed a number of non-security posts, which allowed the 
Department to remain within the appropriated salary and overtime 
funding levels.
    To further reduce the resource gap, the Department has looked at a 
number of opportunities to civilianize positions currently performed by 
sworn officers, so these sworn staffing resources may be realigned to 
meet other core mission requirements. In fiscal year 2009, the 
Department utilized available civilian positions to return former USCP 
employees from the Department of Labor's Worker's Compensation Roll to 
the Department's Communications Section. This allowed the Department to 
utilize civilian personnel to perform the security camera and alarm 
monitoring function in-house, rather that using contractors. 
Additionally, this allowed the Department additional general expense 
funds for potential use on technology, as well as allowing for some 
realignment of sworn resources.
    Further, the Department civilianized 26 sworn positions in the 
Library of Congress command center during the LOC Police and USCP 
Merger. This allowed the Department to utilize civilianizing former LOC 
Police employees to perform the Command Center functions and realign 
sworn resources to other core mission requirements.
    The Department is currently reviewing other areas that may result 
in civilianization of posts, which may provide additional available 
sworn officer utility. As these are developed, they will be vetted 
through the Capitol Police Board and appropriate stakeholders for 
consideration.
    It is important to note, in order for the Department to reduce 
overtime utilization, the mission requirements expected of the 
Department cannot increase. Otherwise, the Department will be required 
to request additional overtime or staffing to meet the new 
requirements.
    Question. Chief, one of the big issues you and your department face 
each year are the ever-mounting responsibilities that require the use 
of more and more overtime. I think you should consider a study to 
determine the feasibility and wisdom of contracting out some of your 
technology-related tasks, such as x-ray machines and magnetometers, to 
highly trained civilian technicians. This will free up your sworn 
personnel for other more traditional law enforcement activities. 
Obviously, sworn personnel will still provide appropriate law 
enforcement support and action at doors, as appropriate. What are your 
thoughts on this?
    Answer. Prior to the 1998 shooting of two USCP sworn officers in 
the Capitol Building, we had instituted a staffing model that would 
place one unarmed civilian security aide at various entry points to 
operate the metal detectors and x-ray machine, as well as a single 
police officer to take law enforcement actions.
    Based on our analysis of the 1998 shooting and reviews of other 
similar situations around the nation, we know that the confrontation 
point for an armed intruder will be at the screening locations. 
Therefore, we instituted a staffing model that eliminated the civilian 
position and replaced it with a sworn officer to improve security and 
the ability to confront an armed attack.
    It is recommended that we maintain that model at building entry 
points.
    That said, we will undertake a study to determine if we can place 
civilian screeners at select secondary screening points at interior 
building locations and will report the findings back to the Committee 
once completed.
    Question. If you are held to your fiscal year 2010 appropriation in 
fiscal year 2011, what adjustments could you make to your request to 
maintain current staffing?
    Answer. Within the context of reviewing our budget requirements at 
or near the fiscal year 2010 appropriations level, the Department has 
undertaken a comprehensive review of its fiscal year 2011 salaries and 
general expense request. The review was intended to determine the core 
mission requirements necessary to operate at our current staffing level 
(1,800 sworn and 393 civilian) in fiscal year 2011, while maintaining 
the ability to carry out our core mission.
    Because of the fiscal year 2010 salaries miscalculation, our fiscal 
year 2011 salaries mandatory base funding requirement is higher than 
anticipated. In an effort to reduce the overall fiscal year 2011 budget 
requirements (both salaries and general expense), we are attempting to 
reduce all non-mandatory general expenses from our no-growth request.
    As the Committee is aware, our fiscal year 2011 budget amendment 
resulted in a $9 million difference between our original and revised 
fiscal year 2011 request. However, in our effort to develop a fiscal 
year 2011 request at or close to our fiscal year 2010 appropriated 
level, the Department anticipates that we will require in fiscal year 
2011 an estimated $14 to $16 million in funding above of fiscal year 
2010 appropriated level in order to meet our current staffing and 
mission levels, to include the carryover of the fiscal year 2010 
salaries miscalculation.
    We are again reviewing our fiscal year 2010 general expense base to 
look for potential areas to reduce this overall funding requirement and 
plan to submit to the Committees by the end of the second week of 
April, an fiscal year 2011 base requirements budget to support our core 
mission requirements.
    Question. The fiscal year 2011 budget justification states that the 
52 new sworn officers you are requesting would not reduce overtime 
until at least 2012 because of the time it takes to train an officer. 
What longer-term strategy does the USCP have to reduce overtime?
    Answer. There are two factors which affect the Department's ability 
to reduce its overtime utilization: (1) sworn utility and (2) 
additional mission requirements.
    To better manage our resources and to work toward determining the 
requirements needed for the Department to meet its mission, we 
undertook, with full support of our committees, a staffing study in 
2007 focused on the core mission requirements at that time. This study 
resulted in a target sworn officer utility of 1,560 in an optimum 
resource environment, which includes a level of overtime needed to 
address unplanned events.
    USCP plans and projects its resources, to include overtime (OT) 
requirements, based on this target 1,560 hours annual utility for each 
USCP officer. This number includes the use of leave both scheduled and 
unscheduled, holiday, training, and administrative time for each 
officer.
    To determine the overall current staffing requirements for our 
mission in fiscal year 2010, the Department balanced the scheduled core 
mission requirements of today, projected unscheduled events 
(demonstrations, state funerals, heads of state visits, etc.), unfunded 
core mission requirements (those that have been added after the annual 
budget submission and appropriation of funds for the current fiscal 
year), and available annual salary and overtime funding to determine 
the level of sworn officer utility required to perform the mission of 
Department.
    The Department's current authorized sworn strength does not provide 
the necessary utility to meet current core mission requirements within 
the target 1,560 utility. This was determined by applying the 1,560 
utility hours against the hours necessary for base core mission 
requirements. The remaining hours must be met through overtime, post 
reduction, the use of technology, or reductions from within the 
utility, such as training.
    To maximize the utilization of resources, the Department balances a 
number of factors as noted above. For example, in an effort to control 
overtime costs, the Department must maintain a robust sworn strength 
throughout the year. Therefore, the onboard sworn strength must remain 
at or above the authorized sworn strength to accommodate attrition 
without increasing the resource gap. This allows the Department the 
maximum sworn officer utilization to meet core mission requirements.
    However, in doing so, the Department is utilizing its appropriated 
salary funds to their maximum potential throughout the year. A by 
product of this level of funding utilization is the potential slowing 
of civilian hiring to allow for the funding availability for sworn 
hiring.
    Further, the Department has an average of 40-60 sworn officers in 
recruit training during various parts of the fiscal year, which results 
in these sworn officer utility hours not having an immediate direct 
impact of the reducing the resource gap upon their entry on duty with 
the Department. Generally, recruit officers hired and trained after 
March of any given fiscal year will not have a impact on reducing the 
resource gap until the next fiscal year, assuming that the core mission 
does not increase or projected attrition is not exceeded.
    In an effort to reduce requirements and narrow this gap, the 
Department has worked with the Capitol Police Board and its oversight 
committees to review possible requirements reductions. In fiscal year 
2008 and fiscal year 2009, the Department closed a number of non-
security posts, which allowed the Department to remain within the 
appropriated salary and overtime funding levels.
    To further reduce the resource gap, the Department has looked at a 
number of opportunities to civilianize positions currently performed by 
sworn officers, so these sworn staffing resources may be realigned to 
meet other core mission requirements. In fiscal year 2009, the 
Department utilized available civilian positions to return former USCP 
employees from the Department of Labor's Worker's Compensation Roll to 
the Department's Communications Section. This allowed the Department to 
utilize civilian personnel to perform the security camera and alarm 
monitoring function in-house, rather that using contractors. This 
allowed the Department additional general expense funds for potential 
use on technology, as well as allowing for some realignment of sworn 
resources.
    Additionally, the Department civilianized 26 sworn positions in the 
Library of Congress command center during the LOC Police and USCP 
Merger. This allowed the Department to utilize civilianizing former LOC 
Police employees to perform the Command Center functions and realign 
sworn resources to other core mission requirements.
    The Department is currently reviewing other areas that may result 
in civilianization of posts, which may provide additional available 
sworn officer utility. As these are developed, they will be vetted 
through the Capitol Police Board and appropriate stakeholders for 
consideration.
    Even with these reductions efforts and the use of technology, the 
remaining requirements currently exceed the Department's appropriated 
overtime funding level. Therefore, the training hours contained within 
the 1,560 officer utility must be utilized to meet the requirements gap 
between available sworn officer resources and requirements.
    An analysis was conducted by USCP with available data to estimate 
the current sworn officer utility, which is estimated in an approximate 
range of 1,650-1,725 per officer annually, including overtime. Almost 
all of these utility hours are used in support of USCP core mission 
requirement. Based on this estimated utility range, the Department is 
not currently meeting its 80 hour annual training target as contained 
in the target 1,560 sworn officer utility described above.
    A random sampling of USCP officers in the Uniform Service Bureau 
(USB) indicates that approximately 7-20 hours were actually used for 
training in fiscal year 2009, vice the 80 hours allotted for training 
in the utility calculation. By focusing this analysis on USB, we are 
addressing the largest sworn population within the Department. This 
analysis did not include USCP specialty units such as K9, CERT or HDS 
and DPD.
    The reduction of training hours will not have an immediate impact 
on the USCP mission. However the long term impact of reducing core 
training hours, will impact the recertification of officers in certain 
programs, may affect officer response capability and may result in the 
overall degradation of the proficiency of our officers to meet their 
mission. All of these will result in greater risks to the Department 
and create a cycle that will have long-term impacts on the Department.
    In an effort to address this training matter before it becomes a 
serious issue and work toward the optimum sworn officer utility of 
1,560, the Department has requested overtime funding to support a 
minimum of 16 hours of training for 1,500 sworn officers in fiscal year 
2011. Because our current onboard officers cannot work increased 
overtime levels for the long-term without affecting their 
effectiveness, we are also requesting 52 additional officers to begin 
to narrow the resource gap while allowing for the minimum annual 
training level described above. These two resource requests are a part 
of a larger balance that the Department is attempting to reach between 
the use of personnel, overtime, technology and mission balance to meet 
required core mission requirements.
    Question. With the country in the midst of an economic crisis, 
attrition rates have been lower than usual. Has your department seen 
lower attrition rates? Have you taken this into consideration when 
preparing your budget request?
    Answer. Yes, USCP has seen an unprecedented lower attrition rate 
(almost half of what would be normal). This was factored into the re-
formulated budget for fiscal year 2011.
                      radio modernization project
    Question. On September 30, 2009, the Committee received the first 
funding obligation plan pursuant to the fiscal year 2009 Supplemental 
Appropriations Act that provided $71.6 million for the USCP radio 
modernization project. That funding obligation plan specified $3.5 
million for the design and construction of the mirror site facility to 
house the radio system's technical requirements. Who is doing the 
actual design of the mirror site and when will it be completed?
    Who will be doing the construction of the mirror site and when will 
it be completed?
    Answer. The design and construction of the mirror site will be done 
by Verizon and its contractors under the supervision of the AOC and 
USCP. The design is scheduled to be completed by July 15, 2010 and the 
construction build out is scheduled to be completed by March 2011.
    Question. When can the Committee expect to receive the next 
obligation plan?
    Answer. The Committee can expect to receive the next obligation 
plan in March 2010 then another one in April 2010.
    Question. Will the $16 million requested in fiscal year 2011 be the 
final funding request for this project?
    Answer. That is our intention and is our plan. At this point in 
time, the estimate for the total cost of this project is just over 
$91.9 million. The total amount appropriated (assuming the $16 million 
in fiscal year 2011) is $97.562 million, leaving a contingency fund of 
$5.655 million.
    Should we need to utilize contingency funds during the project, the 
Department plans to notify the Committees and provide an explanation 
for its utilization.
    Additionally, the Department plans to provide an update on the 
status of the radio modernization project to the Committees in the near 
future. As a part of this update, we will provide additional 
information on the development and status of our budget estimates, a 
current status of funds utilization, the status of the various phases 
of the overall project, and our revised obligation plan for the 
appropriated and requested funds.
    Question. With only $3.5 million obligated of the $71.6 million 
that was appropriated in the fiscal year 2009 supplemental, is it 
really necessary to have an additional $16 million in fiscal year 2011?
    Answer. Yes, it is necessary. Without the additional funding, there 
will be insufficient funds to complete the project. The total cost of 
the project is estimated to be $91.9 million, and that is without any 
contingency fund. The additional $16 million in funding will bring the 
total appropriated amount to $97.562 million which should be sufficient 
to complete the project and to provide for a small contingency fund.
    Currently, there is an Obligation Plan that was recently sent to 
the House and Senate Appropriation Committees seeking permission to 
obligate another $9.9 million. Another obligation plan will be prepared 
in April 210 for approximately $12 million. This summer, once the 
Request For Quote process is completed over $34 million should be 
obligated with most of the remaining funding obligated in the fall of 
2010.
    Question. What are the consequences of delaying or phasing this $16 
million?
    Answer. The completion of the project would be delayed month for 
month for any delay in funding beyond October 2010. Many of the 
components of the project have long lead times for order delivery and 
then they have to be installed within the campus buildings. In order to 
complete the project by spring of 2012, the infrastructure and 
installation work must start in Spring 2012. Delaying the project would 
mean continuing to operate longer with an aging analog radio system 
that is becoming more difficult and more expensive to maintain.
    Question. When do you anticipate having the new radio system 
completely installed and fully operational? Will there be a multi-phase 
implementation plan?
    Answer. The project is scheduled for completion during Spring 2012. 
The most challenging part is the in-building wiring and installations 
in 16 different buildings/facilities including the Capitol Building. 
Though this work is expected to take about a year, there are always 
unforeseen issues when doing this type of work in these buildings. 
Also, if the in-building wiring work is not allowed to start prior to 
the passage of the fiscal year 11 budget, then the schedule is in 
jeopardy.
    The project itself is divided into five phases as follows: Phase 1: 
Cost Analysis; Phase 2: System Design; Phase 3: Procurement, 
Integration and Installation; Phase 4: Acceptance Testing; and Phase 5: 
Operations and Maintenance.
    We are currently entering into Phase 3. Within Phase 3, 
implementation will be conducted in a parallel approach. Inside work, 
outside work, facilities construction, etc. will be done in parallel; 
the goal is to have all the component pieces completed by September 
2011 in order to then conduct system integration and testing. The ``go-
live'' migration plan will have a single cutover event from the analog 
system to the digital system.
    Question. When this system is completed, will it be fully 
interoperable with the systems of other first responders in this 
jurisdiction that are key partners to the day-to-day activities of the 
U.S. Capitol Police? Who does the USCP view as its key partners? Has 
the USCP, or NAVAIR on behalf of the USCP, consulted with those 
partners on the radio requirements to ensure interoperability?
    Answer. Yes. The P25 Digital radio system was designed to be fully 
interoperable.
    Our key partners are MPD, D.C. Fire/EMS, Office of the Attending 
Physician, FBI, U.S. Secret Service, U.S. Park Police, WMATA Police, 
and Amtrak Police.
    Yes, the USCP is currently working on creation and updates on MOUs 
with all of the above mentioned agencies. The MOUs will include the 
Standard Operating Procedure (SOP) for the interoperability to occur. 
USCP, NAVAIR and the various agencies need to have further detailed 
meeting to determine the technical details for this. NAVAIR has the IP 
gateways, needed for interoperability, included in the cost estimate to 
perform this effort.
    Question. The Committee remains concerned that all aspects of this 
significant procurement for the USCP will be openly and fairly 
competed. What assurances do you have from NAVAIR that this is the 
case?
    Answer. Early in the program effort, in the review of the 
requirements document NAVAIR developed a broader specification to meet 
the requirements of the USCP radio program and to preclude any vendor 
specific solutions/capabilities. NAVAIR is not utilizing in-house, 
existing contracting vehicles for the required materials. NAVAIR is 
independent of any particular vendor, and are vendor agnostic. NAVAIR 
has engaged their designated Contracting Authority who is adhering to 
the Federal Acquisition Regulations and clauses, promoting full and 
open competition. Their Contracting Authority has issued Request For 
Information's for all significant procurements for the USCP effort. 
NAVAIR has assessed the RFI's against the specifications and are 
developing the Request For Proposal to be broad enough to include all 
of the vendors found to satisfy the requirements for the USCP radio 
program. Additionally, through extensive market research, NAVAIR knows 
there are vendors capable of satisfying the requirement and if these 
vendors did not respond to the RFI they still have the opportunity to 
respond to the RFP.
                  addressing threats to senate offices
    Question. What is your normal procedure when a threat is received 
against a member of the United States Senate? My office is somewhat 
frustrated at the lack of response received from the Threats Division 
after a threat was called into my office.
    Answer. The United States Capitol Police Investigations Division 
provides a broad range of investigative services in support of the 
Department's protective mission. The Investigations Division is 
comprised of the Criminal Investigations Section (CIS), Threat 
Assessment Section (TAS), and the Intelligence Investigations Section 
(ISI). One of the key components to our protective mission is our 
ability to manage and investigate threats to the Congressional 
community. The Investigations Division continues to provide an 
investigative response to subjects who make direct or implied threats, 
or who demonstrate unusual or concerning behavior toward any USCP 
interests. Threats are conveyed in a variety of means to include in-
person contact, telephone calls, and/or written correspondence/emails. 
Once notified by the community several investigative procedures are 
implemented to include notifying the FBI. Certain criminal offenses 
(U.S. Code Title 18 part 1, chap. 18 S351 Congressional, Cabinet and 
Supreme Court Assassination, kidnapping, and assault) provide specific 
investigative authority to the FBI. The Threat Assessment Section 
continues to actively work with the FBI Violent Crimes Task Force 
(VCTF) to facilitate investigative efforts. This task force position 
provides immediate access to law enforcement agent's nationwide in 
order to identify, locate, and prosecute criminal offenders. Aside from 
the task force position, the Investigations Division has special agents 
assigned to conduct criminal investigations to include the reporting of 
an offense, collection of evidence, coordination with prosecutors both 
locally and across the nation for the purposes of seeking prosecution 
of offenders.
    In addition to the intensive investigative work associated with the 
Division, agents are often tasked with dual responsibilities to include 
elevation of the protection models for USCP interests. Not only are 
threats investigated, but offenders, once identified are examined in 
order to develop a viable threat assessment. Depending on the set of 
circumstances surrounding the threat and the offender, considerations 
are made for the assignment of protection details. Some of these 
factors include the behavior demonstrated by the offender, for instance 
if approaches have been made toward USCP interests. Extensive 
background investigations are also conducted by subject matter experts 
in the field of threat management to examine not only the offender's 
intent and ability, but also to verify access to weapons and relevant 
criminal history, and finally, ascertain the veracity of an offender's 
threat. If the assessment identifies an offender as a moderate or high 
threat than requests for protection details are considered. Protection 
teams are coordinated through the Dignitary Protection Division (DPD) 
with support of the Investigations Division.
    Additionally, I have tasked that Division to reach out to your 
office to follow up on the specific threat you reference in the 
question above.
                      internal control weaknesses
    Question. The fiscal year 2008 Capitol Police financial statement 
audit report cited 3 material internal control weaknesses: (1) 
verification of employee hours worked; (2) inadequate timekeeping 
records; (3) internal weaknesses with regard to duplicate payments. The 
report also discussed problems related to payroll processing and 
invoice handling along with other issues. The problems the auditors 
cited are troubling.
    What is the USCP doing about these internal control weaknesses? How 
do these weaknesses impact your budget proposal?
    Answer. Since becoming the Chief of Police, we have focused our 
Executive Team and Executive Management Team energies on addressing 
material internal control weaknesses and recommendations from the 
Government Accountability Office and USCP Inspector General, as well as 
to establishing standardized and repeatable business practices. We 
believe that addressing these core issues will substantially address 
the long term systemic administrative issues within the Department.
    To that end, Office of Administration under the guidance of the 
Chief Administrative Officer has indicated that they have taken the 
following steps to addressing the fiscal year 2008 financial statement 
audit material weaknesses:
    An electronic system has been implemented, and is monitored by OHR 
in order to track and report time and attendance certification 
compliance. All recordkeeping requirements have been reinforced through 
briefings, training, and written memorandums. Random inspections to 
ensure compliance with timekeeping procedures are conducted quarterly 
with the results reported to Bureau Commanders.
    With regard to payroll processing, the pre and post National 
Finance Center payroll data reconciliations have been reinstated and 
are executed within 4 weeks of payroll transmission. Variations are 
reported, researched and resolved.
    Internal Standard Operating Procedures have been developed for 
payroll processing, as well as time and attendance certification 
procedures to ensure repeatable business processes are outlined and 
utilized.
    The Office of Financial Management accounts payable section 
processed approximately 8,050 payments totaling $46.3 million in fiscal 
year 2008. During the financial statement audit, 1 duplicate payment 
was noted for $384.20. This duplicate payment was discovered by 
Accounts Payable staff and the amount was repaid to USCP prior to the 
financial statement audit.
    To further enhance internal control, OFM accounts payable section 
has implemented a daily review of aging accounts payable invoices. 
Communication improvements have been established between OFM accounts 
payable section and the financial liaison officers from each of the 
bureaus and offices thru periodic status updates regarding oldest 
invoices. The OFM accounts payable section has implemented a Vendor 
Input System utilizing the Microsoft Access software which has 
significantly enhanced the detection of a potential duplicate payment 
prior to distribution. Additionally, OFM is currently updating an 
internal Standard Operating Procedure for the processing of payment 
vouchers.
    To insure that these weaknesses are fully addressed, our Executive 
Team is working closely with the USCP Inspector General and the 
Department's auditors to validate our progress in the upcoming 
financial statements. Based on this audit feedback, we will continue 
our efforts to improve our administrative functions.
    In the interim, we are working to close the many recommendations 
focusing on our administrative functions.
    We believe that control weaknesses or a lack of standardized and 
repeatable business processes have potential impact on our ability to 
execute our management functions and responsibilities, to include 
budget formulation and execution.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                                salaries
    Question. The budget justification material provided to the 
subcommittee states that the addition of these officers in fiscal year 
2011 would not reduce overtime costs in fiscal year 2011. Please 
explain.
    Answer. To better manage our resources and to work toward 
determining the requirements needed for the Department to meet its 
mission, we undertook, with full support of our committees, a staffing 
study in 2007 focused on the core mission requirements at that time. 
This study resulted in a target sworn officer utility of 1,560 in an 
optimum resource environment, which includes a level of overtime needed 
to address unplanned events.
    USCP plans and projects its resources, to include overtime (OT) 
requirements, based on this target 1,560 hours annual utility for each 
USCP officer. This number includes the use of leave both scheduled and 
unscheduled, holiday, training, and administrative time for each 
officer.
    To determine the overall current staffing requirements for our 
mission in fiscal year 2010, the Department balanced the scheduled core 
mission requirements of today, projected unscheduled events 
(demonstrations, state funerals, heads of state visits, etc.), unfunded 
core mission requirements (those that have been added after the annual 
budget submission and appropriation of funds for the current fiscal 
year), and available annual salary and overtime funding to determine 
the level of sworn officer utility required to perform the mission of 
Department.
    The Department has on average 40-60 sworn officers in recruit 
training during various parts of the fiscal year, which results in 
these sworn officer utility hours not having an immediate direct impact 
of the reducing the resource gap upon their entry on duty with the 
Department. Generally, recruit officers hired and trained after March 
of any given fiscal year will not have an impact on reducing the 
resource gap until the next fiscal year, assuming that the core mission 
does not increase or projected attrition is not exceeded.
    Question. With a total of 76 additional sworn officers proposed 
through fiscal year 2010 and 2011, will we start to see a reduction in 
overtime costs with the fiscal year 2012 budget request? Will there be 
a requirement for additional officers in fiscal year 2012?
    Answer. For clarification, I offer the following explanation of 
what I believe the referenced 76 additional sworn officers includes.
    In fiscal year 2010, the Department did not receive authorization 
or funding to support additional sworn personnel above our sworn 
authorization of 1,799 (now 1,800 with the reallocation of 1 civilian 
position). In the final quarter of fiscal year 2010, the Department has 
scheduled a recruit officer class consisting of 24 recruit officer 
slots to backfill sworn attrition from within our authorized strength 
referenced above should backfill be required.
    In fiscal year 2011, the Department has requested 52 new sworn 
officers above our current authorized and funded sworn staffing level.
    As for the reduction of overtime, there are two factors which 
affect the Department's ability to reduce its overtime utilization: (1) 
sworn utility and (2) additional mission requirements.
    To better manage our resources and to work toward determining the 
requirements needed for the Department to meet its mission, we 
undertook, with full support of our committees, a staffing study in 
2007 focused on the core mission requirements at that time. This study 
resulted in a target sworn officer utility of 1,560 in an optimum 
resource environment, which includes a level of overtime needed to 
address unplanned events.
    USCP plans and projects its resources, to include overtime (OT) 
requirements, based on this target 1,560 hours annual utility for each 
USCP officer. This number includes the use of leave both scheduled and 
unscheduled, holiday, training, and administrative time for each 
officer.
    To determine the overall current staffing requirements for our 
mission in fiscal year 2010, the Department balanced the scheduled core 
mission requirements of today, projected unscheduled events 
(demonstrations, state funerals, heads of state visits, etc.), unfunded 
core mission requirements (those that have been added after the annual 
budget submission and appropriation of funds for the current fiscal 
year), and available annual salary and overtime funding to determine 
the level of sworn officer utility required to perform the mission of 
Department.
    The Department's current authorized sworn strength does not provide 
the necessary utility to meet current core mission requirements within 
the target 1,560 utility. This was determined by applying the 1,560 
utility hours against the hours necessary for base core mission 
requirements. The remaining hours must be met through overtime, post 
reduction, the use of technology, or reductions from within the 
utility, such as training.
    To maximize the utilization of resources, the Department balances a 
number of factors as noted above. For example, in an effort to control 
overtime costs, the Department must maintain a robust sworn strength 
throughout the year. Therefore, the onboard sworn strength must remain 
at or above the authorized sworn strength to accommodate attrition 
without increasing the resource gap. This allows the Department the 
maximum sworn officer utilization to meet core mission requirements.
    However, in doing so, the Department is utilizing its appropriated 
salary funds to their maximum potential throughout the year. A by 
product of this level of funding utilization is the potential slowing 
of civilian hiring to allow for the funding availability for sworn 
hiring.
    Further, the Department has an average of 40-60 sworn officers in 
recruit training during various parts of the fiscal year, which results 
in these sworn officer utility hours not having an immediate direct 
impact of the reducing the resource gap upon their entry on duty with 
the Department. Generally, recruit officers hired and trained after 
March of any given fiscal year will not have a impact on reducing the 
resource gap until the next fiscal year, assuming that the core mission 
does not increase or projected attrition is not exceeded.
    In an effort to reduce requirements and narrow this gap, the 
Department has worked with the Capitol Police Board and its oversight 
committees to review possible requirements reductions. In fiscal year 
2008 and fiscal year 2009, the Department closed a number of non-
security posts, which allowed the Department to remain within the 
appropriated salary and overtime funding levels.
    To further reduce the resource gap, the Department has looked at a 
number of opportunities to civilianize positions currently performed by 
sworn officers, so these sworn staffing resources may be realigned to 
meet other core mission requirements. In fiscal year 2009, the 
Department utilized available civilian positions to return former USCP 
employees from the Department of Labor's Worker's Compensation Roll to 
the Department's Communications Section. This allowed the Department to 
utilize civilian personnel to perform the security camera and alarm 
monitoring function in-house, rather that using contractors. This 
allowed the Department additional general expense funds for potential 
use on technology, as well as allowing for some realignment of sworn 
resources.
    Additionally, the Department civilianized 26 sworn positions in the 
Library of Congress command center during the LOC Police and USCP 
Merger. This allowed the Department to utilize civilianizing former LOC 
Police employees to perform the Command Center functions and realign 
sworn resources to other core mission requirements.
    The Department is currently reviewing other areas that may result 
in civilianization of posts, which may provide additional available 
sworn officer utility. As these are developed, they will be vetted 
through the Capitol Police Board and appropriate stakeholders for 
consideration.
    Even with these reductions efforts and the use of technology, the 
remaining requirements currently exceed the Department's appropriated 
overtime funding level. Therefore, the training hours contained within 
the 1,560 officer utility must be utilized to meet the requirements gap 
between available sworn officer resources and requirements.
    An analysis was conducted by USCP with available data to estimate 
the current sworn officer utility, which is estimated in an approximate 
range of 1,650-1,725 per officer annually, including overtime. Almost 
all of these utility hours are used in support of USCP core mission 
requirement. Based on this estimated utility range, the Department is 
not currently meeting its 80 hour annual training target as contained 
in the target 1,560 sworn officer utility described above.
    A random sampling of USCP officers in the Uniform Service Bureau 
(USB) indicates that approximately 7-20 hours were actually used for 
training in fiscal year 2009, vice the 80 hours allotted for training 
in the utility calculation. By focusing this analysis on USB, we are 
addressing the largest sworn population within the Department. This 
analysis did not include USCP specialty units such as K9, CERT or HDS 
and DPD.
    The reduction of training hours will not have an immediate impact 
on the USCP mission. However the long term impact of reducing core 
training hours, will impact the recertification of officers in certain 
programs, may affect officer response capability and may result in the 
overall degradation of the proficiency of our officers to meet their 
mission. All of these will result in greater risks to the Department 
and create a cycle that will have long-term impacts on the Department.
    In an effort to address this training matter before it becomes a 
serious issue and work toward the optimum sworn officer utility of 
1,560, the Department has requested overtime funding to support a 
minimum of 16 hours of training for 1,500 sworn officers in fiscal year 
2011. Because our current onboard officers cannot work increased 
overtime levels for the long-term without affecting their 
effectiveness, we are also requesting 52 additional officers to begin 
to narrow the resource gap while allowing for the minimum annual 
training level described above. These two resource requests are a part 
of a larger balance that the Department is attempting to reach between 
the use of personnel, overtime, technology and mission balance to meet 
required core mission requirements.
    Question. The budget request proposes converting some contractor 
positions into full-time civilian positions with USCP.
    Isn't it more expensive to take on a full-time employee for a 
position that is currently under contract?
    Answer. Not in all cases. In the Information Technology field, it 
is not uncommon for FTE cost to be lower than contractor cost. We are 
requesting to convert two positions, a CP-11 and a CP-7, the annual 
cost for the two contractors is approximately $405,000, while the fully 
loaded annual FTE cost for those positions is approximately $225,000.
    Question. Why do you feel it is more beneficial to the USCP to have 
some of the positions converted?
    Answer. In situations where we have staff augmentation contractors 
that cost more than the fully loaded cost of an civilian FTE equivalent 
it makes financial sense to make the conversion. The Office of 
Information Systems did an informal review and determined they could 
save over $1 million per year if they could convert most of their staff 
augment contractors to civilian FTEs.
    Question. How were the decisions made about which positions to 
convert from contract to full-time?
    Answer. Realizing the limitations of the overall Legislative Branch 
annual budgetary resources, we kept our fiscal year 2011 request for 
civilian positions to replace contractors to those that would provide 
the largest offset. We plan to review this matter annually and may make 
additional requests in future fiscal years for civilian positions to 
convert contractors.
                      radio modernization project
    Question. On September 30, 2009, the Committee received the first 
funding obligation plan pursuant to the fiscal year 2009 Supplemental 
Appropriations Act that provided $71.6 million for the USCP radio 
modernization project. That funding obligation plan specified $3.5 
million for the design and construction of the mirror site facility to 
house the radio system's technical requirements. Who is doing the 
actual design of the mirror site and when will it be completed? Who 
will be doing the construction of the mirror site and when will it be 
completed?
    Answer. The design and construction of the mirror site will be done 
by Verizon and its contractors under the supervision of the AOC and 
USCP. The design is scheduled to be completed by July 15, 2010 and the 
construction build out is scheduled to be completed by March 2011.
    Question. When can the Committee expect to receive the next 
obligation plan?
    Answer. The Committee recently received an obligation plan in March 
2010. The next obligation plan is anticipated in April 2010.
    Question. Will the $16 million requested in fiscal year 2011 be the 
final funding request for this project? With only $3.5 million 
obligated of the $71.6 million that was appropriated in the fiscal year 
2009 supplemental, is it really necessary to have an additional $16 
million in fiscal year 2011? What are the consequences of delaying this 
appropriation?
    Answer. That is our intention and is our plan. At this point in 
time, the estimate for the total cost of this project is just over 
$91.9 million. The total amount appropriated (assuming the $16 million 
in fiscal year 2011) is $97.562 million, leaving a contingency fund of 
$5.655 million. Should we need to utilize contingency funds during the 
project, the Department plans to notify the Committees and provide an 
explanation for its utilization.
    Additionally, the Department plans to provide an update on the 
status of the radio modernization project to the Committees in the near 
future. As a part of this update, we will provide additional 
information on the development and status of our budget estimates, a 
current status of funds utilization, the status of the various phases 
of the overall project, and our revised obligation plan for the 
appropriated and requested funds.
    Yes, the additional funding is necessary. Without the additional 
funding there will be insufficient funds to complete the project. The 
total cost of the project is estimated to be $91.9 million, and that is 
without any contingency fund. The additional $16 million in funding 
will bring the total appropriated amount to $97.562 million which 
should be sufficient to complete the project and to provide for a small 
contingency fund.
    Currently, there is an Obligation Plan that was recently sent to 
the House and Senate Appropriation Committees seeking permission to 
obligate another $9.9 million. Another obligation plan will be prepared 
in April 2010 for approximately $12 million. This summer, once the 
Request For Quote process is completed over $34 million should be 
obligated with most of the remaining funding obligated in the Fall of 
2010.
    The completion of the project would be delayed month for month for 
any delay in funding beyond October 2010. Many of the components of the 
project have long lead times for order delivery and then they have to 
be installed within the campus buildings. In order to complete the 
project by spring of 2012, the infrastructure and installation work 
must start in spring 2012. Delaying the project would mean continuing 
to operate longer with an aging analog radio system that is becoming 
more difficult and more expensive to maintain.
    Question. When do you anticipate having the new radio system 
completely installed and fully operational? Will there be a multi-phase 
implementation plan?
    Answer. The project is scheduled for completion during late spring 
2012. The most challenging part is the in-building wiring and 
installations in 16 different buildings/facilities including the 
Capitol Building. Though this work is expected to take about a year, 
there are always unforeseen issues when doing this type of work in 
these buildings. Also, if the in-building wiring work is not allowed to 
start prior to the passage of the fiscal year 11 budget, then the 
schedule is in jeopardy.
    The project itself is divided into five phases as follows: Phase 1: 
Cost Analysis; Phase 2: System Design; Phase 3: Procurement, 
Integration and Installation; Phase 4: Acceptance Testing; and Phase 5: 
Operations and Maintenance.
    We are currently entering into Phase 3. Within Phase 3, 
implementation will be conducted in a parallel approach. Inside work, 
outside work, facilities construction, etc. will be done in parallel; 
the goal is to have all the component pieces completed by September 
2011 in order to then conduct system integration and testing. The ``go-
live'' migration plan will have a single cutover event from the analog 
system to the digital system.
                  new initiatives in fiscal year 2011
    Question. $16.2 million is requested for other new initiatives, 
beyond the radio project, which seems to be a lot of funding for new 
projects in one year. Does this request represent the full funding 
requirements for these projects, or will additional funding be 
requested in future fiscal years?
    Answer. Funding requirements are specific to each project. In some 
cases the projects may be funded in stages. All future funding requests 
to support the continued maintenance and operation of the projects will 
be requested through increases in the Bureau's base annual general 
expense funding requests.
    Because of the security sensitive nature of the information 
included in the Department's response to this question, I am 
respectfully providing my more detailed response under separate cover. 
I would, therefore, request that the information provided in that 
document not be included as a part of the public record.
    Question. What would be the impact of providing only that funding 
which would actually be obligated in fiscal year 2011 for each of these 
projects?
    Answer. Some of these projects could be funded in phases. Because 
of the security sensitive nature of the information included in the 
Department's response to this question, I am respectfully providing my 
more detailed response under separate cover. I would, therefore, 
request that the information provided in that document not be included 
as a part of the public record.

                          SUBCOMMITTEE RECESS

    Senator Nelson. The subcommittee will stand in recess until 
2:30 p.m. on March 18, 2010, when we will meet in room SD-138 
to take testimony on the fiscal year 2011 budget requests of 
the Architect of the Capitol and Office of Compliance.
    We are recessed. Thank you.
    [Whereupon, at 6:08 p.m., Thursday, March 4, the 
subcommittee was recessed, to reconvene at 2:30 p.m., Thursday, 
March 18.]






         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, MARCH 18, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:47 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson and Murkowski.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF STEPHEN T. AYERS, ACTING ARCHITECT OF THE 
            CAPITOL

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. Good afternoon, everyone, and welcome. 
Senator Murkowski asked me to go ahead and start because she is 
going to be a bit delayed but will be here in short order. So 
that is what we will do.
    Well, we meet this afternoon to take testimony on the 
fiscal year 2011 budget request for the Architect of the 
Capitol and the Office of Compliance. I want to welcome our two 
witnesses today: Stephen Ayers, Acting Architect of the 
Capitol; and Tamara Chrisler, Executive Director of the Office 
of Compliance.
    I also want to welcome my good friend ranking member, 
Senator Murkowski, when she gets here, and I am hopeful that 
other members of the subcommittee, Senator Pryor and Senator 
Tester, may be able to join us as well.

             <greek-l>AOC deg.CONGRATULATIONS ON NOMINATION

    Mr. Ayers, I want to first congratulate you on your recent 
nomination by the President to serve as the next Architect of 
the Capitol. You will be only the 11th person in history to 
serve in this capacity, which is really quite impressive, and 
on behalf of the Senate and particularly this subcommittee, I 
want to thank you for your service over the last 3 years as 
acting Architect of the Capitol where your accomplishments 
include the opening of the Capitol Visitor Center (CVC), the 
staging of the 56th Presidential inauguration, and the opening 
of the Library of Congress' National Audiovisual Conservation 
Center, to name just a few. You have served us well in this 
capacity and we look forward to moving toward your confirmation 
by the Senate in the very near future.
    Mr. Ayers. Thank you very much, Mr. Chairman.
    Senator Nelson. I appreciate that. I do not want to in any 
way preempt the Senate from that effort on confirmation or to 
get ahead of anything, but I am certain that that is in the 
near future.
    I also want to congratulate and acknowledge the hard work 
and dedication of your staff of 2,600 employees. We rely on 
these individuals for so many services around here, and this 
year, in particular, with the record snowfalls, I want to 
especially thank Ted Bechtol of your Capitol Grounds staff and 
his team for the long hours they put in removing more than 
11,000 tons of snow from the complex. We are deeply grateful 
for their dedication and for the commitment of your entire 
staff.

          <greek-l>AOC OOC deg.FISCAL YEAR 2011 BUDGET REQUEST

    Your budget request this year totals $755 million, an 
increase of $153 million, or 25.5 percent over current year. 
Now, I know you faced a difficult challenge when putting 
together your budget request, attempting to balance 
maintenance, security, energy efficiency, and new construction 
projects on an aging, historical infrastructure within limited 
resources. Hopefully, you understand the position the 
subcommittee is in, in trying to hold the line on spending 
while meeting the critical needs of your agency. So we 
definitely have our work cut out for us this year, and I look 
forward to hearing your testimony shortly.
    Ms. Chrisler, the fiscal year 2011 budget request for the 
Office of Compliance totals $4.7 million, an increase of 
$300,000, or 6.7 percent over the current year. We appreciate 
the efforts that both of your agencies have made to work 
cooperatively toward resolving the many fire and life safety 
needs around the complex, once again, within limited resources. 
So we look forward to your testimony as well and to discussing 
the status of health and safety conditions throughout the 
Capitol complex.

               <greek-l>AOC deg.BUDGET INCREASE CONCERNS

    We held our first hearing of this fiscal year 2 weeks ago 
and just in case you missed it--I am sure you did not--I would 
like to reiterate a few concerns that were raised during that 
hearing. I am disappointed in some respects that this 
subcommittee has, once again, been presented with a large 
budget increase in fiscal year 2011. The fiscal year 2011 
legislative branch budget request totals $5.1 billion, or 10 
percent over current year. Given the fact that the President 
has made it clear about holding the line on spending, this 
increase is not acceptable and it is not doable. The fact is 
that this country remains in economic turmoil and the American 
taxpayers simply will not tolerate unnecessary Government 
spending at a time of unemployment. It is questionable whether 
they will tolerate necessary Government spending at this time.
    And last year, we received an overall increase of 5 percent 
in the legislative branch bill, including some fairly large 
ticket items for the House, over which we have no control. But 
that is history.
    And I have stated repeatedly that I am going to do 
everything I can to hold the legislative branch flat this year. 
I believe we need to lead by example in this subcommittee as 
part of the Government, and we cannot do that by appropriating 
large increases to our agencies. The President sent the message 
loudly and clearly in his State of the Union Address this year, 
noting that families across the country are tightening their 
belts and making tough decisions. The Federal Government must 
do the same, he said. And he announced a 3-year freeze on 
nonsecurity discretionary Government spending, and I think we 
need to do the same on this subcommittee.
    And arriving just in time for my comments, turning it over 
now to our ranking member of the subcommittee, Senator 
Murkowski, for her opening remarks. What great timing.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman. And I have to 
tell you it is music to my ears. As I walk in, you are 
repeating the refrain that you and I have made these past 2 
years on these budget hearings about the need for fiscal 
discipline. If we cannot set the example, if we cannot set the 
standard here, how can we expect others outside of our 
institution to exercise that same level.
    But I want to thank you, Mr. Chairman, for calling the 
hearing as we consider the fiscal year 2011 legislative branch 
request from the Architect of the Capitol and the Office of 
Compliance.
    I would like to welcome both of our witnesses here today 
and look forward to the opportunity to discuss some pretty 
important issues on how the agencies that you both represent 
are planning to move forward in the fiscal year. I appreciate 
the way that your offices have continued to work to develop the 
relationship that is necessary for good communication, 
continued cooperation in the common goal that we ensure a safe 
environment for our employees and our visitors while we 
maintain the important historic nature of the surroundings.
    I will start by recognizing Mr. Ayers and congratulating 
you on your official nomination to be the next Architect of the 
Capitol. We anticipate that the confirmation hearing will be 
later on in the spring.

            <greek-l>AOC deg.FISCAL YEAR 2011 BUDGET REQUEST

    As the chairman has mentioned, the Architect of the Capitol 
is requesting $754.8 million, an increase of 25.5 percent over 
the fiscal year 2010 enacted level. Again, the chairman's 
remarks about how we are going to do more with less I think are 
appropriate. I do recognize that the AOC's significant increase 
is associated with $216 million requested for line item 
projects, a fair amount for deferred maintenance, capital 
renewal, capital improvement, capital construction.
    But I do think it is going to be important in our 
discussions here today to figure out how we prioritize these 
projects because it is just simply not going to be possible to 
advance all that is contained within the proposal that we have 
before us. We have got to look for the best possible solutions, 
but it is all about prioritization.
    Ms. Chrisler, I want to thank you for your leadership there 
at the Office of Compliance. While your budget increase is not 
on the level that we are seeing out of the Architect of the 
Capitol's Office, it still is a 6.8 percent increase. I know 
that you probably looked at that and said that this is a lean 
budget and the decisions that went into submitting a request of 
this nature are not easy. We appreciate what goes into it. But 
I think we need to recognize that we continue to pare down the 
agency's request and that we are going to be working to pare 
down the Architect's budget, and that you will be working with 
the Architect of the Capitol in reprioritizing the projects for 
the year ahead.
    I am anxious to hear from both of you this afternoon as to 
how we can all work together to ensure that we are taking care 
of the immediate needs of the historical structures that have 
been left to our care, how we minimize the risks to those who 
work here and to those who visit here every day. It is not an 
easy job, but we know we can do it.
    Mr. Chairman, I look forward to the opportunity to get some 
questions and answers from our witnesses.
    Senator Nelson. Thank you, and I continue to say how much 
of a pleasure it is to be able to work with you and to share 
many of the same ideas about an approach to dealing with the 
budgets and look forward to continuing this year.
    Now I would like to begin with witnesses. Because of the 
timeframe, if it is possible to keep the opening comments to 
somewhere around 5 minutes or something of that nature, the 
rest of your comments will be received and, if written, put 
into the record. So with that, Mr. Ayers, we will start with 
you and then we will hear from Ms. Chrisler. Thank you.

                 SUMMARY STATEMENT OF STEPHEN T. AYERS

    Mr. Ayers. Mr. Chairman and Senator Murkowski, thank you 
for the opportunity to testify today regarding the Architect's 
2011 budget request.
    I would like to first express my thanks to this 
subcommittee and the Congress for its support for the Architect 
over the past year, as we have worked to maintain and preserve 
the Capitol complex.

       <greek-l>AOC deg.ARCHITECT OF THE CAPITOL--PROUD STEWARDS

    Twenty-four hours a day, 7 days a week, and 365 days a 
year, the AOC serves as proud stewards of the most iconic 
buildings and grounds in the world. Nothing demonstrated our 
commitment more than our team's remarkable response to 
``snowmageddon'' last month. AOC crews logged nearly 35,000 
hours to remove more than 11,000 tons of snow to ensure that 
the Congress could continue to conduct its business.
    The AOC had a very successful 2009, a year that began with 
the Presidential inauguration and ended with the first of three 
major blizzards to hit Washington. In between these major 
events, we welcomed more than 2.3 million visitors to the 
Capitol Visitor Center during its first year in operation and 
we carried out numerous projects designed to save energy and 
improve operations.

               <greek-l>AOC deg.FISCAL YEAR 2011 PROJECTS

    In that regard, our fiscal year 2011 budget request focuses 
on projects that are necessary to attend to the critical needs 
of the Capitol complex, and specifically this entails 
addressing a significant backlog of deferred maintenance and 
capital renewal projects, as well as security, life safety, and 
accessibility requirements.
    Mr. Chairman, we are requesting $755 million in fiscal year 
2011, and the projects portion of this budget is devoted to 
addressing these critical issues needing the most urgent 
attention. Although every project on the list in our budget is 
necessary and will ultimately need to be done, we realize that 
not all can be funded in this fiscally challenging year.
    However, we do take our responsibility to identify, 
quantify, and report to the Congress the state of facilities 
and the extent of deferred maintenance very, very seriously. 
Most importantly, our project prioritization tools we believe 
provide the Congress with concrete and practical assessments of 
our infrastructure enabling good decisionmaking about our 
future investments.
    Over the past year, this process has matured to include a 
5-year capital improvements plan, which examines phasing 
opportunities and project sequencing and other factors to 
better facilitate the timing of projects.
    The AOC is committed to making the right choices by doing 
our part on energy savings on Capitol Hill. For 2009, the 
Congress met its energy reduction goals for the fourth year in 
a row and reduced energy consumption by 15.3 percent across the 
Capitol complex.

                  <greek-l>AOC deg.ENERGY CONSERVATION

    To help meet future energy reduction requirements, last 
summer we entered into our first energy-savings performance 
contract to implement energy-saving projects across the House 
office buildings, and in December, we entered into an energy-
savings performance contract for the Senate and the Capitol 
Building. These public/private partnerships will help us 
achieve significant energy reductions over the next several 
years.
    On the operations side, we have been successful in our 
endeavors due to the professional men and women who make up 
this great AOC team. Their commitment to excellence allows us 
to provide exceptional service to the Congress and the visiting 
public every day. In that regard, our annual operating budget 
request for $443 million supports the critical activities 
necessary to support the Congress and the other legislative 
branch agencies.

                <greek-l>AOC deg.CAPITOL VISITOR CENTER

    With regard to accommodating Members' and visitors' needs, 
the Capitol Visitor Center is top in its class. Now in our 
second year of operation, we continue to make improvements to 
our policies and tour procedures, including modifying the 
advance reservation system to give congressional offices more 
flexibility to modify, cancel, and reschedule tour 
reservations. We have also added a congressional staff line at 
the south information desk, increased the number of operators 
to ensure prompt response to phone calls, and are placing staff 
in strategic locations throughout the Capitol Visitor Center to 
improve visitor flow.
    In addition, we continue to hold monthly listening sessions 
with congressional staff to receive feedback and answer 
questions, and to date, more than 5,200 staff members have 
attended our Capitol Visitor Center training program.

                           PREPARED STATEMENT

    Mr. Chairman, the AOC is ready to do what is necessary to 
keep the Capitol complex open and operating every day of the 
year under any circumstances. I am honored and privileged to 
work alongside this great team.
    Thank you again for the opportunity to testify today.
    Senator Nelson. Thank you.
    [The statement follows:]
                 Prepared Statement of Stephen T. Ayers
    Mr. Chairman, Senator Murkowski, and members of the Subcommittee, 
thank you for the opportunity to testify today regarding the Office of 
the Architect of the Capitol's (AOC's) fiscal year 2011 budget request.
    I would like to begin by expressing my thanks to this Subcommittee 
and to the Congress for its support of the AOC over the past several 
years as we worked to fulfill our mission of serving the Congress and 
the American people by maintaining and preserving the U.S. Capitol 
complex. I also very much appreciate, and I'm honored by, the trust the 
President and the Congress have placed in me to lead this dedicated 
group as the nominee to serve as the 11th Architect of the Capitol as 
we continue to address the challenges ahead. We are very aware of the 
need to preserve the historic infrastructure on Capitol Hill while, at 
the same time, recognize the need for fiscal responsibility. It is a 
tremendous honor to have the opportunity to continue to work with this 
very talented team of professionals.
    Twenty-four hours a day, 7 days a week, 365 days a year, the AOC 
team serves Congress as proud stewards of the most iconic buildings and 
grounds in the world. Through our work, we protect the past by 
preserving the historic integrity of the U.S. Capitol complex, we are 
boldly working today to promote a safe and sustainable workplace, and 
we continue to build a legacy of professionalism for generations to 
come.
    Nothing demonstrated our commitment to our mission more than our 
team's remarkable response to the back-to-back blizzards that hit the 
Washington, DC, metro area in early February--otherwise known as 
``Snowmageddon.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Throughout both of these snow emergencies, AOC employees 
successfully cleared the streets, sidewalks, entryways, and parking 
lots across the Capitol complex in order to support the Congress as it 
conducted its business on the weekend and during the following week, 
keeping the complex cleared of snow and ice for Members, staff, and the 
public. At the same time, we continued to operate and maintain all our 
facilities, and the Capitol Power Plant's service continued 
uninterrupted.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    AOC crews logged in nearly 35,000 man hours to remove more than 
11,000 tons of snow. Once the snow had ended, our work did not. Our 
crews continued to remove piles of snow from across the complex, treat 
the sidewalks, streets, and parking lots as the snow melted and re-
froze overnight, and attended to hundreds of trees that were damaged in 
the storms.
    This pride in our work extends throughout the organization. 
Stewardship of the Capitol complex is a unique challenge. The challenge 
is amplified by the historic significance of our buildings and 
landscape, aging physical infrastructure, and day-to-day operational 
requirements. We strive every day to improve the conditions of our 
facilities using innovative technologies and sustainable practices to 
ensure the U.S. Capitol remains the nation's most visible and treasured 
icon of our government for centuries to come.
    Our fiscal year 2011 budget request details a number of projects 
necessary to ensure we address the critical needs of the Capitol 
complex as quickly and effectively as possible. Specifically, this 
entails a significant backlog of deferred maintenance and capital 
renewal projects, as well as security, life-safety and accessibility, 
and environmental requirements. Although every project that we have 
listed in our budget request is necessary, we realize that not all can 
be funded in these fiscally-challenging times.
    However, we take our responsibility to identify, quantify, and 
report to Congress the state of our facilities and the extent of the 
deferred maintenance backlog very seriously. The prioritization tools 
we have developed and refined over the past several years provide 
Congress with concrete and practical assessments of our infrastructure. 
By using these tools, Congress can choose where best to make 
investments in the Capitol complex.
          capital budget request and project planning process
    We are requesting $755 million for fiscal year 2011. The majority 
of our capital budget request is devoted to addressing the critical 
projects we've identified as needing urgent attention, which are 
primarily classified as deferred maintenance. This portion of our 
budget is the most volatile. It fluctuates greatly from year to year 
based on the size and complexity of the projects that have been 
prioritized as having immediate urgency.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Only a small percentage of our requested increase is non-
discretionary for mandatory cost-of-living increases, and other 
operating expenses or contract price increases. We deliberately worked 
to keep the growth of this segment of our budget to a minimum in order 
to maximize the capital budget. This will enable the greatest 
investment as possible in our infrastructure and to allow us to ``buy 
down'' the deferred maintenance backlog.
    As I have discussed at previous hearings, we have successfully 
developed and implemented a robust and balanced process to prioritize 
projects based on the facilities' conditions and the level of 
maintenance required to ensure they remain functional and viable 
working environments.
    This process uses several tools in the formulation of the project 
prioritization list including Facility Condition Assessments, the 
Capitol Complex Master Plan, and Jurisdiction Plans. Over the past 
year, this process has matured to include a Five-Year Capital 
Improvements Plan, which examines phasing opportunities, project 
sequencing, and other factors to better facilitate the timing of the 
execution of major deferred maintenance and capital renewal projects. 
As I discussed earlier, these tools assist us and the Congress in 
looking ahead and enable us to plan when and where to make future 
investments in our facilities and infrastructure. We also took into 
consideration the challenge of executing required programs efficiently 
throughout this process.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As this chart demonstrates, we continue to invest most of our 
resources in infrastructure projects that are designed to address the 
backlog of deferred maintenance.
    Tied into the overall planning process is the Line Item 
Construction Program. During this process, projects are scored against 
six criteria: preservation; regulatory compliance; mission; economics; 
security, and energy efficiency and environmental quality.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As we developed our fiscal year 2011 budget, we considered $373 
million worth of capital projects, and are requesting $216 million for 
Line Item Construction Program projects. The remaining $157 million in 
projects were considered, but were not submitted in this budget 
request, and therefore remain on the deferred project list.
    As I mentioned earlier, our Capital Budget request is quite 
volatile from year to year based on the projects that rise to the top 
of the priority list. The AOC's fiscal year 2011 Capital Budget request 
includes nine projects that each requires an investment of $10 million 
or more. They are:
  --Utility Tunnel Improvement Program;
  --Egress Projects in the Thomas Jefferson Building;
  --Capitol Building Dome Skirt Rehabilitation;
  --Capitol Building Exterior Stone and Metal Preservation;
  --Copper Roof Replacement and Fall Protection System for John Adams 
        Building;
  --Roof and Skylight Replacement for Hart Senate Office Building;
  --Refurbishment of Federal Office Building 8;
  --Task 9, Phase II Infrastructure Improvements in Dirksen Senate 
        Office Building; and
  --Collection Storage Module V for Library of Congress.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Chairman, I'm pleased to report that our Utility Tunnel 
Improvement Program is on schedule to meet the June 2012 completion 
date. In addition, by utilizing our comprehensive planning process, we 
have been able to further reduce the program's cost. This was 
accomplished by collecting new information from engineering studies, 
visual examination of the exterior of the tunnels, and additional 
structural testing. Funds were also saved through an efficient 
procurement process and execution plans that consolidated work 
elements, thereby saving contract overhead costs. These actions enabled 
the AOC to reduce our fiscal year 2010 request and re-phase some work, 
thereby reducing the total projected cost of the program from $186.4 
million to $176.13 million. We continue to seek additional ways to 
further reduce the program's total cost.
            energy conservation and sustainability programs
    The AOC is committed to making the right choices and doing our part 
to save energy on Capitol Hill. With Congress' support, we have 
implemented a number of programs and completed a variety of projects 
designed to produce significant results in saving taxpayer dollars and 
conserving our natural resources. One of our biggest challenges is 
ensuring that we preserve the historic elements of our buildings, while 
at the same time making them as energy efficient as possible. That's 
why the Architect of the Capitol is committed to using sustainable 
design practices whether we're building a new facility or maintaining 
one that's 100 years old, like the Russell Building.
    For fiscal year 2009, the Congress met its energy reduction goals 
for the fourth year in a row, and reduced energy consumption by 15.3 
percent across the Capitol complex. This exceeded the fiscal year 2009 
requirement of a 12 percent reduction (as compared to the fiscal year 
2003 baseline). For fiscal year 2010, a 15 percent reduction is 
required under the Energy Independence and Security Act of 2007, (3 
percent reduction per year for a 30 percent reduction by 2015), and in 
fiscal year 2011, an 18 percent reduction is required.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To meet these requirements to further reduce energy consumption, we 
have requested $11.2 million in fiscal year 2011 for energy and 
sustainability projects. In addition, we're asking for an increase of 
nearly $10 million in operations funding for energy and sustainability 
purposes. These sustainable practices include using low-impact 
materials, installing energy efficient equipment, incorporating durable 
and high-performance systems and materials, investing in renewable 
energy, and encouraging and supporting a culture that promotes reuse 
and recycling. This includes using food waste, garden clippings, and 
other green waste, and repurposing it as compost for flower beds, and 
sustaining other plantings throughout the Capitol complex.
    To better identify and evaluate energy savings opportunities in 
Capitol complex facilities, we have been using energy audits since 
fiscal year 2007. The data collected help us realize better cost-
benefit results, and determine where best to invest our resources.
    In December, the AOC entered into an Energy Savings Performance 
Contract (ESPC) in the Senate Office Buildings. The project includes 
nearly $42 million in facility infrastructure upgrades in the Hart, 
Dirksen, and Russell Senate Office Buildings, as well as the Senate 
Underground Garage, and Senate Employees' Child Care Facility.
    Highlights of this project include:
  --Energy-efficient lighting upgrades of nearly 31,000 fixtures in all 
        buildings, with state-of-the-art lighting controls, expanding 
        AOC/Senate's centralized dimming system, integrating occupancy 
        and daylight sensors;
  --Upgrading of existing pneumatic and electric controls for heating, 
        ventilating, and air-conditioning (HVAC) systems with direct 
        digital controls (DDC) and providing an ongoing program to 
        train building automation system operators specifically in the 
        monitoring and diagnosis of energy-related controls 
        deficiencies;
  --HVAC Testing, Adjusting, and Balancing to trim excessive outdoor-
        air ventilation, provide for high-efficiency cog belts (for fan 
        drives), and add weather stripping to exterior doors to 
        minimize infiltration;
  --Replacement of existing transformers with high-efficiency 
        transformers; and
  --Installation of removable insulation covers for steam valves to 
        reduce heat loss, improve comfort, and reduce the safety risks 
        associated with the hot surfaces.
    After implementation of all energy conservation measures over the 
36-month construction period, the Senate Office Buildings are estimated 
to potentially realize: a 36 percent reduction in total energy 
consumption; and approximately $3.9 million in annual energy savings.
    We appreciate the support of the Senate Leadership, Chairman 
Schumer, and all of our Oversight Committees in our ongoing efforts to 
improve energy efficiency and reduce the carbon footprint of the 
Capitol complex. They have made clear their commitment to reduce energy 
consumption, conserve natural resources, protect the environment, and 
in the long term, save taxpayer dollars.
    Last year, the AOC also entered into an ESPC to implement energy 
savings projects in the House Office Buildings. The contract includes 
nearly $34 million in facility infrastructure upgrades in the Rayburn, 
Longworth, Cannon, and Ford House Office Buildings, as well as the 
House Page Dormitory.
    After implementation of all energy conservation measures over the 
30-month construction period, the House Office Buildings are estimated 
to potentially realize: a 23 percent reduction in total energy 
consumption; a 32 percent reduction in total water consumption; and 
approximately $3.3 million in annual energy savings.
    In our Energy Savings Performance Contract for the U.S. Capitol 
Building, nearly $17 million in facility infrastructure upgrades are 
planned for the Capitol Building. They include:
  --Upgrading existing light fixtures with high-efficiency lamps, 
        ballasts and reflectors as well as new replacement fixtures;
  --A comprehensive Building Automation System modernization, including 
        the upgrade of existing pneumatic and electric controls for 
        heating, ventilating and air-conditioning (HVAC) systems with 
        direct digital controls. These improvements will reduce energy 
        consumption and improve temperature and humidity control;
  --Replacement of the air-handling systems with variable air volume 
        (VAV) systems to reduce energy consumption while augmenting 
        capacity and improving temperature and humidity control;
  --Replacement of existing electrical transformers with high-
        efficiency transformers; and
  --A comprehensive audit and repair effort to restore steam trap 
        performance.
    After implementation of all energy conservation measures over the 
27-month construction period, the Capitol Building is estimated to 
realize: a 38 percent reduction in total energy consumption; and 
approximately $2.2 million in annual energy savings.
    In addition, we are continuing our efforts to complete the program 
to install steam, electricity, natural gas, chilled water, potable 
water, and condensate meters across the Capitol complex. This is a key 
effort in terms of being able to measure current consumption, look for 
improvement opportunities, and measure energy savings results. To date, 
approximately one-third of the meters have been installed. The 
remaining meters for facilities located outside the Capitol complex, as 
well as the rest of the Capitol complex, are included in our fiscal 
year 2011 budget request, with a final initial installation funding 
request projected for fiscal year 2012.
    Because the Capitol Power Plant (CPP) plays a critical role in our 
long-term energy conservation strategy, we are continually working to 
improve and upgrade operations there. The CPP has served the Capitol 
complex very well since 1910, but in order to continue to provide these 
services into the future, it is time to transform the CPP and its 
operations. We started this transformation last February when we began 
using natural gas as the primary fuel source. We are now studying and 
evaluating potential new technologies to implement at the CPP. We 
recently completed our Strategic Long-Term Energy Plan, which will help 
to determine our future Energy Program planning, and explore various 
options for continued energy efficiencies.
    Over the past several years we have been working to create a 
healthy and productive workplace where environmental awareness and 
sustainability are the normal ways of doing business in the Capitol 
complex. There are a number of initiatives that the AOC has been 
engaged in, and we continue to see results in our efforts to improve 
energy efficiency.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Here are just a few of our ongoing sustainability initiatives and 
projects:
  --We recently renovated room G-50 in the Dirksen Building, to install 
        new LED light bulbs that use over 80 percent less electricity, 
        give off less heat, and have a life expectancy of 30 years. In 
        addition, the carpet and paint used in the room has low or no 
        volatile organic compounds (VOCs). We also use low-VOC and 
        other green cleaning products throughout the complex to ensure 
        we maintain excellent indoor air quality.
  --We installed nine solar panels in a Senate parking lot to power new 
        lights which make the parking lot safer.
  --We have installed daylight harvesting systems in Member and 
        Committee Offices that use electronic sensors to lower 
        artificial lighting levels when enough natural light is 
        available.
  --Nearly 35 percent of AOC employees use public transportation to get 
        to work.
  --We are updating our 2006 Alternative Fuel Policy so, in addition to 
        providing E-85 fuel to official government vehicles across the 
        Capitol complex, we require the purchase or leasing of 
        alternate fuel vehicles when replacing aging vehicles. To date, 
        there are 40 flexfuel, hybrid, and electric vehicles in the 
        AOC's fleet.
  --In September 2009, the American Lung Association of the District of 
        Columbia (ALADC) commended the AOC for its use of B20 blend 
        biodiesel fuel in its shuttle buses that service Capitol Hill. 
        The ALADC's Chief Executive Officer thanked the AOC for its 
        leadership in switching to biodiesel noting, ``The ALADC has 
        long called for greater use of biodiesel to improve the air 
        quality in our city, so it is particularly noteworthy that a 
        highly visible location like the Capitol uses biodiesel to 
        reduce emissions, including carbon monoxide, particulate matter 
        and unburned hydrocarbons.''
  --The AOC recycles 100 percent of its e-waste in three basic ways. 
        Computer equipment is donated by the Agency. If it's not 
        donated, it is reused or resold. Any equipment that is not 
        donated or reused is recycled by a commercial recycling 
        company. Typically the equipment is either reused or broken 
        down and its components are repurposed.
  --As part of Committee office renovations, the AOC has incorporated 
        sustainable design features. The AOC installed lighting control 
        systems where the electricity is metered, used rapidly 
        renewable materials and certified wood, and recycled more than 
        12 tons of construction waste in this Committee suite.
  --For construction projects, we regularly purchase materials 
        containing recycled content such as acoustical ceiling tiles, 
        resilient flooring, sheet rock, doors, low volatile organic 
        compound materials, and medium density fiberboard. Whenever 
        possible, construction materials are purchased locally.
  --We continue to install low-flow fixtures and automatic faucets in 
        restrooms, convert from pneumatic to direct digital controls to 
        maximize energy usage efficiency, and replace incandescent 
        light bulbs with Compact Fluorescent light bulbs throughout the 
        Capitol campus.
            u.s. botanic garden/sustainable sites initiative
    Because sustainable design, construction, and landscape management 
can have a significant and positive impact on our environment, in 
November 2009, the U.S. Botanic Garden launched the Sustainable Sites 
Initiative, in partnership with the Lady Bird Johnson Wildflower Center 
and the American Society of Landscape Architects.
    The goals of the Sustainable Sites Initiative encourage the 
sustainable design, construction, and maintenance of landscapes. These 
are the first national guidelines for building landscapes that will 
help to clean the air and water; mitigate temperatures; reduce 
flooding; provide more natural habitat for birds, insects, and animals, 
and help support our health and well-being.
    The effort to transform the way built landscapes are designed, 
constructed, and maintained for generations to come is a very important 
one, and the AOC is proud to be among those leading this national 
effort.
                    annual operating budget request
    Our fiscal year 2011 annual operating budget request for $443 
million provides funding for continuing the critical activities of 
operating and maintaining the infrastructure which supports the 
Congress, other Legislative Branch agencies, and the public, as well as 
other AOC essential mission support services. Some of these services 
include financial management, safety, human resources, project and 
construction management, planning and development, communications, 
information technology, procurement, and central administration.
    As I mentioned earlier, this non-discretionary spending has 
remained fairly constant over the past several years, and significant 
reductions in this portion of our budget would greatly impact our 
ability to provide day-to-day services and maintain our facilities at 
expected and acceptable levels.
    Other operating cost increases lie outside our control, including 
additional price increases that exceed inflation and are imposed by 
vendors as the cost of doing business. In addition, the cost of leases 
has increased, new technologies require investment in new networks, as 
well as hardware and software upgrades, and mandatory pay raises 
combined with the increase in costs for goods and services have added 
to the cost of our daily operations.
            capitol visitor center operating budget request
    At the opening ceremony for the Capitol Visitor Center (CVC) in 
December 2008, I noted that, ``Visitors now have a respectful and 
dignified way to come to the People's House, and I invite everyone to 
come and explore all that the Capitol Visitor Center and the U.S. 
Capitol have to offer.'' Little did I realize that 2.3 million people 
would take me up on my offer in just the first year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We are requesting $23.9 million for CVC operations and 
administration, and four FTEs to support operations including an 
interpretive curator.
    The CVC's first year of operation has been extremely successful. 
Average wait times continue to be 6 minutes versus the 3 or 4 hours in 
line in years past. More than 1,100 events have been held in the CVC's 
meeting spaces in the past year, and we're looking forward to large 
crowds again as Cherry Blossom season approaches.
    We continue to make improvements and adjustments to our policies 
and tour procedures including modifying the Advanced Reservation System 
to give Congressional offices more flexibility to modify, cancel, or 
reschedule tour reservations. We've also added a Congressional staff 
line at the South Information Desk, brought on more operators to ensure 
prompt responses to phone calls, and will be assigning staff to 
strategic locations in Emancipation Hall to help facilitate visitor 
traffic flow of staff- and guide-led tours.
    We continue to hold monthly listening sessions with Congressional 
staff to receive feedback and answer questions, and to date, more than 
5,100 staffers have participated in the CVC's training program.
    As a point of interest, I would like to note that in April we will 
install new documents into the CVC's Exhibition Hall. The new items, 
which include a map used by the National American Woman Suffrage 
Association showing their successful campaign for voting rights, the 
proclamation to residents of the Louisiana Territory that the United 
States had purchased the area from France, and the map showing the 
route of the Wilkes Expedition (the U.S. Exploring Expedition to the 
South Seas that brought to Washington a collection of living plants 
from around the globe) will be on display through early October.
                          aoc accomplishments
    Mr. Chairman, this past year we have recorded a number of 
significant achievements. The following is a list of just a few of our 
many accomplishments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  --Our annual Building Services Customer Satisfaction Surveys for 
        fiscal year 2009 again showed that a large majority of our 
        customers are satisfied or very satisfied with the level of 
        service the AOC is providing them.
  --We continued to improve our cost accounting procedures and internal 
        controls, and received our fifth consecutive clean audit 
        opinion from independent auditors on all of our financial 
        statements. The Capitol Visitor Center construction project 
        received a clean audit opinion; the third in 3 years. We 
        submitted the first set of semi-annual financial statements for 
        CVC operations in 2009, and received a clean audit opinion on 
        those as well.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  --We made tremendous progress to close out the recommendations from 
        the Government Accountability Office's (GAO's) General 
        Management Review (GMR) of the Agency. Ninety-one percent of 
        the recommendations are now closed (61 out of 67). Three of the 
        items from the original GMR are pending closure, and expected 
        to be completed in summer 2010. The remaining open items focus 
        on long-term recommendations (not part of the original GMR). We 
        are closely monitoring those activities and reporting status to 
        GAO.
  --We activated our pandemic flu plan in response to the H1N1 Flu 
        threat, including implementing action plans to address 
        continuity of operations; educating staff on how to prevent 
        getting sick; providing hand sanitizing stations across the 
        Capitol complex, and doing regular cleaning with a focus on 
        cleaning hard surfaces, such as desks and tables.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  --Worker safety remains one of our top priorities and our focus 
        remains on decreasing our Injury and Illness Rate each year, as 
        we have done since 2000. Safety training and education are keys 
        to our success, with a particular emphasis on injury prevention 
        through hazard recognition and elimination.
  --We will complete the initial phase of our preventative maintenance 
        standardization program this month. Included in this effort is 
        the identification of common preventative maintenance issues 
        across jurisdictions, minimum corrective procedures to follow, 
        and timelines for completion. This information will be 
        automated in our facilities management information system and 
        allow us to track metrics in the future to identify 
        opportunities for improvement.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  --Since 2007, the Office of Compliance (OOC) has issued one citation 
        to the AOC. AOC has worked collaboratively with the Office of 
        Compliance to close older citations and has successfully closed 
        21 citations since 2007. Eighteen Citations remain open today; 
        four are scheduled for closure in 2010. The remaining address 
        longer term utility tunnel (6) and fire and life-safety (8) 
        matters.
  --During the 111th Congress, the AOC increased its emphasis on 
        facility safety inspection, to include pre-inspections of 
        Members' offices prior to the OOC's biennial inspections. As a 
        result of the combined efforts of AOC and other employing 
        offices, the OOC is reporting a decrease of 41 percent in the 
        number of findings from fiscal year 2010 in the nine facilities 
        in which the OOC has completed inspections to date.
  --The U.S. Botanic Garden (USBG) was recognized as one of 
        Washington's best tourist spots in August 2009, by Nickelodeon 
        Television. The USBG won its ``Parents' Picks Award,'' 
        garnering more votes than several other area attractions. In 
        December, the USBG was voted one of the nation's best spots to 
        ``catch the holiday spirit'' by the American Automobile 
        Association (AAA).
  --The AOC team that managed construction of Modules 3 and 4 and four 
        Cold Storage Rooms at the Library of Congress Fort Meade High-
        Density Storage Facility were honored with a national award in 
        October from the Construction Management Association of America 
        (CMAA), in the category of new construction for a project under 
        $50 million. The new storage units will house 33 million items 
        from the Library's special-format collections.
  --Later this month the AOC will be recognized by the Washington 
        Building Congress with two awards that recognized special 
        building skills. The House Office Buildings Sprinkler 
        Installation Project will receive one award under the category 
        of ``Decorative Plaster'' and the second under ``Plumbing,'' 
        which has also been nominated for a Star Award. The awards will 
        be presented on March 26, 2010.
                               conclusion
    Mr. Chairman, as ``Snowmageddon'' has shown, the AOC is ready to 
step up and do what is necessary to keep the Capitol complex open and 
operating every day of the year--under any circumstances.
    Today, we face a blizzard of deferred maintenance projects, and the 
forecast is not sunny. We do appreciate the investment Congress has 
made in our facilities over the past several years as we work to buy 
down the deferred maintenance backlog. The AOC has been successful in 
our work to be good stewards of the Capitol complex due to your 
support.
    We also have been able to accomplish much and experience numerous 
successes because of the dedicated, professional men and women who make 
up the AOC team. I have been honored and privileged to work along side 
them. Because of their efforts and commitment to excellence, we 
continue to provide exceptional service to Congress, and have been able 
prevent system and facility failure due to their skills and ingenuity.
    Once again, thank you for this opportunity to testify today. Mr. 
Chairman, we look forward to working with this Subcommittee, the House 
Subcommittee on Legislative Branch, and our Oversight Committees to 
address the backlog of maintenance and repair projects, and continue to 
protect and preserve the U.S. Capitol for generations to come.
    I would be happy to answer any questions you might have.

                          OFFICE OF COMPLIANCE

STATEMENT OF TAMARA E. CHRISLER, ESQ., EXECUTIVE 
            DIRECTOR
    Senator Nelson. Ms. Chrisler.
    Ms. Chrisler. Thank you. Good afternoon, Mr. Chairman, Ms. 
Murkowski.
    I am honored to be here to appear before you today 
representing the Office of Compliance in support of our 2011 
fiscal year budget request.

 <greek-l>OOC deg.CONGRESSIONAL ACCOUNTABILITY ACT 15 YEAR ANNIVERSARY

    I would like to take a moment, though, before I go into the 
highlights of that request and note that the Congressional 
Accountability Act (CAA) celebrates its 15th anniversary this 
year, and it is not just a celebration for the Office of 
Compliance, but it is a celebration for the entire 
congressional community. The successes that are achieved under 
this Congressional Accountability Act are, in large part, due 
to the work of the member offices and the agencies and 
particularly this subcommittee. So we thank you for your 
support in the area of the work of our agency.

                   <greek-l>OOC deg.SAFETY AWARENESS

    Because of this subcommittee, the agency has been able to 
raise awareness of safety and health on the Hill, resulting in 
an increase of four times the Safe Office Awards in the 110th 
Congress. And congratulations to you, Mr. Chairman, and you, 
Ms. Murkowski, for being recipients of that award this 
Congress. We appreciate your leadership in this area.
    In addition, this subcommittee's active involvement in fire 
safety issues has led the Office of Compliance and the Office 
of the Architect of the Capitol to engage in collaborative 
discussions regarding the prioritization of open fire safety 
citations. These discussions have resulted in a prioritization 
schedule that is cost-efficient, practical, and mindful of the 
iconic nature of our environment.
    I highlight these areas not just to show the progress that 
has been made under the CAA, but to thank you for your support 
and to emphasize that the OOC will be carrying out these and 
other programs without asking for additional resources, except 
where absolutely necessary.

            <greek-l>OOC deg.FISCAL YEAR 2011 BUDGET REQUEST

    There are three areas where the OOC has requested 
additional funding for fiscal year 2011, one being safety and 
health to develop a risk assessment approach to inspections; 
two being IT infrastructure to update and enhance our IT 
security; and three, human capital to provide mandatory salary 
increases and minimal merit increases.
    The technical guidance we provide in the area of safety and 
health is well received and results in cost savings. We want to 
continue this type of service and increase cost savings within 
the legislative branch, and from the language in the fiscal 
year 2010 legislative branch appropriations conference 
committee report, you want us to continue that service too. In 
line with the conference committee's report, we anticipate 
developing a cooperative and cost-efficient approach to the 
identification and correction of safety and health hazards. 
This approach will be risk-based and, as the conference 
committee report indicated, focused on those areas which would 
yield the most reduction of risk to human health and safety. As 
we see it, those areas are work places and work activities that 
pose the biggest risk to safety. We will work very closely with 
employing offices as we develop this approach.

              <greek-l>OOC deg.COMMUNICATIONS--IT SYSTEMS

    As my written statement indicates, our communications and 
IT systems are antiquated and do not provide a cost effective 
way of securing information. Our current system of two 
computers per employee is an administrative burden on our 
resources. It is not cost efficient and it is cumbersome for 
staff. The funding we seek will allow us to migrate the two 
networks into a single system while maintaining security of 
confidential information.
    The balance of our request is for mandatory cost-of-living 
increases, minimal staff increases, and associate benefits.
    We understand the fiscal constraints of our environment, 
and in the spirit of cooperation, we have presented a budget 
request which we believe only has minimal increases, only those 
necessary to allow us to continue to serve you, to focus 
attention on those hazards that are the riskiest, to protect 
confidential and sensitive information, and to retain the 
talented workforce that carries out the mandates of the CAA.

           <greek-l>OOC deg.ADDITIONAL RESOURCE AVAILABILITY

    Though we have a need for additional resources to assist 
with our inspections of over 17 million square feet of space in 
the D.C. Metro area alone, with an additional 1 million 
expected in fiscal year 2012 and 2013, we are not seeking those 
additional resources this year. Instead, we are working with 
OSHA to secure nonreimbursable detailees to fill the need. We 
are hopeful that a mutual exchange of services between the two 
agencies will be of benefit to both agencies at no cost to the 
Government.

                           PREPARED STATEMENT

    So on behalf of the Board of Directors and the entire staff 
of the Office of Compliance, I thank you for your support of 
the agency, and I am happy to answers any questions that you 
have.
    Senator Nelson. Thank you.
    [The statement follows:]
                Prepared Statement of Tamara E. Chrisler
    Mr. Chairman, Ms. Murkowski, and distinguished Members of the 
Subcommittee, I am honored to appear before you today on behalf of the 
Office of Compliance (``OOC'' or ``Agency''). Joining me today are 
General Counsel Peter Ames Eveleth, Deputy Executive Director Barbara 
J. Sapin, Deputy Executive Director John P. Isa, Deputy General Counsel 
Susan M. Green, and Budget and Finance Officer Allan Holland. 
Collectively, we present to you the Agency's request for appropriations 
for fiscal year 2011, and we seek your support for our request.
    For fiscal year 2011, the Agency is requesting a total of 
$4,675,491, a $298,491 or 6.82 percent increase over the Agency's 
fiscal year 2010 appropriations level of $4,377,000. This funding would 
provide the Agency with the bare minimum resources necessary to 
continue its operations. This minimal increase includes funding for the 
development and roll out of a risk-based assessment, essential 
improvements to our quickly aging and increasingly inefficient IT 
infrastructure, and salary increases required by Federal law.
    Before I go into the details of our request, however, I would be 
remiss if I did not acknowledge the Subcommittee's continued support 
for this Agency. As you may be aware, the Congressional Accountability 
Act is celebrating its 15th anniversary this year. As we embark upon 
celebrating the successes Congress has achieved under this law, we must 
recognize the important role this Subcommittee has played: its vision 
and its support for this Agency and the work that we do. Because of 
this Subcommittee's steadfast assistance, the Office of Compliance has 
been able to continue to raise awareness of safety and health within 
our covered community. Just 2 weeks ago, the OOC presented four times 
as many Safe Office Awards as in the 110th Congress. These 154 
Representatives and Senators ensured that their employees could work in 
and that constituents could visit Washington, DC offices that are free 
from hazards. These increased numbers are a result of the daily 
education efforts of our staff, along with cooperation from staff of 
the Office of the Architect of the Capitol, House and Senate Employment 
Counsel, and the Chief Administrative Officer. Without the recognition 
from this Subcommittee of the importance of the OOC's safety and health 
services, and without substantial funding to provide these services, we 
would not be celebrating these safe and healthy Congressional 
workplaces.
    Because of this Subcommittee's dedication to safety issues, a Blue 
Ribbon Panel of architects and fire safety experts has been convened to 
provide an independent assessment of fire safety issues in the Russell 
Senate Office Building. This assessment will be instrumental in 
ensuring that fire safety hazards are abated in an effective and cost-
efficient manner, while maintaining the beauty and history of the Halls 
of Congress. Indeed, this Subcommittee's active involvement in fire 
safety issues has lead the OOC and the Office of the Architect of the 
Capitol to engage in collaborative discussions regarding the 
prioritization of open fire safety citations. These discussions have 
resulted in a prioritization schedule that is cost-efficient, 
practical, and mindful of the iconic nature of our environment.
    This Subcommittee's interest in the work performed by the OOC does 
not end with its help in the area of safety and health. Because of this 
Subcommittee's support, the Office of Compliance has increased its 
educational workshops provided to sister agencies about our unique 
dispute resolution system. Our colleagues have taken an interest in our 
services because we implement and administer a dispute resolution 
system that focuses on resolving disputes at the front end of a case 
using mandatory counseling and mediation. This approach results in 
lower costs for all parties and less workplace conflict.
    We are providing training for new Congressional employees, and up-
to-date publications for Members, employing offices, and Congressional 
employees about their workplace rights and obligations under the CAA. 
Training and knowledge of the law are a central part of our job on 
Capitol Hill. We are proud of the work we do for you, and we take pride 
in the fact that we do it nimbly and efficiently.
    In addition, the OOC has been working with the Office of the 
Architect of the Capitol to implement a cost-effective approach to 
improving public access to Capitol Hill facilities for persons with 
disabilities. The goal is, in cooperation with the Architect of the 
Capitol's Office, as well as other employing offices, to focus 
resources on removing the barriers that will most improve access to the 
facilities for the lowest cost.
    I highlight these programs to showcase the work that has been done 
and the progress that has been made in our legislative community 
because of this Subcommittee: your interest in our mission, and your 
support for our mission. We thank you. I also emphasize that we will be 
carrying out these programs in fiscal year 2011 without asking for 
additional resources except where it is absolutely essential.
                           strategic planning
    As the Office of Compliance celebrates these and many other 
accomplishments, we look forward to the next fiscal year, ready with a 
new 3 year Strategic Plan. Although the Plan covers fiscal years 2010 
through 2012, fiscal year 2011 will be the first fiscal year in which 
the Agency has requested funding in support of this Plan. The Strategic 
Plan focuses the efforts of the OOC on providing technical guidance to 
agencies and employing offices, serving as a resource to the covered 
community, expanding our outreach efforts to raise awareness of our 
services, and strengthening our infrastructure to improve the quality 
of service we provide to our constituents.
    Our fiscal year 2011 request for appropriations supports the 
initiatives in our new strategic plan. Specifically, our budget request 
focuses on three major areas that are designed to support needed 
technical assistance to employing offices, as well as upgraded 
infrastructure for the Agency, and mandatory salary increases for 
staff.
                     safety and health inspections
    In line with the goals and initiatives in our Strategic Plan, the 
OOC requests funding to continue its cooperative and cost-efficient 
approach to the identification and correction of safety and health 
hazards. If funded as requested, our 2011 budget would support the 
ongoing development and implementation of the risk-based inspection and 
abatement approach that the Conference Committee on fiscal year 202010 
Legislative Branch Appropriations directed OOC to institute.
    The OOC is completing its third successive wall-to-wall OSH 
inspection of legislative branch facilities on Capitol Hill. The area 
we inspect is vast: over 17 million square feet of property in the 
National Capital Area, including locations in Maryland and Virginia. As 
the covered community grows, so does the area we inspect. We do these 
inspections with a small staff of inspectors whose role is critical. 
You provided us with funds to hire them because you recognized that by 
finding hazards and alerting employing offices about them, employing 
offices can abate these hazards one-by-one. The abatement trends are 
overwhelmingly positive and exemplify swift progress. The OOC has found 
that the number of hazards has dropped substantially during the most 
recent three Congresses: from 13,000 in the 109th Congress, to 9,000 in 
the 110th Congress, to an estimated 6,000 in the present Congress.
    As you have recognized, there is still much to accomplish. At our 
last budget hearing, you challenged us, not just to point out hazards 
that need to be abated, but to target the most significant risks. In 
response to your directive, the Agency is developing an approach to 
target the riskiest workplaces and work activities in the 112th 
Congress. As we develop our risk assessment program, the OOC will be 
working very closely with the Office of the Architect of the Capitol's 
staff, as well as with other employing offices, to establish 
appropriate parameters. The OOC will work with employing offices to 
identify jobs and job sites that are inherently more dangerous: these 
may include, for example, the Capitol Power Plant and construction 
worksites. Our goal is to concentrate our limited resources where the 
risks are highest, to improve our ability to provide technical 
assistance focused on reducing on-the-job injuries and illnesses, and 
to remedy violations that pose serious threats to workers' safety.
    In light of the need to limit our appropriations request as much as 
possible, OOC has not requested funding for an additional safety and 
health inspector contractor, which we believe is needed. The 
authorization and funding provided in fiscal year 2010 for an OSH 
Program Manager to replace the retiring detailee equips the OOC with 
necessary resources to continue supervising our safety and health 
inspectors, working with outside OSH experts, and providing expert 
technical advice to the General Counsel and guidance to OGC staff 
regarding the application of OSHA standards. However, this position 
alone will not provide the resources needed to fully handle 
approximately one million additional square feet of Legislative Branch 
work space that is expected in fiscal year 2011 and 2012. Ever-mindful 
of the financial constraints facing our Government, and with an eye 
toward being cost-conscious, the OOC is asking the Occupational Safety 
and Health Administration to provide one or more safety and health 
inspectors on a short-term, non-reimbursable basis, to provide 
temporary inspection services at no additional expense to this Agency, 
while simultaneously providing on-the-ground experience for OSHA 
personnel.
                           ooc infrastructure
    The Office of Compliance's other focus during fiscal year 2011 is 
funding for OOC infrastructure. Communication and IT systems 
replacement/upgrades are at a crucial stage for agency efficiency and 
progress. Our IT systems impact all the programs discussed above, from 
dispute resolution, to education and outreach, to the protection of 
confidential information handled by our Agency. To ensure such 
confidential information is protected, the Agency maintains a dual 
computer network: an internal system which secures confidential 
information, and an external system through a server administered and 
maintained by the Library of Congress. The practice of maintaining two 
computers for each employee significantly decreases efficiency and 
increases costs and administrative burden on the Agency. In an effort 
to work more productively and reduce administrative costs, we seek 
funding to migrate the two networks into a single system.
    The balance of the increase that is being requested is for 
mandatory cost of living increases, minimal staff salary increases, and 
the associated benefits which allow the Office of Compliance to retain 
extremely high caliber employees to implement the programs described 
herein pursuant to the Congressional Accountability Act.
                               conclusion
    The Agency approaches fiscal year 2011 with heightened fiscal 
responsibility and an understanding that only minimal funding essential 
to meeting our mission may be available. We have examined our programs 
in conjunction with our statutory mandates, and we have made 
significant efforts to streamline our appropriations request to reflect 
the country's and the Government's current economic difficulties. With 
that understanding, we present to the Subcommittee only those items 
necessary to meet our statutory mandates. The three items discussed 
herein--risk-based inspections' approach, IT improvements, and 
mandatory salary increases--are the three major items that comprise our 
minimal increase of $298,491. Funding for these items will allow the 
Agency to continue to provide needed services and technical assistance 
to the covered community.
    On behalf of the Board of Directors and the entire staff of the 
Office of Compliance, I thank you for your support of this Agency. I 
would be pleased to answer any questions.

            <greek-l>AOC deg.FISCAL YEAR 2011 BUDGET IMPACT

    Senator Nelson. Mr. Ayers, the subcommittee recently asked 
you to look at the impact of holding your agency to fiscal year 
2010 funding levels for fiscal year 2011. I know and appreciate 
the effort you have already put forward on this task, and I 
would like to ask you just a few questions about your efforts 
to do that.
    The first one, perhaps the most obvious one, is what would 
be the impact of zero growth on your budget in fiscal year 
2011.
    Mr. Ayers. Thank you, Mr. Chairman. As we approached that 
analysis to keep our 2011 budget at the 2010 levels, it 
required us to make a reduction of $154 million. So we took a 
three-pronged approach.
    The first part of that was to look at our existing budget 
to see if there was any money we could drive out of that 
existing portion of our budget, and we were able to drive $15 
million out of that budget, which is equivalent to taking 11 
projects off of the list of 46 projects that we have put forth.
    The second thing we did was to look at the operations 
portion of our 2011 request and see what made sense to reduce 
there, and we were able to drive another $14.5 million out of 
that portion of our request.
    And of course, the most volatile portion of our request is 
the projects budget that goes up and down every year depending 
upon what projects are there, and the remainder of the required 
reduction came out of the projects request.
    So the net result of being held to those levels is a couple 
of things. One, certainly with the rise in construction costs, 
ultimately the projects that are on our list will need to be 
done. They will simply cost a little more later.
    Second, keeping at a zero percent growth is actually a 
decrease because we have to pay mandatory price increases and 
mandatory payroll increases instead of furloughing people, and 
that would certainly be our objective to not furlough people.
    There are a handful of projects that we think are in our 
operations side that are not going to get done. There are a 
series of full-time equivalents (FTEs) that we will defer to 
next year or the year after. Refreshing our information 
technology resources will not get done in 2011. Replacement of 
security barriers on a regular interval will just be pushed out 
in another year or two. So I think those are some of the 
impacts that we could expect.
    Senator Nelson. In that regard, what method did you use to 
try to establish priorities there? Because obviously you are 
prioritizing. Did you have any particular methodology you used?
    Mr. Ayers. Mr. Chairman, the project prioritization process 
that we have been working on for nearly 5 years has matured 
year after year. It has really developed into an excellent tool 
for the Congress to use to make important decisions on our 
budget. So every one of those 46 projects that is on our list 
goes through a rigorous prioritization process. In the budget 
that we have put forth, they are in priority order. So 
theoretically, if you needed to reach a certain reduction, you 
could simply start at the bottom of that list and cut those 
projects as you work your way up.

               <greek-l>AOC deg.PROJECT PRIORITY RANKING

    That process includes a number of factors. We look at 
mission, economics, energy, security, historic preservation, 
life safety. Every project gets a numeric score in each of 
those six categories. We also look at how urgent a project is, 
and every one of those 46 is measured against immediate, high, 
medium, or low urgency. And last, with the theory of you need 
to take care of what you have before you build new, every 
project receives a classification of either deferred 
maintenance, capital renewal, capital improvement, or capital 
construction. In our prioritization process a deferred 
maintenance project, which is something that is already broken 
and needs to be fixed, will move to the top of the list over 
new construction.

                  <greek-l>AOC deg.PRIOR YEAR BALANCES

    Senator Nelson. In trying to establish the budget now in 
terms of the zero growth, do you take into account what are 
generally referred to as prior year balances? For example, I 
believe there is somewhere in the neighborhood of $50 million 
that was appropriated in fiscal year 2010 for the House 
Historic Buildings Trust Fund. Do you take that into account as 
well?
    Mr. Ayers. We certainly did take that into account, and we 
did a comprehensive review of our prior year funds. We did 
drive $15 million out of what we thought was in excess to our 
needs. We were able to apply that to 11 projects that were on 
the list.
    We do think that keeping the House Historic Buildings 
Revitalization Fund at $50 million is a good thing for our 
budget. We have been working very hard with Congress for the 
last 3 years to make some seminal changes in our budget 
profile. We now have the tools available to look out 20 years. 
The future does not look good. So we have really been working 
to make a seminal change, and I think that change enables us 
not to cut off our nose to spite our face. So we make that 
investment later on.
    Senator Nelson. But as you do that, how do you choose then 
to defer immediate-need projects involving roof replacement and 
fire protection? How would that historic trust fund come ahead 
of what seem to be more basic needs?
    Mr. Ayers. It is making a down payment for the future. So 
we know, coming up in a few years, that we have over $100 
million in deferred maintenance in the Cannon House Office 
Building, which is the next building that we believe needs a 
top-to-bottom renovation. So we believe that we need to begin 
making that investment in 2016 or 2017. So without that money 
and building up a corpus of money, we are not going to be able 
to do that come 2016 or 2017. We are going to have to take that 
money out of the bandwidth that is available in this budget. 
That will prevent us from doing the projects on the list that 
given year. So we do think that the balance of projects we need 
to do now, as well as making investments for the future, is the 
right balance.
    Senator Nelson. Well, I think part of the challenge we have 
is the future needs and setting aside money, but I think the 
American taxpayer will have a challenge understanding socking 
away money for future needs if we cannot make ends meet on the 
immediate needs that we face right now, such as roof repairs 
and other deferred maintenance that may raise life and fire 
safety issues. So I raise that as a question for your 
consideration.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I will follow 
on here as it relates to the projects because I think it is 
such an important part of what we are dealing with here in 
terms of priorities and how we allocate the dollars that are 
available.

             <greek-l>AOC deg.SUBSTANTIAL PROJECT INCREASE

    As I flipped through the various areas within the 
jurisdiction of the Architect of the Capitol, looking at the 
requests for general administration, you are looking for 
funding for three projects. That is an increase of 38.9 percent 
for those. Within the Capitol Building section, we have got 
nine different projects. This is an increase of 703 percent. In 
the category of Senate office buildings, you have got a number 
of projects, including what the chairman has mentioned, roof 
repairs, et cetera, waterproofing. But this is a 165 percent 
increase. In other categories under Library buildings and 
grounds, we have got 11 projects, a 279.7 percent increase in 
the projects. With the Capitol Police buildings, grounds, and 
security, we are looking at additional funding for six 
projects, 106 percent increase. The Botanic Garden--there are 
only three projects that are requested there. Still, that is an 
87.8 percent increase.
    I guess the question that I would have is, with these 
projects and a pretty substantial increase in terms of 
requested projects that now get on the to-do list, are these 
projects driven by citations that are coming out of the Office 
of Compliance or do they get on the list because they are 
deferred maintenance projects that the AOC is trying to work 
through? How do we get to this number of projects that are on 
the list?
    Mr. Ayers. Certainly primarily projects come from 
independent assessments of all of the facilities on Capitol 
Hill. So for the past several years, we have engaged an 
independent company that specializes in this kind of thing to 
review every piece of equipment, every building system, and 
give us an honest, third party, independent assessment of its 
condition and its useful and expected life, and to help us 
classify whether it is broken, needs to be fixed, deferred 
maintenance, or whether we really need to add onto a system or 
capital improvement. This is developed into a significant 
database that maps out what needs to be done in all of our 
buildings across Capitol Hill for the next 20 years. That comes 
into developing what projects are on the list.

            <greek-l>AOC deg.WHAT DRIVES THE BUDGET REQUEST

    Also, our 20-year Capitol complex master plan has projects 
in it that drive what is in our budget request.
    But certainly a small number of those--there are three of 
them this year. In fact, the top three are driven by citations 
from the Office of Compliance. So that will ebb and flow in any 
given year.
    Senator Murkowski. Are there only three that are driven by 
the Office of Compliance?
    Mr. Ayers. There are only three in fiscal year 2011 that 
are driven by the Office of Compliance.
    Senator Murkowski. And which are those projects?
    Mr. Ayers. The first is the utility tunnels and the second 
one is compartment barriers and horizontal exits in the Capitol 
Building. The third is a new exit stair in the Thomas Jefferson 
Building for the Library of Congress.

              <greek-l>AOC deg.PROJECT LIST--SAFETY ISSUES

    Senator Murkowski. Well, I guess I want to understand more 
about the prioritization because I am engaged in overhaul of an 
old home myself, and believe me, my to-do list looks a heck of 
a lot different than my husband's to-do list who is doing all 
the work. Then when we go and we consult the checkbook and how 
we are going to pay for it, all of a sudden, the to-do list 
looks entirely different, and we are constantly resorting and 
reprioritizing.
    So I guess I am a little concerned that knowing that the 
chairman and I have been very specific in asking the agencies, 
the departments to give us your lean and mean budget, that we 
would be looking at a whole list of projects that while they 
will be important to do at some point in time or they are 
things that we want, that we really have not figured out how we 
can present a very clean and doable list of projects that we 
must address because of safety issues.
    So to know that of the many different projects in these 
various categories, we have got three that we have got Office 
of Compliance issues with or some form of citation that is out 
there, and that others that are on somebody's matrix of 
something that we want to have on the schedule, it does not 
give me a very clear picture of what we really think the 
priorities should be. I would hope that we will all be working 
together to perhaps give some more certainty as to where we are 
really going to go with projects for this year.

       <greek-l>AOC deg.BLUE RIBBON PANEL--FIRE CODE REQUIREMENTS

    I know that there are some things that we can start, and it 
does not foul the process if we do not have the full funding to 
complete it, but I know that there are other things that you 
need to be able to complete once you initiate those projects. 
We need to know and understand which fall into those categories 
as well.
    Senator Nelson. We talked about the Russell Building stairs 
and I think we were seeking a blue ribbon panel to review how 
the fire code requirements apply to historic buildings. Do we 
have the panel's findings with regard to the stairs in the 
Russell Senate Office Building? Has that blue ribbon panel 
study been completed?
    Mr. Ayers. No, Mr. Chairman, it is not complete yet, but we 
do expect it to be complete in April.
    Senator Nelson. Do you expect it to be helpful in assisting 
you in prioritizing the fire and life safety challenges that 
you face?
    Mr. Ayers. Absolutely. I think we have brought together a 
really stellar blue ribbon panel, the best minds that we know 
of in the country, to help us address this issue. We are 
looking forward to their thoughts and suggestions and 
recommendations.

                 <greek-l>AOC deg.PRELIMINARY FINDINGS

    Senator Nelson. Have you had any preliminary feedback from 
this panel?
    Mr. Ayers. Yes, we have. They did come and present to us a 
50 percent completion document, and the entire team got 
together. They made a great presentation for us, and all of us 
felt that they were on the right track. We were very encouraged 
with the level of effort, the level of detail and the level of 
professionalism and engineering judgment that they are bringing 
to the table. So we are really looking forward to the report in 
April.
    Senator Nelson. Have you included Ms. Chrisler in the 
development of the study and the preliminary findings? Ms. 
Chrisler.
    Ms. Chrisler. Yes. Actually the Office of Compliance was 
provided a copy of the report. We also attended the briefing, 
the 50 percent briefing. We were able to attend. We were happy 
to attend, and we also gave some comments based on the analyses 
that were conducted within the 50 percent report.
    Senator Nelson. Did you find it helpful to be able to work 
together in that sort of an environment with that kind of a 
project?
    Ms. Chrisler. Extremely helpful. As Mr. Ayers indicates, 
the expertise that sits on the panel will absolutely be 
instrumental to the addressing of these issues, and we 
appreciate the opportunity to sit down and consult with them, 
along with the Office of the Architect of the Capitol.
    Senator Nelson. You did not find it necessary to be 
adversarial in that environment, I am sure.
    Ms. Chrisler. Absolutely not. It is an independent 
assessment, and we appreciate the experts' opinion and we 
appreciate the time that they have taken, their perspective 
that they are bringing to the assessment of the issues, and it 
is very collaborative.
    Senator Nelson. Good, thank you.

                    <greek-l>AOC deg.UTILITY TUNNELS

    In terms of the utility tunnel repairs, Mr. Ayers, the 
request includes $14 million for the utility tunnel project and 
$20 million in other citation-related projects. I am glad to 
hear that things are pretty much on schedule to complete the 
repairs in 2012. When the repairs are completed, do you 
anticipate being in full compliance with the applicable health 
and safety standards, as we might hope that you would be?
    Mr. Ayers. Yes, we do, Mr. Chairman.
    Senator Nelson. Maybe since some of the repairs were 
considered to be an interim fix, how long do you expect those 
interim repairs to last? Are they very short term or are they 
intermediate term?
    Mr. Ayers. Our objective is to get another 20 years out of 
the utility tunnels. It is more of a longer-term approach we 
are taking.

                   <greek-l>AOC deg.REVIEW OF REPAIRS

    Senator Nelson. Ms. Chrisler, have you had an opportunity 
to review the repairs or some explanation of the repairs?
    Ms. Chrisler. We have consistent monitoring of the progress 
that is being made within the utility tunnels. We have a 
dedicated staff member who liaisons with the Architect's Office 
and is kept up-to-date and reviews the information and has 
weekly meetings and provides feedback. It is a very engaged 
effort on both agencies' parts. So yes, we are very, very much 
aware of the progress that is being made and the progress is 
very good, right on schedule.
    Senator Nelson. And then in terms of the other citations, 
are there other citation-related projects included in the 
fiscal year 2011 request?
    Mr. Ayers. We have three citation projects that are in our 
2011 request. The first, of course, is the utility tunnels, our 
most important work. The second is compartment barriers and 
horizontal exits in the Capitol Building, and the third is a 
new stair in the Jefferson Building. It is important to note 
that those three have risen to the top of our priority list, 
but it is also important to note that those three are in 
priority order. As you know, we worked together this summer to 
develop a prioritization process where we can now prioritize 
these citations. So what you see before you in our prioritized 
list is in priority order.

              <greek-l>OOC deg.PRIORITIZATION OF CITATIONS

    Senator Nelson. Ms. Chrisler, are you comfortable with the 
effort that has been made and the results of that 
prioritization effort?
    Ms. Chrisler. We, being the Office of Compliance and the 
Office of the Architect of the Capitol, sat down pursuant to 
the direction given by this subcommittee and engaged in some 
very productive discussions regarding the prioritization of the 
fire safety citations. And during those discussions, we 
collaborated and agreed upon an applicable standard, and based 
on that application of the standard, together reached this 
prioritization that we have before us. So, yes, we are very 
much in agreement and we think that it is right on point.
    Senator Nelson. Well, I appreciate the collaboration and 
the spirit of cooperation there because it seemed to me a year 
ago that the Office of Compliance was more in the realm of a 
referee or an umpire throwing a flag here and throwing a flag 
there on a violation. And it is encouraging to see that there 
is more cooperation and collaboration on these projects so that 
the adversarial relationship is not necessarily helpful if you 
can go forward and work together.
    Ms. Chrisler. That is correct. And we see ourselves as a 
service agency and as a resource, and we cannot be the only 
ones that see ourselves that way. It is important for others to 
see us that way as well, and we understand that that 
perspective will only come from the work that we are doing and 
not just the dialogue that we are engaged in. So we are very 
much appreciative of the opportunity to be able to sit down and 
not just act as referee but to offer technical advice and 
technical assistance where necessary.
    Senator Nelson. Great, thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

<greek-l>AOC deg.FEDERAL ACQUISITION STREAMLINING ACT AUTHORITY--LEASE 
                               AUTHORITY

    Mr. Ayers, let me ask you some questions about the two 
legislative language proposals that are contained within the 
budget request. The first is the Federal Acquisition 
Streamlining Act authority, the FASA authority, and long-term 
lease authority. And I understand that it would provide for 
procedures for commercial item acquisition, presumably to 
result in efficiencies and savings whether it is janitorial 
services or whatever.
    I am trying to understand exactly what the budgetary impact 
of something like these proposals would actually be and whether 
or not there will be cost savings if, in fact, these 
authorities are to be granted; whether there are savings in 
operations and contracts immediately or whether we are going to 
see this play out over time. Can you just kind of give me a 
better picture so I can understand what it is that you are 
anticipating with this authority?

                  <greek-l>AOC deg.FASA BUDGET IMPACT

    Mr. Ayers. Absolutely, Senator Murkowski. The Federal 
Acquisition Streamlining Act is an act that was enacted about 
10 years ago and it is widely used throughout the executive 
branch. We are looking to have that kind of procurement 
flexibility with the Architect's Office. And you are absolutely 
right. The purpose of this is to save money, save time, and 
create efficiencies in our procurement office.
    So what it does, is allows us to purchase commercial items 
up to $5.5 million using simplified acquisition procedures. 
Today we are only capable of using those simplified acquisition 
procedures for procurements up to $100,000. Those procedures 
are simply a purchase order, and maybe three or four or five 
pages tops of procurement and contract language to procure a 
commercial item today $100,000 and below. Today, above 
$100,000, we have to go through a contract procedure which is 
easily 100 pages of contract clauses to procure a commercial 
item up to $5 million. This would really significantly save 
time in our procurement office, allowing us to buy commercial 
things in a very simplified manner. It saves us money and 
prevents, I think the budget impact you were trying to get at. 
It prevents us from, in the future, having to come to you and 
ask for increases and increases in our procurement staff. We 
are gaining some efficiencies there and will not need to do 
that in the future.
    Senator Murkowski. So do you actually spend over $100,000 a 
year moving statues?
    Mr. Ayers. That is just one particular item.
    Senator Murkowski. I am just looking at it. I am thinking, 
okay, bulk fuel, yes; light fixtures, yes. And I was looking at 
the cleaning of the chandeliers----
    Mr. Ayers. Like toilet paper, paper, all of those types of 
things.
    Senator Murkowski [continuing]. And I decided those 
chandeliers have got to be really expensive to clean.
    But you do anticipate--I am assuming you have done some 
kind of a cost analysis that has said that consolidating these 
procurement policies is going to be beneficial in the short 
term and the long term.
    Mr. Ayers. Absolutely. We did go back to all of our 
procurements in 2008 and analyzed every one of them to 
determine how many of them we could have taken from this 100-
page contract phase and used the simplified acquisition 
procedures. There were 35 of them, and for those 35, we believe 
we could carve out 20 man-days on each one. So it is a very 
significant savings.

               <greek-l>AOC deg.SENIOR EXECUTIVE SERVICE

    Senator Murkowski. Let me ask you about the Senior 
Executive Service (SES). Again, this is an area that has been 
used within the executive branch, but I am trying to understand 
why you believe within the AOC we need to have or we need to 
create these Senior Executive Service, similar to executive 
branch authority. You are talking about 37 positions here, 
which seems like a lot of senior level positions for an agency 
that has about a three-fourths blue collar, one-fourth white 
collar workforce.
    So can you explain to me why you are seeking this 
authority, what you hope to gain from it, and give me a bird's 
eye view of what the 37 positions are again, that is a lot of 
folks here. What is the budgetary impact of converting 37 
positions into Senior Executive Service positions? Can you just 
speak to this issue for a moment, if you will?
    Mr. Ayers. Absolutely, Senator. First, our objective and my 
objective is to be the best. To be the best. To be able to 
recruit and retain the best people. I know that it is certainly 
your objective as well. We do not believe today we are poised 
to do that at the senior executive level because our pay and 
benefits package does not match those in the executive branch 
of the Government.
    Senator Murkowski. Should it?
    Mr. Ayers. I am sorry?
    Senator Murkowski. Should it?
    Mr. Ayers. I think it should, absolutely. Certainly not on 
the pay side. We recognize that our pay we cap below Member 
pay. So we are not seeking authority on pay, and we do not 
believe that this flexibility will have any impact in the short 
term on funding.
    I think it is important to note that when we go to recruit 
someone from the executive branch there are disparities, a 
great example of that is the amount of annual leave an 
executive can carry over. Today our executives can carry over 
240 hours. In the executive branch, all of them can carry over 
720 hours. So why would one of them be enticed to come work for 
the Architect of the Capitol when they are going to have to 
give up that benefit that they have, that the Government 
Accountability Office (GAO) has, that the Library of Congress 
has, but the Architect does not?
    So I think the facts are very clear that benefits packages 
do not match and we think they should. We really think that 
there should be this easy exchange of executive talent between 
the executive branch and the legislative branch.
    Senator Murkowski. What about the number, the fact that you 
have got 37? It seems like a high number of senior level 
positions, again in an area where most of your workforce is not 
the senior level. It is more the blue collar level.
    Mr. Ayers. Of those 37, all of them, I believe, are 
existing positions, and they are already paid at the Senior 
Executive Service level. The only thing that they would be 
affected by is a change in benefits' package for the annual 
leave carry over that I mentioned earlier. So they are not new 
employees.
    Senator Murkowski. These are existing people that you are 
just changing their ability to accrue annual leave, carryover, 
and bonuses. So what you are saying is that this does not cost, 
in terms of what you will see with your budget. It is more of a 
recruitment or a retention tool.
    Mr. Ayers. That is exactly right. I think it is important 
for transparency. There is no question in the first year it 
does not cost us. In ensuing years, when employees retire they 
are paid out for their annual leave that they still have on the 
books. So this would enable an executive to accrue a larger 
amount of leave on the books than one would normally have 
today, but that is many years down the road.
    Senator Murkowski. Would this have any impact on salary 
increases in future budget requests?
    Mr. Ayers. No, ma'am, it would not.
    Senator Murkowski. Mr. Chairman, thank you.

                <greek-l>AOC deg.CAPITOL VISITOR CENTER

    Senator Nelson. The Capitol Visitor Center. You were 
provided $621 million for the construction, but due to reduced 
delay claims by sequence 2, a contractor, GAO currently 
estimates that the total cost to complete the Capitol Visitor 
Center is $591 million. This leaves you with a balance of 
approximately $31 million. Are those facts correct, and is 
there a remaining balance of $31 million from this project?
    Mr. Ayers. I do not believe that that is exactly correct, 
but there is no question----
    Senator Nelson. There is some money----
    Mr. Ayers [continuing]. That there will be at least $20 
million available for other priorities. I think that is a great 
testament to the team that negotiated the final claims on this 
project, and they did just a terrific job and saved us 
considerable money.
    Senator Nelson. Well, anything that comes under the 
ultimate price tag is a savings and it should be viewed that 
way. There is no doubt. I appreciate that.
    I guess the question I have is could the funding, that 
additional $20 million that is there--could that be applied 
toward your fiscal year 2011 needs?
    Mr. Ayers. Yes, Mr. Chairman, absolutely.

                   <greek-l>AOC deg.CVC FTE INCREASE

    Senator Nelson. Now, you request four FTEs for the Capitol 
Visitor Center. Does that mean you are not adequately staffed 
at the CVC now? For example, what are the duties of an 
interpretive curator? Are they not already available? Or is 
there a necessity to add that particular position or positions?
    Mr. Ayers. We are requesting an increase of four FTEs for 
the Capitol Visitor Center, and I view those in two groups. The 
first group and the highest priority, the must-haves, are 
converting our two congressional liaison positions that are 
currently on board in a temporary capacity to permanent 
positions. They really have shown that they are extremely 
beneficial, not just for us but for Members, in working and 
providing tours at the CVC. So we think those are must-haves.
    The second two are in a second tier of more improving 
operations and improving efficiencies. We think, certainly, a 
curator could help improve our operations in interpreting the 
things that are in the Exhibition Hall. But an interpretation 
curator and a special assistant do not rise up to the must-have 
level of our two congressional liaisons.

           <greek-l>AOC deg.CAPITOL POWER PLANT FTE INCREASE

    Senator Nelson. And then if we go to the Capitol Power 
Plant, your request there includes 3 additional FTEs for that 
plant, bringing the total to 98. Have you recognized any 
savings that would apply to reducing the number of FTEs as a 
result of the installation of a digitized control system at the 
plant? In other words, further use of technology should be able 
to help you reduce the reliance on human power. Have you 
realized anything or can you realize anything there?
    Mr. Ayers. Well, we do think that there are some savings to 
be realized there. The numbers you mentioned are our FTE cap. 
The FTE cap at the Power Plant is 95. These 3, which I will 
address in a moment, would increase to 98. But on-board 
strength, we have somewhere in the low to mid 70s. We have 
purposefully, for the past 2 to 3 years, held recruitment very, 
very low in the Power Plant to accommodate these efficiencies. 
I know when I became Acting Architect 3 years ago, I think we 
were at 85 on-board people and we are now about 10 less than 
that. So I think we have been driving some efficiencies out of 
there.

                    <greek-l>AOC deg.UTILITY METERS

    The three new positions are, interestingly enough, a new 
mission area for the Architect. The Energy Independence and 
Security Act required us to install utility meters throughout 
all of our facilities. That resulted in about 320 new utility 
meters, very high-tech pieces of equipment installed in all of 
our buildings. These three new employees would operate and 
maintain those meters, do the preventive maintenance on those 
meters, as well as read the results of those meters.

                <greek-l>AOC deg.SUSTAINABILITY PROGRAM

    Senator Nelson. In that regard, you are requesting $11.2 
million worth of projects and $10 million in the operations 
budget with an energy reduction focus. Is that different than 
what we are talking about here with the Power Plant, or is it a 
part of it, or is it separate from it? I will ask it that way.
    Mr. Ayers. It is certainly separate from the Capitol Power 
Plant appropriation, but it is part of our comprehensive 
sustainability program to meet the Energy Independence and 
Security Act goals of a 3 percent energy reduction per year.
    Senator Nelson. Well, as you expect to use the $11.2 
million worth of projects and $10 million in the operations 
budget, if funded, what will that achieve in terms of overall 
reductions in costs to the budget? In other words, I think you 
are spending money to try to bring down the costs. What would 
you expect in the way of energy savings in terms of dollars?
    Mr. Ayers. In terms of dollars, I think a great example of 
that is the energy savings performance contract that we have 
awarded here in the Senate. This public/private partnership, 
where a private company is investing $42 million in the Senate 
office buildings, and ultimately, reducing energy by 36 
percent, which is almost $4 million a year in energy savings 
being driven out of the Senate office buildings. Of course, 
initially that money goes to repay this company that is doing 
the work and borrowing the money. In the end, we keep those 
investments, we keep the upgrades and we reap the benefits 
after they are repaid.
    Senator Nelson. How long will it take us to recoup the $22 
million? How many years do you think it is going to take us to 
where we have recovered that? It is good to reduce energy use. 
There is no doubt. And it is also good to reduce the cost that 
you get from energy reduction. As you try to correlate those 
two, how long will it take us to be neutral or have a net 
reduction in our costs?
    Mr. Ayers. I believe here in the Senate, the projection is 
18 to 20 years.
    Senator Nelson. What about other buildings or other 
facilities? Do you have anything that might--in other words, is 
this $22.2 million all in the Senate office buildings?
    Mr. Ayers. It is. It is $42 million, the investment they 
are making just in the Senate. We have a similar arrangement in 
the Capitol----

                    <greek-l>AOC deg.PROJECTS BUDGET

    Senator Nelson. Excuse me. That they are making. But you 
have got $22.2 million in your operations budget in projects. 
Maybe I am not understanding what those dollars are for.
    Mr. Ayers. Those dollars are primarily for two things. One 
is enabling us to manage these energy savings performance 
contracts across Capitol Hill. For these contracts that we have 
entered into, we are investing nearly $100 million. So we are 
looking for contract help: engineers to help manage that work 
and coordinate that work and be sure it is installed properly 
and commissioned properly. That is primarily what much of that 
money is for.
    Senator Nelson. And then it would take us about 18 years to 
get the full benefit of what it is we are trying to do in terms 
of dollars.
    Mr. Ayers. That is correct.
    Senator Nelson. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ms. Chrisler, I do not want to have all the attention 
focused on Mr. Ayers here, so we will ask you a couple.

                   <greek-l>OOC deg.HAZARDS DECREASE

    You referred to the number of hazards that have been 
identified and the fact that we have seen a decrease from 
13,000 in the 109th Congress to 9,000 in the 110th to an 
estimated 6,000 in the 111th. And I think that is good. I would 
hope that given a level of outreach and education efforts, we 
would see the number of hazards continue to go down, and I 
think that is clearly the goal here.
    Can you tell me how we count hazards? Is it every 
overloaded outlet that is counted? And then when they unload it 
or put the power strip in or what have you, is it still 
counted? How do you account for these multiple hazards?
    Ms. Chrisler. Thank you, Senator. It is a very good 
question.
    What we do is we have inspectors that go out and inspect 
each office space and they identify the hazards, they identify 
violations of the Occupational Safety and Health Administration 
(OSHA) standards. Those are noted. Sometimes they are abated 
right on the spot.
    Senator Murkowski. And are they counted if they are abated?
    Ms. Chrisler. Yes, they are, but they are counted--if they 
are abated on the spot, no. So I am mistaken.
    Senator Murkowski. So if you unplug it, then you are good.
    Ms. Chrisler. You are good.
    Senator Murkowski. All right.
    Ms. Chrisler. If it takes something other than right on the 
spot, then yes, that is counted as a hazard within the 
findings.
    [The information follows:]

    During the hearing, I mistakenly indicated that the OOC 
does not record hazards found during biennial inspections if 
they are remedied immediately. In fact, OOC notes all hazards 
identified during a biennial inspection, whether they are 
abated on the spot or abated at a later time. This method of 
recording hazards is consistent with the longstanding practice 
followed by Occupational Safety and Health Administration 
inspectors. The OSHA Field Operations Manual provides: ``Safety 
and health violations shall be brought to the attention of 
employer and employee representatives at the time they are 
documented.'' Field Operations Manual, Directive No. CPL 02-00-
148 at 3-20 (Occupational Safety and Health Administration 
November 9, 2009) (emphasis added). In addition, this method of 
recording hazards allows the OOC to provide Congress with 
consistent and reliable data, as explained below.
    The CAA requires the OOC to inspect legislative branch 
facilities for compliance with occupational safety and health 
standards at least once each Congress and report those results 
to the Speaker of the House, the President pro tempore of the 
Senate, and employing offices responsible for correcting 
violations. CAA Section 215(e), 2 U.S.C. 1341(e). As such, the 
OOC is required to notify Congress of the violations it 
identified irrespective of when those violations are remedied. 
Alongside the hazard findings, the OOC provides abatement 
information to provide context for the findings and establish a 
clear picture of what hazards remain. Although OOC encourages 
early abatement and applauds employing offices for their 
efforts to immediately abate hazards, OOC does not note a 
distinction in its identification of hazards if a hazard is 
abated immediately or if a hazard is abated at a later time: at 
the time of the inspection, a hazard that threatened workers' 
safety and/or health was present, and the CAA requires the 
identification of those hazards and a submission of same to 
Congress. The OOC is pleased with the continuing decline in 
hazards seen over the past three Congresses, and is hopeful 
that the abatement process continues to progress as well.

                 <greek-l>OOC deg.COMPLIANCE EDUCATION

    Senator Murkowski. Is it fair to say then that with 
continuing education and awareness, we are able to do within 
our own offices a significant level of compliance just on our 
own and we are learning so that as the years progress, 
hopefully, we will be near zero. I do not know if it is 
possible to eliminate all hazards, but I am assuming that is 
the direction that we are taking.
    Ms. Chrisler. Sure, absolutely it is. And that is part of 
where we are hoping to go in the future, as we see the decrease 
in hazards. And as you mentioned, it is partly due to the 
education efforts of our staff, the increased awareness of the 
staff and the Members' offices and the employing offices, and 
in part due to the employment counsel's offices as well in 
assisting us in conducting the inspections and providing the 
education that is necessary. So, yes, we are looking for the 
employing offices to be able to spot some of these hazards 
themselves and correct them right on the spot. That is part of 
our goal is to equip the employing offices with that type of 
knowledge so that they are able to utilize our office as a 
resource, as a kind of checkpoint to make sure that they are 
right on track.
    Senator Murkowski. Good. I appreciate that.
    I also appreciate the comment that you made in your opening 
statement about working in collaboration with OSHA to provide 
some assistance, rather than bringing on new or additional 
staff working with them in a collaborative effort. I think that 
that is good. If there are other opportunities to do similar 
collaborating efforts, I would certainly encourage that.

                       <greek-l>OOC deg.IT SYSTEM

    Let me ask you one more question about the IT system. You 
mentioned that you have got a somewhat unique system in that 
you are required to have two computers for each employee. 
Clearly inefficient. It obviously adds increased costs to the 
agency.
    What do you anticipate your cost savings to be once the new 
system is in place? What is the total request for the system 
upgrade? And if the funding in fiscal year 2011 does not 
support the full cost of the system, how much additional 
funding do you figure you need in the out-years to kind of take 
care of this?
    Ms. Chrisler. Yes, thank you. The system that we have is 
unique. Because of the confidential information that our office 
maintains with respect to our dispute resolution program, we 
have taken great steps to ensure that that type of information 
remains protected and remains secure. The system that we have 
currently in place provides that protection, but it also 
inhibits employees from being able to work as productively as 
they could. Literally, there is a switch box that is on 
everyone's work station and employees literally have to 
transfer back and forth between computers when they are wanting 
to work. One of the systems is an internal system where we can 
communicate internally and the other one connects to the 
outside world, the Internet. And the two systems are not 
compatible.

                    <greek-l>OOC deg.SYSTEM SECURITY

    Ms. Chrisler. We have obtained the technical skills of an 
IT staff who has developed a program and a system by which we 
would be able to maintain that level of security but eliminate 
the two computers. So that is something that will result in a 
cost savings, will result in efficiency, will allow us to have 
a complete COOP plan for teleworking purposes. The total cost 
of the program is something that I can provide to you for the 
record at a later date.
    [The information follows:]

    The total investment for new system upgrade equals 
$110,000, which encompasses the following: equipment ($60,000--
fiscal year 2011 budget request) and installation ($50,000--
fiscal year 2012 budget request). We expect to recoup the new 
system investment through cost savings over a 2\1/2\ year 
timeline ($110,000 total upgrade/$43,475 total savings equals 
2.53 years).

    Ms. Chrisler. Should we not receive the funding for the 
improvements, we will have to reevaluate how to go about 
developing this plan. Of course, it is not just a 1 fiscal year 
project. It is something that we can break into pieces, if we 
have to. Some things will have to be delayed. The 
implementation would be delayed, but perhaps the development 
could continue on some levels.
    Senator Murkowski. Well, if you could get that information 
and kind of lay that out, that would be helpful.
    Ms. Chrisler. Thank you.
    Senator Murkowski. Thank you.
    Senator Nelson. Thank you.
    [The information follows:]

    Ideally, OOC would purchase the equipment in fiscal year 
2011 for $60,000 and perform the installation in fiscal year 
2012 for $50,000. However, if funding is not provided in fiscal 
year 2011, OOC would have to delay the implementation of the 
new system. The cost would probably not increase dramatically 
if the timeline for implementation was delayed; the delay would 
simply move the cost to another fiscal year. However, not 
receiving the full requested budget for fiscal year 2011 and 
delaying the implementation increases the vulnerability of the 
agency for disaster recovery planning (COOP), reduces any 
efficiencies which could be gained through the ability to tele-
work, and impacts the agency's cybersecurity initiatives.
    Because the new IT system will allow for the use of one 
computer per work station as opposed to the current use of two, 
the agency anticipates enjoying significant cost-savings, not 
only in physical equipment, but in human resources as well.
    The total annual estimated savings equals $43,475; $22,475 
of which is attributed to equipment and software, $21,000 of 
which is attributed to Human Capital. Because the new IT system 
will require the agency to maintain only one computer per work 
station, as opposed to the two it currently maintains, routine 
upgrades will be fewer, resulting in significant savings.
    Mindful of the costs associated with maintaining current 
technology for hardware and software compatibility, the agency 
looks to replace its employee PCs every 3 years. As such, once 
the system upgrades are in place, and only one PC per work 
station is being maintained, the agency will enjoy an annual 
savings of $7,950 or $23,800 over the 3-year replacement cycle. 
Annual software costs will result in a savings of $11,300; and 
purchases of peripheral equipment will yield an additional 
savings of $3,225.
    The new IT system contemplated by the agency will result in 
a $21,000 annual savings of IT staff resources. As the system 
currently operates, IT staff allocates 25 percent of their time 
annually for support and maintenance of the internal computer 
system. Once the new system is implemented, the staff would be 
able to utilize that 25 percent toward our IT Security and COOP 
initiatives, which have gone understaffed due to the time 
commitment necessary to maintain two computer systems.

                 <greek-l>OOC deg.HAZARD PRIORITIZATION

    Senator Nelson. Ms. Chrisler, in establishing the 6,000 
hazards, do you then categorize them as to priorities, priority 
1, 2, 3, 4, 5? I assume that not every hazard is co-equal with 
every other hazard. So do you have a system of prioritization?
    Ms. Chrisler. Yes, Senator, we do. What we have is what we 
call a RAC system, and it is R-A-C. It is a risk assessment 
code. And when the hazards are identified, they are labeled 
with this RAC: RAC 1 being posing life-threatening potential, 
life-threatening issues; RAC 2 being dangerous and could cause 
bodily harm; and 3 and 4 of lesser degree of severity.
    The majority of the 6,000 violations that we saw are not 
RAC 1. So that is very comforting to know. They fall more in 
the range of RAC 3, which is they are significant but they do 
not rise to the level of the immediate threat to life safety.
    Senator Nelson. Well, I know that you pay close attention 
to OSHA and their inspection programs. Do we know what changes 
are being planned in the 112th Congress on OSHA inspection 
programs?
    Ms. Chrisler. That is something that we certainly will look 
into, Senator, and be happy to provide to you for the record.
    Senator Nelson. Sure. That would be helpful. Thank you.
    [The information follows:]

    The Secretary of Labor (``Secretary'') is responsible for 
promulgating occupational safety and health standards under the 
Occupational Safety and Health Act of 1970, 29 U.S.C. sections 
651 et seq. Executive Order 12866 requires the Secretary to 
publish semiannually a Regulatory Agenda listing all 
regulations the Department of Labor expects to have under 
active consideration for promulgation, proposal or review 
during the coming year. The Department's most recent Regulatory 
Agenda was published on December 7, 2009 and can be found in 
its entirety at www.reginfo.gov. The Department's Regulatory 
Plan, which is a subset of the Regulatory Agenda, ``highlights 
the most noteworthy and significant regulatory projects that 
will be undertaken by its regulatory agencies,'' including the 
Occupational Safety and Health Administration (``OSHA''). 74 
Fed. Reg. No. 233 at 52 (Dec. 7, 2009). The most recent 
Regulatory Plan lists four OSHA regulations: a modification of 
OSHA's Hazard Communication Standard; a rule setting 
Occupational Injury and Illness Recording and Reporting 
Requirements; a health standard regulating Crystalline Silica 
exposure; and an update of the 1971 Cranes and Derricks 
standard applicable to the construction industry. Id.
    As certain OSHA standards apply in the legislative branch 
pursuant to section 215(d) of the Congressional Accountability 
Act (``CAA''), 2 U.S.C. section 1341(d), the OOC and its Board 
of Directors will continue its close monitoring of OSHA's 
regulatory activity in the coming year and assess its effect on 
the legislative branch.

             <greek-l>AOC deg.CAPITOL POLICE RADIO PROJECT

    Senator Nelson. I do not know that I have any more 
questions to ask. I guess I could ask about the radio system 
here. I have got a question on that.
    The Capitol Police radio project. Mr. Ayers, I know you are 
responsible for the facilities portion of that project. Can you 
give us an outline of how the facilities portion of the project 
is undergoing--or how that is going on right now?
    Mr. Ayers. I would be happy to, Mr. Chairman. In support of 
the Capitol Police project, we are undertaking three activities 
on that project. The first is the design and construction of 
the primary site, which is where the radio operators and radio 
infrastructure will be, in Manassas. We are right on schedule 
and on track to complete that by December 2010. We have a 
contract awarded, and we are going through the contract design 
and submittal phase right now. So we see no issues there.
    The second portion is the design and construction and 
property acquisition of the mirror site, or the backup site, 
here just off of Capitol Hill. We are currently in negotiations 
with the leaseholder now, both negotiations on the lease, and 
on the construction side. We do not see any issues meeting a 
March 2011 completion date to enable the Capitol Police vendor 
to begin installing their radio equipment.
    And then last, and probably most importantly for me, is 
helping the Capitol Police contractors install and navigate 
through all of the office buildings and the Capitol Building 
and to installing their infrastructure, electricity, antenna 
wires, and antennas through the buildings. And we are working 
very closely with them now. I know that they have completed the 
design for the Senate office buildings. They are nearing 
completion of the design for the Capitol and House office 
buildings. We do not see any issues there as well.
    So things are progressing well and we are very confident 
about completing our three tasks on schedule.
    Senator Nelson. Well, I appreciate the update. It is good 
to know that it is on schedule and not slipping and staying 
within the budget as well?
    Mr. Ayers. Yes, sir.
    Senator Nelson. Well, if there is nothing else to ask, 
there is no reason to ask it. Right?
    So I appreciate very much your being here today, your work, 
and the work of all your associates who, together with you, are 
doing such an outstanding job for us. Thank you for your candor 
and for your willingness to work with us. I know with such 
difficult times that we face right now with unemployment at a 
high level, it has also been a very energizing time because 
with all the snow and with everything else, it seems to come 
all at one time when everybody is saying, well, we need to slow 
down our costs at a time when the activity is increasing. It 
seems like those should not cross. They should match. But we 
are faced with difficult times, and I appreciate the fact that 
everybody understands that and we will try to work our way 
through it.
    So thank you.
    Senator Murkowski, do you have any closing comments?
    Senator Murkowski. Thank you, Mr. Chairman, and I look 
forward to working with the Architect of the Capitol, the 
Office of Compliance, and others as we kind of slog through how 
we prioritize the needs again for those who are working and 
visiting our capital. Thank you.
    Senator Nelson. In addition to thanking our witnesses 
today, I want to thank Robin Morey, the Senate Superintendent, 
for keeping the room cool today.

                          SUBCOMMITTEE RECESS

    The subcommittee stands in recess until Thursday, April 15, 
when we will meet again in this room at 2:30 to take testimony 
on the fiscal year 2011 budget request of the Government 
Accountability Office, the Government Printing Office, and the 
Congressional Budget Office. Thank you.
    [Whereupon, at 4 p.m., Thursday, March 18, the subcommittee 
was recessed, to reconvene at 2:30 p.m., Thursday, April 15.]






         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, APRIL 15, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:22 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, and Murkowski.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF GENE L. DODARO, ACTING COMPTROLLER GENERAL

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. The subcommittee will come to order.
    Good afternoon to everybody, and welcome. We meet this 
afternoon to take testimony on the fiscal year 2011 budget 
request for the Government Accountability Office (GAO), the 
Government Printing Office (GPO), and the Congressional Budget 
Office (CBO).
    I would like to welcome our witnesses here today--Gene 
Dodaro, Acting Comptroller General; Bob Tapella, Public 
Printer; and Doug Elmendorf, Director of the Congressional 
Budget Office.
    I also want to welcome my good friend and ranking member, 
Senator Murkowski, as well as the other members of the 
subcommittee who will perhaps be joining us, Senator Pryor and 
Senator Tester. Senator Murkowski and I have enjoyed working 
with one another on these items of the legislative branch, and 
I know I look forward to continuing that effort.
    This is our third budget hearing of this fiscal year, and I 
would like to reiterate a few concerns that were raised during 
our first two hearings. I am disappointed that this 
subcommittee has once again been presented with a fairly large 
budget increase request in fiscal year 2011.
    And the fact remains that this country is in economic 
turmoil, and the American taxpayers simply are not ready to 
tolerate unnecessary Government spending. And some believe that 
any kind of Government spending is probably unnecessary, but 
particularly at a time of high major unemployment. And I have 
said repeatedly that I intend to do my best to hold the 
legislative branch flat this year.
    I believe that spending restraints start at home. We need 
to lead by example on this subcommittee, and we can't do that 
by appropriating large increases to our agencies, even at a 
time when they may be totally justified.
    I think the President sent the message loudly and clearly 
in his State of the Union Address this year, noting that 
families across the country are tightening their belts and 
making tough decisions. The Federal Government must do the 
same, he said, and he announced a 3-year freeze on nonsecurity 
discretionary Government spending. And I believe we must do the 
same with this subcommittee as well.
    Having said that, I want to also say that we still 
appreciate the contributions made by each of your agencies in 
assisting Congress in our service to the country. We are truly 
grateful for the work you do, and we look forward to hearing 
from you and to discussing your budget requests.
    I must say that I doubt there has ever been a time that 
staff for the Senate have ever had to work more lengthy hours 
and weekends than recently, and I am sure it is true with your 
departments as well. And so, at a time when we are looking to 
reward, it seems like the rewards are sort of fleeting away 
from us.
    Mr. Dodaro, GAO is requesting an overall increase of 8 
percent in fiscal year 2011, which includes funding for the 
continuation of your mandated requirements under the American 
Recovery and Reinvestment Act (ARRA), which I understand 
accounts for roughly one-half of your increase. And I look 
forward to discussing the specifics of your budget request, as 
well as GAO's latest findings on the American Recovery and 
Reinvestment Act effort.
    Mr. Tapella, I understand that GPO will soon be celebrating 
150 years of service to the Federal Government, and I would 
like to congratulate you and your entire staff on this 
accomplishment. GPO is requesting an increase of $19 million, 
or 13 percent, over current year. And I understand that much of 
this increase is directly related to the Federal Digital System 
(FDsys) and a few other information technology upgrades and 
infrastructure projects, which I look forward to discussing 
with you a little later on.
    Dr. Elmendorf, it is good to see you again. CBO is 
requesting $47.2 million in fiscal year 2011, an increase of 
roughly $2 million, or 4.7 percent, over the current year. And 
I understand that you feel this number is somewhat skewed by 
supplemental funding CBO received in fiscal year 2009, which 
you feel impacted your fiscal year 2010 appropriation.
    And I know better than to argue the numbers with you.
    So I look forward to discussing your budget and other 
obstacles that you face and your colleagues face.
    Now I would like to turn over to Ranking Member Senator 
Murkowski for her remarks.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    And my remarks will be very brief this morning because they 
mirror so closely those that you have just made.
    I would like to begin by welcoming the three of you--Mr. 
Dodaro, Mr. Tapella, Dr. Elmendorf. I think it is fair to say 
that you each, within your respective areas, are doing well by 
us, and we appreciate that. We do recognize that we task you 
with a lot, and I know certainly, Dr. Elmendorf, the requests 
that have been made on CBO just this past year with all of the 
legislative initiatives as they relate to healthcare have been 
daunting. And I don't know if you have any more hours in your 
day than I do, but I commend you for the work that you and all 
your staff have done.
    As the chairman has mentioned, each of you are requesting 
within your offices increases. The GAO increase at 7.9 percent, 
GPO at 13 percent, and then CBO, an increase of $2.1 million, 
or 4.7 percent. And we recognize that while you may feel that 
they are entirely justified and may be much smaller than you 
had wanted, that these are significant increases within the 
legislative branch budget.
    And the chairman's words, of course, come as no surprise, 
that we are looking for ways to demonstrate leadership by 
ensuring that our own budgets are tightened and trying to 
reduce those costs. So I will be curious to hear this afternoon 
how GAO, GPO, and CBO are prepared to make the adjustments in 
the fiscal year 2011 budget requests that have been submitted 
and do look forward to working with all of you to ensure that 
we can arrive on some mutually agreeable solutions to how we 
trim back the costs while at the same time providing the very 
essential services that all of you and your staffs provide.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you.
    I was going to call on Senator--my colleague to the right, 
but he assures me that he wants not to be associated with the 
skinflints to his left.
    Now I would like to call on Mr. Dodaro for your opening 
statement, followed by Mr. Tapella, and of course, then by Dr. 
Elmendorf. And if it is possible to keep your opening 
statements brief, around 5 minutes, we would obviously receive 
the rest of your statement for the record if there are 
additional statements to be made.

                  SUMMARY STATEMENT OF GENE L. DODARO

    Mr. Dodaro. Thank you very much Mr. Chairman, Ranking 
Member Senator Murkowski, Senator Pryor. I appreciate the 
opportunity to be here today to discuss GAO's budget request.
    As the investigative arm of the Congress and the auditor of 
the Government's financial condition, I certainly appreciate 
and commend your objectives toward fiscal prudence. And in that 
light, GAO's budget request, as you mentioned, Mr. Chairman, is 
really in two parts.
    The first part of our request is a 4.1 percent increase in 
our base appropriation that is intended to just maintain our 
existing staff levels in order to support our work for every 
standing committee of the Congress and about 70 percent of the 
subcommittees.
    When I came before this subcommittee in 2008, my first year 
as acting Comptroller General, I mentioned we were at our 
lowest staffing level in GAO's history. Thanks to the support 
of this subcommittee, we have augmented that slightly over the 
last couple of years. We are well positioned to help the 
Congress deal with the range of domestic and international 
challenges that it faces across the spectrum of its activities. 
This increase is just to maintain our current staffing level to 
support the Congress.
    We also have been given new responsibilities in the 
healthcare legislation. There will be many more 
responsibilities in the financial regulatory reform 
legislation. And in the latest increase to deal with the debt 
ceiling increase, we were given an annual mandate to recommend 
duplication and other areas where Government spending could be 
eliminated.
    In addition to GAO's normal responsibilities of responding 
to about 1,000 requests a year from the Congress, in the 
Troubled Asset Relief Program (TARP), we were given 
responsibilities to report every 90 days. Since we were funded 
through reimbursements from the Treasury Department, we will be 
in good shape to follow all those activities through until AIG, 
General Motors, and other arrangements work their way out and 
the Government returns them to their normal status.
    The Recovery Act is a little bit different. That act, as 
you know, is now estimated to be about $862 billion. We were 
charged with recurring responsibilities on bimonthly reviews of 
the use of that money by selected States and localities and 
quarterly reviews of the reports concerning the amount of jobs 
that were created and retained. So these are recurring 
responsibilities.
    In recognition of the large amount of spending, and it 
being out of the normal appropriation cycle when the 
legislation was passed, Congress gave us $25 million. That 
money expires at the end of fiscal year 2010, so by September 
this year we will have spent that money.
    Now the money to the States and localities will continue in 
fiscal years 2011 and 2012 and beyond, out to almost fiscal 
year 2019, according to CBO's estimates. That means that there 
will be over $120 billion that will still flow to the States 
and localities in fiscal year 2011 and beyond. The second part 
of our request provides funds for us to be in a position to 
continue to meet our mandates of bimonthly reviews.
    I am also concerned that the risk level associated with 
some of the spending in the next several years will be at least 
as great as, if not a little bit higher than, the spending that 
has occurred to date because there will be new programs and 
greatly expanded amounts of money for other programs. So I 
think it is important for us to be in a position to do what 
Congress asked us to do, which is to be out in the States and 
localities making sure the money is spent appropriately for its 
intended purpose.
    In closing, I know very well, as my colleagues do, the 
difficult fiscal challenges that await the country and the 
Congress, and there are a lot of difficult decisions. GAO is an 
important resource in helping Congress eliminate waste, 
increase revenues, and ensure programs are more efficient and 
effective. My colleagues and I are committed to making sure 
that whatever investment you make in GAO, that the dedicated 
people of GAO will give you a good return on that investment.

                           PREPARED STATEMENT

    I know you will give careful consideration to our request, 
and I look forward to addressing your questions when 
appropriate.
    Senator Nelson. Thank you, Mr. Dodaro.
    [The statement follows:]
                  Prepared Statement of Gene L. Dodaro
    Mr. Chairman, Ranking Member Murkowski, and Members of the 
Subcommittee: I appreciate the opportunity to be here today to discuss 
the U.S. Government Accountability Office's (GAO) budget request for 
fiscal year 2011. At the outset, I want to thank all the members of the 
subcommittee for your continued support of GAO. With your support of 
our fiscal years 2009 and 2010 funding levels, we have been able to 
address the steady decline in staffing that GAO had experienced since 
fiscal year 2003 and begin to reverse this trend by restoring our 
staffing capacity.
    This has put us in a better position to assist the Congress in 
confronting the many difficult challenges facing the nation. In fiscal 
year 2009, GAO supported congressional decisionmaking and oversight on 
a range of critical issues, including the government's efforts to help 
stabilize financial markets and address the most severe recession since 
World War II. In addition to providing oversight for the 2008 Economic 
Stabilization Act and the American Recovery and Reinvestment Act of 
2009 (Recovery Act), we continued to provide the Congress updates on 
programs that are at high risk for waste, fraud, abuse, and 
mismanagement or are in need of broad reform, and delivered advice and 
analyses on a broad array of pressing domestic and international issues 
that demand urgent attention and continuing oversight. These include 
modernizing the regulatory structure for financial institutions and 
markets to meet 21st century demands; controlling escalating healthcare 
costs and providing more effective oversight of medical products; 
restructuring the U.S. Postal Service to ensure its financial 
stability; and improving the Department of Defense's management 
approaches to issues ranging from weapons system acquisitions to 
accounting for weapons provided to Afghan security forces. Overall, we 
responded to requests from every standing committee of the Senate and 
the House and over 70 percent of their subcommittees.
    As a knowledge-based organization, our ability to timely assist the 
Congress as it addresses the nation's challenges depends on our ability 
to sustain our current staffing levels. We are submitting for your 
consideration a prudent request for $601 million for fiscal year 2011, 
which will allow us to maintain our capacity to assist the Congress in 
addressing a range of financial, social, economic, and security 
challenges going forward. This amount represents a 4.1 percent increase 
($22.6 million) to maintain our fiscal year 2010 staffing level for 
``base operations,'' cover mandatory pay and uncontrollable costs, and 
reinvest savings from nonrecurring costs and efficiencies to further 
enhance our productivity and effectiveness. We have also requested a 
3.8 percent increase ($21.6 million) to maintain the current staffing 
level of 144 FTEs to continue mandated Recovery Act oversight beyond 
the expiration of the funding we received to help offset the cost of 
this new responsibility. The total requested increase of 7.9 percent 
will allow us to continue to be responsive in supporting congressional 
mandates and requests.
 the nation's challenges shape gao's fiscal year 2011 expected workload
    GAO stands ready to continue assisting the Congress as it tackles 
the wide array of challenges facing the nation. Our past performance is 
evidence of the critical role our dedicated staff play in helping the 
Congress and the American people better understand issues, both as they 
arise and over the long term. These include:
  --Assessing the government's continuing response to the current 
        economic situation, including: assessing the effectiveness of 
        financial and regulatory reform efforts and plans to ensure the 
        stability of the overall banking, housing, and financial 
        markets; conducting oversight of proposed programs to boost the 
        economy, including job expansion and investments in 
        infrastructure; and continuing to perform our responsibilities 
        under the Recovery Act, including bimonthly reviews of how 
        selected states and localities use the funds provided and 
        quarterly reviews of recipient reports on job creation.
  --Reviewing the government's efforts to identify and act on credible 
        threats to homeland and border security, including to 
        commercial aviation and seaports as well as those involving 
        biological, chemical, and nuclear dimensions.
  --Reviewing U.S. efforts related to Afghanistan, Iraq and other 
        regions in conflict, including reviewing the effect of drawing 
        down resources in Iraq, providing more resources to 
        Afghanistan, and retooling operations in Pakistan.
  --Supporting health care financing and reform efforts through 
        analyses of Medicare, Medicaid, and other health programs.
  --Identifying elements to help address the nation's financial 
        challenges including Social Security, tax reform, retirement, 
        and disability programs; opportunities to reduce spending; and 
        reducing the gap between taxes owed and taxes collected.
  --Performing specialized studies and technology assessments of a wide 
        range of science and technology issues, such as climate change, 
        the challenges of developing sophisticated space and defense 
        systems, and green energy.
  --Focusing on major areas that are at high-risk, including the U.S. 
        Postal Service's financial condition, oversight of food and 
        drug safety, and cybersecurity efforts.
    GAO is uniquely positioned to support the Congress. For instance, 
pressures to reduce the federal deficit following an economic recovery 
will require a greater need for the type of analyses that are a 
hallmark of GAO. We recently were tasked by statute to provide an 
annual report addressing overlap and duplication among federal 
programs. Also, through our long-standing focus on high-risk programs 
and other activities, we can identify for policymakers the agencies and 
programs that require priority attention. These include helping focus 
on ways to help reduce improper federal payments, estimated at $98.7 
billion in fiscal year 2009, and the $290 billion estimated tax gap. In 
addition, our dedicated and multidisciplinary staff have substantive 
agency and program expertise, as well as expertise in conducting 
financial and performance audits, program evaluations, policy analyses, 
and technology assessments.
    In March 2010, GAO issued an exposure draft of our 2010-2015 
Strategic Plan for serving the Congress, which describes our proposed 
goals and strategies for supporting the Congress and the nation as the 
United States undergoes a period of transformation, daunting 
challenges, and opportunities. Our framework is attached as appendix I.
               gao continues to be an employer of choice
    Recognizing that GAO's accomplishments are a direct result of our 
dedicated workforce, management continuously strives to maintain a work 
environment that promotes employee well-being and productivity, and to 
be a world-class professional services organization. In both 2007 and 
2009, GAO ranked second in the ``Best Places to Work'' rankings 
sponsored by the Partnership for Public Service. We are also proud of 
the current results from our 2009 annual employee feedback survey which 
indicate that employee satisfaction continues to increase. Importantly, 
the results of the 2009 annual employee feedback survey--the highest 
scores to date--provided GAO management with valuable information on 
how we can continue to attract and retain top talent.
    GAO regularly seeks and values the input we receive from our 
employee organizations: the Diversity Advisory Council, Employee 
Advisory Council, and GAO Employees Union, International Federation of 
Professional & Technical Engineers, Local 1921 (the Union). 
Collaboration with these organizations has resulted in a number of 
improvements in GAO processes, including improved field-office working 
conditions; enhanced quality-control documentation that help staff 
ensure that our practices follow GAO policy and generally accepted 
government auditing standards; and new demographic questions on the 
annual GAO employee feedback survey that allow GAO management to track 
the views of certain employee populations. Also, GAO and the Union have 
made significant progress toward developing a master collective 
bargaining agreement.
    GAO continues to make progress toward our goal to create a more 
inclusive work environment. The most recent data show that 
representation of minority groups in our workforce equals or exceeds 
the representation in the relevant civilian labor force. As of April 
2009, minorities represented about 30 percent of GAO's total workforce 
and women constituted nearly 60 percent. By comparison, in the civilian 
labor force minorities represented about 27 percent and women about 47 
percent. With our approach to continuous improvement, several areas 
merit continued attention, such as increasing the representation of 
Hispanics and the disabled in the total workforce. Looking forward, our 
action plan focuses on three areas: recruitment and hiring, staff 
development, and efforts to create a more inclusive work environment. 
We will continue to consult with the Union and all employee groups as 
we implement this action plan.
    Our fiscal year 2011 budget provides funds to continue to 
strengthen employee development and benefits programs. We have also 
identified savings and efficiencies within our budget and plan to 
reinvest these resources to implement enabling technologies, such as 
energy improvements.
                 gao's fiscal year 2011 budget request
    As a people-intensive organization, about 80 percent of GAO's 
budget funds compensation and benefits for over 3,300 employees, with 
the balance funding mandatory operating expenses, such as rent for 
field office locations, security services, and other critical 
infrastructure services required for ongoing operations.
    GAO is requesting an increase of $22.6 million to maintain our 
current capacity to provide timely, high-quality responses to 
congressional requests for assistance, and $21.6 million to support 
staff currently working on mandated Recovery Act oversight. About 90 
percent of the requested increase supports mandatory compensation and 
benefits.
    A summary of our fiscal year 2011 request is shown in the following 
table and explained in further detail below.

                             TABLE 1.--FISCAL YEAR 2011 SUMMARY OF REQUESTED CHANGES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Cumulative
                                                                                                   percentage of
                                                                                                    change from
                        Budget category                               FTEs            Amount        fiscal year
                                                                                                  2010 to fiscal
                                                                                                     year 2011
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2009 actual costs..................................           3,141        $529,526   ..............
Fiscal Year 2010 enacted level.................................           3,221         556,849   ..............
Changes to the base:
    Maintaining staff capacity.................................              49          20,444              3.7
    Nonpay inflation and annualization.........................  ..............           6,420              4.8
    Change in offsetting collections/reimbursements............  ..............          (4,225)             4.1
    Efficiencies/savings and nonrecurring costs................  ..............          (8,032)             2.3
    Resource reinvestment......................................  ..............           8,030              4.1
                                                                ------------------------------------------------
      Subtotal--changes to the base............................              49          22,637              4.1
                                                                ================================================
Recovery Act (to maintain existing staff) \1\..................             144          21,631              7.9
                                                                ------------------------------------------------
      Total appropriation--salaries and expenses...............           3,414         601,117              7.9
----------------------------------------------------------------------------------------------------------------
\1\ These staff are funded in fiscal year 2010 by Recovery Act resources provided to GAO to help offset costs
  for mandated oversight. While the oversight continues, the funds expire at the end of fiscal year 2010.

Source: GAO.

    Maintaining staff capacity includes $20.4 million to maintain our 
projected fiscal year 2010 onboard staff at a full-time equivalent 
(FTE) level of 3,270 FTEs to enable GAO to continue to meet our 
increased responsibilities in a timely manner. The requested increase 
primarily includes: the full-year cost to maintain the workforce in 
fiscal year 2011 resulting from fiscal year 2010 hiring and pay 
actions; mandatory January 2011 pay increase at 1.4 percent based on 
Office of Management and Budget guidance; and performance-based pay 
increases in lieu of executive branch General Schedule within-grade 
increases.
    Nonpay inflation and annualization includes $6.4 million to 
maintain purchasing power, sustain fiscal year 2010 operating levels, 
and cover projected inflationary increases in common carrier 
transportation costs, travel per diem rates, training, supplies and 
materials, and other essential mission-support services based on 
negotiated contracts, vendor notification, or historical trend data.
    Change in offsetting collections/reimbursements reflects an 
increase of $4.2 million in rental income and reimbursement from 
financial audits that reduces our request for appropriated funds.
    Efficiencies and nonrecurring costs reflect $8 million of 
efficiencies and nonrecurring fiscal year 2010 costs resulting from: 
technology consolidations, such as our new core human capital system 
and integrated E-Gov travel solution; and enhanced building operations, 
including the installation of a gas- and solar-powered water boiler to 
improve energy efficiency.
    Resource reinvestment reinvests $8 million of nonrecurring fiscal 
year 2010 costs and operational efficiencies to: further enhance our 
information technology programs to enhance productivity and 
effectiveness; continue to address management challenges through 
increased information and physical security, enhanced appraisal 
systems, and retention incentives; continue cyclical building 
maintenance and repairs and enhance energy efficiency; and bolster 
support for audit engagements and technology assessments.
    Recovery Act includes funds to continue the 144 FTEs necessary to 
help offset the cost to conduct the mandated oversight of the use of 
the funds provided in the Recovery Act to help ensure transparency and 
accountability. No new staff would be hired.
                           concluding remarks
    With the strong support of the Congress and this subcommittee, in 
fiscal years 2009 and 2010 GAO increased our staff capacity. Our fiscal 
year 2011 budget request is prudent and essential to ensure that we can 
maintain this capacity and continue to provide timely, high-quality 
assistance to the Congress in confronting the critical economic, 
financial and security challenges facing the nation.
    We have a proven track record of helping the Congress evaluate 
critical issues of national importance and improving the transparency 
and accountability of government for the American people. For example, 
our work in the banking sector provided a framework that can be used to 
help reform the financial regulatory system and to evaluate proposals 
to ensure that any new regulatory system is sufficiently comprehensive, 
addresses risks, and adequately protects consumers. Over the past 2 
fiscal years our work yielded significant results. For example, during 
this period we delivered expert testimony on average at about 250 
congressional hearings. We also documented on average over 1,300 
actions taken by agencies and the Congress in response to our 
recommendations for improvements in government services and operations 
and changes to law. In addition, we recorded on average about $50 
billion in financial benefits, resulting in a return on investment in 
fiscal year 2009 of $80 for every dollar the Congress invested in 
us.\1\
---------------------------------------------------------------------------
    \1\ For additional information on GAO's fiscal year 2009 
accomplishments, see GAO's Performance & Accountability Report, Fiscal 
Year 2009, and Summary of GAO's Performance and Financial Information, 
Fiscal Year 2009, available at [hyperlink, http://www.gao.gov/about/
strategic.html]. Examples of how GAO assisted the nation and selected 
issues on which senior GAO officials testified at congressional 
hearings in fiscal year 2009 are included in appendixes II and III.
---------------------------------------------------------------------------
    We remain committed to providing accurate, objective, nonpartisan, 
and constructive information to the Congress to help it conduct 
effective oversight and fulfill its constitutional responsibilities. I 
appreciate, as always, your careful consideration of our submission and 
look forward to discussing our proposal with you.
    Mr. Chairman, Ranking Member Murkowski, this concludes my prepared 
statement. We would be pleased to respond to any questions that you or 
other members of the subcommittee might have.
appendix i.--serving the congress and the nation: gao's strategic plan 
                               framework
    Mission.--GAO exists to support the Congress in meeting its 
constitutional responsibilities and to help improve the performance and 
ensure the accountability of the federal government for the benefit of 
the American people.
    Trends.--National Security Threats; Fiscal Sustainability 
Challenges; Economic Recovery and Growth; Global Interdependence; 
Science and Technology; Networks and Virtualization; Shifting Roles of 
Government; Demographic and Societal Change.

------------------------------------------------------------------------
                   Goals                             Objectives
------------------------------------------------------------------------
Provide Timely, Quality Service to the
 Congress and the Federal Government:
    to Address Current and Emerging         Health care needs; Lifelong
     Challenges to the Well-being and        learning; Benefits and
     Financial Security of the American      protections for workers,
     People related to                       families, and children;
                                             Financial security;
                                             Effective system of
                                             justice; Viable
                                             communities; Stable
                                             financial system and
                                             consumer protection;
                                             Stewardship of natural
                                             resources and the
                                             environment;
                                             Infrastructure.
    Respond to Changing Security Threats    Homeland security; Military
     and the Challenges of Global            capabilities and readiness;
     Interdependence involving               Advancement of U.S.
                                             Interests; Global market
                                             forces.
Help Transform the Federal Government to    Government's fiscal position
 Address National Challenges by assessing.   and options for closing
                                             gap; Fraud, waste, and
                                             abuse; Major management
                                             challenges and program
                                             risks.
Maximize the Value of GAO by Enabling       Efficiency, effectiveness,
 Quality, Timely Service to the Congress     and quality; Diverse and
 and Being a Leading Practices Federal       inclusive work environment;
 Agency in the areas of.                     Professional networks and
                                             collaboration;
                                             Institutional stewardship
                                             and resource management.
------------------------------------------------------------------------

    Core Values.--Accountability; Integrity; Reliability.
      appendix ii.--how gao assisted the nation, fiscal year 2009
    Strategic Goal 1.--Provide timely, quality service to the Congress 
and the federal government to address current and emerging challenges 
to the well-being and financial security of the American people:
  --Highlighted weaknesses in the Food and Drug Administration's 
        oversight of medical devices;
  --Helped to improve the healthcare provided wounded soldiers 
        returning home;
  --Investigated the death and abuse of children at public and private 
        schools;
  --Recommended additional oversight and controls of voluntary 
        workplace safety and health programs administered by some 
        companies;
  --Enhanced management at the Pension Benefit Guaranty Corporation;
  --Enhanced federal efforts to combat drug trafficking;
  --Identified ways the Department of Housing and Urban Development 
        could promote energy efficiency and green building in federal 
        public housing programs;
  --Informed the debate on hardrock mining reform;
  --Reported on the Environmental Protection Agency's reforms of its 
        toxic chemical assessment process;
  --Informed the Congress about the U.S. Postal Service's deteriorating 
        financial situation.
    Strategic Goal 2.--Provide timely, quality service to the Congress 
and the federal government to respond to changing security threats and 
the challenges of global interdependence:
  --Recommended actions to improve the Department of Defense's (DOD) 
        management of contractors in Iraq and Afghanistan;
  --Helped the Congress assess DOD's ability to provide trained and 
        ready forces for military operations;
  --Recommended that the State Department develop outcome measures for 
        its capacity-building program in Iraq;
  --Helped to improve DOD's accounting of weapons provided to Afghan 
        security forces;
  --Helped to strengthen aviation security through improved passenger 
        watch-list matching;
  --Developed a framework to help the Congress evaluate proposals for 
        revamping the U.S. financial regulatory system;
  --Helped to assess the implementation of TARP;
  --Informed the Congress about weaknesses in lender data that limit 
        regulators' ability to identify financial institutions at 
        higher risk of discriminatory lending practices.
    Strategic Goal 3.--Help transform the federal government's role and 
how it does business to meet 21st century challenges:
  --Helped to track how states and localities are using Recovery Act 
        funds;
  --Strengthened federal planning and preparedness efforts for the 
        influenza pandemic;
  --Helped DOD and the Department of Veterans Affairs better share 
        electronic health records;
  --Identified shortcomings in the Department of Homeland Security's 
        management of major acquisitions;
  --Tested the adequacy of the complaint intake process at the 
        Department of Labor's Wage and Hour Division;
  --Helped to reduce governmentwide improper payments;
  --Recommended ways to reduce tax noncompliance.
    Strategic Goal 4.--Maximize the value of GAO by being a model 
federal agency and a world-class professional services organization:
  --Mobilized staff quickly to conduct mandated oversight work and 
        ensure accountability of the federal assistance available 
        through the Recovery Act;
  --Contributed to enhancing the ability of the domestic accountability 
        community to prevent fraud, waste, and abuse of federal funds;
  --Helped enhance international accountability organizations' capacity 
        to implement strong professional standards by sponsoring 
        training and participating in international forums.
       appendix iii.--selected testimony issues, fiscal year 2009
    Goal 1.--Address Challenges to the Well-Being and Financial 
Security of the American People:
  --Auto industry bailout;
  --Nonprime home loans and rising foreclosures;
  --Pension Benefit Guaranty Corporation financial challenges;
  --Social Security Administration challenges with disability claims 
        processing;
  --Wildland fire management;
  --Mental health services for Hurricane Katrina's youngest victims;
  --Clean water trust fund;
  --Department of Veterans Affairs (VA) healthcare for women veterans;
  --Corporate crime and deferred prosecutions;
  --D.C. public school reform efforts;
  --Limiting United States Postal Service losses;
  --Reverse mortgages;
  --Crime victims' rights;
  --Federal Protective Service.
    Goal 2.--Respond to Changing Security Threats and the Challenges of 
Globalization:
  --U.S. strategies and plans in Iraq, Afghanistan, and Pakistan;
  --Reforming U.S. defense acquisitions;
  --Planning future army combat systems;
  --DOD's business transformation;
  --Financial regulators' oversight of large financial institutions;
  --Security and Exchange Commission enforcement resources;
  --TARP;
  --U.S. cybersecurity strategy;
  --Screening air cargo on passenger aircraft;
  --Post-Katrina Emergency Management Reform Act;
  --Climate change trade measures;
  --Small Business Administration Disaster Loan Program reforms.
    Goal 3.--Help Transform the Federal Government's Role and How It 
Does Business:
  --Recovery Act;
  --Influenza pandemic;
  --Health IT;
  --Management of DOD contractors;
  --Key National Aeronautics and Space Administration challenges;
  --U.S. government financial statements;
  --2010 Census preparations;
  --Improper federal payments to suspended businesses;
  --Offshore financial activity and tax enforcement;
  --VA and DOD electronic health records;
  --Illegal export of military technology.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF ROBERT C. TAPELLA, PUBLIC PRINTER
    Senator Nelson. Mr. Tapella.
    Mr. Tapella. Chairman Nelson, Senator Murkowski, and 
members of the subcommittee, thank you for inviting me here 
today to discuss GPO's appropriations request for fiscal year 
2011.
    I have submitted my prepared statement for the record, and 
I would just like to make a few brief remarks with your 
permission.
    I want to begin by thanking the subcommittee for your 
support for GPO's appropriations request last year, fiscal year 
2010. In addition to funding our congressional printing and 
documents distribution operations, these appropriated funds 
included working capital for critical IT projects, including 
our Federal Digital System, and Oracle financial system, as 
well as the initiation of our composition system replacement 
project.
    It also provided funds for the ongoing renovation of GPO's 
elevators, both passenger and freight. Your recommendation of 
these funds is deeply appreciated both by me and the 2,300 
employees at GPO.
    For fiscal year 2011, we are requesting a modest increase 
of 3 percent for our congressional printing and binding funds 
to cover projected volume requirements for a first session 
year. As you are aware, GPO does not control the amount of 
printing Congress requires. We simply fulfill your needs and 
use historical data to project workloads.
    For our Superintendent of Documents programs, we need to 
fund mandatory wage and price level requirements, ongoing 
projects supporting depository libraries, and operating 
expenses for the Federal Digital System that are attributable 
to this program. For this account, we have about $1.5 million 
available in prior year unspent funds that could be transferred 
forward with your approval. So we will be requesting your 
approval. That transfer would reduce our requirement for new 
funds to an increase of only 4 percent.
    For our revolving fund, we are seeking an addition to 
working capital that would cover a range of investments in IT, 
continuity of operations, facilities repair, and workforce 
retraining programs. As you know, our revolving fund was 
created in 1953, and Congress periodically has provided working 
capital to ensure the operation and maintenance of the 
Government Printing Office.
    In view of the state of the economy and the constraints on 
the Federal budget, we fully understand there are limitations 
on what this subcommittee can recommend. And so, I would like 
to briefly discuss our priorities. Chief among these is the 
need to continue the development of FDsys, our world-class 
content management system, as well as our project to replace 
the last of GPO's legacy automated systems with Oracle-based 
systems.
    Both of these investments are already yielding improvements 
in service and cost reductions. Our project to implement a 
digitally based advanced print technology at GPO, along with an 
automated workflow management system, is critical to achieving 
future economies in the production of congressional printing.
    As GPO's experience has shown perhaps better than any 
legislative branch agency, investments in technology made today 
will yield significant and lasting savings tomorrow. We have 
clearly shown that in the chart on page A2 of the budget 
justification submitted to this subcommittee, and the 
Congressional Research Service shared similar findings to 
Congress in a report last year.
    In addition to continuing repairs on our aging buildings, 
especially our elevators, ensuring the continuity of 
operations, or COOP, in support of congressional and other 
agency activities is an important priority. Recently, we 
brought a systematic approach to COOP planning, and we are 
working very closely with the House and Senate, as well as 
other entities like the Office of the Federal Register.
    Our focus is to prepare GPO to respond to a spectrum of 
emergencies from the purely local--such as severe weather, a 
power outage, or a fire--to the catastrophic. Though not 
specified as such in our original submission, I consider it a 
top priority among our COOP projects to complete the work on a 
full system failover capability for FDsys, a need that was 
accurately pointed out during the public hearings before the 
House Legislative Branch Appropriations Subcommittee in 
February.
    One final note. This is going to be another tough year for 
GPO, as it is for other agencies and businesses across America. 
We are continuing to cut costs and scale back expenditures to 
ensure we live within our budget.
    Last year, with your understanding and support, we finished 
on a sound financial basis, generating a modest net income 
before other operating expenses. We are targeting a similar 
financial performance this year--positive, but very modest.

                           PREPARED STATEMENT

    Chairman Nelson, Senator Murkowski, and members of the 
subcommittee, this concludes my remarks.
    Thank you.
    Senator Nelson. Thank you.
    [The statement follows:]
                Prepared Statement of Robert C. Tapella
    Chairman Nelson, Senator Murkowski, and Members of the Subcommittee 
on Legislative Branch Appropriations: It is an honor to be here today 
to discuss the appropriations request of the Government Printing Office 
(GPO) for fiscal year 2011.
                      results of fiscal year 2009
    Fiscal year 2009 began with a flood of activity associated with 
completing the necessary printing, binding, and related work supporting 
the impending transition of Administrations. For the Presidential 
inauguration, GPO completed a broad variety of printed materials, which 
for the first time included the production of secure credentials for 
law enforcement personnel involved with the event.
    We also issued the quadrennially popular ``Plum Book'', known 
officially as ``Policy and Supporting Positions'', which was printed on 
behalf of the Senate Committee on Homeland Security and Governmental 
Affairs. Following the inauguration, GPO printed the official portraits 
of President Obama and Vice President Biden for placement by the 
General Services Administration (GSA) in more than 7,000 Federal 
Government installations around the globe. Rounding out this effort, 
during the year GPO produced the Congressional Directory for the 111th 
Congress, issued by the Joint Committee on Printing, which includes a 
comprehensive directory to both the Senate and the House of 
Representatives as well as the officials of the incoming 
Administration.
    Throughout the year, GPO worked to fulfill its pledge of support 
for President Obama's Open Government Initiative. In February, we 
launched our Federal Digital System (FDsys, at www.fdsys.gov), a world-
class information management system developed to authenticate, 
preserve, and provide permanent public access to official Federal 
publications. We also offered a number of suggestions to the 
Administration to help implement the President's initiative, including 
providing public documents housed on FDsys in XML format to facilitate 
a greater range of user options. In partnership with the National 
Archives and Records Administration's Office of the Federal Register, 
we carried out this suggestion by offering the Federal Register in XML. 
By the year's end we were poised to follow up making the Code of 
Federal Regulations available in XML as well.
    In addition to migrating the databases housed on GPO Access to 
FDsys, GPO also worked with staff from the Library of Congress, the 
Secretary of the Senate, and the Clerk of the House to develop a report 
on bulk data downloads of legislative information, and during the year 
we worked toward a plan for digitizing printed documents within the 
Federal depository library collection for online public access.
    To fully support the commitment to environmental sustainability 
announced by the President and Congress, GPO is developing its future 
based on environmental sustainability. This means more than just going 
green: it means expanding our digital operations and making changes in 
paper, inks, equipment configurations, and energy sources so that we 
can support our customers in Congress, Federal agencies, and the public 
in a more efficient and environmentally responsible way.
    During the year, with the help of funding provided to the GSA 
through the American Recovery and Reinvestment Act, we upgraded GPO's 
vehicle fleet with more fuel efficient and environmentally friendly 
vehicles. With the approval of the Joint Committee on Printing, we 
increased the postconsumer waste content of the newsprint we use to 
print the Congressional Record and the Federal Register from 40 percent 
to 100 percent. We also began an evaluation of how digital printing 
technologies can help us meet our production requirements in the 21st 
century.
    GPO continued making progress in providing new options to meet the 
Government's secure credential needs. Along with the credentials 
supporting the Presidential inauguration, we designed, printed, 
encoded, personalized, and shipped more than 500,000 Trusted Traveler 
Program cards (NEXUS, SENTRI, and FAST) for the Department of Homeland 
Security's Customs and Border Protection, and developed additional 
cards to support the Western Hemisphere Travel Initiative, the Medicare 
program in Puerto Rico, and other Federal identification programs. Our 
smart card production operation is a rapidly growing segment of GPO's 
Secure and Intelligent Documents business unit, building on the 
expertise and capabilities we bring to our longstanding passport 
production operations.
    Historically, the events dominating Congress and the Administration 
are reflected in the work produced by GPO, and 2009 was no exception. 
During the year, GPO recorded the debates and printed the legislation 
resulting in the American Recovery and Reinvestment Act, as well as the 
documents associated with consideration of healthcare reform in the 
House and the Senate and the various appropriations bills and other 
business before Congress. We also completed production of the main 
edition of the U.S. Code. GPO worked through the year to produce the 
documents required for the upcoming decennial census, and also produced 
thousands of traveler cards providing information on the H1N1 (swine 
flu) virus on behalf of the Centers for Disease Control.
    To help the public find access to these and other documents, we 
created a new e-mail alert system that attracted thousands of 
subscribers, and we upgraded GPO's online Catalog of Government 
Publications to help users find documents in nearby depository 
libraries. We also carried on a longstanding GPO responsibility by 
updating and issuing a new edition of the GPO Style Manual, a 
publication that has served as a guide to the form and style of Federal 
printing for more than century.
    GPO's process improvement initiatives focused on obtaining 
certification under the International Organization for Standardization 
(ISO) 9001, a quality management system, and the implementation of 5S, 
a lean manufacturing program. ISO 9001 certification will ensure GPO's 
continued delivery of products and services that meet customer 
expectations, conserve agency resources, increase efficiency, reduce 
waste, and improve quality. The 5S program instills employee process 
ownership and communicates and maintains organization of workspaces.
    I'm pleased to report that the audit of our financial reports and 
systems for fiscal year 2009 conducted by KPMG LLP resulted in an 
``unqualified,'' or clean, opinion for GPO. We completed the year with 
a net income of $1.2 million on total revenues of $934.1 million, 
excluding Other Operating Expenses of $4.1 million for an adjustment to 
GPO's long term workers' compensation liability and $1.2 million for a 
capitalized software impairment loss.
    The change in business from the previous year was attributable 
primarily to a reduction in overall passport production operations. The 
adjustment to workers' compensation liability and the capitalized 
impairment loss did not place GPO in an anti-deficiency position or 
require additional appropriations, and the state of GPO's finances 
remains sound, particularly as the result of increased new business 
opportunities in the secure and intelligent documents arena and 
continuing efficiencies achieved as a result of the sustained 
transformation GPO has undergone over the past decade.
    GPO made substantial progress in 2009. By the end of the year, we 
began developing plans for the observance of our 150th anniversary, 
dating to the enactment of the congressional resolution of June 23, 
1860, which established the Government Printing Office, and to March 4, 
1861, the day we first opened for business. We look forward to 
celebrating a century and a half of accomplishment in the coming year.
                fiscal year 2011 appropriations request
    For fiscal year 2011, we are requesting a total of $166,560,000, 
which will enable us to:
  --meet projected requirements for GPO's congressional printing and 
        binding operations during fiscal year 2011 and recover the 
        shortfall in this account accumulated in fiscal year 2009 and 
        projected for fiscal year 2010;
  --fund the operation of GPO's Superintendent of Documents programs 
        and provide investment funds for necessary information 
        dissemination projects;
  --continue the development of FDsys and implement other improvements 
        to GPO's information technology infrastructure, perform 
        essential maintenance and repairs to our aging buildings, 
        undertake necessary continuity of operations (COOP) 
        initiatives, and provide funding for employee retraining and 
        workforce development.
                   congressional printing and binding

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2010 approved..............................     $93,768,000
Fiscal year 2011 request...............................      96,652,000
                                                        ----------------
      Change...........................................       2,884,000
                                                        ================
Change includes:
    Price level changes................................       4,192,000
    Volume changes.....................................      (2,844,000)
    Elimination of shortfall...........................       1,536,000
------------------------------------------------------------------------

    This appropriation pays for the printing and binding for Congress 
as authorized by Title 44, U.S.C., and related statutes. GPO produces 
the daily and permanent editions of the Congressional Record, bills, 
resolutions, amendments, hearings, committee reports, committee prints, 
documents, stationery, and a wide variety of other products, in both 
print and online formats, that are essential to the legislative process 
in Congress. GPO provides Congress with immediate, reliable service in 
a work environment under its direct control.
    For fiscal year 2011, we are requesting $96,652,000 for this 
account, representing an increase of $2,884,000 over the level approved 
for fiscal year 2010.
    Included in the increase is $1,536,000 to fund the shortfall in 
this appropriation accumulated in fiscal year 2009 and projected for 
fiscal year 2010. The shortfall occurred primarily due to increased 
volume for bills, resolutions, amendments, and hearings over our 
original estimates.
    The balance represents a combination of price level increases that 
are attributable primarily to existing wage contracts and projected 
cost increases for materials and supplies, as well as estimated volume 
changes in certain workload categories based on historical data for 
first session years.
    GPO projects an overall volume decrease due to projected workload 
decreases for the daily Congressional Record, business calendars, 
document envelopes and franks, and hearings. These decreases are offset 
in part by projected increased volume for miscellaneous printing and 
services, which will include funding for content management services 
provided for congressional documents maintained on FDsys; committee 
prints; miscellaneous publications including the Congressional 
Directory for the 112th Congress; bills, resolutions, and amendments; 
committee reports; details to Congress including funding for details to 
House committees; documents; and the Congressional Record Index.
        salaries and expenses of the superintendent of documents

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2010 approved...............................     $40,911,000
Fiscal year 2011 request................................      44,208,000
                                                         ---------------
      Change............................................       3,297,000
                                                         ===============
Change includes:
    Mandatory requirements..............................       1,452,000
    Investment requirements.............................       1,845,000
------------------------------------------------------------------------

    Under the relevant provisions of Title 44, U.S.C., GPO carries out 
its mission to Keep America Informed through the information 
dissemination programs of the Superintendent of Documents. These 
programs include the distribution of publications to approximately 
1,250 Federal depository libraries nationwide (averaging nearly 3 per 
congressional district), cataloging and indexing, distribution to 
recipients designated by law, and distribution to foreign libraries 
which provide the Library of Congress with copies of their official 
Government documents in exchange. In addition, GPO's Government 
documents Web site, GPO Access, and its successor, FDsys, provide free 
online access to nearly a quarter million titles, including the 
Congressional Record, the Federal Register, Supreme Court opinions, 
congressional bills and reports, and other publications, from both 
GPO's servers and links to servers in other Federal agencies.
    For fiscal year 2011, we are requesting $44,208,000 for this 
account, an increase of $3,297,000 over the level approved for fiscal 
year 2010. The increase is requested to cover mandatory pay and price 
level increases and continue improving public access to Government 
information in electronic formats.
    Of the total increase, $1,452,000 is for mandatory requirements, 
which include $715,000 for pay and price level changes and $737,000 for 
the level of overhead required to be distributed to Salaries and 
Expenses programs (the pay raise as submitted was calculated at an 
increase of 1.6 percent; an adjustment of this increase to 1.4 percent, 
the amount included in the President's budget, would result in a 
decrease of $26,000 from pay and price level changes).
    The increase includes $1,845,000 for continuing investment 
requirements. This includes $2,000,000 for FDsys annual operating costs 
attributable to Superintendent of Documents programs, offset by a 
reduction of $155,000 in the continued costs of specific projects 
supporting the Federal Depository Library Program and the Cataloging 
and Indexing program, including the modernization of legacy systems, 
expansion of cataloging and indexing services, establishment and 
utilization of outcomes-based performance measures for depository 
libraries, and funds supporting the digitization of historical print 
documents pending approval of a project for that purpose by the Joint 
Committee on Printing.
    GPO has the authority--with the approval of the Committees on 
Appropriations--to transfer forward the unexpended balances of prior 
year appropriations to the revolving fund, provided the funding is used 
to carry out the purposes for which it was originally appropriated. At 
this date there is approximately $1,500,000 remaining unexpended from 
the Salaries and Expenses Appropriation from fiscal year 2005. These 
funds could be transferred forward to offset part of the new funding 
requested for this account for fiscal year 2011.
                             revolving fund

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2010 approved..............................     $12,782,000
Fiscal year 2011 request...............................      25,700,000
                                                        ----------------
      Change...........................................      12,918,000
                                                        ================
Change includes:
    Investments in information technology..............        (782,000)
    Facilities maintenance and repair..................       6,250,000
    Continuity of operations (COOP)....................       4,200,000
    Workforce retraining...............................       3,250,000
------------------------------------------------------------------------

    All GPO activities are financed through a business-like revolving 
fund. The fund is used to pay all of GPO's costs in performing 
congressional and agency printing, printing procurement, and 
distribution activities. It is reimbursed from payments from customer 
agencies, sales to the public, and transfers from the Congressional 
Printing and Binding Appropriation and the Salaries and Expenses 
Appropriation of the Superintendent of Documents. The basic purpose of 
the revolving fund is to provide temporary financing for GPO operations 
pending the collection of funds for work performed. Whenever GPO has 
significant investment projects that require additional working 
capital, we seek appropriations to the revolving fund to cover the cost 
of those projects.
    For fiscal year 2011, we are requesting $25,700,000 for this 
account, to remain available until expended, to fund essential 
investments in information technology development, facilities 
maintenance and repair, COOP projects, and workforce retraining. This 
represents an increase of $12,918,000 over the level of funding 
provided for fiscal year 2010.
    The request includes $11,000,000 for information technology 
development. This is a decrease of $782,000 from the amount of funding 
provided for this purpose for fiscal year 2010. It includes $6,000,000 
to continue developing FDsys; $2,000,000 for our Advanced Print 
Technology project, which is reviewing the potential for increasing the 
use of digital printing and automated workflow technologies to meet 
congressional and agency printing needs; $1,500,000 to continue work 
with our project to replace GPO's aging automated composition system; 
and $1,500,000 to continue replacing GPO's legacy business systems with 
an integrated network of Oracle systems.
    We are requesting $7,250,000 for facilities repair and related 
projects, an increase of $6,250,000 over the amount provided for this 
purpose for fiscal year 2010. It includes $2,000,000 for continued 
elevator repairs; $2,000,000 initiate the process of relocating 
production operations from GPO's building 4 to the main GPO complex; 
$2,000,000 to begin the systematic upgrade of GPO's electrical, 
plumbing, and structural infrastructure; $1,000,000 for utility 
monitoring and controls to improve energy efficiency; and $250,000 to 
design and install a public exhibit in support of the observance of 
GPO's 150th anniversary in March 2011 and to serve as continuing 
exhibit space.
    We are requesting funding for COOP and workforce retraining 
projects for fiscal year 2011, and have submitted the necessary 
language changes for this purpose. For COOP, we are requesting 
$2,200,000 to locate and begin equipping a remote COOP operating and 
command center, pending approval by the Joint Committee on Printing, 
and $2,000,000 for an onsite generator at GPO to supply power to the 
data center supporting production of congressional and agency 
requirements.
    We are requesting $3,250,000 for several workforce retraining and 
development programs, including $1,000,000 for a Plant Operations 
Curriculum to build digital competencies; $500,000 for supervisor 
development; $500,000 for continuing education for basic skills 
development; $500,000 for certification programs in finance and 
accounting; $500,000 for a marketing curriculum; and $250,000 for a 
technology integration program for training needs assessments and the 
provision of specialized training to operators and users of business 
support technology programs.
    Chairman Nelson, Senator Murkowski, and Members of the 
Subcommittee, we look forward to working with you, and with your 
support we can continue GPO's record of achievement. This concludes my 
prepared statement, and I would be pleased to answer any questions the 
Subcommittee may have.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS W. ELMENDORF, Ph.D., DIRECTOR
    Senator Nelson. Dr. Elmendorf.
    Dr. Elmendorf. Thank you, Chairman Nelson, Senator 
Murkowski, and Senator Pryor. I appreciate the opportunity to 
testify today about the CBO's budget request for fiscal year 
2011.
    We are celebrating our 35th anniversary this year. It seems 
like a long time to us, although it pales next to my colleague 
from the Government Printing Office.
    This has been a very challenging congressional session for 
us. We have produced hundreds of written cost estimates and 
reports, had uncounted conversations with congressional staff 
about the analysis we are doing on proposed legislation and on 
the budget and economic challenges that face the country.

                        <greek-l>CBO deg.HEALTH

    In particular, as you know, and Senator Murkowski 
mentioned, we have devoted a vast amount of time and energy to 
analyzing alternative proposals for reforming the Nation's 
healthcare and health insurance systems. In all of that work, 
the people who are the Congressional Budget Office have 
enhanced CBO's reputation as a provider of analysis that is 
objective, insightful, timely, and clearly explained.
    For fiscal year 2011, we are requesting an appropriation of 
$47.3 million. I have brought along some pictures I think you 
have in front of you to put that request in the context of the 
past few years' appropriations.

                     <greek-l>CBO deg.SUPPLEMENTAL

    For fiscal year 2009, you appropriated $44.1 million to 
CBO. Last year, I came before you and requested $46.4 million. 
While that request was working its way through the 
appropriations process, certain Senators proposed a 
supplemental appropriation for CBO of $2 million. This was not 
our idea. It was intended to bolster our ability to complete 
health estimates rapidly, and the money was put to that 
purpose.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Because it came late in the fiscal year, we spent just 
$300,000 in fiscal year 2009 and are spending the remaining 
$1.7 million in fiscal year 2010. With this supplemental money 
on the table, our regular appropriation was cut back to $45.2 
million.
    We entirely understand that the supplemental should not be 
a mechanism for CBO to have a permanently higher level of 
appropriations. However, we are concerned that if this year's 
appropriation process begins from last year's regular 
appropriations amount, which was reduced in light of the 
supplemental, then CBO will end up with a permanently lower 
level of appropriations.
    For example, if our budget for fiscal year 2011 were set at 
last year's regular appropriations level of $45.2 million, we 
would need to cut our staff.
    To remove the distorting effect of the supplemental, our 
perspective on this year's request was to begin with our 
request to you last year. Relative to that request of $46.4 
million, this year's request of $47.3 million represents an 
increase of $900,000, or about 2 percent.
    Apart from the complications introduced by the 
supplemental, we view this year's request as the culmination of 
a multiyear plan presented to you 2 years ago to increase the 
size of the agency by roughly 10 percent. The goal, as my 
predecessor described it to you, was to enable CBO to better 
meet the needs of the Congress for analysis related to 
healthcare, financial issues, and other policy areas.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Indeed, that increase in staffing has been absolutely 
critical to our ability to provide sufficient analyses of these 
topics and others in the past couple of years. Our aim now in 
completing this plan is to increase our full-time equivalents 
(FTEs) from 254 to 258, roughly in line with the 259 that my 
predecessor suggested to you 2 years ago.
    One might wonder why we are not reducing our staff if a 
central rationale for the increase was the demand for analysis 
of health proposals and the current cycle of health reform 
efforts appears to have drawn to a close. One reason is that 
congressional demand for health analysis remains strong. We 
need to incorporate the recently enacted legislation in our 
baseline projections this summer and in all subsequent baseline 
projections.
    We also need to analyze proposed changes in the law, and we 
have already received such proposals from both sides of the 
aisle. The other reason that we cannot reduce our staff without 
hampering our ability to produce analysis is that we simply 
cannot maintain the quantity and the quality of analysis we 
have produced over the past year on an ongoing basis with the 
existing number of people.
    The extraordinary pressure and 7-day a week nearly around-
the-clock workload of the past year will soon drive good people 
away and diminish the effectiveness of those who stay. It 
really is a choice for us of having additional people or 
reducing the amount of output that we can provide on a year-to-
year basis.

                           PREPARED STATEMENT

    In closing, though, I would like to thank all of you for 
your strong support of CBO's work in the past. Your support of 
our budget request this year will help us to continue to meet 
our responsibilities to the Congress to the high standards that 
we and you expect.
    Senator Nelson. Thank you.
    Thank you very much.
    [The statement follows:]
               Prepared Statement of Douglas W. Elmendorf
    Mr. Chairman, Senator Murkowski, and Members of the Subcommittee, 
thank you for the opportunity to present the fiscal year 2011 budget 
request for the Congressional Budget Office (CBO).
    CBO's mission is to provide the Congress with timely, objective, 
nonpartisan analyses of the budget, the economy, and other policy 
issues and to furnish the information and cost estimates required for 
the Congressional budget process. In fulfilling that mission, CBO 
depends on a highly skilled workforce. Approximately 90 percent of the 
agency's appropriation is devoted to pay and benefits; the remaining 10 
percent is for information technology, equipment, supplies, and other 
services.
    The proposed budget for fiscal year 2011 totals $47,289,000, a $2.1 
million or 4.7 percent increase over CBO's regular appropriation for 
fiscal year 2010. CBO also received a supplemental appropriation in 
2009 that was intended to cover additional costs in both 2009 and 2010 
related to the analysis of healthcare legislation. After accounting for 
the portion of that supplemental appropriation that is being used in 
2010 (about $1.7 million), the 2011 request amounts to an increase of 
0.9 percent over CBO's total 2010 funding.
    The proposed $2.1 million increase in CBO's regular appropriation 
is the net of changes in three broad categories:
  --$2 million is for rising mandatory pay and related costs for 
        existing staff (including the costs of added staff funded 
        through the supplemental);
  --$0.7 million results from CBO's request to increase its number of 
        full-time-equivalent positions (FTEs) by 4, from 254 to 258; 
        and
  --$0.6 million is cut from nonpay expenditures, made possible 
        primarily because CBO will no longer be represented on, and 
        providing resources to, the Federal Accounting Standards 
        Advisory Board (FASAB).
                   growing demand for cbo's analyses
    The proposed increase in FTEs is the culmination of a multiyear 
plan to enable CBO to better meet the needs of the Congress for 
information and analyses related to healthcare and a broad range of 
other policy areas.
    Between fiscal year 2001 and fiscal year 2008, the number of FTEs 
at CBO averaged 230, and the number varied little from year to year. In 
2008, however, the agency became concerned that it did not have 
sufficient resources to analyze policy changes regarding the delivery 
and financing of healthcare, which were emerging as a critical issue in 
the Congress. In addition, the agency was providing an increasing 
number of testimonies and formal cost estimates and engaging in a 
growing amount of informal analyses for Congressional staff on a wide 
range of topics, so redirecting a significant number of positions 
toward analyzing healthcare did not seem feasible. Accordingly, CBO 
proposed to the Congress a multiyear plan to boost the size of the 
agency to 259 FTEs, an increase of a little more than 10 percent.
The First Phases of the FTE Increase
    The Congress approved the first phase of the proposed increase for 
fiscal year 2009, and CBO averaged 242 FTEs that year. Analysis of 
competing healthcare proposals absorbed a huge share of the agency's 
resources, and CBO analysts in that area have worked flat out for more 
than a year. At the same time, the financial crisis led to a jump in 
the Federal government's involvement in the financial sector (including 
the creation of the Troubled Asset Relief Program, the conservatorship 
of Fannie Mae and Freddie Mac, and expanded activities of the Federal 
Reserve and the Federal Deposit Insurance Corporation), which increased 
Congressional demand for pertinent analysis, budget projections, and 
cost estimates. Therefore, CBO proposed a further increase in staffing 
for 2010, and the fiscal year 2010 appropriation included an increase 
in funding sufficient to provide for 249 FTEs.
The 2009 Supplemental Appropriation
    The Congress later approved a 2-year supplemental appropriation 
totaling $2 million, which was designed to enhance CBO's ability to 
provide faster analysis of complex healthcare proposals. That 
supplemental funding covered 5 additional FTEs for 2010, bringing the 
total for this year to 254 FTEs. On the basis of staffing to date, CBO 
appears to be on track to have roughly 254 FTEs, on average, this year.
The Proposed FTE Increase for Fiscal Year 2011
    For fiscal year 2011, CBO is requesting funding to support 258 
FTEs, 4 more than are funded in fiscal year 2010. That level of 
staffing would essentially complete the multiyear increase that CBO 
proposed 2 years ago.
    In developing its request for 2011, CBO recognized that the current 
surge of demand for analysis of healthcare proposals would probably not 
be sustained. Taken by itself, that point might justify a reduction in 
the number of positions devoted to analyzing healthcare. However, the 
agency is actually requesting a small increase in the number of such 
positions--three FTEs. That request reflects two considerations--first, 
that considerable Congressional interest in analysis of healthcare 
issues is likely to persist, and second, that the almost round-the-
clock schedule maintained this past year by CBO's current staff cannot 
be maintained.
    Let me elaborate on those points. Now that comprehensive health 
legislation has been enacted, CBO will need to make regular budget 
projections for the new and expanded Federal healthcare programs, and 
it will need to estimate the budget costs and other consequences of 
contemplated changes to those programs. In addition, CBO will probably 
need to respond to Congressional interest in exploring other possible 
changes to the healthcare system. Continued large Federal budget 
deficits and the key role of rising Federal healthcare spending in 
boosting future deficits ensure that health issues will remain central 
to the Congress's deliberations.
    With the current staffing level, CBO cannot continue to produce the 
quantity of health analysis that it completed under the extraordinary 
pressure and almost round-the-clock, 7-day-a-week workload of the past 
year. That work schedule cannot be maintained if CBO is to retain the 
skilled and knowledgeable staff that have been working on health 
analyses. And even with the extraordinary effort of this group during 
the past year, the quantity of analysis that has been produced has not 
been sufficient to meet the needs of many Members of Congress.
    The additional staff CBO is requesting will go, in some 
combination, to the Budget Analysis Division and the Health and Human 
Resources Division. If the needs for health analysis permit, CBO might 
reallocate some analysts in the Health and Human Resources Division 
from work on healthcare to work on income security and education--an 
area in which CBO has fewer analysts than necessary to meet 
Congressional needs.
    The fourth additional FTE requested is for the Management, 
Business, and Information Services Division. That group includes 
information technology (IT) personnel, editors, Web personnel, 
financial managers, and others. As CBO has expanded its analytic staff 
in the past couple of years, the agency has added some staff in those 
support functions as well. The additional position would provide 
administrative support to enable senior members of the staff to focus 
more effectively on their core responsibilities.
         some details of cbo's fiscal year 2011 budget request
    In fiscal year 2011, CBO will continue to focus on its core 
functions of providing budgetary information to the Congress, including 
budget and economic outlook reports, cost estimates, mandate 
statements, and scorekeeping reports. CBO expects to continue its work 
on healthcare, government interventions in financial markets, and 
climate change--providing major policy studies on those topics and 
others--and to further improve its long-term analyses of legislative 
proposals for healthcare and Social Security through the continued 
development of budgetary and economic models.
    CBO's request would fund the following:
  --A workload of roughly 600 formal cost estimates (most of which 
        include both estimates of Federal costs of legislation and 
        assessments of the cost of mandates included in the legislation 
        that would affect state and local governments, Indian tribes, 
        or the private sector) and hundreds of informal estimates, 
        approximately 100 analytical reports, a variety of other 
        products, and a substantial schedule of Congressional 
        testimony;
  --A projected 7.3 percent, or $2.2 million, increase in base pay, of 
        which $0.5 million would support the four new FTEs and $1.7 
        million would support a combination of across-the-board 
        increases, promotions, performance bonuses, and merit increases 
        for current staff (the across-the-board increase is budgeted at 
        1.6 percent for staff earning a salary less than $100,000, 
        which is consistent with the pay adjustment requested by most 
        other legislative branch agencies);
  --A projected 4.8 percent, or $0.5 million, increase in the cost of 
        benefits, of which $0.2 million would go toward the four new 
        FTEs and $0.3 million would go toward current staff;
  --The replacement of obsolete office equipment, desktop computers, 
        and network servers, at $0.6 million--a decrease of $0.7 
        million, based on CBO's current replacement cycle;
  --The acquisition of commercial data necessary for CBO analyses and 
        studies, at $0.6 million--an increase of $0.5 million over the 
        2010 funding level (partially due to the fact that a portion of 
        the agency's current needs in this area are being met through 
        the 2-year supplemental appropriation provided in fiscal year 
        2009);
  --IT system development, at $0.3 million--the same amount as in 
        fiscal year 2010, based on anticipated requirements;
  --Essential software purchases, at $0.3 million--about the same sum 
        as in fiscal year 2010, based on anticipated requirements;
  --Telecommunications and telephone services, at $0.3 million--an 
        increase of roughly $50,000 to support expanded requirements;
  --Equipment maintenance, at $0.3 million--a little above the fiscal 
        year 2010 funding, based on current contracting data;
  --Temporary IT and clerical support, at $0.2 million--the same amount 
        as in fiscal year 2010;
  --Expert consulting, at $0.3 million--about the same funding as in 
        fiscal year 2010;
  --Purchases of office supplies and subscriptions, at $0.6 million--an 
        increase of roughly $70,000, primarily attributable to an 
        increase in costs for online subscriptions;
  --Financial management services, including support for auditing, 
        payroll, and financial systems, at $0.4 million--a small 
        increase from 2010, primarily because of anticipated price 
        hikes when renewing option-year contracts (I am pleased to 
        report that CBO received its sixth consecutive clean opinion in 
        the latest audit of its financial statements);
  --Office furniture and equipment, at $0.3 million--a slight decrease 
        from the fiscal year 2010 funding;
  --Travel, at $0.2 million--the same level as fiscal year 2010; and
  --Management and professional training, at $0.2 million--roughly the 
        same sum as in fiscal year 2010.
    Because CBO withdrew from the Federal Accounting Standards Advisory 
Board in fiscal year 2010, CBO's request incorporates a savings of $0.5 
million in support previously provided to that body.
    One further consideration in this request for funding for four 
additional FTEs is the capacity of CBO's assigned space in the Ford 
House Office Building. CBO currently has only a handful of unused 
offices, which must accommodate temporary workers (like contractors, 
auditors, and interns). During the past few years, CBO has created a 
number of additional offices by reconfiguring underutilized space, and 
the agency is currently undertaking further modifications in its 
configuration and utilization of space. As a result, a sufficient 
number of new workspaces can be created for all of the FTEs that CBO is 
requesting in this budget.
    In closing, I would like to thank the Committee for the support it 
has provided CBO, enabling the agency to carry out its responsibilities 
to provide information and analysis to the Congress as it grapples with 
the critical issues facing the nation.

                  <greek-l>GPO deg.FACILITIES REPAIRS

    Senator Nelson. Let me start with Mr. Tapella. Your request 
for revolving funds totals $25.7 million and includes 
everything from workforce retraining to building repairs. Are 
any of these items a matter of life and health and fire safety 
priorities that can't be put forward into another year?
    Mr. Tapella. I would say----
    Senator Nelson. Like the elevators in the past, yes.
    Mr. Tapella. What I would say is the continued elevator 
repair is a life and safety issue. GPO has 33 elevators, 31 in 
current operation. Several of them we have shut down over the 
years. We just reopened the first two from funding two cycles 
ago, and it is a serious issue.
    We manufacture on multiple levels. So the freight elevators 
moving congressional work up and down are important. And also, 
as we experienced this year, when we have an emergency 
situation, for example a medical emergency, being able to get 
personnel in and out of the building in a timely fashion is 
absolutely critical.
    And so I would put, in terms of the building projects, the 
elevator repair as our highest priority.

                  <greek-l>GPO deg.INCREASING REVENUES

    Senator Nelson. In terms of increasing revenues, what 
actions have you taken that would result in increasing 
revenues? In other words, getting paid for certain publications 
in the past that have perhaps been free or subsidized as to 
their costs, what actions have you been taking?
    Mr. Tapella. Our greatest area for revenue generation has 
been in our security and intelligent document business, which 
is where we produce the United States passports. We also 
produce the trusted traveler cards for Customs and Border 
Protection. We have made some significant investments in 
infrastructure and equipment for so-called ``smart cards'', and 
among other things, we produced the credential used by law 
enforcement officials for the 2009 inauguration. We are working 
right now with the Department of State to produce credentials 
for diplomats.
    We are working to try to get into the HSPD-12 business, 
which is the identification cards for Federal Government 
employees, and I see that as our greatest growth business. In 
fact, a small piece of it, we have also produced a credential 
for inspectors general in Government.
    I believe that credentials are something that are 
inherently governmental and belong in a Government-owned, 
Government-operated secure facility, and that is where we have 
been focusing. And we have been seeing great results.

             <greek-l>GAO deg.GAO'S REQUESTED FTE INCREASE

    Senator Nelson. Okay. Mr. Dodaro, can you explain why the 
fiscal year 2011 request includes 49 additional FTEs to 
maintain current staffing levels? I am not sure I understand 
why additional FTEs are necessary to maintain current staffing 
levels.
    Mr. Dodaro. My understanding is that we are requesting 
enough to keep our existing staffing onboard for our base 
request. We are not asking for additional support. Let me just 
clarify that with my team to make sure I give you the proper 
answer.
    Senator Nelson. Okay. Sure.
    Mr. Dodaro. The 49 FTEs are needed to annualize the hiring 
and attrition that will occur throughout the year. It is just 
for the people that we project to have onboard in fiscal year 
2010, to annualize their time through next year. It is not 
needed for additional people, Senator.
    Senator Nelson. So it is not a net increase of FTEs. It is 
what it takes to replace as you have turnover, and is that it?
    Mr. Dodaro. Yes. We have had a little less turnover than we 
had in the past this year due to the economy and the other 
issues, as I am sure you are aware of. But that is just to 
annualize those people that we will have onboard.
    Senator Nelson. Okay. So the attrition rate has declined as 
a result of the economy, and----
    Mr. Dodaro. Yes. And we have adjusted our hiring 
accordingly.

 <greek-l>GAO deg.GAO'S INVOLVEMENT WITH ADMINISTRATIVE ISSUES FACING 
                           THE CAPITOL POLICE

    Senator Nelson. Sure. Okay. And let me say that we 
appreciate your work for the subcommittee and helping us with 
your sister legislative branch agencies. For example, I know 
you have done extensive work on the challenges facing the 
Capitol Police, particularly in identifying weakness in the 
Capitol Police's financial management operations.
    What would you say from your standpoint is the biggest 
challenge facing the Capitol Police at the present time, and 
particularly in terms of the accounting issue that they have 
had?
    Mr. Dodaro. We are looking at that issue a little more 
carefully to identify exactly what the root causes of the 
problems are. There are budget formulation issues that we have 
identified in terms of how they prepare the budget, but there 
are also questions about how they execute and keep track of the 
budget and issues that have been raised by their financial 
auditors in the past.
    We are working with their inspector general very carefully. 
We are also going to be meeting with their financial auditors. 
We discussed this with the House Appropriations Committee, and 
I agreed that we would look at this and try to advise the 
Congress on exactly what to do.
    I am confident that over the next couple of months, we can 
figure out exactly what the root causes of the problems are. 
They will need to have the issues documented so they can get 
the proper procedures and controls in place. They also will 
need the proper people to execute those controls to make sure 
there aren't breakdowns again as they have had over this past 
year.
    I am committed to helping the police and you make sure that 
these issues are addressed.
    Senator Nelson. So you would conclude that it is 
essentially an accounting and process and procedures challenge 
that they face, rather than something that would be criminal 
activity?
    Mr. Dodaro. I am not aware of anything right now that would 
fall in that category. I mean, some of our early findings were 
that they had misclassified some things as benefits instead of 
salaries, and because of that, you didn't have the compounding 
of the salaries plus the benefits. And that accounted for some 
of it.
    But we are going to be looking more carefully at it, and if 
there are issues like that, obviously, we would pursue them 
with the inspector general over there. But so far, there is no 
indication of that type of activity.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And I will just be a little bit sarcastic here, but I think 
that we could have avoided some of these budget increases had 
we not been dealing with healthcare reform. Because you look at 
it, Mr. Tapella would not have had to be printing multi-
thousand pages bills. Dr. Elmendorf would not have to be 
staying up every single night, 7 days a week, analyzing this. 
And Mr. Dodaro would not be having to do the auditing. So I can 
help you with how we deal with the budget increases.
    Senator Nelson. Well, we learn from the past.
    Senator Murkowski. Yes, we do. Well, I think it was you, 
Mr. Dodaro, that said that you anticipate that you will have 
more on your plate in terms of the assessments, the analysis, 
whether it is ongoing with healthcare or what may come ahead 
with financial regulatory reform. I think, again, that is why 
we recognize the importance of all that they do within their 
respective offices.

                <greek-l>GAO deg.RECOVERY ACT OVERSIGHT

    Mr. Dodaro, let me ask you about the ARRA dollars that you 
received, recognizing that you got the $25 million to help 
offset this additional workload. Did I hear you correctly that 
that either has all been obligated or will be obligated by the 
end of this fiscal year? Is that correct?
    Mr. Dodaro. That is correct. So far, we have obligated 
about $14 million of the $25 million, and we expect to use the 
rest of the money throughout the year. We have also used some 
of our base appropriation.
    Senator Murkowski. Right.
    Mr. Dodaro. But, yes, that money expires, and we will have 
used it all.
    Senator Murkowski. So then with the $21.6 million that you 
are now requesting, do you believe that this is going to be 
sufficient to carry you through 2014, or do you see that there 
is going to be a need for an additional request to help you 
bridge that?
    Mr. Dodaro. Yes. The money we requested this year was for 
the 2011 budget cycle. We will probably need some additional 
bridge money later, given the fact that there is going to be 
money spent beyond fiscal year 2011. But we will have to see in 
terms of the spend-out rates.
    The estimates from CBO, which have been fairly reliable so 
far, are that the outlays for 2011 would be about $63 billion 
additional, and then from 2012 through 2019, another $60 
billion. I think most of that will occur in 2012.
    Senator Murkowski. Let me ask you then----
    Mr. Dodaro. Yes.
    Senator Murkowski [continuing]. Because it speaks to an 
issue that Dr. Elmendorf is dealing with in CBO. You want to 
make sure that these not necessarily one-time, but short-term 
dollars that you had received through ARRA are not going to be 
a permanent part of your base funding and your FTE level.
    So how can we ensure that that is not the direction that we 
are going? Because essentially, here you have got a couple of 
years going forward now with these increased levels. Does that 
then not become your base?
    Mr. Dodaro. We are not intending for that to happen, 
Senator. From the very beginning, what we have done is we have 
brought back some reemployed annuitants. We have had term 
appointments. So we have, from the beginning, structured it so 
that most of the people who we are bringing back to work on 
this are temporary people who will go away as the work goes 
away over time.
    That is why we segregated it in our budget submission. We 
wanted to be very transparent. We are not intending this as a 
backdoor way to increase the base for our appropriation.

                <greek-l>GAO deg.GAO'S OVERSEAS PRESENCE

    Senator Murkowski. Okay. Let me ask about the engagement 
support costs. I understand that you are working with the State 
Department to establish these field presences in Afghanistan, 
Iraq, and Pakistan. Will these be permanent presences in these 
countries then? And if so, what is that arrangement, and are 
you getting any contribution from the State Department with 
these particular engagement supports?
    Mr. Dodaro. They are not intended to be permanent. They 
will only be there during the buildup in Afghanistan, and the 
drawdown in Iraq. We have had three people on 6-month 
rotational assignments in Baghdad now for about a year or so. 
We are getting security support, obviously, from State 
Department and the Department of Defense (DOD). They have been 
very cooperative. We don't get any financial support.
    Senator Murkowski. But any money?
    Mr. Dodaro. No.
    Senator Murkowski. Should we, in your opinion?
    Mr. Dodaro. Well, it is really a policy issue. The Congress 
granted us authority to be reimbursed for our oversight of the 
TARP program. We have to be careful that we don't go too far in 
receiving financial support from agencies we audit, rather than 
funding from the Congress. This could compromise our 
independence.
    But in extraordinary circumstances we have received 
additional financial support. For example, now that aid will be 
going to Haiti. I am sure we will be asked to audit that 
assistance over the next few years. In the past, when we were 
auditing the recovery from Hurricane Mitch in Central America, 
we were given travel money separately in an appropriation from 
the State, Foreign Operations Appropriations Subcommittee.
    So sometimes we are given these special appropriations. I 
certainly would welcome your support in this regard because it 
is really intended to just provide a base. A lot of our travel 
is done because we need to go where the money is being spent, 
and we have had teams going back and forth to Iraq and 
Afghanistan for a while now.
    Senator Murkowski. Do you have any permanent presence in 
any of these countries where you are involved?
    Mr. Dodaro. No. Many years ago, we had offices in 
Frankfurt, and we based out of there. We also had an office in 
Honolulu to do the travel in Asia. But we don't anymore. We 
have consolidated, so we only have domestic locations.
    Senator Murkowski. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I want to thank all of you for all of your help last year 
because healthcare was a very, very tough strain on all the 
resources around here. So I want to thank all of you.
    And I know, Dr. Elmendorf, you were in the bull's eye for 
quite a bit of that process. So I just appreciate what 
everybody has done and everybody's team did to get us through 
that.

                       <greek-l>CBO deg.COMPUTERS

    Let me ask you, Dr. Elmendorf, if I can, about your 
computers. I don't know how accurate this is. But either on 
this subcommittee or just in conversations in the past, we have 
talked about maybe you have a computer system that maybe takes 
longer to do some of the calculations, and I know you do a lot 
of complex modeling and all that kind of thing.
    But tell me about your IT needs right now. Are you in good 
shape, or do you need to modernize what you have?
    Dr. Elmendorf. Senator, I think at this point, we are 
actually in good shape. We did buy faster computers last 
summer.
    Senator Pryor. And did that make a difference?
    Dr. Elmendorf. And that made a real difference. These very 
complicated proposals, we often would set a computer running 
overnight, and if we set it up--the program up wrong, we could 
not discover until the next day. And we shortened the time 
required for some of those estimates for a computer run very 
dramatically. So it made a real difference in what we did.
    We also, in the request that you approved for us beyond the 
supplemental, just the regular appropriations enabled us to 
catch up on what had been a large amount of deferred IT work. 
So we have replaced the entire network that we have, which had 
not been done for a number of years. And we have replaced a 
number of the machines on people's desktops.
    So, at this point, we think we are doing pretty well. And 
in fact, our request for IT support is coming near, for 
purchases of equipment is below what we are spending in fiscal 
year 2010.
    Senator Pryor. When you have technology improvements like 
you have had, does that help you in terms of your man-hours 
needed to do the various tasks that you are asked to do?
    Dr. Elmendorf. It doesn't--not really. It is not really a 
substitute for our staff. It is a complement. It is a tool that 
they use. Ninety percent of the CBO budget is staff. We luckily 
don't have some of the problems of the physical plant that the 
Government Printing Office does. Ninety percent of our budget 
is for staff, about 6 percent for IT, and 4 percent for 
everything else.
    So the computers don't really--that is what the people need 
to work with. I mean, it is better to have them working, not 
sitting, waiting for a program to finish. But the programs 
still sometimes finish in the middle of the night, and we have 
people get up and pass results on to somebody else in the 
middle of the night.

                       <greek-l>CBO deg.WORKLOAD

    Senator Pryor. Do you--I know last year, the last couple of 
years with healthcare reform have just been extraordinary in 
terms of your workload. Do you think you will go back down to 
kind of a pre-2009 workload, or do you think the Congress will 
continue to do complicated pieces of legislation, and they will 
continue to need more and more of your expertise and time?
    Dr. Elmendorf. I think it is unlikely that we will face a 
year again like this past year, and I can only express my 
gratitude for that.
    But, of course, once a program is in place, the Congress 
rarely leaves it alone. The passage of Medicare and Medicaid 
many years ago did not--CBO didn't exist at the time, but of 
course, much work has been done after that on those programs.
    The passage of the Children's Health Insurance Program 
(CHIP) did not end our work analyzing CHIP proposals. We hired 
people who became experts in that program, and we analyze a 
vast number of proposed changes to it. So this large new 
program that has been put in place will require us to do 
ongoing work in our baseline projections and also in analysis 
of proposed changes to it and some changes one might think of 
as additions and some changes that are being proposed in the 
public sphere at least at this point are taking away some of 
what is there.
    What exactly will happen, I don't--what will come to us in 
legislative terms, I don't know. But I expect a significant 
amount of ongoing work. In addition, for all of the health 
changes in that legislation, projected Federal health spending 
is very high and growing very rapidly, and the Federal budget 
deficit is large and projected to be large. The debt projected 
to grow rapidly, and the growth in Government health spending 
and the growth in the Federal debt are related phenomena, of 
course.
    So I expect even beyond analysis related to this 
legislation that was enacted to have a lot of congressional 
interest and a lot of work on our part in pursuing further 
changes that might be made in the Government's budgetary 
commitment to healthcare.

                <greek-l>CBO deg.FOREIGN NATIONAL HIRING

    Senator Pryor. Mr. Chairman, I had one last question for 
Dr. Elmendorf, if I could? And that is a little different track 
here. But in section 704 of the 2010 omnibus appropriations 
bill, there is a restriction on the hiring of foreign 
nationals. Can you tell me why that is detrimental to your 
agency?
    Dr. Elmendorf. About two-thirds of people getting Ph.D.s in 
economics in the United States today are foreign nationals. 
About 40 percent of CBO staff are economists, people with 
Ph.D.s in economics.
    Now, in a number of fields in economics, there are most of 
the job candidates, people we look to hire, are U.S. citizens. 
But there are some particular fields where the proportion of 
foreign nationals is especially high. And if you look at the 
CBO staff today, a good share of the people we have working on 
finance and in some areas of macroeconomics, especially when we 
try to model the effects of growing Federal debt on the economy 
and alternative policies for addressing that growing debt, a 
lot of the people we have now are foreign nationals.
    Now this legislation grandfathers existing employees. So it 
doesn't affect them. But as we try to hire people to work in 
those areas, not being able to hire foreign nationals 
significantly restricts the pool of people we can look to and 
hampers our ability to hire the very best available people.
    And before this change was made, we, and other parts of the 
Government, were able to hire foreign nationals not from every 
country, but from a significant set of countries, essentially 
those with whom the United States has a defense agreement. So 
there were certain limitations, but the pool was large enough 
that we could do the hiring we thought we needed. And this 
restriction really does hamper our ability to maintain the 
highest-quality staff in some of those very critical areas for 
us.
    Senator Pryor. Thank you.
    Dr. Elmendorf. Thank you, Senator.
    Senator Nelson. Thank you, Senator Pryor.

                    <greek-l>CBO deg.SHIFT RESOURCES

    Dr. Elmendorf, in addition to hiring or besides hiring 
additional FTEs and the faster computers, has there been any 
other--have there been other efforts to try to shift internally 
resources within your agency where you get better results with 
lower costs?
    Dr. Elmendorf. So, Senator, we work very hard to try to 
move resources to where the greatest need is and not to just 
stay stuck in existing patterns of spending or resource 
allocation. And in fact, over the past few years, more of the 
existing slots for staff at CBO have moved in the health 
direction, anticipating demands in that area.
    I think our ability to do that, though, is limited by the 
demands of Congress in other areas. Over the past--during this 
congressional session, the past year and a quarter, we released 
more than 600 formal cost estimates, which only a few are 
actually in health. Much of the work that we did was informal 
developmental work. So most of that, those estimates are in 
other areas.
    With the Government's increasing involvement in the 
financial sector, we have, over the past few years, devoted 
additional resources so we can provide you with appropriately 
high-quality estimates of the effects of TARP, of the effects 
of the Government's conservatorship of Fannie Mae and Freddie 
Mac, of the greater demands on the Federal Deposit Insurance 
Corporation (FDIC), the Federal Reserve, other aspects in which 
the Government is engaged in the financial system.
    Congress is considering very important changes in climate 
and energy policy. We have a large group of people who have 
been devoted to analyzing various different approaches that 
have been proposed. They are dealing with a set of energy 
problems and climate problems. And we are being asked to do 
increasingly sophisticated analysis of the effects of those 
sorts of proposals in terms of their effect on overall economic 
output, the effect on the well-being of households in different 
parts of the country, different income levels, and different 
years.
    So we feel that we are pressed on a whole range of fronts, 
on national security work that we do. I promise you, Senator, 
there is nobody at CBO who is just sitting and waiting for 
something to come across their desks. We take very seriously 
the stewardship of the resources that you provided to us.

         <greek-l>GAO deg.GAO HIRING FOR RECOVERY ACT OVERSIGHT

    Senator Nelson. Mr. Dodaro, how many people have you hired 
using the stimulus funding, the special additional funding to 
deal with the ARRA expenditures?
    Mr. Dodaro. We have hired about 70 people as term employees 
and reemployed annuitants. We have tried to hire people who are 
living in some of the States that we are auditing in order to 
reduce our expenditures even further, and make the money go 
further.
    We then increased our normal hiring by about 70 people with 
the belief, and we still believe this, that we will be able to 
absorb them through normal attrition over time. We also used 
some additional people within GAO because we had to get started 
right away. As soon as the act was passed our first report was 
due 2 months after the law was passed, and so, we redeployed 
some of our people. So collectively there is the equivalent of 
144 FTEs that were charged to this account, but the number of 
people that we hired was about 70.
    Senator Nelson. In recognizing that after these initial 2 
years, the actual amount of money that will be going out is 
reduced significantly, as you point out. It is still a 
significant amount of money, but as a percentage, it drops. 
What would you estimate your hiring needs or your staffing 
needs for, let us say in terms of numbers of people, FTEs, in 
fiscal year 2011 and fiscal year 2012?
    Mr. Dodaro. We have proposed 144 FTEs during that period of 
time. I think that would be the appropriate level for fiscal 
years 2011 and 2012. After that, I think we can clearly phase 
down because there will be fewer programs at that point in 
time, and the money is spread out over a number of years.
    What I am concerned about, Senator, is the fact that States 
are under a lot of fiscal stress at this point, and we have 
seen them cut back in the management of the programs and also 
their auditing capacities over a period of time. For instance, 
the weatherization program is almost quadrupling the amount of 
money that would be spent there. There are new programs that 
are getting started. We have urged the OMB to use their power 
to require better audits of money through the single audit 
approach that is used over Federal programs.
    But I am just concerned that a lot more money is flowing 
directly to the localities. And so, the States need to have the 
ability to track these funds. We have made a lot of 
recommendations to the Federal agencies that they monitor the 
use of the money at sub-recipients and sub-award levels. And 
so, I think the risk is there.
    States, as well as the Federal departments and agencies, 
are going to remain under fiscal stress collectively for the 
next couple of years. I think that attention needs to be paid 
to this money to make sure it really achieves the desired 
effect and is used appropriately. And so, I take that 
responsibility very seriously, and that is why we are asking 
for these resources and help.

     <greek-l>GAO deg.STATES' ABILITY TO MANAGE RECOVERY ACT FUNDS

    Senator Nelson. And I would agree with you on that as well. 
Have you had or found many instances where the State thus far 
wasn't managing or supervising the delivery of the funds and 
programs that were under their control?
    Mr. Dodaro. I have been pleased early on that they have 
taken it seriously and responsively. But a lot of the monies in 
the early years are being delivered through existing programs 
such as the Medicaid program. They have rules and procedures in 
place. The highway programs have well-established procedures. 
And so, in the first couple of years, given the fact that the 
money is going through existing programs, it hasn't proven to 
be yet as stressful as it will be in the coming years.
    Now, that being said, when we find occasions where things 
are going to ineligible recipients or there are ways the States 
could tighten up their programs, we are giving them 
suggestions. We also created a special hotline where any 
citizen can call in with complaints or allegations of fraud. We 
are currently following up on about a dozen of those examples. 
We have referred many others to the inspectors general.
    We are looking at contracts both at the Federal level and 
at the State level. We are looking at whether or not the 
reporting coming back is accurate. I mean, this is a huge, 
decentralized set of programs and activities throughout the 
country. And so, I think our presence there also has had a 
deterrent effect to some extent because the States know that we 
are there.
    We picked 16 States and the District of Columbia. They are 
going to receive two-thirds of the amount of money, and we 
announced to them we were going to be there for 2 or 3 years 
while the money was being spent. So they know we are there, and 
we have got good cooperation. I am pleased with that. But we 
need to keep a wary eye on the expenditures, and that is what 
you fund us to do.
    Senator Nelson. I appreciate that.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                      <greek-l>CBO deg.FLAT BUDGET

    Dr. Elmendorf, I would like to go back to you. Your 
increase here is primarily for salaries and benefits. Six-
point-five percent of it is for that. The balance then is for 
other nonpay-related expenses and information technology that 
we have talked about here.
    The question is if we were to move toward a flat budget 
from last year, how do you do that? Because you clearly need 
the employees. You have already trimmed the funding level for 
the nonpay and related expenses. Tell me what your operations 
look like if we go flat funding.
    Dr. Elmendorf. So can I ask back first, flat relative to 
just the regular appropriations or flat----
    Senator Murkowski. Well, that was how you started at your 
opening statement.
    Dr. Elmendorf. It makes, as you know, it makes a 
significant difference.
    Senator Murkowski. Sure, it does.
    Dr. Elmendorf. If you fund us at our regular, the same 
level as the regular appropriations from last year, then we 
would reduce staff. We have hired people using some of the 
supplemental money, and we would not, I think, have to lay them 
off. There is attrition at CBO. But we would end up reducing, 
taking those slots back, and we would go back to a level that 
was below the level we have today.
    And we would set priorities in our work, and we do that 
now. Of course, in the health reform process for all of the 
work, I had an awful lot of angry phone calls from your 
colleagues asking why we couldn't do their--analyze their 
proposal, and they were right to be unhappy about that. And I 
kept telling them we were doing the best that we could.
    So it is always a matter of prioritizing, but the 
constraints, of course, get much tighter if we end up going 
backward in the number of people that we have.
    Senator Murkowski. So would you lose four? Is that what you 
would anticipate? Because that is what you are asking for in 
this----
    Dr. Elmendorf. So I think we have hired five. I think we 
have hired five people. I think that supplemental, with the 
part of supplemental devoted to personnel amounted to five 
additional FTEs. So we would go backward by five FTEs from 
where we are now. That would be nine FTEs below where we would 
be if you funded our full request.
    Senator Murkowski. I see. Okay, I understand that. Thank 
you.

               <greek-l>GPO deg.REVOLVING FUND PRIORITIES

    The chairman asked you, Mr. Tapella, about the revolving 
fund and if there were any projects on here that are life/
safety, and you discussed a little bit about the elevator. 
Recognizing that this funding request represents over 100 
percent increase over the fiscal year 2010 enacted level, you 
have got 17 projects. Some I am assuming are ongoing, some 
perhaps are new.
    If you were held to the fiscal year 2010 level of $12.8 
million for the revolving fund, how do you prioritize this list 
of projects? Because you kind of got off easy on the last one, 
talking about the elevator.
    And I am sure that we have got to have those elevators 
working to move those documents up and down. But how would you 
make this a prioritization?
    Mr. Tapella. I would look at our total budget request and 
not look at the individual ones the way that we have them 
segregated into the three accounts.
    And so, looking at that, I would request full funding for 
congressional printing and binding. For salaries and expenses 
of the Superintendent of Documents, I would request full 
funding less the $26,000 adjustment because we used the 
original rate of 1.6 percent for the mandatory pay increases, 
and the President announced 1.4 percent. That is roughly 
$26,000 that we could reduce. And if we can, with your 
permission, move forward the prior year funds of $1.5 million, 
we basically request a reduction of $1.526 million from the S&E 
appropriation.
    When we go to the revolving fund, flat funding would 
provide $8.127 million. With that, as I look at our priorities, 
I would request roughly $5.127 million for FDsys development, 
$1 million for our advanced printing technology initiative, $1 
million for COOP, and $1 million for the continued repairs of 
elevators because that is a life and safety issue.

            <greek-l>GPO deg.NEW VERSUS CONTINUING PROJECTS

    Senator Murkowski. Are there any new projects that are on 
this list? And I really appreciate what you have just run down 
there because you were really able to give some definition 
there. Are most of these ongoing, or do you have some new that 
we can look to at a later point in time?
    Mr. Tapella. When you look at the Government Printing 
Office's appropriation for fiscal year 2010, at $147 million, 
that represents roughly 12 percent of our gross revenue. The 
remainder we receive from the executive and judicial branches 
as reimbursement for the products and services we provide to 
them, as well as the general public through GPO's publications 
sales.
    When we fund initiatives, typically the revolving fund is 
paying for a portion of it, if it is a congressional 
appropriation, and then the remainder coming out of our 
retained earnings. Last year our retained earnings were $1.234 
million, very, very slim. The prior year, it was in the $30 
million range, which means that our ability to self-generate 
investment capital has gone down considerably.
    For the Federal Digital System, to date, roughly two-thirds 
of the spending has come from appropriations, primarily from 
unspent appropriations that were moved forward from previous 
years. The remainder came out of our revolving fund from 
retained earnings from all of GPO's operations.
    The advanced printing technology assessment is new. 
However, GPO has always had continuous improvement in our 
technologies, whether we funded them from the revolving fund or 
asked for direct appropriations. And so, while that is a new 
initiative, I think it is absolutely critical if we want to 
continue driving the costs out of our congressional printing 
budget moving forward.
    Up to this point, GPO has funded COOP through our revolving 
fund. We have significantly stepped up our COOP efforts. This 
past year has been a very rough year for GPO. We have had three 
fires, which we had to deal with, and we had a power outage in 
our data center, which threw off production by nearly a full 
day.
    And that affected Congress. It particularly affected the 
House of Representatives because we were many, many hours late 
with the Congressional Record. And so, when you ask the 
question about new versus old, I don't think it works the same 
way as it does when Congress completely funds an initiative 
fully with appropriations.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Nelson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.

             <greek-l>GPO deg.ENVIRONMENTAL SUSTAINABILITY

    I would like to start with you, Mr. Tapella, about the GPO 
and a little bit on the money, but also just on your policy. 
And I am curious about what your agency is doing to support 
environmental sustainability? Because it seems to me that you 
have a lot of opportunities there with the volume of paper that 
you are using, the types of ink, the energy required to do all 
the printing, the recycling.
    The fact that a lot of this is available online now, and 
you may not have to print as many copies, like you did in the 
old days. Your vehicles, building modifications, you have an 
old building. I mean, do we need to talk about the HVAC system 
there? Do we need to do like an energy contract there to try to 
save some money through that?
    So could you give us just a few minutes on what you have 
got going on your environmental sustainability side?
    Mr. Tapella. Thank you for the question, Senator Pryor.
    Sustainable environmental stewardship has been one of my 
top priorities since becoming Public Printer in October 2007. 
And this past year, GPO made history by working with the Clerk 
of the House and the Secretary of the Senate, as well as the 
Speaker and Majority Leader, to increase the amount of recycled 
fiber in the newsprint used to produce the Congressional Record 
to 100 percent. And that was significant.
    We are also now working on looking for more sustainable 
copier papers, seeing what we can have available. When it comes 
to Congress and the letterhead we can make available for 
Congress to use, it can be 100 percent recycled. It is a 
combination of rag, plus pulp, and that is new this coming 
year.
    When we look at, for example, other items----
    Senator Pryor. I don't want to interrupt you on that, but--
--
    Mr. Tapella. Yes?
    Senator Pryor [continuing]. As you are going through this, 
give us a sense of--I know all that is good for the 
environment, but does that also save money to do that, or is it 
more expensive to do that? Or give us a sense of how that 
works, too.
    Mr. Tapella. Okay. When it comes to the Congressional 
Record, we were able to negotiate the exact same price for the 
paper that had been 40 percent recycled for what is now 100 
percent recycled newsprint. So that does not cost Congress any 
more.
    When it comes to the one-star, I think it went up just 
marginally, but not much. I would call it a relatively 
insignificant amount.

              <greek-l>GPO deg.SUSTAINABILITY ACHIEVEMENTS

    Some of the areas where we are seeing significant success 
is in the area of recycling. GPO has been recycling since 1861, 
when we opened our doors for business.
    When we look at diverting waste that would ordinarily go to 
the landfill, back in fiscal year 2008, my first full year as 
Public Printer, we were able to divert roughly 65 percent of 
the waste from GPO from going to the landfill. This past year, 
we were able to divert 87.5 percent of the waste leaving GPO, 
right down to the desks. Old wood desks are now ending up in 
Maryland and are being converted to mulch.
    We have seen a reduction in volatile organic compounds, and 
that has to do with some changes we have made in the solvents 
we are using on our presses. We have removed all of our 
underground storage tanks, and we had fuel under there as well 
as solvent, and those have been removed.
    The Environmental Protection Agency has lowered GPO status 
from being a large quantity producer of hazardous waste to a 
small quantity producer of hazardous waste. In fact, even 
though we are a 1.5 million square foot factory, probably the 
13th largest printing house in the world, we are producing less 
hazardous waste than the typical mom-and-pop shop on the 
corner. And I am very, very pleased about that.
    I want to thank the subcommittee for some of the funding 
for our new roof. We have replaced the majority of the roof on 
GPO, all of the flat portions of the roof. It doesn't cover 
elevators and a few appendages to GPO, but roughly 100,000 
square feet are new, and that is a new biomass roof that is 
white. It is reflective.
    It will not only have twice the life expectancy of a 
standard roof, but it also will reduce our energy consumption. 
And so, those are some of our sustainability achievements.
    We have over 40 vehicles in our fleet, which includes 
trucks, vans, and cars. Thanks to funding provided to the 
General Services Administration, we were able to replace 21 of 
our vehicles. Eighteen of them are Flex Fuel E-85, and 2 of 
them are hybrid. These are what we use to make deliveries to 
and from the Hill.
    That was at no cost to us. It was funded through the 
Reinvestment Act, and I am sorry I can't get the name correct. 
But we were able to take advantage of that.
    Senator Pryor. So it sounds like a lot of that will save 
the taxpayers money, if not in the first year, but in the out-
years you will save?
    Mr. Tapella. Absolutely. I have appointed an executive to 
be in charge of sustainable environmental stewardship at GPO, 
and everything we are doing we are looking at the return on 
investment. We are typically looking for a less than 5-year 
return on investment in any investment we make when it comes to 
sustainability.
    With the Federal Digital System, when we bought the servers 
for it, instead of the standard 80-watt processor servers, we 
used 50-watt processor servers to significantly reduce energy 
consumption without losing any of its capacity.
    Senator Pryor. All right. Good.
    Well, I am glad I asked that question then because you have 
a lot going on there, and it is good for us to be aware of 
that.

                 <greek-l>GAO deg.GAO'S DIVERSITY PLAN

    Mr. Dodaro, I do have a question for you about diversity 
there in your office, in your agency. And I guess I would like 
to ask all three if you have a diversity plan, but specifically 
for you, I would like to know how your efforts at diversity are 
going?
    Mr. Dodaro. We are very committed to diversity at the GAO. 
Right now, 30 percent of our workforce are minorities. Women in 
our workforce are approaching 60 percent of the workforce. We 
have produced a diversity plan over the last 2 years which has 
goals that we set for ourselves in terms of focusing in on 
additional training.
    Right now, most of the workforce at the GAO either equals 
or exceeds the relevant labor force numbers in those areas. We 
need to increase the number of Hispanics that we have in the 
organization, particularly in the administrative areas, but 
also throughout the rest of the organization. We are focused on 
that. We are focused on people with disabilities as well. We 
just entered into an agreement with the Library of Congress to 
use some of their facilities for testing out devices to help 
people who are disabled to go forward. I am personally 
committed to it. I am very committed to it. I think the effort 
is going well.
    We created a diversity advisory council at GAO that has 
representatives from all the different employee groups. We are 
working very well with our union on collective bargaining 
agreements. We have an employee advisory council for people who 
aren't in the bargaining unit within GAO. We are making 
headway.
    We have hired trainers and have developed diversity 
training programs that will become an integral part of our 
training curriculum at the GAO. I think it is very important 
for us to be reflective of the society of the American people, 
and their elected representatives and so I think we are doing 
well. But like everything else, you have got to keep working at 
it, and we intend to do so.
    Senator Pryor. And are you seeing your management workforce 
becoming more diverse as well?
    Mr. Dodaro. Oh, definitely.
    Senator Pryor. Now I would like to hear from the other two 
as well, but since I have way exceeded my time, maybe we could 
just submit those for our review. But I would like to see that.
    Thank you.
    Dr. Elmendorf. Yes, Senator, we will do that.
    Senator Nelson. Thank you, Senator Pryor.

              <greek-l>GAO deg.GAO LABOR RELATIONS AND PAY

    Mr. Dodaro, I understand that the GAO and the union 
recently reached an agreement on fiscal year 2010 performance-
based pay increases. How will this agreement affect the 
performance-based pay increases already awarded to, let us say, 
the non-union workforce within the agency?
    Mr. Dodaro. We have a commitment that everybody is treated 
equally. So we are going to adjust the pay increases of the 
people in the nonbargaining unit to be the same as the people 
in the bargaining unit. It is important to be equitable, to be 
fair to all our employees, and we are committed to that.
    Senator Nelson. What impact will that have on your budget?
    Mr. Dodaro. According to the agreement, some of the costs, 
such as permanent pay increases will roll forward to the budget 
for fiscal year 2011. And a lot will depend on what the 
Congress and the President agree for the across-the-board 
increase for fiscal year 2011. Part of the issue is not only 
what we carry forward, it is what we are going to be obligated 
to give by law next year in the 2011 budget.
    So a very important principal that we had in the union 
negotiations was to not carry forward more cost than need be to 
get an agreement, and we achieved that goal.
    Senator Nelson. And as you say, that will apply equally to 
those who are outside the union, as well as those in the union?
    Mr. Dodaro. Yes.
    Senator Nelson. And will depend on what the budget of 2011 
truly applies to?
    Mr. Dodaro. Yes. In terms of what the pay increase will be 
for next year. In our budget submission we are assuming a 1.4 
percent across-the-board increase and then some other 
incremental increase for performance on top of that. But the 
across-the-board figure will be determined by the Congress and 
the President, and that was what was assumed in the budget.
    For next year we have got to pay 9 months of the cost of 
the across-the-board increase. And by law, we have to give the 
same across-the-board increase to our employees as is set for 
the executive branch, which will be a compounding factor. That 
is why in terms of your questions about a flat budget for next 
year, a lot of that would have to be absorbed in addition to 
carrying the costs forward from employees.
    In an organization like ours where 80 percent of our costs 
are people costs, a flat budget would have an impact in terms 
of hiring. We would have to scale back our hiring dramatically. 
We would have to release all of our temporary employees and 
even consider some furlough days next year if we were flat-
lined.

               <greek-l>GPO deg.GPO'S PERFORMANCE SYSTEM

    Senator Nelson. Mr. Tapella, how would it affect you? I 
mean, I don't know that you have the same union issue, but do 
you have any performance-based plans in place that you have to 
account for as well?
    Mr. Tapella. We do have performance plans in place. Do I 
understand the question correctly in terms of the flat-lining 
of the budget?
    Senator Nelson. Yes.
    Mr. Tapella. The only program that is funded directly with 
appropriations is our salaries and expenses appropriation of 
the Superintendent of Documents. We have a few vacancies there. 
So any reduction we would basically have to flat-line and not 
allow hires in that area.
    The rest of GPO is covered under the revolving fund. So we 
can manage it appropriately.
    Senator Nelson. Dr. Elmendorf.

                     <greek-l>CBO deg.PAY INCREASE

    Dr. Elmendorf. Senator, CBO employees who are paid less 
than $100,000 a year receive an across-the-board increase and 
potentially also merit-based increases. Employees above that 
level receive only merit-based increases. We believe very 
strongly in rewarding the performance of the top performers the 
most. And people who are not--luckily, at CBO, we have a 
terrific group of people. But people who, for some reason or 
other, do not perform don't receive increases.
    I think it is vitally important for us to continue to 
reward the people who are putting their hearts into this work. 
When we are hiring people, we are competing, of course, with 
other potential employers. We try very hard to keep CBO as a 
desirable place to work. I think we, in fact, won an award for 
being the third best small agency to work for, and the work is 
very exciting and important.
    But at some point, people do take account of what they are 
getting paid. The starting salaries for new Ph.D.s in 
economics--again, Ph.D.s in economics represent about 40 
percent of our workforce. The starting salaries on average in 
the country for that group has increased 5.7 percent per year 
for the last 4 years. Our salaries have not increased at that 
rate.
    So we are losing ground as it stands, and we lose people to 
other--to the private sector or to universities. We just lost a 
terrific person to the IMF, International Monetary Fund, where 
she is being paid a substantially higher salary. So I think we 
could not maintain the quality of our work without maintaining 
the quality of our people, and that requires not falling too 
far behind too quickly what they can get paid other places.
    Senator Nelson. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I think that is an important consideration for us. And it 
is difficult at a time when we are trying to crank in on the 
budget and expenditures. But I think we realize that we are 
asking an awful lot from these professionals, and you could 
probably work some better hours out in the private sector there 
and probably make comparable or well beyond.
    So I think that is important for us, and I think that is 
one of the issues that we are seeing with the reality that we 
are facing or that we are hiring as many foreign nationals as 
we are. We can't keep our own here.
    Mr. Tapella, I have one last question, and this is as it 
relates to the Federal Digital System, the FEDsys. I don't know 
what they call it, FEDsys or FDsys, just to understand a little 
bit more about what you are doing with this digital repository 
for all Federal documents.
    With the $6 million that is requested now, will this get 
this system up and running? Where are we in understanding what 
it is going to cost us to maintain on an annual basis? Do we 
have all the technology in place to capture all that we are 
looking to with this system? Just give me an assessment of the 
readiness of this digital system.

                <greek-l>GPO deg.FEDERAL DIGITAL SYSTEM

    Mr. Tapella. I call it FDsys, other people call it FEDsys.
    Senator Murkowski. Okay.
    Mr. Tapella. We launched it this past year. So it has been 
in operation now for more than 1 year. We are doing it in 
phases. We have release 1, release 2, and then we will have 
some future releases beyond that. And as much as my inspector 
general hates the idea of it, we actually don't believe that 
FDsys will ever be done.
    When you have an electronic system that you are going to 
use as a system of record, you need to always keep it current 
and flush. As we look at technology, for example, who uses a 
floppy disk anymore? The same thing is true as we build the 
Federal Digital System. And we are building it with technology 
that can regularly be refreshed as technology changes.
    The funding that we are looking at right now for this year 
will just about what we call ``finish'' the Federal Digital 
System. We will still need one more infusion after that. The 
total cost would be $49 million we believe to ``finish the 
system,'' which is release 1, release 2, and will allow us the 
ability to submit, as well as the output.
    There are other things that we could be doing with the 
Federal Digital System, such as digitization, bringing in more 
content, and making certain that the search capabilities 
continue to improve. The Federal Digital System is replacing 
GPO Access, which was built in 1993. That was viewed as a 
closed system, and nobody thought about what would happen when 
you need to do technology refreshes. We have actually built 
that into our design map for the Federal Digital System.
    Senator Murkowski. So we have got the technologies now, but 
the technologies tomorrow may be changing is what you are 
saying. So we have got to stay on top and current with----
    Mr. Tapella. Correct. We believe that we must stay on top 
and current as we move forward with the Federal Digital System. 
And it is one of the greatest concerns I know that is facing 
many in the library community, and obviously, one of our 
programs is the Federal Depository Library Program. We know 
today that a book will last 500 years if it is properly cared 
for. What happens to electronic systems?
    And so, we have purposely built the system to make certain 
that it will never die. We have the responsibility under title 
44 to make certain that the documents of our democracy are made 
widely available to the public and kept in perpetuity. That is 
the reason why I don't believe the system will ever ``be 
done.'' However, we have designed it in such a way that we can, 
with each release, declare success.
    Senator Murkowski. Thank you, Mr. Chairman.
    That is all the questions that I have.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Nelson. I believe I have asked all the questions 
that I had wanted to ask. And so, I want to thank you for being 
here today, for your continuing service to the many taxpayers 
who support our Government and to our colleagues as you support 
them as well.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
                 Questions Submitted to Gene L. Dodaro
               Questions Submitted by Senator Ben Nelson
                        fiscal year 2011 request
    Question. Mr. Dodaro, I have made it clear that I intend to hold 
the Legislative Branch to fiscal year 2010 levels in fiscal year 2011. 
What will be the effect of a flat funding rate on the operations of 
GAO?
    Answer. A flat funding rate would significantly impair GAO's 
ability to serve the Congress on the full range of issues and 
negatively impact our timely provision of services. In order to operate 
at a flat funding level (fiscal year 2010 level) in fiscal year 2011, 
GAO would need to significantly reduce planned hiring and staffing 
levels by up to 150 staff through fiscal year 2011, beginning in fiscal 
year 2010. This staffing reduction will negatively impact our ability 
to respond in a timely manner to continuing and new mandates, such as 
the Recovery Act and the annual report to the Congress on duplicative 
and wasteful programs. This would not only reduce the staffing 
resources devoted to Recovery Act oversight by almost 60 percent, it 
would also severely impact staff available to support other 
congressional engagements. In order to even maintain this reduced 
staffing level and absorb mandatory pay and non-pay inflationary 
increases in fiscal year 2011, we would also need to reduce or defer 
critical infrastructure investments including security improvements in 
our field locations and potentially implement up to 6 furlough days in 
2011.
    Question. It is not my intention to fund additional FTE during a 
flat budget year. How much additional funding would you require in 
fiscal year 2011 to maintain your current workforce--that is the number 
of employees you currently have on board?
    Answer. Our fiscal year 2011 budget request seeks only the funds 
needed to maintain our fiscal year 2010 workforce, including $579.5 
million for base staffing and $21.6 million for Recovery Act oversight. 
The requested fiscal year 2011 FTE level represents annualization of 
fiscal year 2010 activity (the full-year equivalent of maintaining our 
current staffing level in fiscal year 2011), not an increase in the 
number of employees.
    Question. Can you explain why your fiscal year 2011 request 
includes 49 additional FTE to ``maintain current staffing levels''? 
Once again, I do not intend to increase our agencies' workforces during 
the next fiscal year.
    Answer. Our fiscal year 2011 budget submission seeks only to 
maintain our fiscal year 2010 workforce. The additional 49 FTEs 
represent the annualization of fiscal year 2010 activity. There is no 
increase in staffing planned for fiscal year 2011.
    When staff come on board and leave the agency at various times 
throughout the year, this results in less than a full year's cost and 
associated FTE usage in the year that the activity occurs--in this case 
fiscal year 2010. In fact, as most of our entry level staff start in 
the 4th quarter after graduation, while our attrition occurs throughout 
the year, this usually equates to a lower FTE in the first year of 
hiring, but requires a funding and FTE increase in the follow-on year, 
to ensure we have full costs/FTEs for the on-board workforce.
    Question. Has GAO's attrition rate declined as a result of the 
current economic situation and unemployment rate? Have you taken any 
discrepancy in your attrition rate into account since putting together 
your fiscal year 2011 budget request?
    Answer. Yes, attrition has declined over the last few years and we 
have considered this in our budget request. GAO experienced an annual 
attrition rate of 10 percent of our staff between fiscal years 2004 and 
2008. In fiscal year 2009, attrition dropped to 6 percent (190 staff). 
Our fiscal year 2010 operating plan assumed a slight increase in 
attrition to 225 staff and our fiscal year 2011 budget request assumed 
an increase in attrition to 235 staff. However, based on current 
activity in fiscal year 2010, we have revised our attrition assumptions 
and reduced the fiscal year 2010 estimate to about 200 staff. This 
change increases our costs by about $2 million a year and we've taken 
appropriate steps to adjust for this in our operating plan. Our fiscal 
year 2011 estimate remains at 235 staff.
                  gao's work on capitol police issues
    Question. Mr. Dodaro, we appreciate your agency's work for this 
subcommittee in assisting us with your sister Legislative Branch 
agencies. Your staff has done extensive work on the many challenges 
facing the Capitol Police, particularly in identifying weakness in the 
Capitol Police's financial management operations.
    What would you say is the biggest challenge facing the Capitol 
Police right now?
    Answer. The Capitol Police currently face three significant 
challenges--
  --Effectively managing its workforce and other resources to satisfy 
        security requirements and protect members and the Capitol 
        Complex within available resources.
  --Effectively formulating, approving, and executing reliable and 
        supported budgets.
  --Establishing and maintaining an effective internal accounting and 
        administrative control framework.
    Question. Did your review of the Capitol Police's fiscal year 2011 
budget request, conducted at this subcommittee's direction give any 
indication that they had under-budgeted their personnel needs in fiscal 
year 2011?
    Answer. GAO's review detected indications of problems with under-
budgeting for salaries for fiscal year 2011. During the course of our 
work, we detected three errors: (1) a discrepancy between the budget 
request Capitol Police submitted to Congress and what it submitted to 
OMB to be included in the President's budget, (2) a calculation of 
salaries that did not include pay differentials, and (3) a potential 
compounding of these errors across fiscal years.
  --After comparing information provided by USCP as support for what 
        was reported in the President's Budget Appendix, we identified 
        a discrepancy between the two documents. The amounts reported 
        in the President's budget were $5 million higher for benefits 
        and $5 million lower for salaries than what were shown in the 
        supporting information provided by the USCP. The Capitol Police 
        officials's February 17 explanation was incomplete and, after 
        we asked further questions, we were told that the information 
        reported in the President's budget was wrong.
  --We found a second error when we reviewed a breakdown of benefits 
        for fiscal year 2009 which was used in developing the fiscal 
        year 2011 budget request. The benefits information provided to 
        us by the USCP included amounts for night, Sunday, and holiday 
        pay differentials that should have been reported as salary. 
        This error resulted in an under-budgeting for salaries. In 
        addition, since amounts requested for certain benefits are 
        calculated as a fixed percentage of salaries, understating the 
        amount requested for salaries also leads to understating the 
        amount needed for benefits.
  --The error in fiscal year 2009 information raised questions about 
        whether it was repeated and carried forward into fiscal years 
        2010 and 2011. To the extent this occurred, the understatement 
        would have been repeated.
    Question. What can you do to further assist us in straightening out 
the Capitol Police's financial issues?
    Answer. GAO has several efforts underway to assist the Congress and 
the Capitol Police Board in overseeing the Capitol Police's efforts to 
assess security requirements, manage its workforce, and identify and 
resolve internal accounting and administrative control weaknesses and 
deficiencies.
  --GAO is assessing how the Capitol Police plans, tracks, and manages 
        use of its sworn officers, including overtime and the Capitol 
        Police's process to determine security requirements. GAO will 
        also identify what existing security technologies could enhance 
        the Capitol Police's ability to protect the Capitol Campus. In 
        a related effort, GAO will review the processes and controls 
        associated with authorizing, recording, and approving employee 
        time charges, including overtime charges, and how resulting 
        salary amounts are charged to available appropriations and 
        accounted for and reported by the Capitol Police.
  --GAO in coordinating with the Capitol Police Inspector General will 
        monitor and review the Capitol Police Inspector General's 
        ongoing audit of problems and related weaknesses with the 
        Capitol Police's process for formulating and approving its 
        fiscal years 2010 and 2011 budget requests.
  --GAO will review recently identified internal control weaknesses and 
        deficiencies to determine their current status and to identify 
        underlying causes for their often persistent and pervasive 
        nature. In doing so, GAO will consider the Capitol Police's 
        internal accounting and administrative control framework; 
        evaluate the status of corrective actions to deal with control 
        deficiencies, including those associated with prior GAO 
        recommendations; and explore systemic reasons why control 
        weaknesses and deficiencies are not promptly resolved.
                              arra funding
    Question. When we included $25 million in the American Recovery and 
Reinvestment Act, it was not intended to permanently augment GAO's core 
base. It appears that your request for $21.6 million to cover ARRA-
related work is moving us in the direction of expanding your base.
    How did you arrive at the $21.6 million figure to continue ARRA-
related work?
    Answer. GAO's staffing strategy to meet the ARRA mandates 
recognizes the temporary nature of these oversight responsibilities and 
assumes that there will be no increase in base resources. While the $25 
million included in the Recovery Act is only available through 
September 30, 2010, our statutory oversight responsibilities for 
billions of dollars of funding to the states and localities continue 
until all funds have been distributed--estimated through 2019. For that 
reason, about 50 percent of the staff devoted to ARRA work are 
temporary staff (reemployed annuitants and term hires) who can be 
released once the mandates are completed. The remaining staff are 
permanent GAO staff. Our staffing strategy in the out-years assumes 
that the permanent GAO staff will be reabsorbed in our base by not 
fully hiring behind future attrition.
    Our fiscal year 2011 request includes funds to maintain the current 
staffing level of 144 FTEs consistent with the funds provided in fiscal 
year 2009 and spent in fiscal year 2010. GAO expects to maintain this 
staffing level through fiscal year 2012 to address the mandatory 
oversight of the largest amount of the remaining Recovery Act funds 
estimated to be outlayed during that time. As approximately 85 percent 
of Recovery Act funding to programs administered by the states and 
localities is estimated to be paid out by the end of fiscal year 2012, 
GAO would start to reduce the staffing below the 144 FTE level by 
absorbing GAO staff back into the base behind attrition and phasing out 
the staff necessary to address the changing nature of the Recovery Act 
funding. Our expectation is that by the end of the required mandates, 
all permanent GAO staff will have been absorbed back into our base with 
no increase to the base resources to accommodate this approach.
    Question. How much of the $25 million included in the ARRA 
legislation have you already spent? My understanding is around $4 
million. Can you realistically spend the remaining $21 million by the 
end of this fiscal year?
    Answer. In fiscal year 2009, GAO spent $4.2 million. Through the 
2nd quarter of fiscal year 2010, we have spent $13.7 million and expect 
to spend the remaining $11.3 million to cover costs through the end of 
fiscal year 2010.
    Question. How much of the ARRA workload could you absorb within 
your own workforce?
    Answer. GAO could not absorb any of the ARRA workload within our 
own workforce without severely impacting our current workload to meet 
other congressional mandates and requests. We would need to seek 
legislative relief to the existing mandates in the Recovery Act to 
align with available staffing and funding.
    Question. What will you do if this Committee does not provide the 
$21 million for recovery-related work?
    Answer. We are happy to work with the committee to identify 
alternative funding vehicles. In the event that we do not receive 
funding for the statutorily-mandated recovery-related work, GAO would 
first reduce the FTEs devoted to Recovery Act oversight by almost 60 
percent by eliminating temporary staff. This would negatively impact 
our ability to meet the reporting requirements of the Act and require 
that we seek legislative relief to the Recovery Act mandates to align 
with available staffing and funding.
    We would also need to absorb the permanent GAO staff currently 
devoted to Recovery Act oversight back into the GAO base which would 
impact our ability to maintain our planned workforce levels necessary 
to be responsive to other congressional requests and mandates.
    Question. How many people have you hired using stimulus funding? 
How many of these hires do you anticipate bringing onboard as permanent 
GAO staff?
    Answer. We have hired 74 temporary reemployed annuitants and staff 
under term appointments. A handful of temporary staff have been 
identified as potential candidates to fill existing GAO vacancies 
behind attrition. However, it is not our intention to bring the 
majority of these staff onboard as permanent GAO staff nor grow the 
base.
    Question. You identified $8 million in savings from non-recurring 
items funded in fiscal year 2010 which you assigned to ``reinvestment 
of savings'' in your budget request. These items include upgrades to 
your information technology systems and repairs to your building. Could 
this funding be assigned to ARRA mandated work instead?
    Answer. We do not believe this to be in the best interest of the 
agency. In order to maintain the technology infrastructure supporting 
our staff and to address our management weaknesses in information 
security, human capital and physical security, it is essential that we 
be able to reinvest savings from non-recurring items and efficiencies 
in these areas. Planned investments will allow us to protect the safety 
and security of field-based staff, further enhance our information 
technology programs to gain productivity and increase effectiveness, 
and continue our efforts to enhance the energy efficiency of our 
facilities.
                               gao union
    Question. I understand that GAO and the Union have recently reached 
an agreement on the fiscal year 2010 performance-based pay increase. 
How will this action affect the performance-based pay increases already 
awarded to your non-union workforce? How much will this additional 
increase cost?
    Answer. To treat all employees equitably, GAO extended the 
provisions of the Union agreement on fiscal year 2010 performance-based 
pay increases to non-Union staff. This will cost GAO an additional 
$724,000.
                                 ______
                                 
                Questions Submitted to Robert C. Tapella
               Questions Submitted by Senator Ben Nelson
                                 budget
    Question. Mr. Tapella, how will GPO respond to no funding increase 
in fiscal year 2011? Can you continue to run your agency on the fiscal 
year 2010 level?
    Answer. GPO will be able to conduct operations with funding at the 
fiscal year 2010 level, or $147.5 million. At this level, full funding 
should be provided for our request for the Congressional Printing and 
Binding Appropriation. For the Salaries and Expenses Appropriation of 
the Superintendent of Documents, our request could be reduced by 
$26,000 to reflect a pay raise factor or 1.4 percent as requested in 
the President's budget, instead of the factor of 1.6 percent we used. 
Our request for this account could also be reduced by $1.5 million if 
the Appropriations Committees approve our request to transfer forward 
this amount in the unexpended balance of this account from fiscal year 
2005. Funding at the fiscal year 2010 level would provide approximately 
$8.1 million for GPO's revolving fund.
    Question. Your fiscal year 2011 request for the revolving fund 
totals $25.7 million and includes everything from workforce retraining 
to building repairs. Are any of these items critical needs for your 
agency given that we're trying to maintain a flat budget this year?
    Answer. With approximately $8.1 million for the revolving fund for 
fiscal year 2011, we would fund the Federal Digital System (FDsys) at 
$5.1 million and provide $1 million each for our advance printing 
technology, continuity-of-operations (COOP), and elevator repair 
projects.
    Question. Please explain the $3.2 million request for workforce 
retraining and development programs. Can this be deferred?
    Answer. Our request for employee retraining projects includes $1 
million to ensure that all personnel involved in the printing process 
receive training to maintain core competencies in related crafts and to 
build on new competencies as emerging technologies are identified; 
$500,000 for provide a curriculum for supervisors to hone leadership 
and management skills and incorporate the latest trends from throughout 
public and private sectors; $500,000 provide basic-skills training for 
our workforce. as we modernize our technology and implement our vision 
of GPO's digital future; $500,000 for courses to develop specialized 
experience and technical skills in financial management; and $500,000 
to equip employees with the skills needed to communicate GPO's mission 
in the production of secure and intelligent documents, identify 
potential revenue streams, identify future trends within the industry, 
and offer these new products to congressional and agency customers, and 
$250,000 to provide annual training needs assessments and program and 
curriculum evaluation for all training provided, develop models to 
target specific training modules for just-in-time instruction, and 
provide specialized training to operators and users of business support 
technology programs. These programs have not been identified as 
priorities under GPO's flat funding scenario for fiscal year 2011.
                         federal digital system
    Question. GPO is requesting over $6 million in fiscal year 2011 for 
the Federal Digital System--its new online data system. What is the 
status of the implementation of this system?
    Answer. Release 1, which is the foundational content management 
system assuring preservation and permanent public access to online 
Federal information, is nearing completion. The content from GPO Access 
will be completely migrated to FDsys in the next 2 months and a 
failover instance for continuity of access, or backup system, will be 
completed in August. At that point, we will start decommissioning GPO 
Access, making FDsys the system of record, with shutdown of GPO Access 
targeted for December 2010.
    Question. How much has been spent on this effort so far?
    Answer. Approximately $37.5 million has been spent so far, with a 
projection of $41 to $42 million to complete Release 1 by the end of 
fiscal year 2010.
    Question. How much more funding does GPO need to complete this 
system?
    Answer. Approximately $8 million will be required to complete 
Release 2, which is the submission functionality of the system, by the 
end of fiscal year 2011. However, if the current team cannot be 
maintained due to budget constraints, the time to develop Release 2 
will extend and the total cost may increase as a result of retraining. 
Assuming availability of the necessary funds, the total investment in 
FDsys by the end of fiscal year 2011 will be $49 to $50 million.
    Question. Why has 20 percent of your information still not been 
migrated to the new format?
    Answer. The process to migrate content to FDsys is complex. We have 
been migrating content in phases to ensure that the process is without 
errors and meets the requirements.
    Question. Wasn't the original estimate for this system $29 million? 
What is causing the cost overrun?
    Answer. The initial cost estimate for the core functionality of 
FDsys was estimated in 2004 to be $29 million. The primary cause of the 
cost overrun is a result of data migration activities to move GPO 
Access collections to FDsys. These were not a part of the original cost 
estimate and the effort has been much more difficult than anticipated. 
The cost of this effort alone will be about $11 million by the time we 
complete the migration from GPO Access to FDsys.
    Question. What will the annual operating costs be for this system?
    Answer. Initially, the annual operating cost will be about $3.25 
million. These costs consist of software license maintenance as well as 
the labor to maintain the system, at approximately $1.75 million per 
year, plus the costs of replacing aging hardware and software over 
time, at approximately $1.5 million per year. The annual operating 
costs could go down in 2-3 years as GPO staff assume work currently 
performed by contractors. Future development costs, which are optional, 
could run in the neighborhood of $4.75 million per year.
                          passport production
    Question. How is GPO's current demand for passport production? Are 
you fully implementing your production capability?
    Answer. The State Department initially requested that GPO produce 
11 million passports during fiscal year 2010. Since then they have said 
they plan to order an additional 2 million passports for the remainder 
of fiscal year 2010, bringing the total to 13 million books. The 
Department has also notified the GPO that they intend to budget and 
order 15 million passports in fiscal year 2011. GPO has the capacity to 
produce 20-24 million passports annually given the equipment and 
personnel on hand without resorting to overtime. As GPO's security and 
intelligent document business grows, particularly in the smart card 
area, we intend to utilize any available labor resources to staff the 
card equipment and processes.
    Question. As a follow up to a conversation we had during last 
year's hearing, have you given any further consideration to the 
production of foreign passports?
    Answer. We have explored the possibility of producing passports for 
foreign nations and have found several challenges that need further 
consideration before we can proceed.
    Question. What challenges do you face in this undertaking?
    Answer. Currently, there are statutory limitations on GPO producing 
non-U.S. Government printing. We have not been able to determine 
whether a Federal agency with the capability to conduct bilateral 
international agreements would be willing to act as a broker for our 
services with foreign nations. There also are unresolved questions 
concerning the acceptability of providing foreign nations with access 
to GPO's passport production facilities and proprietary processes.
                          gpo building issues
    Question. You are requesting $2 million to initiate the process of 
relocating production operations from GPO's building 4 to the main GPO 
complex. Why are you doing this?
    Answer. The primary benefit is avoiding one-time building 4 
infrastructure improvement costs and investing those resources in more 
energy-efficient equipment and system upgrades within the main GPO 
complex to support passport operations. Infrastructure investment of 
one-time facilities costs to building 4 would be for utility and HVAC 
upgrades, new windows, and general building maintenance improvements. 
The passport operation within the main GPO complex would utilize more 
energy-efficient enterprise and lower operating costs from variable 
speed drives, energy efficient lighting, and variable speed air 
handling units with savings realized year-over-year.
    Question. What will this investment buy us?
    Answer. GPO could offer building 4 space under space-sharing 
agreements to other legislative branch agencies for storage or light 
industrial use, offsetting the annual operating cost to idle the 
building and recover costs. A full return-on-investment study would be 
necessary to completely analyze the cost benefit of renovations to all 
floors into class A office space for lease purposes.
    Question. What is the total cost of this proposed relocation?
    Answer. In addition to the initial $2 million appropriation, which 
would cover relocation of current operations in the main GPO building 
to accommodate the move, costs would be incurred for passport and 
warehouse operations equipment relocation, estimated at $2 to $6 
million (depending on whether one or both passport production lines are 
moved); construction of new office space for training and bindery 
operations estimated at $850,000; and construction of a new wastepaper 
facility to house the secure waste processing system within the main 
GPO complex, at an estimated cost of $500,000 to $1 million. Other 
variables are the requirements and schedule of the State Department and 
costs to install equipment through an exterior building window that is 
too big for the freight elevator.
    Question. What is your agency doing to support environmental 
sustainability?
    Answer. GPO has been involved in environmental sustainability 
activities for many years regarding paper, ink, emissions reduction, 
energy efficiency, digital dissemination, waste management, recycling, 
and related measures. Some of the highlights of GPO's recent 
sustainability activities include the following:
  --With the approval of the Joint Committee on Printing (JCP), in 2009 
        GPO increased the recycled content of the newsprint to print 
        the Congressional Record and the Federal Register to 100 
        percent from 40 percent with no runability or printability 
        problems. The 100 percent recycled paper is being supplied at 
        no increased cost over the previously supplied 40 percent 
        recycled paper. GPO is also evaluating responses to a request 
        for proposal for the most sustainable copier paper available in 
        today's market.
  --GPO has established a voluntary partnership with EPA's WasteWise 
        program to baseline and monitor waste reduction and prevention 
        activities. We have reduced our landfill waste by issuing a 
        contract to ensure all of our wood waste (pallets, skids, and 
        old furniture) is recycled. Currently, GPO's wood waste is 
        being used for mulch in Maryland.
  --Over the past year, GPO has reduced VOC emissions in plant 
        operations by 86 percent from the previous rate, which also 
        reduced our purchasing costs for fountain solution by 22 
        percent.
  --Using appropriations to the revolving fund provided for fiscal year 
        2009, GPO installed roughly 100,000 square feet of an 
        environmentally sustainable roof on its main complex buildings. 
        The highly reflective roof coating provides a cool roof 
        environment that not only reduces cooling demands inside the 
        building but improves the life expectancy and efficiency of 
        rooftop equipment. Additional roof repairs will be carried out 
        as necessary using available funds in the revolving fund.
  --This past year, GPO received 21 new vehicles including 18 
        alternative flex fuel (E85) vehicles and two new hybrid 
        vehicles through funding provided to the General Services 
        Administration as part of the stimulus bill.
  --FDsys utilizes 50-watt processors instead of the standard 80-watt 
        processors. This decision will realize more than $12,000 per 
        year in energy savings, as these servers operate at a much 
        higher efficiency.
  --GPO has established an Environmental Protection and Regulatory 
        Affairs Committee consisting of key leaders from each business 
        unit to ensure attention to top sustainability initiatives.
    Question. What is the most pressing infrastructure challenge you 
face at your building?
    Answer. Currently we are continuing with our program of elevator 
repairs. The elevators are essential to movement of personnel and 
materials in our 8-story main complex, and are a life/safety measure 
where the rapid evacuation of persons with critical medical conditions 
is concerned.
                               coop plan
    Question. Can you explain the $2.2 million for Continuity of 
Operations funding you are requesting in fiscal year 2011? Given our 
current budget situation, is this something that can be deferred?
    Answer. GPO has identified continuity-of-operations (COOP) funding 
as a priority for fiscal year 2011, at a level of $1 million. The $2.2 
million originally requested included funding for a distant site as 
well as enhancements to GPO's offsite computer systems. Recently GPO 
received feedback from Senate staff that a mobile strategy that does 
not rely on fixed sites to support the production needs of Congress 
should be considered. We are beginning to assess the costs and 
implications of supporting Congress through so-called ``fly-away'' 
kits. This would require GPO to establish production capabilities from 
pre-packaged equipment and supplies that would be unpacked and an empty 
facility set up for that purpose. Of the $1 million identified as COOP 
priority funding, approximately half would be dedicated to this 
purpose.
    Additionally, there is a requirement to complete the needed 
redundancy for GPO critical operations at the Legislative Branch 
Alternate Computer Facility (ACF) in support of Congress, including 
completion of a backup system for FDsys. The other half to of the 
funding provided to COOP would be devoted to this purpose.
                                 ______
                                 
                Question Submitted by Senator Mark Pryor
    Question. Mr. Dodaro, I do have a question for you about diversity 
there in your office, in your agency. And I guess I would like to ask 
all three if you have a diversity plan, but specifically for you, I 
would like to know how your efforts at diversity are going?
    Answer. In compliance with the directive in the Joint Explanatory 
Statement accompanying H.R. 1105, providing omnibus appropriations for 
fiscal year 2009, GPO has adopted a formal written policy, in 
accordance with all applicable Federal laws, to develop and institute 
an affirmative action plan with specific goals and objectives to 
further the ability of women, minorities, and individuals with 
disabilities to achieve balanced representation within the Legislative 
Branch workforce and management. GPO's Affirmative Employment Plan has 
adopted many of the elements set forth in the Equal Employment 
Opportunity Commission's Management Directive 715 to ensure that all 
employment decisions are free from discrimination.
    GPO has made substantial gains in diversity in its management 
ranks. Employees at the Grade 15 level currently are 65 percent white 
and 35 percent minorities. In the last report to Congress submitted in 
2008, 32 percent of positions at the Grade 15 were held by females; 
females now represent 36 percent of the employees at this grade. This 
demonstrates small but steady strides that GPO is making to increase 
its diversity at the higher grade levels.
    Grade 13 supervisors are the feeder group for managerial positions 
and this grade has experienced a significant change. The placement of 
qualified minorities and females into supervisory grade 13 positions 
will prepare them to become GPO's future leaders. Presently, 51 percent 
of Grade 13's are white and 49 percent are minorities. In this grade 36 
percent of employees are male and 67 percent are female.
    During my tenure I have made a personal commitment to increasing 
diversity. I have conveyed this commitment in a meeting with senior 
management, and I have issued a policy statement to all employees 
indicating the importance of diversity. To further implement GPO's 
support of diversity, diversity has been included as an element in 
GPO's Strategic Vision.
    GPO has continued its policy of outreach to colleges and 
universities that will strengthen our applicant pool with highly 
qualified diverse candidates. These colleges include Florida A&M 
University, the University of Texas at El Paso, the University of New 
Mexico, and the University of California at Berkeley.
    GPO also recruits at the National Technical Institute for the Deaf 
for qualified employees, to include persons with disabilities in our 
diversity program. The Equal Employment Opportunity Commission (EEOC) 
has indicated that the percentage of people with disabilities in the 
Federal Government is decreasing. However, GPO continues to rank as one 
of the top Federal employers for people with disabilities. As of 
September 30, 2009, GPO had a workforce of 2,322 employees. Of these, 
almost 7 percent are individuals with a reportable disability, and of 
them approximately 1.5 percent are individuals with targeted 
disabilities. By comparison, most Federal agencies have fewer than 1 
percent of their employees with targeted disabilities. These employees 
work in business units throughout GPO.
    In addition to our recruitment plan, we have entered into a 
strategic alliance initiative with California State University at Los 
Angeles, which is a Hispanic Serving Institution. This initiative 
allows university seniors to develop an actual design project that 
prepares them for the job market and provides the organization with an 
actual product.
    Where veterans are concerned, GPO continues to be involved with the 
Coming Home to Work Initiative. Through this initiative with the 
Department of Veterans Affairs, eligible service members and veterans 
are placed in positions at GPO to gain work experience.
    GPO carries out a number of efforts to ensure that supervisors and 
managers know the agency's perspective on diversity and equity in the 
workplace. GPO's Director of Equal Employment Opportunity (EEO) and 
Deputy EEO Director meet with business unit managers semi-annually to 
discuss their organizations' diversity and other EEO-related issues. 
During these meetings we discuss their current workforce statistics and 
possible strategies to address any noted imbalances.
    GPO supervisors and managers are also required to participate in 
training on EEO and Discriminatory Harassment. I personally address 
each of these sessions to inform supervisory personnel of my commitment 
to EEO, and I use these classes as a mechanism to impart the 
significance of diversity and equality in GPO's workplace.
    GPO clearly recognizes the significance of attaining diversity at 
GPO and we are firmly committed to achieving this goal.
                                 ______
                                 
              Questions Submitted to Douglas W. Elmendorf
               Questions Submitted by Senator Ben Nelson
                      fiscal year 2011 flat budget
    Question. How will your agency cope with a flat budget in fiscal 
year 2011?
    Answer. Fiscal year 2011 funding equal to the 2010 appropriation of 
$45.2 million would represent a reduction in funding for CBO because 
the agency's 2010 operations are being financed, in part, by funds from 
a 2009 supplemental appropriation. In total, CBO's 2010 funding comes 
to about $46.4 million.
    Most of CBO's budget is devoted to personnel. Because a flat fiscal 
year 2011 budget would, in practical terms, represent a reduction in 
CBO's funding, the agency would need to reduce its full-time 
equivalents (FTEs) by 9 from the 258 proposed in its fiscal year 2011 
budget request--eliminating the 4 additional positions requested for 
next year and another 5 that are funded this year. Those reductions 
would save about $1.5 million. They would, however, represent a setback 
in terms of CBO's ability to provide estimates and analysis for the 
Congress as it addresses major issues on the legislative agenda. With 
the support of the Congress, CBO staffing has expanded in recent years, 
especially in the health area. But the needs for estimates and analysis 
have continued to expand as well, and despite extraordinary efforts by 
CBO staff, the agency could not satisfy all the requests for estimates 
for healthcare proposals. A reduction in staffing below the current 
level would make it more difficult to meet future needs of committees 
and Members. Congressional deliberations on topics such as climate 
change, immigration, the defense budget, financial reform, and deficit 
reduction, the new statutory Pay-as-You-Go requirements, new issues 
that cannot even be foreseen now, and CBO's ongoing responsibilities to 
produce hundreds of formal cost estimates and even more informal 
estimates will require substantial efforts on CBO's part. Faced with 
reduced staffing, CBO would work with the Congress to prioritize 
requests for analysis to ensure that the most critical requirements 
were addressed in a timely way.
    In addition, CBO would have to reduce information technology (IT) 
spending by $0.5 million--primarily in the areas of communications, 
software development, disaster recovery, equipment replacement, and 
commercial data. Also, library operations would be reduced by $0.1 
million--primarily in the area of online subscription services.
                            healthcare staff
    Question. Over the past few years, CBO has increased its capacity 
in the healthcare area. Now that the legislation has passed, do you 
expect to transition back to less staff in that area? How do you 
envision managing that transition? What happens to staff hired for 
healthcare expertise?
    Answer. CBO was able to meet the incredible demands placed on the 
agency for healthcare analysis and cost estimates over the past 2 years 
only because many of the agency's health staff frequently worked 7 days 
a week, often 12 to 15 hours a day (and sometimes more), for a 
significant portion of those 2 years. Even so, CBO struggled to keep 
pace with the demand for cost estimates and other analyses related to 
healthcare. As the Congress grapples with the long-term budgetary 
pressures facing the nation, stemming to a significant degree from 
rising healthcare costs, and with the issues that will arise regarding 
implementation of the new healthcare legislation, the need for CBO 
analyses of health issues is likely to remain great. We anticipate that 
the staff will be quite busy responding to requests for estimates and 
analyses, and carrying out the research necessary to produce such 
responses--but, hopefully, at a more measured pace than what was 
necessary in recent months.
    There are still many unanswered requests from Members of Congress 
about various policy proposals and their potential effects on both the 
budget and the private health insurance market. In addition to 
preparing analyses for specific Congressional requests, CBO hopes to 
conduct modeling and research to address a variety of health policy 
questions that will allow the agency to provide useful information to 
the Congress for future legislative efforts in 2011 and subsequent 
years. Because the healthcare arena is complex, significant lead time 
is necessary to prepare for a broad range of potential legislative 
action. For example, a key reason that the agency was able to prepare 
several dozen estimates of major health insurance proposals in 2009 is 
the fact that CBO spent considerable effort in 2008 and prior years to 
develop its health insurance modeling capability.
    CBO expects that the analysts at the agency who work on health 
issues will be busy and fully engaged for the remainder of this year 
and in fiscal year 2011. A few of the contributors to CBO's health 
team's work over the past year were doing ``double-duty'' while they 
were also working on their ``regular'' responsibilities of covering 
issues besides healthcare. Some of those members of the large 2009-2010 
health team may return to working solely or primarily on legislative 
issues unrelated to healthcare. CBO expects that its full-time health 
analysts--whether recently hired or long-time CBO staff members--will 
not face any shortage of interesting and challenging work in the near 
future.
                   role in new healthcare legislation
    Question. How do you see your role during the implementation of the 
new healthcare legislation? What, if any, difference in required 
expertise do you envision needing?
    Answer. As a Congressional support agency, CBO does not have a 
direct role in implementation of the new law. However, the agency 
recognizes that there is very keen interest in the Congress for 
information about how the law will be implemented and how the 
combination of regulatory actions and the behavior of states, private 
organizations, and individuals will affect spending and receipts for 
the Federal government through the Medicare and Medicaid programs, 
through the new private insurance exchanges, and through other health-
related programs created or modified by the legislation. As part of its 
Congressionally mandated efforts to prepare baseline projections of 
spending and receipts under current law, CBO will need to gather data 
and update a large number of budget projection models. Those efforts 
will require an extensive amount of work over the next few years; and 
the focus of that work will evolve as CBO analysts learn more about how 
the Department of Health and Human Services is carrying out the myriad 
provisions of the new law.
    CBO has worked hard to hire and develop a diverse staff of health 
policy analysts. The current group of such analysts is well suited to 
conducting research and developing budget-oriented models related to 
the implementation of the new law and any potential legislative 
revisions that might be considered by the Congress.
                       supplemental funding spent
    Question. Of the $2 million provided in the fiscal year 2009 
supplemental appropriations bill, how much has CBO spent?
    Answer. CBO has spent $1.5 million of the $2 million in 
supplemental funding. The agency anticipates spending the remaining 
balance by September 30, 2010.
                     benefits of work for congress
    Question. What changes were implemented at CBO with the 
supplemental funding which benefits your work for Congress?
    Answer. One significant use of the supplemental funds was to 
replace or upgrade computers used by health analysts. CBO analysts 
utilize a variety of computer models to help estimate the impact and 
cost of various healthcare proposals. Numerous iterations are typically 
required to assess the effect of changing multiple variables, and 
before receipt of the supplemental funds, model runs for a particular 
proposal consumed many hours. The new computer equipment acquired with 
the supplemental funding significantly reduced turnaround time for 
model runs, enabling analysts to respond to inquiries from the Congress 
much more rapidly. Health models that previously ran in 10 hours took 
only 2 hours to run, and models that took 2 hours finished in 15 
minutes.
    CBO was also able to accelerate the hiring of additional staff, 
which enabled the agency to respond more quickly to Congressional 
inquiries on health issues. In addition, the agency was able to reward 
its employees who were engaged in the health efforts with performance 
bonuses for the grueling almost around-the-clock, 7-days-a-week work 
that was necessary to meet the legislative schedule. Those bonuses 
boosted morale and thereby helped CBO to sustain that intense effort 
over a period of many months.
    Also, CBO purchased actuarial services that enabled the agency to 
consult with experts in the areas of actuarial science and health 
insurance. That assistance was valuable to CBO in estimating the 
effects of options involving differing packages of insurance benefits 
and variations in their actuarial value or scope of covered services, 
and proposals to reshape the delivery of healthcare.
                     new ftes for fiscal year 2011
    Question. Why are you requesting four additional FTEs in fiscal 
year 2011?
    Answer. Now that comprehensive health legislation has been enacted, 
the nature of healthcare analysis at the agency changes some, but it 
does not go away. CBO will now need to make regular budget projections 
for the new and expanded Federal healthcare programs, and it will need 
to estimate the budget costs and other consequences of contemplated 
changes to those programs. In addition, CBO will probably need to 
respond to Congressional interest in exploring other possible changes 
to the healthcare system. Continued large Federal budget deficits and 
the key role of rising Federal healthcare spending in boosting future 
deficits ensure that health issues will remain central to the 
Congress's deliberations.
    With the staffing level as it was, CBO's health analysts produced 
the quantity of health analysis that they did only by adopting an 
almost round-the-clock, 7-day-a-week schedule, which could not have 
been maintained. And even with that extraordinary effort, the quantity 
of analysis that was produced was not sufficient to meet the needs of 
many Members of Congress. The formidable work that still remains to be 
done in analyzing heathcare is something that CBO hopes to undertake in 
a sustainable fashion.
    Three of the four additional staff that CBO is requesting would go, 
in some combination, to the Budget Analysis Division and the Health and 
Human Resources Division. If the needs for health analysis permit, CBO 
might reallocate some analysts in the Health and Human Resources 
Division from work on healthcare to work on income security and 
education--an area in which CBO has fewer analysts than necessary to 
meet Congressional needs.
    The fourth additional FTE requested is for the Management, 
Business, and Information Services Division. That group includes IT 
personnel, editors, Web personnel, financial managers, and others. As 
CBO has expanded its analytic staff in the past couple of years, the 
agency has added some staff in those support functions as well. The 
additional position would provide administrative support to enable 
senior members of the staff to focus more effectively on their core 
responsibilities.
                    biggest challenge moving forward
    Question. What do you see as CBO's biggest challenge moving 
forward?
    Answer. CBO faces a number of significant challenges that we are 
working hard to meet. One such challenge is a growing demand for 
analyses of impacts of legislation beyond just budgetary effects. For 
example, in the case of the recently enacted healthcare legislation, 
there was great interest in proposals' effects on health insurance 
premiums and on the nation's total spending on healthcare. (We were 
able to address questions on the first but not on the second.) There 
has also been much interest in the effects of climate policies on 
employment and economic growth. (CBO has produced reports on both of 
those topics.) But producing such information on the basis of careful 
research and analysis can be both difficult and time-consuming, which 
makes it particularly challenging to produce useful results in time for 
Congressional consideration of the legislation in question. In order to 
accomplish that objective, we need to anticipate the issues that will 
arise and the types of analysis that will be requested far enough in 
advance to allow us time to build a proper analytical foundation so 
that CBO's analysis can be both well-thought-out and timely. We 
regularly seek guidance from the budget committees and others as to the 
particular issues that are likely to need CBO's attention.
    Another significant challenge is recruiting and retaining high-
quality staff, a vital ingredient to CBO's success. This is not a new 
challenge, but is one that has to be met every year if we are to 
maintain or enhance the quality of CBO's work. It is a difficult 
challenge to meet, however, and especially so for Ph.D. economists. The 
market for economists is very competitive; salaries are higher in the 
private sector, in academia, and at the Federal Reserve and some other 
government agencies; and many economists do not think of working for 
the government when they first start job-hunting. We continue to 
recruit aggressively and to strive to maintain a workplace environment 
that will be attractive both to the current staff and to potential new 
hires.
                       shift resources internally
    Question. Besides hiring additional FTEs, have you been able to 
shift resources internally to better meet Congress's growing demand for 
your services?
    Answer. CBO frequently adjusts staff assignments in order to 
respond to changing legislative priorities--sometimes for a period of 
weeks or months, sometimes for longer periods. In the case of 
healthcare, the agency shifted the responsibilities of numerous staff 
members during the past 2 years in order to meet the great need for 
analysis in that area. In the past year, we have also shifted resources 
into work on the government's involvement in financial markets, 
nutrition assistance, climate change, and student loans. In fact, 
because of the growing need for analysis of the government's financial 
commitments, we are establishing a separate Financial Analysis Division 
in order to more effectively focus resources in that important area.
                restrictions in hiring foreign nationals
    Question. Please describe why section 704 of the 2010 Omnibus 
Appropriations bill, relating to restrictions on the hiring of foreign 
nationals in government agencies, is detrimental to your agency. Is 
there not enough talent within the United States to support your 
agency's needs?
    Answer. Section 704 effectively eliminates the ability for CBO to 
hire foreign nationals who are not permanent residents. This 
restriction has a particular effect on CBO's ability to hire recent 
graduates with Ph.D.s in economics, because more than half of such 
graduates are foreign nationals. In 2008 (the most recent data 
available) 1,091 people received Ph.D.s in economics in the United 
States; of those, only 405 were citizens or permanent residents of the 
United States. Eliminating access to the majority of these graduates 
makes it tremendously difficult to recruit qualified candidates.
    This market is particularly important to CBO because approximately 
40 percent of the agency's staff members hold Ph.D.s in economics. 
CBO's Ph.D. economists conduct economic research and policy analysis of 
Federal activities with the objectives of assessing the risk, costs, 
and consequences of these activities for the Federal government and for 
the economy.
    The market for Ph.D. economists is very competitive. Most new Ph.D. 
economists, 60 percent, go to academia, and 18 percent go to industry 
and business, including financial institutions. The government garners 
only about 13 percent. Compensation is generally greater in academia 
and industry, and CBO, like other government agencies, is constrained 
in the salaries that it can offer.
    Another challenge of the market for economists is that recent 
graduates have skill sets that are separate and distinct from the skill 
sets of more experienced economists. Specifically, recent graduates 
have been trained in cutting-edge quantitative techniques, making them 
particularly suited to developing and maintaining complex economic 
models. In the past CBO has had success recruiting foreign nationals 
who contributed to our work while holding various types of visas and 
then converted to permanent residency or moved to other positions. 
Hence, CBO's Macroeconomic Analysis Division (and specifically the 
Fiscal Policy Studies Unit and Financial Markets Unit) has been 
particularly reliant on the work of foreign nationals.
                                 ______
                                 
                Question Submitted by Senator Mark Pryor
                            diversity status
    Question. I would like to know how your efforts at diversity are 
going?
    Answer. As part of the Omnibus Appropriations Act of 2009, CBO, 
like the other legislative branch agencies, was asked to write a plan 
related to workforce diversity. CBO first enunciated a policy of 
maximizing diversity in recruitment and then completed a statistical 
analysis of its workforce to identify areas in which greater diversity 
efforts should be focused. The agency is in the process of writing its 
plan to address those areas; the plan should be finished by the first 
of June.

                          SUBCOMMITTEE RECESS

    Senator Nelson. So thank you. We will stand in recess.
    [Whereupon, at 4:40 p.m., Thursday, April 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]






         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, APRIL 29, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:33 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, and Murkowski.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        JO ANN JENKINS, CHIEF OPERATING OFFICER
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        ROBERTA SHAFFER, LAW LIBRARIAN

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. Good afternoon, everyone. I think what we 
will do is we will get started, and when my ranking member 
arrives, then we will have her give any opening statement she 
would like to make.
    I want to welcome all today. We meet this afternoon for our 
fourth and final legislative branch budget hearing for fiscal 
year 2011. Today, we will hear from the Library of Congress 
(LOC) and the Open World Leadership Center.
    It is my pleasure to welcome in short order my ranking 
member. We have worked very well together, and I know we will 
continue to be able to do that, as well in the future. And I 
welcome her right now.
    And I also want to welcome our witnesses--Dr. James 
Billington, the Librarian of Congress, and Ambassador John 
O'Keefe, Executive Director of the Open World Leadership 
Center. It is good to have you, as well as Ms. Jo Ann Jenkins. 
It is good to have you gentlemen and lady here this afternoon, 
and we look forward to hearing from you.
    If it is possible to keep opening statements brief, around 
5 minutes, it would be very helpful. And of course, the rest of 
the testimony would be received for the record.
    One thing that we have established at our first three 
hearings--and I think it bears repeating--is that we intend to 
hold the legislative branch flat this year. I believe that 
spending restraints start at home, and we need to lead by 
example on this subcommittee. We can't do that by appropriating 
large increases to our agencies.
    I think the President sent the message so loudly and 
clearly in his State of the Union Address this year, noting 
that families across our country are tightening their belts and 
making tough decisions, and the Federal Government must do the 
same, he said, and he announced a 3-year freeze on nonsecurity 
discretionary Government spending.
    The President said, ``Like any cash-strapped family, we 
will work within a budget to invest in what we need and 
sacrifice what we don't.''
    And he warned further, ``If we don't take meaningful steps 
to rein in our debt, it could damage our markets, increase the 
cost of borrowing, and jeopardize our recovery--all of which 
would have an even worse effect on our job growth and family 
incomes.''
    Dr. Billington, I want to welcome you and your Chief 
Operating Officer, Jo Ann Jenkins. Sadly, I understand that Ms. 
Jenkins has accepted a position as the executive director of 
the American Association of Retired Persons Foundation. When I 
say ``sadly,'' I am not sad that you are accepting that 
position, I am sad that you will be leaving the Library next 
month.
    We appreciate the 15 years that you have been a steadfast 
presence at the Library, and of course, we wish you the very 
best. Among her many accomplishments are her work on the 
Library's Bicentennial Celebration, management and oversight of 
nine National Book Festivals, the opening of the new Library of 
Congress Experience at the Jefferson Building, and the 
completion of the Library of Congress and the U.S. Capitol 
Police merger.
    So, on behalf of the Senate, and in particular this 
subcommittee, I want to thank you for your service to the 
Library of Congress and very much wish you success and 
happiness in your future.
    Thank you.
    The Library this year is requesting $670 million for fiscal 
year 2011, an increase of $31.4 million, or 4.8 percent, over 
the fiscal year 2010 enacted level, as well as 30 additional 
full-time equivalents (FTEs). I understand about one-half of 
these new FTEs and around $5 million are for expanded research 
capabilities at the Congressional Research Service (CRS). So I 
look forward to hearing your testimony and discussing the 
particulars of your request.
    As a brief aside, I continue to hear from a number of 
organizations concerned about the performance royalties bill 
that would affect local radio stations. And I make this brief 
note here only because of the Copyright Royalty Board's 
potential role under this legislation. And along with many of 
my colleagues, I continue to oppose this bill and wouldn't 
support an attempt to attach such legislation to an 
appropriations bill, whether it is this one or any of the 
others, for that matter.
    And I also want to welcome Ambassador O'Keefe of the Open 
World Leadership Center. Ambassador O'Keefe and I had a 
pleasant experience in Lincoln, Nebraska, where he conducted an 
evening discussion of the work of the Open World Leadership 
that was not limited to Nebraskans, but many from Iowa, Kansas, 
and the surrounding areas were there as well. I thought it was 
an excellent presentation. I appreciate that.
    Ambassador O'Keefe, your budget request totals $14 million, 
an increase of $2 million, or 16.6 percent, above current year. 
I strongly support the important work done by Open World and 
its commitment to Congress and the legislative branch, and I 
look forward to hearing your testimony as well.
    Now it is my pleasure to turn to my ranking member, Senator 
Murkowski, for her opening remarks. And as I said at the 
beginning, we have enjoyed a wonderful working relationship, 
and I know that is going to continue well into the future.
    So the podium is all yours.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
it.
    And as we have gone through these series of discussions 
with the various entities that are under the oversight of the 
Legislative Branch Subcommittee, you have been very consistent 
in conveying the message that we do need to be conscientious 
about our budgets. We do need to be setting the standard, and 
we have been working together well in that regard.
    I welcome you this afternoon to the subcommittee and join 
the chairman in his comments of welcome to you, Dr. Billington. 
It is always good to see you.
    Mr. Chairman, you might not have known, but Dr. Billington 
was the star in one of our Alaska reports where he was able to 
highlight some of the collection that is housed over there in 
the Library of Congress that relates to the history of my 
State. And I think it was one of our more popular programs in 
terms of the viewership. So I commend you for that, and it was 
a wonderful learning opportunity.
    I also extend my warm welcome to you, Ambassador O'Keefe, 
and appreciate your leadership over at the Open World 
Leadership Center. Appreciate both of you being here today to 
discuss how your agencies are planning to move forward in this 
upcoming fiscal year.
    Ms. Jenkins, I join the chairman in commending you on your 
15 years of service. We greatly appreciate it and wish you well 
in your coming endeavors over at the AARP. I know that everyone 
who has had an opportunity to work with you will miss you, but 
they have appreciated all your years of service.
    Mr. Chairman, you have provided the assessment or the 
overview, if you will, of the Library of Congress budget 
request and mentioned the increase in additional full-time 
equivalents, the FTEs, 30 FTEs. I look forward to hearing why 
the Library needs these additional FTEs at this time, whether 
or not this is a permanent expansion of the Library or perhaps 
a temporary solution to a shorter-term situation.
    As far as the Open World Leadership Center fiscal year 
request, I do understand that the fiscal year 2011 budget 
request is only $100,000 over the fiscal year 2009 enacted 
level of $13.9 million, but the Center is currently living 
within the fiscal year 2010 enacted level of $12 million. So I 
am anxious to hear why the Center feels that it needs to return 
to the previous funding level. So I will look forward to 
hearing your response to that.
    And again, welcome both gentlemen and Ms. Jenkins to the 
subcommittee.
    Senator Nelson. Dr. Billington.

             SUMMARY STATEMENT OF HON. JAMES H. BILLINGTON

    Dr. Billington. Thank you, Mr. Chairman and Senator 
Murkowski.
    It is really an honor to be here to present the fiscal year 
2011 budget request of the Library of Congress just 5 days 
after the 210th anniversary of its birth as the Nation's oldest 
Federal cultural institution.
    I am accompanied, as you both noted, for the last time by 
our outstanding Chief Operating Officer, Ms. Jo Ann Jenkins, 
who will leave, as you pointed out, to become on June 1, in 
fact, president of the AARP Foundation. That happens to be my 
birthday, June 1. This is an unusual type of negative present.
    But we are grateful for all that she has done.
    Now, among those with me today for the first time are 
Roberta Shaffer, the new Law Librarian of Congress. Ms. Shaffer 
has much experience in the Library and the broader legal 
community. And two who have served the Library well for 20 
years and will assume new responsibilities in June as members 
of the Executive Committee--Robert Dizard, who will become 
Chief of Staff, and Lucy Suddreth, who will become Chief of 
Support Operations. They are both here as well.
    Now, Mr. Chairman and Senator Murkowski, recognizing the 
difficult budget environment that you have both mentioned, we 
are presenting a lean funding request, a 4.6 percent increase 
over fiscal year 2010. Fifty-eight percent of the increase is 
for required pay raises for our excellent staff and price level 
increases. Sixteen percent is for addressing urgent 
congressional needs in CRS. And the smaller remaining requests 
are largely to strengthen staff management capabilities and to 
support clear Library-wide priorities.
    These requests are mainly for people, which are urgently 
needed by an institution doing many times more work than in 
1992, but with 1,076 fewer employees. Our workforce has become 
ever more skilled and creative in order to remain the ``library 
of last resort'' and to acquire, as we have, our national and 
international leadership role in building a new electronic 
library while sustaining a traditional one and the values of 
the book culture itself.
    Mr. Chairman, the Congress of the United States has created 
and, thanks to your subcommittee and your leadership, sustained 
the largest, most inclusive, best-preserved record in one place 
of both the world's knowledge in 460 languages and America's 
creativity in all kinds of fields. In many ways, the Library of 
Congress contains our Nation's strategic information reserve, 
preserves the cultural patrimony of our free and diverse 
people, and is a lighthouse to the world for a whole concept of 
a knowledge-based democracy.
    We are now nearing completion of a focused effort that I 
initiated 10 months ago collaboratively to address Library-wide 
management requirements--a mid-course review of our strategic 
plan, strengthening governance and processes in information 
technology, and integrating the Library's Web presence into the 
central core of our work and our management structure across 
the entire Library.
    In the last 20 years of, in effect, superimposing an 
entirely new digital library on top of our traditional 
artifactual one, we have created an education-focused National 
Digital Library of 19 million items, almost all of which are 
original documents of American history and culture. We put 
online just 1 month ago in Paris a World Digital Library with 
UNESCO support, including some material from the cultures of 
all 193 United Nations (U.N.) nations.
    We now have enormous digital content and work with 170 
partner institutions in this country and 44 different States in 
leading a national program to archive important materials 
online, in accordance with our congressional mandate.
    But in the past 10 years, global book publishing has also 
increased by 40 percent. Digital information is proliferating 
virally, as we say, but it will never replace our heritage 
assets or, indeed, other new physical records that continue to 
be added to our often one-of-a-kind collections.

                          FORT MEADE MODULE 5

    Our most critical material need and highest mission 
priority this year is for Fort Meade Module 5, as requested in 
the Architect of the Capitol's fiscal year 2011 budget. We are 
already 8 years behind in the storage schedule for Fort Meade 
that we established with Congress and began implementing in 
1997. The already functioning modules are efficiently 
compacted, magnificently controlled for preservation, and have 
provided prompt, 100 percent delivery to our Capitol Hill 
reading rooms of all materials so far requested.
    This fifth module is essential if we are to sustain our 
core mission of preserving and making accessible collections 
needed both for present and for future generations. The Library 
of Congress is the only institution in the world capable of 
sustaining collections on this scale. Our key role for America 
in the information age could be compromised, perhaps 
irretrievably, if we cannot continue to acquire original 
written and published materials.
    These artifactual materials often provide the only near-
permanent records of human creativity and, unlike digital 
materials, cannot be tampered with, censored, or rendered 
inaccessible by technological obsolescence.
    Thanks to this subcommittee's wonderful support, in 
conclusion, Mr. Chairman, we already have state-of-the-art 
preservation storage not only at Fort Meade, but also in 
Culpeper at the world's biggest and best facility for audio-
visual conservation. We must continue to grow, preserve, and 
provide access to our artifactual collections if they are to 
remain usable for Congress, and we will need space to store 
them.

                          PREPARED STATEMENTS

    Thank you again for your support for the Library and for 
your consideration of our fiscal year 2011 budget.
    [The statements follow:]
             Prepared Statement of Dr. James H. Billington
    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee: I am pleased to present the Library of Congress fiscal 
2011 budget request.
    Mr. Chairman, I am grateful to you and the subcommittee for your 
outstanding support for our fiscal 2010 request, which included a major 
investment in an initiative to renew and restore the Library's 
technological infrastructure. Through the 2009-2010 Management Agenda 
process, which I initiated last July, we are enhancing the governance 
and internal oversight of information technology investments to assure 
the most effective use of, and maximum accountability for, these funds.
    In recognition of the difficult budget environment, we are 
requesting a total fiscal 2011 budget of $715.5 million, a lean 
increase of $31.4 million or 4.6 percent over fiscal 2010. Fifty-eight 
percent of this request is for mandatory pay and price level increases. 
The largest program element in the modest requested increase for 
critical operations is the $4.9 million needed to address urgent 
Congressional needs in the Congressional Research Service budget. Our 
requested increase of 30 FTEs is necessitated by the greatly increased 
workload of the Library during the period from 1992 to 2010, in which 
an entire digital library has been added to the traditional library 
while the level of FTEs has fallen by 1,076 FTEs to 3,770.
    The details of the Library's budget request are described in this 
statement. At the start, I want to address a subject of paramount 
importance: the Library's collections. Our most critical need and 
highest priority this year is Fort Meade Module 5--for which funding is 
requested in the AOC's fiscal 2011 budget.
    The increased importance of this unique repository of human 
knowledge is solidly based on its history. Over two centuries, the 
Congress has built its Library into the largest and most diverse 
collection of human knowledge ever assembled by one institution. The 
Library also preserves the closest thing to a mint record of America's 
creativity thanks largely to its exclusive status as the depository of 
copyrighted works. It annually collects significant world cultural and 
scholarly resources in more languages and formats than any library in 
the world. Sustaining Congress' support for the mission of this unique 
American cultural institution is more important than ever before in 
this ``information age,'' when our economy and leadership depend more 
and more on usable knowledge.
    When the original library, housed in the Capitol, was burned by 
British troops in 1814, Thomas Jefferson within a month offered his 
personal library as a replacement. The Jeffersonian concept of 
universality argued that all subjects are important to the library of 
the American legislature, and this has guided the comprehensive 
collecting policies of the Library.
    The Library of Congress is the only institution in the world 
capable of sustaining collections on this scale. We cannot foresee all 
that will be important to those who come after us. But we have 
innumerable examples of how past items we saved have proven useful 
later in unforeseen ways. We are inspired as well as informed by 
preserving the thoughts, anxieties, achievements, and aspirations of 
past generations. If we collect less and the Library's collections 
diminish, future generations will know that we deprived them of that 
open window into their past.
    I have been asked, ``When is this going to stop?'' If we want the 
Library of Congress to exist for future generations as it does for us 
today and has for generations past, it cannot, should not stop. Our 
request for Fort Meade Storage Module 5 is not about another building. 
It is about preserving our collections and protecting the very essence 
of the Library of Congress.
    I can assure you that the Library of Congress does not keep 
everything. We have carefully thought-out acquisitions policies, 
developed and updated regularly by our curators and other experts. We 
continually work to improve our collections management, including 
inventory management, and with the Congress' great support, we now have 
storage modules at Fort Meade to secure and preserve our most valuable 
items. We will continue to do everything we can to be more efficient; 
but we will continue to need more space to store the Library's growing 
collections, and we are heartened by having a 100 percent retrieval 
rate from the Fort Meade repositories to our reading rooms.
    I have also been asked why we need to sustain collections when so 
much content is available electronically. It is a myth that as digital 
content has exploded onto the scene, hard copy materials are 
significantly declining. In fact, in the past 10 years alone, global 
book publishing has increased by 40 percent, and published books are 
increasing in number everywhere except (and for the first time this 
year) in the USA. The Library has enormous digital content holdings, 
but digital information will never replace our heritage assets, the 
physical record of knowledge and creativity represented in the 
collections. And there is a need to keep hard copies of many materials 
in view of the risks of tampering and the impermanence of much digital 
material.
    The Library of Congress was established out of our forefathers' 
conviction that knowledge is important to governance. Jefferson in 
essence established our collections policy. I believe that he would 
understand why we must continue to build the collections even though we 
face challenges in being able to store them, preserve them, and make 
them accessible. For the past 210 years, the Congress has made it a 
priority, through good times and bad, to allocate resources to properly 
fund the Library of Congress--to meet its acquisition and related 
storage needs. As a result, people living today have access to an 
incredible record of knowledge and creativity.
    If we succeed in our mission, our descendents--25, 50, and 200 
years from now--will be able to benefit from what we found important to 
acquire and preserve in 2011.
    Facing both relentless technological change and ever-increasing 
demands on the Federal budget, the Library has to be both disciplined 
and creative to fulfill its historic mission of service to the Congress 
and to the American people.
    This budget request is informed by an ambitious 2009-2010 
Management Agenda that I launched in July 2009 to ensure that the 
Library's investment priorities are focused even as its programs 
reflect new ideas and solutions. We have instituted a Library-wide 
approach to updating the Library's strategic plan and aggressively 
developed coordinated plans for information resource management, 
enterprise architecture, human capital management, facilities 
management, website content, the acquisition of electronic works 
through mandatory deposit, and the creation of a culture of innovation 
at the Library.
    The Management Agenda also addresses findings from a number of 
recent internal management-related studies, including a report from an 
internal Library Committee on Strategic Direction, an Inspector General 
report on information technology strategic planning, and a Library-wide 
employee survey. The agenda will help the Library's Executive Committee 
continue to strengthen Library decisionmaking, allocation of resources, 
and accountability.
    Since its July launch, the Management Agenda has emphasized the 
development of results-oriented outcomes, broad involvement from all 
levels of Library staff and managers, and implementation of best 
practices in Library management structures and processes.
    For the Library's fiscal 2011 request, our principal requests for 
program increases are for:
Broadening Research Capacity and Enhancing Data Management Technology 
        to Better Serve Congress on Complex Emerging Policy Issues
            Broaden Research Capacity--$2.8 million
    The Congressional Research Service (CRS) requests funding and FTEs 
in fiscal 2011 to broaden its expertise and strengthen analytical 
capacity in the areas of science and technology, healthcare, financial 
economics and accounting, and social policy related to employment, 
immigration, and the work force. This funding will enable CRS to 
enhance its unique multidisciplinary analysis on the range of complex 
policy issues before the Congress. The request is the first half of a 
2-year initiative to provide the additional analytical skills needed to 
fully support the expanding needs of the Congress in these areas. This 
additional analytical capacity will also give CRS the long-term 
flexibility to adapt to rapidly changing issues and debates that will 
arise in these critical areas.
            Enhance Technology--$2.1 million
    CRS also requests funding to adapt and strengthen its information 
technology research architecture in order to meet growing congressional 
demands in almost every policy area for analysis requiring an 
increasing quantity of complex data. This funding will enable CRS to 
create and maintain a state-of-the-art information research 
architecture, establish a robust research data management (RDM) 
structure, and develop new mechanisms to deliver CRS products and 
services to its congressional clients.
Assuring Access to the Collections Now and into the Future
    The Library's fiscal 2011 budget request includes modest support 
for key operational and technological improvements that directly affect 
the delivery of core mission services. The request will support our 
newly reorganized strategic planning efforts over the last several 
years to prioritize our needs and allocation of resources.
            Acquisitions and Bibliographic Access Directorate Space 
                    Reconfiguration--$1.05 million
    The request includes support for a reconfiguration of space in the 
Acquisitions and Bibliographic Access Directorate (ABA) to realize 
efficiencies in acquiring and processing collections materials. This is 
a critical core function of the Library. Heretofore these processes 
have been based on a century-old library model. Work processes have 
been reengineered and streamlined, and now a space reconfiguration is 
needed to fully implement our new workflow model by creating 
appropriate processing areas, mail receiving areas, shelving, and 
secure housing areas.
            Collections Inventory Management--$1 million
    The requested increase in funding will also help to make inventory 
control an ongoing, core function. This funding will support the 
continuation of the baseline inventory initiative begun in 2002, as 
well as the inventory work related to the transfer of collections to 
Fort Meade. The Library is working with leaders in the private sector 
to identify and incorporate best practices in inventory control.
            Integrated Workflow and System Replacement--$1.35 million
    The Library also requests funding to take full advantage of 
technology by completing the analysis of Library Services' systems and 
workflows begun in fiscal 2009. This effort is developing a process 
management system to integrate current systems and databases, thereby 
streamlining Library-wide business functions. The Library's renewed 
enterprise architecture program will guide the development of the 
system. This request also includes support for the replacement of an 
inadequate MS DOS-based order, distribution, and accounting software 
system used by the Library's overseas offices.
            Elimination of Foreign Legal Gazette Backlog and Class K 
                    Conversion--$1.1 million
    Finally, to ensure that the law collection is both comprehensive 
and current, the Library requests funding for contractual services to 
eliminate a preservation backlog of foreign legal gazettes, as well as 
personnel resources to reclassify 610,000 volumes in the law 
collections. This reclassification will allow new legal specialists to 
search and retrieve all portions of the collections, as staff members 
most familiar with the older classification system retire.
Investing in Human Capital
            Supervisor Development--$1.05 million
    In alignment with the Management Agenda's focus on human capital 
management, the Library requests an investment in developing 
supervisors and staff, as well as funding for a Library-wide student 
loan program to support recruitment and retention of the next 
generation of Library employees. The request for funding for 
supervisory development flows in part from a Library-wide employee 
survey, which revealed the need for enhanced supervisory and leadership 
skills to develop new and existing supervisors with the skills to hire 
and cultivate a diverse and effective workforce.
            Staff Development--$1.6 million
    The Library requests funding to invest in staff development to 
address critical training gaps, and to develop and sustain a culture of 
innovation. Funding for the Library-wide student loan program modeled 
on the programs of the Congress and the Executive Branch will give the 
Library the retention and recruitment tool that it needs.
Ensuring Effective and Efficient Maintenance and Operation of the 
        Library's Public Spaces and Facilities
            Public Space Maintenance and Operations--$1.5 million
    The Library's request includes funding to support Library-wide and 
public space facility needs. The expanding workload associated with the 
greatly increased number of visitors, aging historic buildings, complex 
regulatory requirements, and broad new energy conservation initiatives 
cannot be accomplished with currently available resources. In fiscal 
2011, the Library requests support to address flooring issues in public 
spaces, including carpeting that has long ago exceeded its normal 
replacement cycle; to implement greening and energy conservation 
initiatives; to eliminate an Office of Compliance-reported workstation 
safety hazard; to modernize food service areas; and to expand the use 
of contract professional design and engineering services as recommended 
by the Office of the Inspector General.
            Furniture Inventory Management--$391,000
    In addition, the request includes funding to implement an ongoing 
contract for an automated furniture inventory and recycling system for 
furniture reuse. This funding will support the Library's highly 
successful furniture inventory and reuse pilot project, which since 
2006 has effectively reused 13,196 pieces of furniture to achieve a 3-
year savings/cost avoidance roughly ten times the annual cost of a 
furniture inventory management contract. This requested funding will 
also support a small stock of high demand, frequently needed items for 
rapid provision to offices that are experiencing losses of productivity 
because of the long lead time required for procurement processing.
Acquiring In-House IT Capability in the Electronic Copyright Office 
        (eCO) and Licensing/Royalty Distribution Systems
            Copyright Technology Office IT Support--$475,000
    In response to an increase in responsibilities related to system 
infrastructure and development support for the electronic Copyright 
Office (eCO) system on which the great majority of Copyright Office 
activities are processed, the Copyright Office requests funding to 
acquire in-house IT expertise for the system. This funding will provide 
highly skilled and experienced IT professionals to support the eCO 
system so that the Copyright Office will rely less on contract support 
for day-to-day maintenance and operations. This funding will also 
result in more detailed and efficient system implementation and 
testing.
            Licensing Reengineering Project--$790,000
    The Copyright Office also requests funding for contractor support 
to complete the implementation of the Licensing Division reengineering 
effort to automate the royalty calculations process. Reengineering 
Licensing's processes and automating the calculations process will 
improve productivity and strengthen responsiveness to both copyright 
claimants and users of the public licenses. In addition, the Copyright 
Office requests funding for IT staffing to support the reengineered 
licensing/royalty distribution system.
    The committee last year appropriately expressed concern about the 
number of copyright registration applications waiting processing. 
Through internal efforts in the Copyright Office and a recent program 
which I initiated to temporarily assign 50 other Library personnel to 
the Office, we have made a significant reduction--close to 70,000 
claims--in that backlog. Both the Register and I will continue to give 
this effort a high priority.
    In summary, senior management's extensive recent efforts to renew 
and improve governance processes and accountability across the Library 
account for our fiscal 2011 funding request to support these critical 
operational requirements and immediate congressional needs.
    Mr. Chairman and members of the subcommittee, thank you again for 
your support and your consideration of our fiscal 2011 budget.
                                 ______
                                 
               Prepared Statement of Daniel P. Mulhollan
    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee: Thank you for the opportunity to present the fiscal year 
2011 budget request for the Congressional Research Service (CRS). I 
would also like to describe how we align our work with that of the 
Congress to serve you most effectively and steps we are taking to 
ensure continued success in that mission.
                alignment of crs work with the congress
    CRS works closely with the Congress on a daily basis and has 
maintained this working relationship since its inception. Members know 
they can count on CRS to be nonpartisan, objective, authoritative, and 
confidential. Experts at the Service align their work with the 
congressional agenda from the moment a new issue arises and continue to 
meet the needs of lawmakers throughout all stages of the legislative 
process and across the full range of active public policy issues. CRS 
analysts examine the nature and extent of problems facing the Congress, 
identify and assess policy options, assist with hearings on policy 
proposals and on implementation of existing policies.
    We closely support the Senate in the confirmation process involving 
executive officers and judges and are currently gearing up for another 
nomination to fill a Supreme Court vacancy. A team of CRS attorneys and 
procedural experts is also assisting the Senate in preparing for an 
impeachment trial of a Federal district court judge. With high profile 
treaties on the agenda, CRS will continue its analytical support of the 
treaty ratification process. CRS brings a high level of expertise and 
institutional memory to assist with these essential constitutional 
responsibilities of the Senate.
    Highlights of the past fiscal year illustrate the breadth and depth 
of services that meet continuing congressional needs for legislative 
assistance.
    As the financial crisis peaked and the U.S. economy continued to 
stall, CRS experts focused on options for economic stimulus under 
consideration by Congress: understanding the effectiveness of Federal 
spending increases, income tax cuts, and the application of monetary 
policy. During formulation, deliberation, and implementation phases of 
the stimulus bill, the American Recovery and Reinvestment Act of 2009, 
analysts assessed how the provisions could provide stimulus, in what 
ways they could be utilized, and by whom. They addressed debt and 
deficit issues and measures of economic recovery. As Congress debated 
measures to address weaknesses of the financial system, CRS supported 
congressional efforts to reform key elements of consumer finance, 
including credit card markets, mortgage finance, and predatory lending. 
Experts studied and reported on systemic risk, resolution of problems 
of banks deemed too big to fail, mark-to-market accounting, and credit 
rating agencies. When the effects of the financial downturn began to be 
felt in other parts of the world, CRS analyzed the impact of the crisis 
on the European Union, China, Canada, Latin America, and Russia.
    The healthcare debate also saw CRS heavily involved in analyzing 
the various proposals and consulting with Member, committee, and 
leadership offices. CRS formed a health team with participants from 
several CRS divisions marshaled to provide a multidisciplinary 
perspective on this highly complex issue. Our congressional procedures 
experts also responded to many complicated procedural questions that 
arose during consideration of legislative proposals. This issue remains 
a continuing focus of CRS work.
    The President also submitted his first nomination to the Supreme 
Court last year. CRS analysts and information professionals, as in 
years past, worked closely with Senate Judiciary Committee staff in 
supporting the advice and consent process. CRS prepared analyses of 
court of appeals decisions of Judge Sotomayor and developed resources 
available on our website to assist with the hearings and Senate 
deliberation of the nomination.
    Other congressional concerns required impartial CRS policy 
analysis, such as the influence of Iran's policies on the security of 
the Middle East region, Afghanistan stabilization, and the handover of 
major security missions to Iraqi forces; unemployment compensation, job 
creation, and training needs resulting from the severity of the 
recession; food and drug safety; and responses to the potential public 
health threat of an H1N1 influenza pandemic. Additional examples of 
support include analysis of environmental and climate change concerns, 
U.S. energy security and independence; the crisis in the automobile 
industry and subsequent bankruptcies of large automobile companies and 
suppliers, the U.S. missile defense program and its technical 
capabilities, national security issues and military law regarding 
wartime detainees, and the increase of drug trafficking violence at the 
U.S.-Mexican border.
    CRS management consults with congressional leadership regularly to 
ensure that the Service's research agenda is aligned with lawmakers' 
needs. To confirm that CRS remains aligned with the Congress and 
supportive of its legislative needs, we appreciate your support for 
engaging outside expert assistance to inform and reinforce our efforts 
to align our work with the congressional agenda. We recently entered 
into a contract with LMI, a not-for-profit strategic consulting firm, 
to evaluate independently CRS's current staffing models and procedures 
to determine how effectively we are meeting our statutory mandate. LMI 
has gathered both qualitative and quantitative information from 
committees, subcommittees, Members and staff and CRS staff. We were 
proactive in contacting over 3,700 staff members by e-mail before the 
distribution of a staff survey by LMI to encourage a strong response 
rate. That effort produced a response rate with a margin of error of 
less than 3 percent for the data. LMI conducted interviews with Members 
or senior staff from 15 congressional offices and focus groups with 
staff from the House and the Senate--all groups selected using a 
stratified random sample. LMI will also report on best practices for 
research organizations geared to ensuring responsiveness to client 
needs, and assess communication channels, including a Member Advisory 
Committee, that would ensure that CRS remains aligned with the work of 
the Congress and the needs of its clients. In addition, LMI conducted 
meetings with CRS staff. We expect their final report in August.
    On January 15, 2010, CRS implemented telework for its non-
bargaining unit staff, following guidance in the conference report that 
CRS have in place by January a telework policy modeled on that of the 
Library. Following negotiations with CREA, the certified bargaining 
representative, and with the help of a mediator from the Federal 
Mediation and Conciliation Service, we reached a formal agreement on 
March 26, 2010. We will modify the telework agreement for non-
bargaining unit staff so that it conforms to the agreement reached with 
CREA, and will implement telework for all CRS staff on May 3, 2010. CRS 
has invested significant resources to set up a robust infrastructure to 
support those who seek the telework option. I believe that the telework 
policy implemented for CRS staff provides the benefits to employees of 
an additional alternative work arrangement. At the same time the policy 
preserves the ability of CRS to be there when Congress needs us and to 
remain fully aligned with the legislative agenda and your work 
patterns.
                          crs as shared staff
    We understand the difficult budget outlook, and CRS is prepared to 
play its part in arriving at a responsible budget for the next fiscal 
year that achieves critical agency objectives within a constrained 
funding environment. Congress faces enormous challenges in fashioning 
policy on high-profile issues such as health, immigration, the aging 
population, the conduct of two wars, burgeoning technological 
advancement, and financial restructuring. In CRS, Congress has at its 
disposal adjunct staff available to every Member and committee. This 
means that Member and committee offices need not hire the specialized 
expertise that CRS is able to retain and make available to all 
congressional offices and committees as shared staff. In difficult 
budget times, CRS offers a model that achieves economies and savings 
and at the same time affords the Congress the expertise and resources 
it needs to legislate wisely and in an informed manner with respect to 
the complex issues that confront it and the country.
    In that regard, before explaining our budget request, I want to 
discuss briefly a matter that relates to this model that Congress 
intended for CRS and the constitutional status of CRS and the Library 
of Congress. As the Library has already informed you, in February, the 
Federal district court in Live365, Inc. v. Copyright Royalty Board, 
preliminarily rejected a challenge to the Librarian's authority to 
appoint Copyright Royalty Judges ruling that it was likely that the 
Library would prevail on its argument that the Librarian of Congress is 
the head of a department who may appoint such officers under Article II 
of the Constitution. The court relied in part on an earlier 1978 case--
Eltra Corp. v. Ringer--which upheld the Librarian's power to appoint 
the Register of Copyrights. The judge noted the Eltra court's findings 
that the Library was a hybrid agency with both executive functions 
(e.g, the Copyright Office's registration function) and legislative 
functions (e.g., CRS).
    I feel that the hybrid formulation captures the original intent of 
Congress in placing CRS within the Library. Congress extensively 
debated the relationship between CRS and the Library prior to the 
creation of the modern CRS in the Legislative Reorganization Act of 
1970. At the time, it was thought ``the Library serves as a useful 
mantle for protecting the Service from partisan pressures. Furthermore, 
the effectiveness of the CRS will be enhanced by its continued instant 
access to the Library's collections and administrative support 
services.'' I believe that that rationale is still valid today and that 
the model that the Congress devised back in 1970 works. While CRS 
remains open to any change the Congress deems advisable, the overall 
relationship whereby Congress' policy research and analysis support arm 
is housed within the Library of Congress is a valuable one worth 
preserving.
                    fiscal year 2011 budget request
    The CRS budget request for fiscal year 2011 is $119,919,000, with 
almost 90 percent devoted to pay and benefits for our staff. This 
request includes funding for mandatory pay increases and price-level 
increases due to inflation, added staff with specialized technical 
skills and policy expertise, and an upgraded information architecture 
supporting ready access to the many and varied data sets required for 
research. CRS continues to operate at its lowest staff level in more 
than three decades, and the small percentage of non-pay expenditures is 
limited to basic operational needs. Therefore it is necessary to 
request additional funding when investments are needed to expand or 
upgrade the capabilities of the Service to meet the growing policy 
demands placed upon Congress.
    An internal review of our capabilities to analyze the evolving and 
increasingly complex challenges facing the Congress identified gaps in 
the specialized skills needed for comprehensive multidisciplinary 
analyses and assessments. This budget request includes $2.8 million for 
17 of the 34 FTEs needed to rectify these concerns. Thirteen of these 
34 positions would enhance scientific and technical capabilities in 
areas such as energy, climate change, information technology, military 
weapons, and security and provide additional expertise in disciplines 
such as physics, engineering, and biology. Eight positions would 
provide new skills in analyzing the healthcare industry, health 
informatics, and veterans' health. Another eight positions would focus 
on financial regulatory and oversight issues with expertise in 
financial accounting and auditing, consumer financial protection, 
credit markets, and financial derivatives. The remaining five positions 
would be skilled in labor economics, demography, tax policy, and 
statistics to support the analyses of issues pertaining to employment, 
immigration, workforce, and economic well-being. This 2-year targeted 
increase in staff would require that CRS return to a FTE total that is 
only four over the level authorized in fiscal year 2007. These experts 
would have a direct impact on providing all relevant information and 
analysis needed for informed decisions.
    The budget request also includes $2.1 million to address our need 
to manage in a more sophisticated way the rapidly growing data 
necessary for authoritative analysis. We must invest in tools and 
services to establish an architecture that accommodates changes in 
technology. With this funding, CRS would create service-wide frameworks 
for data sets that would allow for efficient access to reliable data 
and full utilization of its contents. This investment would also allow 
us to employ modern content delivery capabilities, including 
interactive maps, data set mining, personalization features such as 
content tagging, and enhanced access to CRS products from mobile 
devices. Delays in this investment would cause a decline in efficiency 
and effectiveness as problems would increase due to technological 
obsolescence.
                               conclusion
    This budget request identifies the resources needed for the 
talented and dedicated staff of CRS to provide the full scope of 
information and analysis that is relevant to the work of Congress. CRS 
scrutinized the plans for this spending to ensure the returns justified 
the investment in this period of difficult economic conditions. My 
colleagues and I have and will continue to examine every activity and 
program for efficiencies and reduce or eliminate costs where possible 
while fulfilling our mission. We are proud of our unique role in 
providing comprehensive, non-partisan, confidential, authoritative, and 
objective analysis to the Congress, and we thank you for your support.
    Thank you.
                                 ______
                                 
    Prepared Statement of Marybeth Peters, Register of Copyrights, 
                            Copyright Office
    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee: Thank you for the opportunity to present the Copyright 
Office's fiscal 2011 budget request. Today I will discuss my fiscal 
2011 budget request for additional funds and FTEs to support the 
electronic Copyright Office system and for offsetting authority and 
FTEs to complete and maintain the Licensing Division Reengineering 
effort. I will also highlight some of the Office's accomplishments and 
challenges of fiscal 2009 and 2010.
             support of the united states copyright system
    The Copyright Office administers the U.S. copyright law, under 
which owners of creative works register claims to protect their 
copyrights, cable and satellite companies and other users of statutory 
licenses pay royalties related to their statutory licenses, and 
publishers and other distributors of works published in the United 
States deposit copies of copyrightable works for possible addition to 
the Library's collections. Congress enacted the first copyright law in 
May 1790; in 1870, it centralized the administration of the Federal 
copyright law in the Library of Congress. The Copyright Office 
typically handles more than 500,000 copyright claims each year, 
representing well over one million works, and transfers copies of 
selected copyrighted works to the Library's collections. In fiscal year 
2009, the Office received 532,370 claims to copyright and registered 
382,086 claims. It transferred to the Library over 739,000 copies, 
valued at over $32.2 million. The Office as a whole answered almost 
360,000 non-fee information and reference inquiries and served a 
substantial number of visitors to the Public Information Office and the 
Copyright Public Records Reading Room.
    The Licensing Division of the Copyright Office receives royalty fee 
payments related to licenses that deal with secondary transmissions of 
radio and television programs by cable television systems; secondary 
transmissions of superstations and network stations by satellite 
carriers; and the importation, manufacture, and distribution of digital 
audio recording devices and media. In fiscal 2009, the Licensing 
Division collected more than $262 million in royalties from cable and 
satellite companies subject to statutory licenses, accrued more than 
$10.5 million in interest on royalties for the copyright owners, and 
distributed close to $273 million to copyright owners. The Office moved 
forward with reengineering the Licensing Division and building an 
electronic filing system.
     highlights of copyright office accomplishments and challenges
Addressing the Copyright Office Backlog
    As discussed in its December 31, 2009 report to you, the Copyright 
Office has been focusing on reducing the outstanding backlog of 
applications for copyright registrations. As highlighted in the report, 
the Copyright Office's backlog reduction efforts are in three key 
areas: additional staff; improved technology; and increased eService 
usage. We added over 30 Registration Specialists: 17 in spring 2009 and 
16 in January 2010. Those hired in 2009 are now fully productive; the 
class of 2010 is in training and currently productive in several 
categories of works. We improved the technology, supporting the 
processing of serial publications in the fall of 2009, through a 
combination of new hardware installation and new software. Finally, 
eService, the online copyright claims submission system, is now the 
predominant new claims filing method, accounting for over 70 percent of 
our weekly filings.
    In addition, between January and March 2010, the Librarian of 
Congress provided short term resources to assist in reducing our claims 
backlog. Fifty-one Library technicians were assigned to this effort, 
focusing on clearing over 43,000 serials (approximately 10 percent of 
our processable claims backlog); many television programs and audio 
books and more than 10,000 pre-screened performing arts/sound recording 
claims. Through the combined efforts of the Copyright Office and 
Library staff, and despite weather related closings, we achieved our 
goal of reducing the backlog by 100,000 claims. The Copyright Office is 
grateful to the Librarian and the Library as a whole in supporting our 
efforts to resolve the backlog issues.
Operations Activities
    The Copyright Office implemented its business process reengineering 
project at the end of fiscal 2007 and released eService, the electronic 
Copyright Office (eCO) online registration system, in July 2008. 
eService filings quickly displaced the use of paper applications, 
constituting 54 percent of all claims received for fiscal 2009 and 72 
percent for the first quarter of fiscal 2010.
    In addition to the backlog reduction work previously discussion, 
the Copyright Office focused on: long-term strategic improvements to 
the eCO system; modified its fee schedule; completed preparations for 
the Copyright Records Digitization Project; and as part of our 
succession planning effort, established a new leadership training 
program.
    In the Summer of 2009, the Office awarded a contract for major eCO 
software upgrade that will improve eService user processing, improve 
Copyright Office throughput time, and in a later version, provide 
automated statistics to support internal management.
            Processes
    Through a continuous improvement initiative, the Copyright Office 
further refined its reengineered processes. For instance, Registration 
Specialists proposed two changes adopted by the Copyright Office: one 
resulted in decreasing the time required for the copyright deposit 
dispatch process; the other led to improved inter-divisional 
communications, resulting in faster problem resolution. We also 
examined our mail operation and throughput times in our Receipt, 
Analysis and Control Division which resulted in improvements in data 
entry and processing of correspondence. We expect to continue our 
improvement efforts by identifying additional areas where efficiencies 
can be achieved.
    In August 2009, the Copyright Office adjusted its fee schedule to 
reflect post-reengineering operational changes. Fees associated with 
filing copyright claims were adjusted to reflect processing costs, with 
eService filings remaining at $35, and paper claims increasing to $65: 
a reflection of the increase in the cost of processing paper claims. 
eService claims are less costly: they do not require data entry and 
they require fewer quality controls. Other fee services, such as 
research or certified copies of deposits, were also adjusted to more 
closely reflect the actual costs of the service.
            Organization
    As previously mentioned, during fiscal 2009, the Office hired 17 
registration specialists. The new hires were immersed in an accelerated 
training program combining classroom instruction with actual claims 
processing in the production environment. As of this month, 16 
registration specialists achieved independence in claims processing. A 
second class of 16 registration specialists was hired in January 2010 
and is currently engaged in an accelerated training program. The 
addition of 32 new registration specialists will significantly increase 
our production capacity. Recruitment for both groups was extensive, 
with a special effort made to attract underrepresented populations into 
our workforce. The interest level was overwhelming, allowing us to 
select a high caliber of new Registration Specialists.
    In mid-2008, the Copyright Office realized the need for a good 
succession planning program and a corresponding need to implement a 
leadership training program. In the spring 2009, we launched the 
Aspiring Leaders Program with an inaugural class of 12 participants. 
This is a competitive program in which candidates from the across the 
Copyright Office were selected to participate in a series of education 
programs focusing on leadership, communications, decisionmaking, and 
strategic thinking. Participants also had detail opportunities to other 
Federal agencies including the National Archives, Smithsonian 
Institution, and offices thought the Library of Congress. Our goal is 
to offer this program to other Copyright Office staff on an annual or 
bi-annual basis.
            Information Technology
    In fiscal 2009, the Copyright Office continued to make significant 
improvements to the eCO system through periodic software development 
releases and hardware installations. The cumulative effects of these 
actions are better system performance, stability and enhanced 
functionality for both Office staff and online filers. This included 
expanding the eService capacity to accommodate up to 500 concurrent 
users and ensuring its stability through an automatic backup system 
that will operate if the primary system fails. Also, in November 2009 
the Library of Congress Information Technology Service installed a new 
computer hardware suite that resolved recurring system throughput 
issues, improving the accessibility of eCO information by the Copyright 
Office staff.
    System improvements are continuing through fiscal 2010 as the 
Office is engaged in a major eCO upgrade designed to improve eService 
customer experience, improve Copyright Office throughput time, and in 
future versions, the automated capability to provide automated 
statistical software. The project includes an upgrade to the newest 
version of the software application that drives eCO and the 
installation of new network hardware. The initial implementation, 
scheduled for June 2010, will be followed by subsequent releases 
introducing new system functionality based on feedback elicited from 
internal and external users. Expected improvements in eCO system 
performance and functionality will ultimately result in increased 
production and decreased registration processing times.
    For fiscal 2011, the Office seeks approval to hire three new highly 
skilled IT specialists to provide expertise in the areas of project 
management, business analysis, requirements definition, and system 
testing. Providing for more in-house IT support will result in direct 
and indirect cost savings by reducing reliance on contractors for 
ongoing maintenance and operations, enhancing our ability to undertake 
critical projects, improving project and resource management, and 
improving testing methods.
Copyright Records Digitization Project
    We made significant progress on our Copyright Records Digitization 
Process during fiscal 2009 and early 2010. Based on an extensive 
analysis of our existing records, we determined that, since 1870, the 
year the registration function was moved to the Library thereby 
consolidating the copyright functions in the Library of Congress, 34 
distinct processes have been employed to capture and preserve copyright 
data. Each process, from the large books signed by the A.R. Spofford, 
the Librarian of Congress in 1870, through the handwritten and typed 
card catalogue, and even a citizenship certification signed on a 
playing card, required testing to ensure the best possible image could 
be captured and stored for preservation and public use.
    Based on the analysis, the Copyright Office will undertake the 
following steps to complete the digitization task and allow full public 
access to the country's copyright records:
  --Complete imaging the Catalog of Copyright Entries (660 volumes). 
        This is a 6 month process and should be completed by the fall 
        2010;
  --Complete imaging of 2.5 million assignment cards. This should also 
        be completed by fall 2010;
  --Begin imaging the 49 million card catalogue by catalog series, 
        beginning with the most recent (1977) data and working 
        backward;
  --Begin metadata creation for imaged records to ensure public 
        searchability. This is a manual process and must be done for 
        each image; and
  --Begin the cross referencing between and integration of imaged 
        records.
    I look forward to sharing our progress on this project at future 
hearings.
Licensing Division Reengineering
    In fiscal 2009, the Licensing Division resumed its reengineering 
efforts, reviewing its current administrative practices and underlying 
technology, performing a needs analysis for future operations, and 
beginning to design its re-engineered systems. This included developing 
an operational baseline, consulting with external stakeholders and 
preparing the organization for the change process inherent in 
reengineering. The goals of this reengineering effort are to: decrease 
processing times for statements of account by 30 percent or more; 
implement an online filing process; and to improve public access to 
Office records. In fiscal 2010 the Congress authorized the Licensing 
Division to use $1.1 million from the royalty pools to cover the 
reengineering costs and associated supporting software. Earlier this 
month the Office released a Request for Proposal to support this 
effort. As part of our fiscal 2011 budget request, we requested an 
additional one time authorization of $500,000 to cover any unforeseen 
reengineering expenses. As always, any funds not expended will be 
returned to the royalty pools. We are also asking for authorization of 
2 FTEs and $285,000 to cover ongoing system costs and maintenance for 
the new information technology system.
Legal and Policy Activities (Domestic and International)
    The Office worked closely with the staff of the Senate Committee on 
the Judiciary on the reauthorization of Section 119 of the Copyright 
Act, a statutory license available to satellite services for the 
carriage of certain-over-the-air television signals, which was to 
expire on December 31, 2009. In 2008 the Office submitted its report to 
Congress on updating this license as well as two other statutory 
licenses; this report served as the beginning point of this past year's 
legislative activities. During the year much discussion ensued and the 
Senate introduce S. 1670. However, work on this legislation was not 
completed by the end of last year and since then Congress has enacted 
several temporary extensions of the section 119 statutory license.
    The Office spent significant time during the year evaluating the 
legal and business implications of the ongoing Google Book Settlement 
litigation. The Office assisted the Justice Department in preparing its 
Statement of Interest filed September 18, 2009 for the October fairness 
hearing. That hearing was postponed when the parties announced that 
they were amending the settlement agreement to address concerns that 
had been raised by a wide range of parties. An amended settlement 
agreement was filed with the court in early November and the fairness 
hearing was rescheduled for February 18, 2010. The Office once again 
assisted the Department of Justice with its second Statement of 
Interest, filed February 4, 2010. Both statements expressed concerns 
about the effect of the settlement on copyright law and policy and on 
competition. Additionally, the Office assisted the Justice Department 
in a number of court cases, including the preparation of amicus briefs 
filed with the Supreme Court concerning the interpretation of various 
provisions of the Copyright Act and filings in other cases involving 
constitutional challenges to the copyright law.
    The Omnibus Appropriations Act of 2009 mandated that the Copyright 
Office prepare a report for Congress on the copyright treatment of pre-
1972 sound recordings; this report is due in March 2011. Specifically, 
the Office has been directed to study the desirability of, and means 
for, bringing sound recordings fixed before February 15, 1972 under 
Federal jurisdiction. Sound recordings fixed before February 15, 1972 
are governed by state law which in many cases is not well defined. The 
Federal copyright law allows states to protect these pre-1972 sound 
recordings until February 15, 2067. Work on this complicated issue is 
underway, and we expect to meet our deadline.
    On the policy front, office attorneys spent considerable time in 
2009 examining the ways in which the United States provides copyrighted 
works in accessible formats to the blind, visually impaired and print-
disabled. The Office led an extensive consultation process regarding 
the operation of the U.S. exception, 17 U.S.C. Sec. 121, generally 
referred to as the ``Chafee Amendment.'' The Copyright Office website 
contains the record of this public process. The Office also conducted a 
day-long public meeting to explore the topics raised in the comments it 
received. These included: the operation of the Chafee Amendment for the 
general reading public as well as for students at the K-12 and college 
levels; the cross-border movement of accessible works for the blind and 
visually impaired; the role of technology; the role of trusted 
intermediaries; and existing systems for providing accessible versions 
of copyrighted works to the blind. The Office has worked diligently 
with other U.S. Government agencies in preparing for and attending 
meetings of the World Intellectual Property Organization's (WIPO) 
Standing Committee on Copyright, which has this issue on its agenda. 
The Office is currently working with the Library's National Library 
Service for the Blind, as well as with advocates for the blind and 
other stakeholders to explore ways to improve standards, resources and 
responsible cross border movement of works in accessible formats. 
Finally, during the week of March 8, the Office and the WIPO sponsored 
an international training program at the Library of Congress. The 
program focused on exceptions for the blind in the United States and 
other countries and consideration of a series of timely questions about 
resources, technical standards and market solutions designed to improve 
accessibility in the digital world, an area in which the United States 
has long been a leader. Attending were representatives of developing 
countries and countries in transition as well as experts from various 
parts of the world. Speakers included government and private sector 
experts from the United States and other countries. Staff from the 
Judiciary Committees of the Senate and House spoke on ``Copyright 
Policy on Capitol Hill.''
    Additionally, the Copyright Office assisted Federal government 
agencies with many multilateral, regional and bilateral negotiations 
and served on many U.S. delegations, including negotiations regarding a 
proposed Anti-Counterfeiting Trade Agreement and negotiations and 
meetings relating to the implementation of intellectual property 
provisions of existing Free Trade Agreements and Trade Promotion 
Agreements. The Copyright Office also participated as part of the U.S. 
delegation at various meetings of the WIPO.
                               conclusion
    Mr. Chairman, I ask you to support the Office's fiscal 2011 budget 
request for two FTEs and additional offsetting authority to complete 
and maintain the Licensing Division Reengineering efforts and 
additional FTEs to provide long-term support for eCO, our information 
technology system.
    I also want to thank you for your past support of the Copyright 
Office reengineering efforts and its budget requests.

    Senator Nelson. Ambassador O'Keefe.
    Thank you, Dr. Billington.
STATEMENT OF AMBASSADOR JOHN O'KEEFE, EXECUTIVE 
            DIRECTOR, OPEN WORLD LEADERSHIP CENTER
    Ambassador O'Keefe. Thank you, Mr. Chairman, Senator 
Murkowski, Senator Pryor. I appreciate the opportunity to 
testify on the Open World Leadership Center's fiscal year 2011 
budget request.
    As a unique congressional center and resource, Open World 
is the dynamic catalyst for hundreds of international projects 
and partnerships that constituents have developed with emerging 
leaders from the countries of Eurasia. More than 6,000 
volunteer American families in all 50 States have hosted 15,500 
young professionals. More than 75 percent of Open World's 
fiscal year 2009 appropriation was expended on U.S.-based goods 
and services.
    Our U.S. hosts immersed these professionals in American 
life and values, contributing $1.9 million in cost shares. 
American volunteer hosts have enthusiastically stepped forward, 
keeping the demand for 2010 visitors at nearly triple our 
supply.
    In the past year, we have intensified our continuing 
efforts toward working with Senators, Representatives, and 
their staffs in coordinating programs with civic organizations 
in towns across America. We have doubled the number of Members 
of Congress who have met with our delegates. The Open World 
Board of Trustees has also directed the Center to draft a new 
strategic plan with goals that will engage Members of Congress 
and their constituents even more.
    We brought delegates from all 83 regions of Russia, all 
parts of Ukraine, from the Caucasus and central Asia. They now 
constitute 10 percent of the Russian Duma, one-third of the 
Council of Judges, and are the engines for change in fields 
from education to medicine.
    In the security sphere, for example, a Georgian Open World 
participant has been promoted to be his country's first 
``cybersecurity czar.'' As he crafts Georgia's strategy to 
thwart the emerging threat of cyber attacks, he has reconnected 
with Department of Homeland Security experts that he met on our 
program.
    In a very recent example, a Kyrgyz parliamentarian, whom 
the Montana Senate majority leader both hosted in Helena and 
then visited in Bishkek, is one of the leaders writing the new 
constitution in Kyrgyzstan right now following the April 
revolution.
    Open World offers an extraordinary ``bang for the buck'' in 
terms of efficiency, cost effectiveness, and value. The Center 
boasts an overhead rate of 7 percent, and every grant contains 
cost-shared elements. Unfortunately, to keep costs down, I had 
to let go one of our nine staff here in Washington.
    Funding at the $14 million level requested by the Board of 
Trustees will enable the Center to resume its important 
nonproliferation program, bringing nuclear experts to enhance 
working relationships not covered by other programs. We will 
expand to Armenia, Uzbekistan, and Belarus and will fund a 
full-time development expert.
    With your support, Americans throughout the United States 
will engage a promising new generation of political and civic 
leaders--parliamentarians, mayors, environmentalists, anti-
human trafficking activists, and others--in a dialogue that 
has, for example, doubled the number of Rotary Clubs throughout 
the regions we operate in and created 20 sister courts.

                           PREPARED STATEMENT

    This unprecedented congressional program has proven to be 
an exciting vehicle for linking grassroots professionals and 
emerging leaders. It helps create more transparent and 
accountable governments and expands cooperative arrangements 
between America and Eurasia.
    Thank you very much for your attention.
    [The statement follows:]
             Prepared Statement of Ambassador John O'Keefe
    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee, I appreciate the opportunity to present testimony on the 
Open World Leadership Center's budget request for fiscal year 2011. The 
Open World Leadership Center, of which I am the Executive Director, is 
a unique congressional center that is a resource for Members of 
Congress and their staff and constituents. It seeks to assist Congress 
in its foreign policy oversight responsibilities and aid Congress in 
interparliamentary and similar legislative activities. In this 
capacity, the Center conducts one of the largest U.S. exchange programs 
for Eurasia, through which some 6,100 volunteer American families in 
all 50 states have hosted thousands of emerging leaders from former 
Soviet countries. As a result of these exchanges, hundreds of projects 
and partnerships beneficial to all have been initiated and enhanced. 
All of us at the Center are very grateful for Congress' continued 
support, and to the Members of Congress who participate in the Center's 
Open World program and who serve on our governing board. We look 
forward to working with you, other Members of Congress, congressional 
interest groups, and volunteer hosts throughout the United States to 
set the future path of Open World.
    The Board of Trustees suggested that the Center seek greater 
congressional involvement in the Open World program and develop a 
strategic plan that makes our agency an even more valuable resource for 
the legislative branch. I am pleased to share with you that nearly one 
out of two program participants in 2009--48 percent--met with Members 
of Congress or their staff. When our board convened on February 4, 
2010, we discussed important legislative components of a new strategic 
plan for 2012-2016, and I look forward to sharing these components with 
you as we develop them.
    Allow me to update you on the Center's operations and some recent 
program accomplishments. More than 15,000 emerging leaders from Russia, 
Ukraine, Azerbaijan, Georgia, Kazakhstan, Kyrgyzstan, Moldova, 
Tajikistan, Turkmenistan, Lithuania, and Uzbekistan have participated 
in Open World. Significantly, more than 48 million Muslims reside in 
countries where Open World is active, and these countries have 
approximately 2,000 miles of shared borders with Iran and Afghanistan.
    Since its inception, the Center has awarded grants for overseeing 
our U.S. exchanges to 60 organizations headquartered in 25 different 
states and the District of Columbia. These grantee organizations host 
delegations themselves or award subgrants to local host organizations 
to do so. By 2010, well over 600 local host organizations--including 
universities and community colleges, Rotary clubs and other service 
organizations, sister-city associations, and international visitor 
councils and other nonprofits in all 50 states and the District of 
Columbia--had conducted Open World exchanges for the Center.
    More than 75 percent of Open World's fiscal year 2009 appropriated 
funds were expended on U.S. goods and services through contracts and 
grants--much of it at the local community level. American volunteers in 
48 states and the District of Columbia home hosted Open World 
participants in calendar year 2009, contributing a large portion of the 
estimated $1.9 million given to the program in the form of cost shares.
    In fiscal year 2010, Open World had a 14 percent reduction in 
appropriated funds. As a consequence, Open World terminated one of its 
most important but costliest programs, the nonproliferation exchange 
program for Russian nuclear experts and decision makers. Nevertheless, 
through cost shares, contract renegotiations, donations, and an 
interagency transfer, the Center was able to maintain the quality of 
the Open World program as well as to double the number of participants 
from the Republic of Georgia.
    The Center's budget request of $14 million for fiscal year 2011 was 
reviewed by our Board of Trustees. We will seek to fulfill our Board-
approved strategic plan to expand to Armenia, Uzbekistan, and Belarus, 
as well as to bolster our development efforts. At this level, we will 
bring 1,400 participants in calendar year 2011. We estimate that, 
again, more than 75 percent of the appropriated funds will be spent on 
U.S. goods and services, including nearly $4.5 million in direct grants 
to American host organizations. The funds will allow thousands of 
Americans throughout the United States and their counterparts abroad to 
generate hundreds of new projects and partnerships and other concrete 
results.
                       open world program results
    There are many examples of solid, productive results from the Open 
World program:
    A Moscow principal who is pioneering inclusive education at her 
school instituted new curriculum activities for her students with 
disabilities--and became an advocate for Individualized Education 
Programs for special-needs students--after her 2008 Open World 
education exchange to Worcester, Massachusetts. Russian President 
Dmitry Medvedev met with this alumna and toured her institution on 
September 1, 2009, the first day of the Russian school year. The 
Russian president was impressed by the curriculum additions and by the 
alumna's point that inclusive schools like hers do not receive any 
government funding to defray the cost of the extra services provided to 
special-needs children. President Medvedev said he would have the 
Ministry of Education look into this funding issue and praised the 
alumna's school for being in the vanguard of inclusive education. The 
school visit was covered by three national TV channels.
    In agribusiness, a Moldovan alumnus, Dr. Gheorghe Arpentin, 
commenced a series of Skype online lectures recently at the request of 
North Carolina grape growers, many of whom have recently converted 
their fields into grape vineyards. The first lecture, on using organic 
viticulture, was well received; Dr Arpentin's recommendations were 
referred by members of the North Carolina Wine and Grape Council to 
North Carolina State University, where they are now being field tested 
on North Carolina soils for prospective application. Dr. Arpentin was 
recently named a deputy minister of agriculture. His second lecture is 
scheduled for late April 2010.
    This is what one of the American participants in Dr. Arpentin's 
first Skype class had to say:

    ``The SKYPE Lecture on Grape Growing by Dr. Arpentin from Moldova 
was exactly what we needed. We Americans tend to reach for `chemicals' 
to increase our crop productions. Dr. Arpentin directed us to `go 
natural with use of select rotated wild grasses' which will increase 
our yield, decrease bitterness of the grape, maximize plumpness and 
yes, save us money. With Moldova's 3,000 year history of successful 
grape growing and wine making and with Moldova's awards in the field, I 
listened closely and learned.''

    In an example touching on U.S. security interests, Open World 
Georgian delegates involved in drafting their country's personal data 
protection act met in November 2009 with House Energy and Commerce 
Committee staff members working on H.R. 2221, the Data Accountability 
and Trust Act, to discuss and compare their legislative provisions. 
Upon returning home, one of the delegates became the director of the 
Georgian Ministry of Justice's Data Exchange Agency, which is 
responsible for the nation's cybersecurity and e-government program. He 
continues to communicate with those he met on Open World, including 
representatives from the Department of Homeland Security's Computer 
Emergency Readiness Team and congressional staffers.
    At the Civil Society Summit held in Moscow last July in conjunction 
with the U.S.-Russian Presidential Summit, 12 of the 75 American and 
Russian attendees were Open World partners. All 12 now serve on working 
groups for the U.S.-Russian Bilateral Presidential Commission, which 
was created as a result of the presidential summit to explore new 
opportunities for U.S.-Russian partnership. In January 2010, a Russian 
alumnus was invited back to Washington, DC, where he had spent much of 
his 2008 Open World visit, to participate in the inaugural meeting of 
the Commission's civil society working group. The alumnus, who heads a 
nongovernmental organization (NGO) that aids homeless, exploited, and 
at-risk children and teens in Astrakhan Region, is an authority on 
child welfare issues, a major focus of the working group's first 
meeting. He is also active in advocating for Russia to create a 
counterpart agency to the Virginia-based National Center for Missing 
and Exploited Children, which he first learned about--and visited--
during his Open World exchange. This same alumnus was just appointed to 
and made chairman of the Astrakhan city election commission.
    Open World alumni are continuing to climb up the ladder into 
leadership positions while bringing about changes from the periphery in 
and the bottom up. The Open World Leadership Center tracks these and 
other such results using eight categories, or ``bins,'' such as 
partnerships with Americans, alumni projects inspired by the Open World 
experience, and benefits to Americans. Since launching a results 
database in August 2007, Open World has identified more than 3,000 
results (see attached Results Chart).
                        open world and congress
    As a U.S. Legislative Branch entity, the Open World Leadership 
Center links Congress to experienced and enthusiastic citizens 
throughout the United States who are engaged in projects and programs 
in Open World countries, and actively supports the foreign relations 
initiatives of Congress. The Open World program routinely involves 
Members in its hosting activities and is responsive to congressional 
priorities. Seven of the 18 congressional members of the Commission on 
Security and Cooperation in Europe (Helsinki Commission) met with Open 
World delegates last year. The Center also regularly consults with the 
Congressional Georgia Caucus, the Congressional Ukrainian Caucus, the 
Russia Caucus, the Congressional Azerbaijan Caucus, the Congressional 
Caucus on Central Asia, the Friends of Kazakhstan Caucus, other 
congressional entities, and individual Members with specific interests 
in Open World countries or thematic areas.
    Some examples of Member and congressional staff interaction with 
Open World in 2009 and early 2010 are:
  --In February 2009, Senate Foreign Relations Committee Ranking Member 
        Richard Lugar of Indiana met with four Turkmen parliamentary 
        deputies taking part in Open World, including International and 
        Interparliamentary Affairs Committee Chairman Batyr Berdyyev. 
        They were able to compare notes on legislative jurisdiction, 
        schedules, campaigning, and staffing with Senator Lugar. The 
        group also discussed how the United States and Turkmenistan are 
        dealing with the global economic crisis, and briefly reviewed 
        Turkmenistan's proposal in the U.N. General Assembly to create 
        an international security system for transnational energy 
        pipelines.
  --In October 2009, five Tajik journalists visiting Connecticut joined 
        Senator Christopher Dodd at the award ceremony for the Thomas 
        J. Dodd Prize in International Justice and Human Rights. The 
        award was presented to the Committee to Protect Journalists and 
        the delegates had the opportunity to talk about issues related 
        to the freedom of press with the senator and other journalists 
        at the event.
  --In January 2010, Congressman David Price of North Carolina hosted a 
        group of Moldovan parliamentarians in Raleigh and then in 
        Washington, DC. The group's visit coincided with that of 
        Moldovan Prime Minister Vlad Filat to both of these cities in 
        order to further cement sister-state relations between North 
        Carolina and Moldova. The Moldovan delegates proposed and 
        discussed the idea of forming a North Carolina Caucus in their 
        parliament.
  --In September 2009, Texas Senator Kay Bailey Hutchison met with an 
        Open World delegation of Kazakhstani women leaders, including 
        Bakhyt Syzdykova, Kazakhstan's youngest member of parliament. 
        Representative Robert Aderholt of Alabama, a cochair of the 
        Friends of Kazakhstan Caucus, also met with Syzdykova and 
        discussed the idea of establishing a relationship between the 
        Alabama Youth Legislature and the Kazakh Youth Parliament. 
        Since then, we have begun making plans to bring regional 
        coordinators for the Kazakh Youth Parliament to Alabama on an 
        Open World exchange.
  --Pennsylvania Representative Allyson Schwartz, cochair of the 
        Congressional Georgia Caucus, met in November with Georgian 
        parliamentarians to discuss opportunities for future 
        collaboration with the Caucus, and Georgia's geopolitical 
        situation.
  --Open World partnered with the International Conservation Caucus 
        Foundation in co-hosting the visit of Russian environmental 
        leaders. Senators Tom Udall of New Mexico and Sheldon 
        Whitehouse of Rhode Island met with the delegation, which 
        included representatives of the Russian Duma, to discuss issues 
        related to preserving endangered species and protecting the 
        environment.
  --Open World arranged meetings with alumni leaders for the members of 
        a Senate staff delegation during their late August-early 
        September visit to Moldova, Georgia, and Russia. In Moldova, 
        the congressional staff delegation met with mayors who had been 
        hosted in North Carolina in 2007 on Open World. During this 
        meeting, the staff delegation presented the mayors with letters 
        of greeting from North Carolina State Representative Larry 
        Brown and Winston-Salem Mayor Allen Joines, who had both taken 
        part in the Moldovan mayors' Open World visit.
  --At the invitation of Chairman Eni Faleomavaega of the House 
        Subcommittee on Asia, the Pacific and the Global Environment, 
        Open World Executive Director John O'Keefe participated in 
        December in a roundtable discussion with high-ranking 
        Kazakhstani government officials about their country's human 
        rights record and chairmanship of the Organization for Security 
        and Cooperation in Europe.
    Open World plans to build on these congressional partnerships and 
to be even more active in serving Congress.
                   nonappropriated open world funding
    The Center, which is authorized to receive contributions from 
private sources, has redoubled its efforts to seek a wide range of 
supporters to increase and further diversify funding and strengthen the 
Open World program through cost-share partnerships. The major sources 
of nonappropriated funding are direct contributions from foundations 
and individuals, interagency transfers of funds, cost shares from Open 
World grantees and American hosts, and other forms of in-kind 
contributions, especially for Open World's alumni program, which 
receives no appropriated funds.
    In an effort to track the very generous in-kind support Open World 
receives from grantees and American citizens, the Center in 2007 
initiated a cost-share reporting requirement for all grantees 
participating in the program. We received $1.7 million in donated goods 
and services from hosts and grantees in 2008--equal to 19 percent of 
the Center's fiscal year 2008 appropriation. While the exact figure for 
2009 will not be available until later this spring, early estimates 
indicate it will be near $1.9 million.
    As an example of cost shares from grantees, Supporters of Civil 
Society in Russia (SCSR), the American partner of the prestigious 
Moscow School of Political Studies (MSPS), contributed $95,000 worth of 
lodging, meals, interpretation services, and other goods and services--
53 percent of the total U.S. programming cost--to bring one group of 20 
emerging Russian leaders nominated by MSPS to St. Louis, Missouri, in 
April 2009 and another group of 28 to Chicago, Illinois, in October 
2009 for intensive accountable governance programming. Open World 
awarded a 2010 grant to SCSR to host again in both these locations with 
a similar cost share.
    Concurrently, Open World actively seeks donations from private 
sources. In 2009, Open World Trustee Walter Scott made a 3-year pledge 
of $525,000 from his family foundation to support Open World programs. 
Under the expert guidance of our development consultant, the Center is 
also approaching other individuals and organizations interested in the 
region.
    Reciprocal visits by Americans to Open World alumni help fulfill 
Open World's mission of strengthening peer-to-peer ties and 
partnerships. These visits by American professionals, hosts, or 
grantees involved in Open World are self-funded. For example, in May 
2009, eight representatives of the League of Woman Voters, an Open 
World grantee organization, traveled to Moscow, Kaluga, and St. 
Petersburg, Russia, and discussed electoral processes and women's 
political leadership with more than 25 alumni who had been hosted by 
various chapters of the League. Numerous U.S. judges and legal experts 
involved with Open World exchanges also make independently financed 
reciprocal trips to meet with program alumni. In 2009, American jurists 
involved with Open World's rule of law program made 59 reciprocal 
professional visits to Open World countries to meet with program alumni 
and senior judicial leaders to discuss judicial reform.
    Direct contributions from individuals, foundations, and other 
private sources during the same time period totaled more than $400,000. 
A fiscal 2009 interagency agreement with the National Endowment for the 
Arts (NEA) supported all the hosting costs (up to $500,000) of the 
Russian Cultural Leaders Program.
    Finally, the Center has temporarily engaged the services of a 
development consultant. In tandem with helping define and update our 
strategic goals and agency mission statement, this specialist will help 
the Center establish an in-house capacity for fundraising.
    open world 2010 activities, 2011 plans, and 2012-2016 strategic 
                                planning
    Interest in the Open World program remains vibrant within the 
American hosting community. The ``demand'' for Open World visitors from 
Russia in 2010 is more than double the ``supply''--potential American 
grantees applied to host up to 1,816 Russian participants, while the 
Center will only have funding to bring 750 to the United States. For 
the 2010 Ukraine program, demand was triple the supply of available 
hosting slots, and for Azerbaijan, Georgia, Kazakhstan, Kyrgyzstan, 
Moldova, Tajikistan, and Turkmenistan, potential grantees proffered a 
total of 1,158 hosting slots, while Open World can afford to host only 
314 visitors from these seven countries.
    Open World continues this year to host in thematic areas that 
advance U.S. national interests in general, and congressional interests 
in particular, and that generate concrete results while strengthening 
the ties between American communities and their partners abroad. This 
programming emphasizes and builds on Open World's incremental successes 
in such areas as governance (focusing on the legislative branch's role 
in helping to bring about good governance and affecting public policy), 
the rule of law, human-trafficking prevention and prosecution, and 
environmental issues. This year Open World will also increase its non-
Russian programming to approximately 46 percent of its total 
programming, which is double Open World's 2007 level of non-Russian 
programming.
    One example that demonstrates Open World's commitment to supporting 
existing partnerships and initiatives is our involvement with the 15-
year-old relationship between Maryland and Russia's Leningrad Region. 
Open World has sponsored 14 Leningrad-Region delegation visits to 
Maryland since 2002, helping this sister-state partnership work on such 
substantive areas as accountable governance, education, social 
services, and the rule of law.
    In turn, the State of Maryland has funded reciprocal visits to 
Russia. In August 2009, a delegation of Maryland educators led by the 
director of international affairs of the Maryland Secretary of State's 
Office visited Leningrad Region. Then in December, an official Maryland 
Sister States delegation met in Russia with over 40 Open World alumni 
associated with this partnership and worked with government officials 
to nominate an Open World delegation of Leningrad regional legislators.
    These regional legislators were hosted for Open World in January 
2010 by the Maryland Secretary of State's Office. The delegation spent 
much of its time in the Maryland legislature, focusing on how a state-
level legislature functions and on the legislative process. Other 
programming covered such topics as legislative advocacy, lobbying, 
ethics, state taxation and fiscal structure, and economic development.
    The Center will also continue women as leaders programs, like the 
one planned in April 2010 for a delegation of women parliamentarians 
from Kyrgyzstan and Kazakhstan. Their programs will focus on women's 
issues, with the Kyrgyzstani leaders participating in Congresswoman 
Eddie Bernice Johnson's Women's Peace Initiative in Dallas, Texas, and 
the Kazakhstani leaders being hosted in Illinois by Congresswoman 
Debbie Halvorson.
    In 2010 and 2011, the Center will actively seek to host more 
regional legislators--especially legislators from Central Asia and the 
Caucasus, based on congressional interest. We will have a large pool of 
newly elected regional legislators to draw from. Rule of law 
programming for Open World countries whose judiciaries demonstrate 
continued movement towards independence will also have a focus. 
Finally, with Board approval and in consultation with the 
Appropriations Committees, the Center is prepared in 2011 to expand the 
Open World program into other countries.
    By the end of this fiscal year, the Center will have finalized a 
new strategic plan spanning 2012-2016 with a focus on making the Center 
an even more valuable resource for Congress and its constituents. There 
will be in-depth program changes to increase congressional involvement 
in Open World and focused efforts to provide support to the constituent 
hosts who have established programs and partnerships in Open World 
countries. The Board, in its preliminary discussion of the new 
Strategic Plan, suggested considering the following:
  --Ensuring that a substantial portion of future program participants 
        are legislators, either at the national, regional or local 
        level.
  --Engaging more Members of Congress to host Open World 
        parliamentarians.
  --Increasing the percentage of Open World delegations that meet with 
        Members of Congress, congressional entities, and/or 
        congressional staff to discuss issues of relevance to both 
        sides.
  --Ensuring that every delegation gains a working understanding of the 
        role of the U.S. Congress and state and local legislatures in 
        government operations.
  --Adding subthemes to Open World programming to highlight how 
        citizens and interest groups work to affect the legislative 
        process at the Federal, state, and local levels.
                    fiscal year 2011 budget request
    Funding at the requested level of $14 million will enable the 
Center to fully respond to congressional interests in the region and 
beyond while continuing its proven mission of hosting young political 
and civic leaders who return home to launch projects and programs in 
cooperation with their American counterparts and hosts. The Board of 
Trustees believes that maintaining a robust grassroots-based Open World 
presence in the region is necessary and important for future U.S. 
relations in these politically significant countries.
    The budget request, in conjunction with projected donations and 
cost shares, will also allow the Center to increase hosting to a level 
of approximately 1,400 total participants. Actual allocations of 
participant slots to individual countries will be based on Board of 
Trustees recommendations and consultations with the Subcommittee and 
the U.S. Embassies in these countries. The requested funding will also 
help offset an expected decrease in prior year recovered funds and 
Trust revenue income.
    Major categories of requested funding are:
  --Personnel Compensation and Benefits and other operating expenses 
        ($1.73 million);
  --Contracts ($7.8 million--awarded to U.S.-based entities) that 
        include:
    --Coordinating the delegate nomination and vetting process,
    --Obtaining visas and other travel documents,
    --Arranging and paying for air travel,
    --Coordinating with grantees and placing delegates,
    --Providing temporary health insurance for participants; and
  --Grants ($4.47 million--awarded to U.S. host organizations) that 
        include the cost of providing:
    --Professional programming for delegates,
    --Meals outside of those provided by home hosts,
    --Community activities,
    --Local transportation,
    --Professional interpretation,
    --Administrative support.
                               conclusion
    In an increasingly connected world, where citizen ambassadors on 
Main Street are conducting important work in the sphere of public 
diplomacy, Open World gives community leaders a unique institutional 
base in the legislative branch for partnering with Congress while 
providing them with the resources to succeed. As Dr. James Billington, 
chairman of the Open World Board of Trustees, stated at the annual 
Board meeting on February 4, 2010:

    ``Citizen diplomacy is becoming much more important. In an 
increasingly connected world, it is not just State Department officials 
but North Carolina farmers who now have access to a deputy minister in 
Moldova. And the Federal judge who hosts counterparts in Kentucky is 
now in direct contact with a supreme court justice in Ukraine. The 
secretary of state from Maine regularly exchanges emails with the mayor 
of Arkhangelsk, Russia. Open World helps create these and thousands 
more lines of communication.''

    Open World offers an extraordinary ``bang for the buck'' in terms 
of efficiency, cost-effectiveness, and value. The Center boasts an 
overhead rate of about 7 percent, every grant contains cost-shared 
elements, and more than 75 percent of our appropriation is plowed back 
into the American economy every year. At the local level, where the 
funds and the jobs are most needed, our delegates, as part of their 
``after hours'' Open World experience, participate in American life at 
local restaurants, cultural sites, sporting events, shopping centers, 
and other places in the community. During the professional portion of 
their local program, they not only benefit from working with their 
American counterparts, but also share their own expertise in turn. In 
this way, the Center is both a mini-stimulus plan as well as a true 
international exchange program.
    Funding the 2011 Open World program at the requested level of $14 
million will allow Americans in hundreds of Congressional Districts 
throughout the United States to engage up-and-coming Eurasian political 
and civic leaders--such as parliamentarians, environmentalists, and 
anti-human trafficking activists--in projects and ongoing partnerships. 
Americans will, once again, open their doors and give generously to 
help sustain this successful congressional program that focuses on a 
region of profound interest to U.S. foreign policy. To that end, the 
Subcommittee's interest and support have been essential ingredients in 
Open World's success.

    Senator Nelson. Thank you.
    Why don't we go to a 6-minute round of questions?

                 ACQUISITION STRATEGY AND STORAGE COSTS

    Two years ago, at our request, the Government 
Accountability Office (GAO) looked at the Library's management 
of its collections. One of their recommendations was that the 
Library develop a Library-wide strategy for making its 
collection available in electronic form, both as a means of 
providing greater access to its collections, as well as a 
substitute for physical storage.
    Now I heard what you said, Dr. Billington, about making 
certain that the original copies are available because of the 
potential of altering anything that is digitized. Is there any 
way that we can find to be able to overcome the costs of the 
actual storage of such materials? For example, is it possible 
to have, in some cases at least, fees for the ability to do 
that?
    I know in the case of copyright, the Copyright Office is 
self-sustaining in terms of the copyright fees. But that 
doesn't include the storage, ultimate storage, which is what is 
creating the challenge for us, one of the challenges that we 
have right now.
    So it is a broad question, but is there a way to overcome 
this situation because it is driving up our storage costs?
    Dr. Billington. Well, Mr. Chairman, in terms of exploring 
cost recovery as a factor, I know you have mentioned that to 
us, and I have already asked the staff to prepare a careful 
study of that. So we will get back to you in detail on that.
    On the question of storage, our authorizing committee asked 
us to look into this, and we found the company in the private 
sector that may be most analogous to the Library in terms of 
the volume of storage that they contend with and the issue of 
storage overall. Their engineers are specialists in this. This 
is Amazon we are talking about.
    Their people concluded that no meaningful solution for 
long-term effective collection management can be implemented 
until more space is created; that there is no realistic 
alternative. I could go into the reasons for this in detail.
    The modules at Fort Meade are enormously efficient for this 
purpose because of their size and ultimate scale. They contain 
enormous amounts of material already. But we add 2, 2.5 million 
analog items every year, even in the face of the digital 
explosion. There we have a shared program, national program 
with the many other institutions that I mentioned.

               ADDITIONAL SPACE FOR COLLECTIONS ESSENTIAL

    But there really is no alternative to having more space, 
and that was confirmed, as I say, by experts, objective experts 
in the private sector. There is danger in our current 
circumstance of having 200,000 books that are on the floor of 
the stacks now because we are at full capacity on Capitol Hill, 
despite the fact that we have shelving that reaches almost from 
here to Chicago, somewhere between Detroit and Chicago, if you 
put the shelves end to end. We are the only comprehensive 
collection of its kind in the world.
    Maintaining, not merely acquiring these things, but having 
them inventoried and accessible, becomes very, very difficult 
when you get this much new material in and there is no place to 
put it. You have a situation where you are going to be tempted 
to severely cut back on acquisitions. We are studying 
acquisitions, as you suggest. We did a very exhaustive study a 
couple of years ago, and we are now taking a comprehensive, 
fresh look at it.
    But there is a danger, if there is a gap in acquisitions, 
that the most recent things later will be more and more 
difficult to acquire and to afford and to make accessible. And 
that reduces the value of your collection by more than just one 
year's missing or reduced capacity, because the gaps pile up, 
and pretty soon, you lose what is an enormous advantage to the 
United States--not just to the Library of Congress and to the 
Congress and the Government itself--of having a collection that 
is comprehensive.
    Because we include in our collections items that nobody 
else acquires, and all other libraries and other research 
libraries in this country are under even more severe 
restrictions than we are these days, whether it is from the 
university, municipal, or State budgets. And so, maintaining 
the Library of Congress as the ``library of last resort,'' as 
the library that is able to answer questions that cannot be 
fully answered elsewhere, even by the vast amount of digital 
material that is available, is very important.

                   RECOUPING COPYRIGHT STORAGE COSTS

    Senator Nelson. Well, what about going to the area of 
copyright where you could not only get the copyright processing 
covered, but the ultimate storage as well?
    Dr. Billington. Yes. Well, copyright storage is included in 
the fee costs. Costs and fees are reevaluated every third year. 
So it is actually a part of the fee computation to include at 
least a percentage of the storage cost.
    There is some relief in sight in copyright despite problems 
we have had. We undertook a massive effort to bring the 
processing backlog under control; 50 people worked to help 
overcome these backlogs. But now 75 percent of registrations 
are processed electronically, and so that should help a great 
deal.
    But all collections, of course, do not come through 
copyright. Copyright is only one source. We have gifts. We have 
exchanges. We receive collections material in a variety of 
different ways and, of course, through very extensive 
purchasing. We have the overseas offices as a source not just 
for us, but for any other research library in America that 
wants to seriously keep up their foreign language collections.
    But the margin between what the Library of Congress 
provides and what any other institution provides is growing 
rather than declining. Therefore, the need to sustain this 
national resource is, I think, growing even faster than the 
necessary costs of sustaining it.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                            TWITTER ARCHIVE

    Dr. Billington, I would like to ask you about the new 
media. You mentioned that the number of volumes, I guess, out 
there is just growing exponentially, and we recognize that 
there is another world out there that is growing insofar as the 
level of communication. And I understand that earlier this 
month, the Library of Congress entered into a gift arrangement 
with Twitter to donate its digital archive of the public Tweets 
to the Library.
    A couple of questions for you. First of all, I am just 
coming into the world of Twitter and using it to keep in touch 
with my constituents. But the question that I would have to you 
first is a pretty basic one. How will the Library use this 
information? What will the purpose be?
    And then, second, how do you retain this archive of Tweets, 
recognizing just how much is out there? Will you archive the 
Tweets to the Library on an annual, quarterly basis? How do you 
update this digital information, recognizing the rate with 
which it will be coming to you?
    And then, finally, I am curious to know how we deal with 
the cost side of it. I assume that because the archive of 
public Tweets was donated that there is no initial cost to the 
Library, but I would have to imagine that there would be some 
cost associated with receiving or organizing.
    So if you could just speak to this, I am very curious. It 
seems like you are embarking into a bold new world where no man 
hath gone before. So more power to you, but it is kind of 
interesting to understand how we would integrate this within 
the Library of Congress.
    Dr. Billington. Well, the short answer is there are some 
short-run surprises, happy surprises in the answer to your 
question, and there are some long-run questions that we will be 
in the process of intensively examining over the next few 
months.
    A short-run surprise is that, first of all, this is a gift, 
and the preparation and delivery of it will be done by the 
Twitter company themselves. Twitter will bear the cost of 
preparing and transferring it to the Library's servers. I am 
surprised but also reassured that the cost to technically 
support the collection will be very minimal because we can 
absorb it in our existing infrastructure--the basic technical 
infrastructure.

                      ACCESS TO TWITTER COLLECTION

    Our cost of taking and storing the archive then will be 
minimal, but we will need to look into how to catalogue it, how 
to make it retrievable, while addressing privacy needs and how 
we make it accessible--this is a classic acquisitions problem. 
How we make it available would be defined by our basic 
acquisitions policy. These are all challenges that we will be 
addressing intensively in the next months. So far, for the 
initial period, this is really pretty much a gift that we can 
accommodate.
    How we make it available, how we deal with it, that is 
important not simply as it relates to this one collection. It 
is important because this is not going to be the last of the 
technological innovations. In order to continue our historic 
mission of acquiring, preserving, and making accessible the 
world's knowledge and the Nation's creativity, we must 
incorporate these new media.
    And something else, this process of studying new 
technologies and ways to make them available is part of our 
relating much more intensively the new digital world to the 
basic world of acquisitions and the core mission, the historic 
mission. There has been no change to the mission of the 
Library. The media through which knowledge and information and 
creativity in America are conveyed are going to change and keep 
on changing.
    We feel that the process of integrating the Twitter 
collection and finding out exactly how we use it, how we access 
it, and so forth will be a useful learning process for the next 
few changes and innovations. Otherwise we fall behind and 
become less comprehensive than this institution has 
historically aspired to be ever since it acquired Jefferson's 
then virtually universal library in 16 languages.
    So this is a new language, if you like. I can't tell you 
the answer, but I can assure you that we are going to be 
looking into these problems very intensively and will be 
informing this subcommittee and others here in the Congress of 
our discoveries and conclusions.
    Senator Murkowski. Well, as you point out, this is just 
kind of the beginning of the acquisition of the social 
networking media. And it will be a challenge.

                  FORT MEADE AND COMPETING PRIORITIES

    I want to go back, just very quickly if I can, to the 
storage issue that the chairman has raised, and particularly 
collection storage Module 5 at Fort Meade. In order to fund 
this at $16.9 million and recognizing that we are trying to 
balance the priorities out here, we have got to balance the 
Library's request with the AOC's request and each of the other 
agencies within the legislative branch, are there any other 
increases within your budget that you could perhaps delay so 
that you could move forward?
    Because I understand that this is the number one priority 
is the storage collection Module 5. And first of all, I guess I 
want to make sure that I am correct in that, that this is that 
high priority. And if so, is there anything else that, again, 
could be delayed in terms of taking it up this year so that we 
could help address this aspect of the storage?
    Dr. Billington. Well, there is not much question of the 
Library's priority. It is clear that in terms of the things 
that the Architect of the Capitol (AOC) is requesting with 
regard to the Library that this is by far the top priority 
because this affects core mission and continuity. We are 8 
years behind in the schedule that was agreed to way back in the 
1990s. And so, this is our priority in the Architect of the 
Capitol request.
    Now within our own budget, I have been talking with the 
Executive Committee in view of the concern about levels of 
funding. I would say that we have to have as our first priority 
sustaining core services--the mandatory pay raises and price 
level increases. I can give you a detailed scenario, if you 
want it, in writing.
    Senator Murkowski. Well, if you would help us out with 
that, Dr. Billington, and I know it is difficult to rank, if 
you will. But I think it is going to be important to us. I 
think we appreciate that from the perspective of being able to 
meet your core mission, you have got to have the storage 
capacity. You have indicated that the backlog, the 8-year delay 
in this, and we appreciate that.
    But if you could perhaps help us out, put it in writing, I 
think that that would be helpful for the subcommittee.
    Dr. Billington. Okay. Well, we will be happy to do that.
    Senator Murkowski. Thank you.
    Dr. Billington. In general, I can say that if we have to, 
if we have to balance that against our budget submission, or if 
we have to absorb the cost of living allowances (COLAs), the 
mandatory COLAs and so forth, we would have to cut, in some 
cases perhaps even eliminate, some of the other things that we 
have done in recent years. We have already looked very 
intensively at the possibilities, and we would have to probably 
reenter any such programmatic cuts for funding in the 2012 
Federal budget.
    We have not considered training for cuts; with minimal 
funding we have produced some training programs to get the most 
out of our people. It would be largely people and the people-
centered things that we would have to preserve. The demands, 
when you have so many fewer people than we have had, really are 
very great, and the need for continuous training, because of 
the sophisticated nature of our work, is very great.
    Our Chief Operating Officer has played an important role in 
developing some of these programs. I can itemize them for you, 
but we will get you a detailed study if you want----
    Senator Murkowski. I would appreciate it.
    Dr. Billington [continuing]. Of how we would proceed.
    Senator Murkowski. Thank you.
    Dr. Billington. As I say, it is in process. So we should be 
able to give that to you fairly rapidly.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Nelson. Yes, thank you, Senator Murkowski.

                        MANDATORY PAY INCREASES

    At the risk of being indelicate, would you explain the 
mandatory COLAs? If we don't have a union contract, what would 
be mandatory about COLAs or salary increases? Not suggesting 
that people shouldn't expect salary increases, but help me 
understand the structure that you are talking about.
    Dr. Billington. Well, yes, 90 percent of this is absolutely 
mandatory by law, and the rest is more or less required. It is 
very difficult to avoid it. We have very little discretion, 
except in the senior level.
    I don't have the authority to withhold or change pay 
adjustments for the 90 percent and really can't do it for most 
of the rest, except for maybe senior-level pay, which we 
wouldn't cut. It won't save you very much.
    Anyhow, I can provide more detailed legal information if 
you would like. We have looked into this quite extensively.
    Senator Nelson. Yes, it would be helpful to understand that 
because that was a new concept to me. I didn't realize--I 
didn't believe there was a union agreement. But if there is 
statutory responsibility, we obviously have to follow it. I 
would just like to know what it is. It would be helpful.
    Oh, yes?
    Ms. Jenkins. I just want to add that it isn't necessarily 
union agreements, but under title V, employees who are in GS or 
wage grade positions are automatically entitled to certain 
increases. That represents 90 percent of our staff. So the 
other 10 percent would be senior management, which is not 
mandatory. But for 90 percent, under title V, it is covered, 
according to our counsel.

                      COLLECTION POLICIES AND COST

    Senator Nelson. I understand. Okay. Thank you.
    I am intrigued by the access of the Tweets through a gift. 
I would imagine that the costs, while not necessarily involving 
the storage, would come from trying to figure out how to have 
access, protect the right to privacy, and that. Do you have any 
idea or do you have anyone looking at what that might involve 
in terms not simply of activity, but what the costs of putting 
that kind of a program in place is because we would be talking 
about something fairly sophisticated, I would assume?
    Dr. Billington. Yes, the material won't be delivered for a 
while. We will have time to examine and analyze all options. 
One of the things in addition to the management agenda that I 
established in July, is a governance board whose challenge is 
to integrate the whole digital universe directly, more directly 
into the established policies of acquisition, preservation, and 
access.
    And so, they are going to have to examine these questions 
thoroughly. I set it up in January and they have been meeting 
since February. How to provide access to electronic information 
like the Twitter collection is one of the big challenges that 
will have to be covered.
    I am not sure I heard exactly a specific question.
    Senator Nelson. Well, I realize it is probably not a fiscal 
year 2011 matter, but I suspect that it could be coming at us 
in the fiscal year 2012 budget or some future budget and am not 
suggesting that this not be accomplished. What I am suggesting 
is that we have a cost-benefit analysis that needs to be made 
on this. It is one thing to receive it. It is another thing to 
create the opportunity for access.
    Dr. Billington. Yes. It is currently estimated that a small 
team over the next 6 months will devote about 144 hours or 
under $10,000 to the details of handling the archive. I think 
that it is probably going to end up costing a little more than 
that, but we will give you clear progress reports on this.

                          WEB GOVERNANCE BOARD

    But I have set up, as I say, in January a Web governance 
board to determine and execute a Library-wide strategy, Web 
strategy for the future. That Board has been meeting, getting 
the content people and the specialists in Web matters together, 
hammering out policy options. And that is an ongoing activity. 
Unlike a lot of the management agenda, which is nearly 
completed--the eight task forces, which will shortly get their 
final reports in--this will be an ongoing enterprise, in 
addition to the team that I have just mentioned, which will not 
be very expensive.
    Incorporating the latest technologies is a challenge, but 
if we did not take this on, we would risk losing early exposure 
to what is clearly going to be an increasing communications 
phenomenon of our culture.
    Senator Nelson. Well, there is no question that it is and 
it ought to be preserved. I will have to try to figure out the 
probative value or societal utility of having access from the 
general public to the Tweets. Retaining it and preserving it is 
one thing. Creating what might be access could be not only 
costly but, I don't know, of questionable value to the average 
person. Curiosity is at a certain level, there is no doubt, but 
I don't know what the societal value would be of that for 
access. So I hope you would look at that aspect of it.
    Dr. Billington. No, our use for it--it was also conveyed to 
Google. We won't have the main responsibility to be the 
processor of every request. But how it is to be handled and if 
we have it for different purposes than they do are questions at 
this point. Google may be able to do some things that we can't 
do. They probably will.
    Our job is to do exactly what you say. It is easier to 
compute the cost than it is to define the benefits. But the 
overall benefit is one of keeping this unique repository of the 
world's knowledge and of America's creative expression, that 
deals with the phenomenon of change in our society.
    Senator Nelson. I understand, but it is not quite like a 
book you can check out.
    Dr. Billington. No.
    Thank you, sir.

                     ADDITIONAL SPECIALISTS FOR CRS

    Senator Nelson. On CRS, you are requesting 17 new FTEs for 
the Congressional Research Service to broaden the research 
expertise. How did you arrive at the number, and if funded, 
will you be requesting more FTEs for CRS in fiscal year 2012? 
In other words, is this something that is an ongoing 
requirement? Or is it a backlog of Member requests, or perhaps 
you could give some explanation as to why there would be a 
request of this size?
    Dr. Billington. I will just say one word and then give it 
to Director Mulhollan of the Congressional Research Service. 
But basically, it is a phenomenon of the reduction in staff at 
a time when the complexity and volume of requests has 
increased. So it is their analytic response to your requests. 
By ``you,'' I mean the Congress. There is a strong interest in 
scientific and technical matters that have become far more 
complex, with far more requests coming in far more frequently.
    So it is 2 years, as I understand it. It is a 2-year 
phenomenon to regain some of the very considerable amount of 
lost staffing that has occurred over recent years. But the 
Director can answer it more fully.
    Senator Nelson. Sure.
    Mr. Mulhollan. Thank you, Mr. Chairman.
    I appreciate the question. How we arrived at it is we took 
a top-down view throughout the service with regard to what the 
demands are now and what we anticipate the demands will be in 
the future, as well as our current capacity. And what that 
capacity is in a number of areas.
    What we are asking for is a total of 34 positions, 17 for 
fiscal years 2011 and 2012, which would get us back to slightly 
more than the 705 FTE level we had in fiscal year 2007. Why do 
we need to get back to that earlier level? One example is that 
13 of those positions are in science and technology. I am sure 
you both have heard about the need for increasing capacities 
and the demands on the Congress in these areas.
    Just recently, the Homeland Security and Governmental 
Affairs Committee of the Senate reported out S. 1649, which 
authorized $2 million for 3 years to increase CRS's science and 
technology capacity, as an example. This is something that the 
Congress is going to be facing. And what you have in CRS, I 
would argue, is a cost-effective tool and a shared expertise.
    You have a physicist that can work for Commerce, Science, 
and Transportation in the morning, for Armed Services in the 
afternoon, and Environment and Public Works in the evening. It 
is shared expertise. It is cost effective.
    Second, we are asking for eight researchers with expertise 
in financial regulation and the financial services industry, 
and eight on the health side. Our experience is that my 
colleagues in both those areas did not have a 2-day weekend for 
over a year. And I foresee that demand in the future.
    Because of the demands in the future, we feel that these 
are reasonable requests. I haven't asked for additional FTEs 
for CRS since fiscal year 2003, and so I hope you view us as 
being prudent with the taxpayers' hard-earned money. But we are 
looking at what Congress needs and the incredible challenges 
being faced. The shared expertise you have here is a good 
investment.
    Senator Nelson. I understand.
    Senator Murkowski. Thank you.
    Senator Murkowski. Thank you, Mr. Chairman.

                      OPEN WORLD LEADERSHIP CENTER

    I will go to Ambassador O'Keefe. I don't want you to feel 
left out here this afternoon.
    Back when we had the fiscal year 2010 legislative branch 
conference report, we included some language in that that 
encouraged the Open World Leadership Center to expand its 
effort to raise private funding in order to reduce requirements 
for appropriations, and then in this hearing last year, I had 
asked a question about outside funding sources. This was as it 
related to the United States-Russia Foundation and whether or 
not there could be a possibility of some funding to the Center.
    Can you speak, Ambassador, to the issue of any efforts to 
raise private funding to help offset some of the funding 
requirements and kind of where we are in some of these efforts?
    Ambassador O'Keefe. Yes, ma'am. I can speak to that.

                          FUNDRAISING EFFORTS

    Last year, we raised $413,000 in outside funding. For this 
year, we are projecting $619,000. So we have got a bit of a 
boost.
    With regard to foundations, we are seeking grants not only 
from the United States-Russia Foundation, but from other 
foundations. We have not yet been successful in getting those 
grants.
    In terms of more structural approach, as I mentioned, we 
reduced staff by one. I have hired an expert on a 6 month 
contract to help us find our way with a really good, solid 
funding strategy, to help us develop the kinds of basic 
materials that will have the funds manager at a foundation 
actually look at what we have.
    So I can't say that we are rolling in dough or that we will 
be rolling in outside funding next year, but I can tell you 
that we have this effort moving forward. I don't want to take 
up too much time. But I would also mention that we will seek 
funds from individual donors as well.

                  EXPANSION OF THE OPEN WORLD PROGRAM

    Senator Murkowski. Then let me ask about the Center's plans 
for expanding the exchange program into other countries. I 
think you mentioned Belarus and Armenia. I think you mentioned 
three, did you not?
    Ambassador O'Keefe. Uzbekistan was the third, Senator. Yes.
    Senator Murkowski. Uzbekistan, okay. What does it cost to 
start up a program in other areas? As far as expansion costs, 
what does this mean to the Center, and give me a little 
background there.
    Ambassador O'Keefe. Start-up costs are, depending on how we 
approach it, about a minimum of $50,000 or so to get the 
logistics contractor to function in the country. What we look 
for is whether they have existing offices. But then we have to 
pay for whatever additional staff they need.
    We have taken a slightly different approach in the latest 
expansion in Turkmenistan. We skipped the logistics contractor 
and just had the Embassy do the logistics for us. It was 30 
percent cheaper. We could do it there because the Embassy staff 
wasn't as pressed as in some of the other countries where we 
have a more robust relationship.
    I would say that entry cost is not prohibitive. We can 
manage it. The reason for the three countries is that it is not 
simply part of the strategic plan, but these three distinct 
areas--central Asia, Caucasus, and that slowly changing 
European border, which seems to move back and forth--are areas 
important to United States interests.
    And in particular, I would stress that in Uzbekistan and 
Belarus, there has been limited exchange because of strained 
relationships. Because we are a legislative branch agency and 
because we are associated with the Library, we have a much 
easier time of operating and attracting people in the program 
in those countries.
    Senator Murkowski. If you were held to the fiscal year 2010 
funding level of $12 million, how would it impact the 
operations, the staff level? Would you be able to move forward 
with these proposed expansions? Just give me some assessment as 
to what it might look like.
    Ambassador O'Keefe. Yes, ma'am.

                         FREEZE LEVEL SCENARIO

    I would say that if we are at the same amount, we are going 
to have to cover increased costs in our information technology 
(IT) contract and in our logistics contract. So to cover those 
costs, we would probably reduce numbers. Expansion would be 
held off for the time being.
    One of the things we might seek, as I mentioned, is cost 
shares. If we could find an organization to do a 50-50 cost 
share in any of these three places, we would consider it.
    Senator Murkowski. Thank you.

                     COPYRIGHT APPLICATIONS BACKLOG

    And then, Dr. Billington, I just have one last question for 
you, and this is as it relates to the Copyright Office. Can you 
give me any detail on the extent of the backlog right now 
within copyright and how you are addressing the backlog issue?
    Dr. Billington. Well, very briefly, the current backlog is 
326,000 claims. We expect to return to a normal processing 
level, 150,000 claims, by this time next year, roughly 
speaking. We realize that we were not responding as quickly as 
we had hoped and so the Library detailed at the beginning of 
this year 50 Library employees outside of copyright to make a 
kind of storming effort to reduce this, which they did very 
successfully.
    We are getting there, and the prospect of deliverance comes 
both from the fact that they have hired a lot of new people, 
and they had this big jolt from additional staff effort. But 
also, the electronic registration system now covers 75 percent 
of the claims now, up from 54 a year ago. And so, automation is 
rapidly helping address the problem, as we hoped.
    And with the few FTEs that are required to complete the 
electronic registration process, this should be a one-time 
concern that we can overcome by this time next year.
    Senator Murkowski. Good. Thank you.
    Thank you, Mr. Chairman.

             TECHNOLOGY INFRASTRUCTURE FUNDING AND PROGRESS

    Senator Nelson. Dr. Billington, in fiscal year 2010, the 
Library received $15 million for technology infrastructure 
upgrades. Can you give us an update on how these funds have 
been used and what the Library has been able to accomplish with 
fairly large investment?
    Dr. Billington. Well, the general picture is that about $9 
million of that is going to deal with the hard technology and 
the supporting software, networking software, which will 
fortify the three major data centers of the Library, which are 
the Capitol Hill complex, Culpeper, and Manassas, where the 
backups are. $3.5 million will deal with content, the content 
problem, and $2.5 million with content presentation.
    We are in the process of getting this much more precisely 
defined. But by and large, this is--that is the rough 
definition of the work. But we are in the process, as I say, of 
getting this much more exactly defined, and we will get you a 
more detailed account shortly.

                    INVENTORY MANAGEMENT OBJECTIVES

    Senator Nelson. Sure. And in the new request for fiscal 
year 2011, you have included $1 million for inventory 
management. How will this money be expended, and what will that 
accomplish?
    Dr. Billington. I am sorry, I couldn't----
    Senator Nelson. The $1 million for inventory management?
    Dr. Billington. Yes. Well, this is an ongoing process. We 
have already done a fair amount of inventory management, but it 
is a very demanding process. I can provide you with exactly 
what this request covers for the record.
    Senator Nelson. Sure. That would be fine. Does it include 
FTEs? Do you hire an outside firm to do it? I guess if you can 
give us that for the record, that would be helpful.
    Dr. Billington. No, I think we are doing it internally.
    Ms. Jenkins. I was just going to say that it is contract 
support. It is $1 million for us to do an inventory across the 
general collections in library services, but it is no new FTEs, 
just $1 million----
    Senator Nelson. So it is contract?
    Ms. Jenkins. Yes.
    Senator Nelson. That is what I wondered, yes. So no 
ongoing, it is a one-time sort of expenditure?
    Ms. Jenkins. It is ongoing funding of contract personnel.
    Senator Nelson. I see. Sure.
    Dr. Billington, in the Law Library account, there are two 
items that are being requested, class K conversion and Gazette 
preservation backlog. Is this an area where there is a 
potential for user fees to help us with the budget?
    Dr. Billington. I am sorry. I didn't quite hear that again.

                   USER FEES AND LAW LIBRARY SERVICES

    Senator Nelson. There are two items in the Law Library in 
the fiscal year 2011 budget request. One was called class K 
conversion and Gazette preservation backlog. In connection with 
your answering those questions, I have the other question of 
whether this is an area where we might access some user fees, 
the Law Library?
    Dr. Billington. Well, that is a complicated question. You 
have the whole question of the user fees. The Library of 
Congress, by and large, does not do that. Many other libraries 
do, but we don't do that. When I sign for an acquisition, for 
anything for the Library, I don't sign for the Library of 
Congress. I sign for the United States of America. And I am 
basically committing our resources to preserving it and making 
it accessible.
    Now if you get into the user fee business, you end up 
drifting your talent inevitably toward somebody's user fee. But 
the users are the entire people of the United States. Of 
course, in the first instance, the Congress itself. And so, 
that is an area we are reluctant to get into. But what you have 
with this request is something of rather great importance to 
the Congress and the Government and to the judiciary, for that 
matter, and the executive branch, which is to have the up-to-
date Gazettes, which are the basic laws of other countries.
    Law collections have already been catalogued before 
completion of the K classification, but they are not accessible 
because the people who know both the old system and the new are 
retiring. We must complete the K class conversion. The legal 
community has been agitating about this, and you may want to 
consider the arguments they have made.
    The new head of our Law Library has great experience both 
in the private sector and in the public sector. Do you want to 
have a word here?
    Ms. Shaffer. Yes, thank you, Senator. Good afternoon.
    The issue here really is making this collection easily and 
immediately attainable when you, the Members of Congress, need 
the material. And in its current format, it is either fragile 
because of its physical properties or it is inaccessible 
because it isn't organized in a way that makes it quickly 
available.
    And so, the purpose of both of these projects is to 
accomplish a stability for the Gazettes so that we will have 
access to them whenever you need them, and particularly for 
many jurisdictions where the Gazette is the only resource, 
where there are no commercial resources that duplicate what is 
there.
    And in the case of the K class, it is kind of like thinking 
of going to a grocery store and not having the different 
categories of food organized by category. So it makes it very 
inefficient and could lead to an inability to find things on a 
timely basis for Congress, our key client and customer.
    Thank you.
    Senator Nelson. Thank you.
    Dr. Billington. I have to say, the legal community has been 
very concerned about the K class conversion, and this is an 
area where, while one doesn't want to get into the business of 
charging fees, if there were some donations on the part of a 
committee of this kind, we have ample opportunity to receive 
donations and use them directly for this purpose.
    Senator Nelson. You aren't going to be waiting very long 
for generous lawyers, are you?
    I understand.
    Well, thank you very much, all of you. I want to thank our 
witnesses for joining us today. It has been a very informative 
hearing.

              LIBRARY BUDGET OFFICER EMPLOYEE OF THE WEEK

    And before we recess, I would like to acknowledge one more 
person from the Library of Congress staff, the Library's Budget 
Officer, Ms. Mary Klutts, and to congratulate her for being 
honored as one of Senator Kaufman's Federal employees of the 
week. We thank you for your many years of hard work.
    And we know that you will provide many more, and we also 
appreciate the fact that Senator Kaufman recognized you for it.

                     ADDITIONAL COMMITTEE QUESTIONS

    Any additional questions from members will be submitted to 
you for response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]
               Questions Submitted by Senator Ben Nelson
                              flat budget
    Question. I am committed to a flat budget in fiscal year 2011. What 
could the Library do to assist me in obtaining that goal? Have you 
considered options within the Library for recovering any of your costs?
    Answer. The Library has actively pursued opportunities to offset 
costs through reimbursable services over more than 20 years, 
significantly building its range of fee-supported programs and services 
over those years by both statute and policy.
    The Library administers its fee-based activities under the 
authority of 2 U.S.C.182b-c and 2 U.S.C. 150, which enable the Library 
to recover the costs associated with specific services provided to 
customers and the general public:
  --The operation of a gift shop and other sales of items associated 
        with collections, exhibits, performances, and special events of 
        the Library of Congress for public visitors and other 
        individuals or organizations;
  --Document reproduction and microfilming services for researchers, 
        libraries, government agencies, and other entities in the 
        United States and throughout the world;
  --The sale of Library of Congress cataloging data and related 
        publications to libraries and information service organizations 
        and individuals in the United States and throughout the world;
  --The procurement of commercial information services, publications, 
        and library support services, as well as related education and 
        information services, for Federal libraries and information 
        centers (FEDLINK program);
  --Customized research reports, translations, and analytical studies 
        for a fee for entities of the Federal Government and the 
        District of Columbia on a cost-recovery basis. The products 
        derived from these services make the Library's vast collections 
        available to analysts and policy makers throughout the Federal 
        and District of Columbia governments, maximizing the utility of 
        the collections through the language and area expertise of the 
        Federal Research Division staff.
  --Preservation, duplication and delivery services for the Library's 
        audiovisual collections, including motion pictures, videotapes, 
        sound recordings, and radio and television broadcasts.
    However, charging fees for public services that traditionally have 
been ``free'' presents challenges. In 2007 the British Library proposed 
new fees for basic services such as reading room use. The proposal met 
with widespread public dissent which included public protests. The 
British Library ultimately did not implement the proposed fees. The 
British Library does charge for services that add value to their core 
work for the public good, as does the Library of Congress. The services 
for which the British Library charges are defined by law, the British 
Library Act 1972, as is the case with the Library of Congress, and 
include content reproduction, retail gift shop operations, and document 
delivery. As with the Library, these services largely cover costs and 
do not have sufficient market scale to generate substantial profit.
    In fiscal 2009, Library Services reorganized the Office of Business 
Enterprises. This program consolidates the business operations of three 
cost-recovery services to create economies of scale and cost 
efficiencies. Examples of efforts that will provide additional service 
to Congress and the public while also reducing and recovering costs 
include: network printing in the Library's reading rooms, print-on-
demand for Library publications, digital reproduction of collections, 
and cooperative agreements with external entities.
    Question. Is cost-sharing a possibility in any of the services you 
provide? Could you consider additional charges for copyright services 
to offset the costs associated with storage of the items; perhaps to 
charge more for larger items requiring more storage?
    Answer. The Library provides a number of services on a cost-sharing 
basis, as indicated in the answer above. The Copyright Office, in 
addition, engages in cost-sharing with respect to most of its services 
to the public. Section 708 of the Copyright Act directs the Office to 
set its fees for services at ``not more than that necessary to cover 
the reasonable costs incurred by the Copyright Office for the 
services.'' The fees ``shall be fair and equitable and give due 
consideration to the objectives of the copyright system.'' Copyright 
fees are periodically evaluated and adjusted following an activity-
based costing methodology. Because the Copyright registration system is 
voluntary and because it is in the public interest to encourage 
registration so that authors and copyright owners can be identified, 
fees are set at levels that are intended to encourage registration 
while recovering as much of the cost of the service as is possible. The 
current registration fee covers most but not all of the cost of 
performing that service, including the cost of physical storage of 
deposits. The annual appropriation of the Copyright Office supports 
service-related activities not recovered by fees and other costs not 
related to fee services. Fees for services that are performed only for 
the benefit of the person paying the fee are set at or near full cost 
recovery. In August 2009, the Copyright Office adjusted fees to reflect 
its new reengineered processes. Typically, fees are adjusted every 3 
years.
                         collections management
    Question. Two years ago, GAO looked at the Library's management of 
its collections. One of GAO's recommendations was that the Library 
develop a Library-wide strategy for making its collection available in 
electronic form--both as a means of providing greater access to its 
collections as well as to substitute for physical storage. In response, 
the Library developed a preliminary digitization strategy. What is the 
current status of the Library's digitization strategy?
    Answer. The Library's digital strategy guides all efforts to add 
digital content to the collections Library-wide. The Library now has 
enormous digital content holdings, however digital information is not 
viewed as a replacement for the physical record of knowledge and 
creativity represented in the paper-based collections. Our digital 
strategy recognizes a need to maintain hard copies of many materials in 
view of the impermanence of digital material. While we expect an 
increasing percentage of the materials we collect will come to us in 
electronic form in future years, the current reality is that the 
production of physical materials has not slowed, and there is little 
overlap between our physical and digital collections. Expanding our 
digital content holdings will not result in a reduced requirement for 
physical storage space.
    Question. The strategy indicated that the Library would design a 
study to examine the feasibility of substituting digitized content for 
physical storage. Has such a study been conducted? If so, what were the 
results?
    Answer. The Library's study of this issue has shown that digital 
preservation technology serves immediate access needs, however 
digitized content is vulnerable to silent and virtually undetectable 
loss over time. While a digital collection can be stored in a 
relatively small space, hacking, user error, technological failure, and 
future migration to new formats and platforms could have the same 
devastating effect of a fire on such a collection. Libraries and the 
Library have largely eliminated the catastrophic effects of fires; they 
have not been able to eliminate the technological risks posed to 
digital collections. Almost universally, preservation experts have 
questioned digitized content as a safe medium for passing the nation's 
intellectual legacy onto the next generations. The Library is working 
actively to address the technical challenges of digital preservation.
    Question. Two possible options to reduce physical storage 
requirements are (a) changing the requirements for copyright deposit to 
allow for electronic formats as ``best available,'' and (b) maintaining 
the second required deposit copy in electronic form. To what extent 
have you looked into these two options?
    Answer. The Library is actively pursuing deposit of electronic 
works. We are looking at recommending changes in the Copyright law so 
that the ``best edition'' requirement can be modified or replaced to 
permit the submission of electronic copies even when the only copies 
that are ``published'' are in non-electronic formats, or to permit the 
submission of one electronic copy and one non-electronic copy in such 
cases. Such a change would be subject to consultation and input from 
copyright owners (i.e. publishers). The Library is also working on an 
e-Deposit system to address several important needs. Chiefly, an 
electronic submission service is essential to provide the technological 
infrastructure needed to support electronic submissions. While we are 
currently in the developmental stages of this effort, we expect to have 
an operational system for the receipt of electronic serials within a 
year. We will doubtless learn much from this experience, and we intend 
to incorporate the lessons learned in the development of a similar 
system for the deposit of monographic materials.
    Question. According to the preliminary strategy, an increasing 
volume of deposits are ``born digital.'' How has this been factored 
into future demand for physical storage?
    Answer. At present, the rise of digital publishing has not been 
accompanied by a decrease in print publishing; hence there has been no 
reduction in the need for physical storage. If the output of print 
publications diminishes substantially in coming years, the Library's 
need for additional space will correspondingly be reduced.
    Question. The Library's strategy also lays out ambitious goals for 
building and securing an IT infrastructure, which this subcommittee 
funded last year. How will the Library use this technology to achieve 
greater efficiencies through reduced need for physical storage?
    Answer. Enhancements to the core IT infrastructure will not 
directly lead to greater efficiencies through reduced need for physical 
storage. Information technology tools and services are utilized in ever 
more effective ways to provide discovery of and access to the Library's 
digital content. This infrastructure can lead to greater efficiencies 
for internal operations and enhanced access for remote users, but it 
has little impact on the need for physical storage.
                                storage
    Question. I feel that we cannot continue to take in the current 
volume of items without recovering some of the costs for their storage 
and I feel strongly that this is something we need to look very 
carefully at. I know one of your top priorities for fiscal year 2011 is 
funding the construction of book storage module 5. This is going to 
difficult to accomplish in a flat budget year as I have committed to 
this year. Are there any items you'd be willing to cut from your budget 
to fund this project?
    Answer. In the event of a flat budget, the Library already will 
have to absorb $18 million in mandatory pay and price level increases--
costs that we are statutorily required to pay. The Library could absorb 
the cost of mandatory pay and price level increases through a 
significant reduction of base programs, specific options that we are 
investigating. If the Library were to further identify a funding source 
within its base for Fort Meade Module 5, this would very likely have an 
impact on staffing.
    Question. Are storage modules 1-4 currently at full capacity? When 
do you expect to have them completely utilized?
    Answer. Module 1 has been completely filled since late 2005. Module 
2 will be completely filled within the next 2 months. Extensive 
planning has been done over a period of years to ensure that every inch 
of space in Modules 3 and 4 is fully and effectively utilized to store 
non-book, special format collections. A detailed blueprint of every 
shelf and what will be placed on each shelf was developed and will 
serve as the guide to the placement of each of 237,000 trackable 
containers of special collections items. The Library has embarked on a 
3 year transfer program to complete the filling of Modules 3 and 4. By 
the close of fiscal 2010, 25 percent of the trackable containers will 
have been moved to Fort Meade, with the remainder to follow over a 
period of 18-24 months.
    Question. What efforts are being made to streamline your 
acquisition process so that we are getting the best ``bang for our 
buck'' in terms of the utilization of limited storage space?
    Answer. The Library has taken steps to address and reaffirm is 
collecting policies and to assure that they continue to be in the best 
interests of the Library, Congress, and the American research and 
general user communities, carefully revising its Collections Policy 
Statements to assure that it was continuing to collect and retain only 
appropriate materials for the collections. The revised statements take 
into account the emergence of digital content and the acceptance of 
digital content over print or other formats where appropriate. In 
addition the Associate Librarian for Library Services has begun to work 
with staff to consider the number of copies of individual works to 
retain for the collections in the digital age.
    The Library also has issued a new regulation governing the 
mandatory deposit of copyrighted electronic serials available online 
that will allow the Library to determine if it can accept digital 
serial content instead of print. The outcome of this phase of mandatory 
deposit for digital content will set the stage for expanding to other 
formats of digital content.
    The Library has undertaken an ambitious plan to restructure the 
massive exchange program (International Exchange Service--IES) that 
provides access to documents produced by more than 120 other national 
government agencies and international bodies. IES is being revamped to 
allow the Library to have online access to this content of foreign 
governments that is so invaluable to Congress and the legislative 
process. As part of review of IES, new agreements have been forged that 
have already reduced the number of print titles shipped to the Library 
in favor of remote virtual access.
    Library Services has been working to develop a plan to establish a 
central unit devoted to collections development. This unit will have 
responsibility for advising the Librarian and the Associate Librarian 
on acquisitions policies, helping to ensure that defensible 
acquisitions are being made. In June the Librarian will convene the 
annual meeting of key acquisitions and recommending managers and staff 
to discuss items acquired over the past year. At this meeting as in 
past years, he and the Associate Librarian will reaffirm that staff are 
adhering to sound acquisitions policies.
                                  crs
    Question. You are requesting 17 new FTE for the Congressional 
Research Service to broaden research expertise. How did you reach this 
number? If funded, will you be requesting more FTE for CRS in fiscal 
year 2012? What prompted you to request a large increase in staffing 
for CRS? Is there a backlog of member requests?
    Answer. CRS research managers identified gaps in specialized skills 
that cannot be resolved by reassigning positions or retraining staff. 
Full analytical support for the complex emerging issues facing Congress 
will require 34 new positions. Half of this increase is requested in 
fiscal year 2011 with the remainder expected to be included in the 
fiscal year 2012 budget request. This request is prompted by the need 
to broaden expertise and strengthen analytical capacity in the critical 
areas of science and technology, healthcare, financial economics and 
accounting, and social policy related to employment, immigration, and 
the workforce. There is no backlog of member requests. However, CRS not 
only responds to congressional inquires but must anticipate 
congressional needs to provide the research and analysis when Congress 
requires it. This request would help alleviate workload issues but the 
primary benefit is producing more comprehensive and sophisticated 
analyses of increasingly complicated issues.
    Question. You are also requesting $2.1 million for ``information 
technology research architecture'' for CRS. This Committee provided $15 
million for information technology upgrades library-wide in fiscal year 
2010. Can you explain this new request?
    Answer. The increased funding in fiscal year 2010 for library-wide 
information technology upgrades did not include the information 
technology research architecture that is unique to CRS. Improvements 
are needed in research data management due to the increasing number of 
large complex datasets needed to produce authoritative multi-
disciplinary analysis. The $2.1 million investment will provide the 
expertise and systems (hardware and software) to efficiently access 
reliable data and information from a CRS-wide data library that is 
constructed to allow full utilization of its contents. It will provide 
modern content delivery technologies including interactive maps, data 
set mining, personalization features such as content tagging, and 
enhanced access to CRS products from mobile devices.
    Question. Dr. Billington, when prioritizing your request, how would 
you rank your request for new CRS personnel?
    Answer. The request for new CRS personnel ranks third in the 
Library's priorities for fiscal 2011, after funding for mandatory pay 
and price level increases and funding for Fort Meade, Module 5.
                              law library
    Question. Please explain the two items you are requesting for the 
Law Library. (Class K Conversion and Gazette Preservation backlog).
    Answer. The Library has requested $353,000 and 3 FTEs over 10 years 
to complete the classification of the legal collections for the 
following reasons:
  --The Class K standard expanded the shelving arrangement according to 
        jurisdiction, subject, form, author, and year to create a 
        unique classification number for each title.
  --Since it is difficult to find contractors with the necessary 
        experience in legal cataloging, legal publishing, and the law, 
        the Law Library must rely on its established staff base.
  --Limited staffing to support the conversion of titles acquired 
        before the implementation of the Class K system has resulted in 
        610,000 volumes remaining unclassified.
  --Until classified, legal materials remain mostly invisible and 
        inaccessible, yet these materials have critical research 
        importance in a global environment.
  --In order to cope with the Library managing two distinct collections 
        (K-classed and unclassified), two different systems for 
        shelving materials have been used. Staff members knowledgeable 
        about the two systems are retiring. As a result, materials are 
        more difficult to find.
    The Library has requested $760,000 over 3 years for microfilming 
official gazettes, to eliminate the Gazette preservation backlog:
  --Most nations publish their newly effective laws, regulations, and 
        treaties in newspaper form known as official gazettes--a source 
        of legal documentation essential to a comprehensive, 
        authoritative law collection.
  --Due to the volatility of newsprint, the Law Library uses microfilm 
        as a means of preservation. In the past, the Law Library had 
        partners sharing the cost of preserving the gazettes. However, 
        the loss of these partners has resulted in a 5.3 million-page 
        backlog.
  --The inability to keep up with this preservation workload will 
        result in future permanent gaps in the Law collection, and will 
        adversely impact the usability and veracity of the Law Library 
        collection for research.
                           staff development
    Question. What is included in the $1.6 million Staff Development 
Program you are requesting?
    Answer. This request supports substantially expanded loan repayment 
and tuition reimbursement options for the Library to attract and retain 
the top talent needed to operate in today's dynamic operating 
environment. Such flexibilities are accepted practice in other 
government agencies.
    A formal training needs assessment conducted across the Library 
revealed common agency training priorities that could be more 
efficiently addressed by consolidating expenses through delivery of 
centralized training. Currently the Library operates an award-winning 
staff development program that trains 60 staff members per year. With 
the requested funding, the Library plans to expand the developmental 
opportunities available to the entire Library staff population. There 
is a particular need for training to help the Library's multi-cultural, 
multi-generational staff improve customer service and collaborative 
skills to keep up with technological advances and the changing work 
environment. This request also enables the Library to offer staff 
career planning services, another critical and long-standing need 
articulated by the Library's labor organizations.
    Question. What is the Supervisor Development Program you are 
requesting $1.048 million for?
    Answer. The Library has requested $1.048 million and 3 FTEs as part 
of a centralized training and development program. The Library's 
current Supervisor Development Program requires centralized funding to 
provide essential training to supervisors Library-wide. Individual 
Service and Support Units have not been able to consistently fund all 
the elements of required foundational training that apply to all 
supervisors. The Library recently established quarterly Supervisor 
Forums for all managers and supervisors to share information, 
initiatives, clarify questions, and share best practices for 
effectively supervising and managing staff at the Library. These 
forums, along with other supervisor focus groups, feedback from 
existing supervisory courses, and the Library-wide Employee Survey 
results have all indicated a clear need for additional supervisory 
training to motivate and support high levels of staff performance and a 
high performance culture across the agency. Part of the requested 
funding will be used for Workforce Performance Management advisory and 
support services, to ensure that supervisors know how to set 
appropriate performance expectations for employees, provide performance 
feedback, and effectively evaluate performance. We are also requesting 
funding for Senior Leadership Development, to develop and implement a 
pilot program to prepare current middle management for positions at the 
senior managerial level. Currently 50 percent of the Library's senior-
level staff is eligible for retirement.
    Question. Is the Library's Office of Opportunity, Inclusiveness, 
and Compliance adequately staffed? How is diversity at the Library?
    Answer. In 2008 the Library began a process of reorganizing its 
Office of Workforce Diversity to develop a more responsive and 
efficient operation. The Office of Opportunity, Inclusiveness, and 
Compliance (OIC) is now structured and funded in a manner consistent 
with Federal best practices, based on the results of an Inspector 
General review.
    A talented and diverse workforce is at the heart of the Library's 
vision for the future and a key component of the Librarian's management 
agenda and strategic plan. The current workforce includes slightly more 
than 3,600 employees. These employees represent every race and gender 
and speak a collective total of more than 50 different languages. As of 
December 31, 2009, the Library's workforce consisted of 56 percent 
women and 44 percent minorities. This diversity is consistent with 
strong and ongoing efforts to train and nurture the workforce, 
including annually rating Library managers on their demonstrated 
commitment to leverage diversity in their organizations. The OIC is 
working on a comprehensive diversity report to be issued by the end of 
fiscal 2010. The Library is working to ensure OIC's efforts and human 
resource strategies are complementary in development of the 5-year 
human capital plan. This human capital plan, when finalized, will 
contain clearly defined strategies for continuing to improve diversity 
at the Library and specific performance indicators to measure results 
and further enhance accountability.
                                twitter
    Question. I understand that Twitter recently agreed to donate its 
digital archive of public tweets to the Library of Congress. What is 
the relevance of this collection?
    Answer. As the keeper of the mint record of American creativity, 
the Library has over time collected works in whatever form that 
activity is expressed, most recently digital. The Twitter archive is a 
new form of communication with world-wide participation. Scholars today 
and in the future will mine the data set, researching a vast number of 
subjects and trends. A number of researchers have already expressed 
interest in gaining access to the material. The Twitter collection 
provides an important opportunity to learn more about preserving large 
research data sets.
    Question. Will this donation result in additional maintenance costs 
to the Library?
    Answer. We estimate that a small team will be able to work out the 
details of handling the Twitter archive over the next 6 months. The 
cost of tape storage and equipment to operate the tapes, based on 5 
terabytes of data per year, is estimated to be $3,000 the first year 
and an additional $1,000 for succeeding years and can be handled within 
our existing technical infrastructure. Because accepting and preserving 
collections are part of regular staff responsibilities, we do not 
anticipate additional staff costs. Once the Library completes an 
assessment of privacy and access issues related to this archive, it is 
likely that additional costs will be identified to make the collection 
accessible.
                               copyright
    Question. Your fiscal year 2011 request includes an additional 5 
FTE for the Copyright Office. What are these additional personnel 
needed for?
    Answer. Three FTE's are to support of eCO, the backbone technology 
system for Copyright Office operations. The FTE will expand our 
technical capabilities in database management, software development, 
and project management. Two FTE's will oversee the Licensing Division's 
newly reengineered technology operations. Work on reengineering 
Licensing Operations begins in early Summer 2010, with system 
implementation scheduled for a year later. With the envisioned web-
based licensing submissions and electronic processing, the Licensing 
Division will need technical support. As the Licensing Division is 
self-funded, this would not impact the Library of Congress Federal 
appropriation.
    Question. What is your current backlog of copyright applications 
waiting to be processed?
    Answer. As of May 16, 2010 the backlog of claims awaiting 
processing is approximately 317,000.
    Question. How effective is your new paperless registration system? 
What percent of applications do you currently receive online vs. in the 
mail?
    Answer. eService, the Copyright Office online registration system, 
is very effective. Currently we receive 75 percent of our weekly 
submissions through electronic filing. As we improve our online 
systems, we expect electronic submissions to increase.
                         information technology
    Question. Dr. Billington, you received $15 million in fiscal year 
2010 for technology infrastructure upgrades for the Library. Can you 
update the subcommittee on your use of these funds? What has the 
Library been able to accomplish with this large investment of 
resources?
    Answer. The long-term vision for this funding is, by 2016, to 
acquire, preserve, and deliver important cultural, legislative and 
copyright information online that is reliable and authentic; where 
anyone can find what is meaningful to them through a set of updated 
online navigation approaches and tools. In fiscal 2010, funding is 
being invested in three broad areas to support this vision:
  --$9 million in the core technology: the hardware, operating 
        software, and network devices needed to support the Library's 
        three data centers. This includes: $7 million in equipment and 
        software to improve the network, storage, back-up and restore, 
        and continuity of operations technologies and facilities to 
        provide the infrastructure for content management and content 
        delivery; $1.4 million for services to support the 
        implementation of the new equipment and software; $0.6 million 
        for maintenance for the new equipment and software;
  --$3.5 million in new software for content management that 
        restructures the underlying data for better searching (metadata 
        and data ontologies), including legislative information data 
        dictionaries, establishment of data relationships and patterns 
        (including search & navigation patterns), data relationship 
        tools and metadata creation tools, and linking of computing 
        functionality to data sets; digital content ingest, including 
        content integrity preservation, and reusable, modular, flexible 
        and scalable ingest and management tools and services
  --$2.5 million in web architecture development and open source 
        software for the presentation and delivery of content online, 
        on mobile devices, and through easy-to-use interfaces for the 
        user.
    The Executive Committee approved the core technology investment 
plan in December, 2009. To date, requisitions have been submitted for 
all of the $9 million in core technology investment. An investment plan 
and requisitions have been prepared for the $3.5 million for new 
software for content management. The enterprise-wide IT Steering 
Committee (the LOC IT capital investment management board) reviewed 
this plan on May 25. The investment plan for web architecture 
development and open source software for presentation and delivery of 
content online has not been finalized. This $2.5 million plan will 
undergo review by both the Web Governance Board and the IT Steering 
Committee.
                          inventory management
    Question. You have included $1 million in your request for 
Inventory Management. What will this cover? Are all items in the 
Library's collections currently ``inventoried?''
    Answer. The funding will cover 23 contractual staff who will 
continue the inventory of the Library's book and periodical 
collections. The staff will also inventory the special format materials 
that will be transferred to Modules 3 and 4. Since the start of the 
inventory program in fiscal 2002, more than 4 million items have been 
inventoried. In the general, area studies, and Law Library collections 
of books and bound periodicals, there are approximately 17 million 
items, leaving approximately 13 million that need to be inventoried. 
For the special format collections, e.g., manuscripts, maps, sheet 
music, and prints and photographs, inventory is also essential to 
capture information on what we have and where the items are at any 
given point in time, and to ensure effective access and retrieval.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                      fort meade storage module 5
    Question. Is the $16.9 million requested for Storage Module 5 the 
total cost for design, construction and complete outfitting of the 
storage unit, so that it would be ready to accept collections for 
storage? Will additional funding be needed for this storage module in 
future fiscal years?
    Answer. The $16.9 request for Storage Module 5 will cover 
construction and outfitting costs. No additional funding will be 
required by the Library of Congress to make Module 5 fully operational; 
however, annual funding of $1 million for ongoing collections inventory 
management is necessary--a fiscal 2011 funding request--to ensure items 
transferred to Fort Meade have accurate online records and to continue 
the inventory of the collections remaining on Capitol Hill. The 
Architect of the Capitol will require a funding increase to maintain 
the facility and for additional utility charges. Module 5 design is 
complete but will need to be updated to incorporate lessons learned 
from Modules 1-4, in conjunction with the solicitation of construction 
contract proposals.
    Question. If only partial funding is provided in fiscal year 2011, 
will it be possible for the Library to begin work on this storage unit 
and then complete it when the balance of funds are available; or does 
the Library need the total amount in full before it can begin work on 
this unit?
    Answer. For this construction request, the full amount would be 
necessary at the time of the construction contract award. (This 
response has been coordinated with the Architect of the Capitol.)
                requested ftes--human resources services
    Question. Why is it necessary to have three additional FTE's for 
the Human Resources Supervisor development program and two additional 
FTE's for the Human Resources Staff development program? Are these 
staff development programs new, or are they being expanded in some way 
that requires additional personnel?
    Answer. Of the total staff development request of $1.6 million, a 
quarter of it ($408,000) is for two GS-12 career planning specialists 
and contractual support, to provide career planning services for the 
entire Library. This funding would enable Human Resource Services to 
expand on staff development services they already provide in response 
to a need articulated by the Library's labor organizations for 
professional career planning services.
    Question. Are there certain elements of the supervisor development 
program and the staff development program that can be combined so as to 
achieve efficiencies in the organization, operation, and cost of the 
programs?
    Answer. Of the three FTES requested for supervisory development, 
one is for the coordination of supervisor development training 
services; the other two are to staff the workforce performance 
management program. Both of these functions currently are being 
provided on a skeletal level because of the absence of dedicated 
personnel. The Library's current performance management practices, 
coordinated by a staff of one, were flagged as a critical weakness in 
the recent Employee Survey. The five requested positions address 
separate operational needs, all essential, in the Library's human 
resources program.
    Question. What are the goals of the supervisor and staff 
development programs?
    Answer. Goals of staff and supervisor development services are to 
enable the Library to provide consistently outstanding services to an 
expanding customer base, within a dynamic work environment involving 
the use of wide-ranging new technologies, with fewer and fewer staff.
    Question. What is the anticipated outcome from this investment?
    Answer. Additional funding will enable the Library to address 
critical training and development gaps, increasing efficiency and 
effectiveness across the entire organization.
                         capitol police merger
    Question. Last year we completed the merger of the Library of 
Congress security officers with the U.S. Capitol Police. From the 
Library's perspective, how were the police merger and the transition of 
personnel, resources, and police mission handled? Was this a smooth 
transition?
    Answer. Overall, the police merger and transition of personnel, 
resources, and police mission were successfully accomplished.
    Question. Since the police merger, have the Capitol Police and the 
Library of Congress worked through the remaining issues related to the 
reimbursement of overtime for Library events?
    Answer. The two agencies have worked out the key details for the 
Library's reimbursing the USCP for supporting Library special events. 
The USCP and LOC Memorandum of Understanding (MOU) will be amended to 
reflect the reimbursement agreement. Further discussions are occurring 
to improve coordination and to streamline procedures.
    Question. Are there any remaining police coverage issues that the 
Library has yet to resolve with the Capitol Police? If so, what are 
those issues?
    Answer. The unresolved issues include:
  --Jurisdictional issues between the Library's Office of the Inspector 
        General (OIG) and the USCP.
  --Formalization of information-sharing between the Library and the 
        USCP.
  --Finalization of the Library's special events funding coordination 
        and procedural matters.
    Question. Since the police merger, have there been any jurisdiction 
issues related to the collections or building regulations? How have 
those been resolved?
    Answer. Unresolved are jurisdictional issues related to the 
investigation of criminal activity occurring at the Library, such as 
suspected theft and malicious damage to Library collections and 
property. The Library's OIG has proposed that an MOU be formalized 
between the OIG and the USCP.
                        crs services evaluation
    Question. The Legislative Branch conference report for fiscal year 
2010 concurred with the House report language regarding a CRS services 
evaluation, which requested that the Director of CRS ``conduct a formal 
evaluation of how well its current staffing models and procedures meet 
user needs.'' Has CRS conducted this evaluation? Where is CRS in that 
process?
    Answer. The consulting firm LMI will assess communications 
mechanisms, including a ``Member Advisory Committee'', and make 
recommendations on the best options to promote optimal communication 
between CRS and Members of Congress. LMI will use the client feedback 
data they receive and best practices research in developing its 
recommendations on communications mechanisms. No decision on new 
mechanisms will be made until the LMI evaluation is completed.
                     crs member advisory committee
    Question. The House report language that was included in the fiscal 
year 2010 Conference Report also directed CRS to ``consider creation of 
a new mechanism such as a Member Advisory Committee which would allow 
routine discussions between CRS leadership and users.'' Has CRS created 
a Member Advisory Committee? If so, please explain how the committee is 
intended to work, or is working.
    Answer. The consulting firm LMI will assess communications 
mechanisms, including a ``Member Advisory Committee'' and make 
recommendations on the best options to promote optimal communication 
between CRS and Members of Congress. LMI will use the client feedback 
data they receive and best practices research in developing its 
recommendations on communications mechanisms. No decision on new 
mechanisms will be made until the LMI evaluation is completed.
                      digital talking book program
    Question. Please give us an update on the Digital Talking Book 
program.
    Answer. The Library is on schedule with both digital talking book 
player and book production. To date approximately 204,000 machines have 
been produced, with production ongoing at a level of 20,000 players per 
month. More than 857,000 copies of nearly 2,169 digital titles have 
been produced and distributed on flash cartridge. A download site now 
offers nearly 19,000 digital book titles and grows daily. The one-
millionth book was downloaded in March 2010.

                         CONCLUSION OF HEARINGS

    Senator Nelson. So thank you, and the subcommittee stands 
in recess. Thank you.
    [Whereupon, at 4:40 p.m., Thursday, April 29, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]





       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Ayers, Stephen T., Acting Architect of the Capitol, Architect of 
  the Capitol....................................................   133
    Prepared Statement of........................................   138
    Summary Statement of.........................................   136

Billington, Hon. James H., Librarian of Congress, Library of 
  Congress.......................................................   225
    Prepared Statement of........................................   230
    Summary Statement of.........................................   228

Chrisler, Tamara E., Esq., Executive Director, Office of 
  Compliance.....................................................   152
    Prepared Statement of........................................   153

Doby, Chris, Financial Clerk, Office of the Secretary, U.S. 
  Senate.........................................................     1
Dodaro, Gene L., Acting Comptroller General, Government 
  Accountability Office..........................................   173
    Prepared Statement of........................................   177
    Questions Submitted to.......................................   212
    Summary Statement of.........................................   175
Dwyer, Sheila, Assistant Secretary, Office of the Secretary, U.S. 
  Senate.........................................................     1

Elmendorf, Douglas W., Ph.D., Director, Congressional Budget 
  Office.........................................................   189
    Prepared Statement of........................................   192
    Questions Submitted to.......................................   219
Erickson, Hon. Nancy, Secretary of the Senate, Office of the 
  Secretary, U.S. Senate.........................................     1
    Prepared Statement of........................................     7
    Summary Statement of.........................................     5

Gainer, Hon. Terrance W., Senate Sergeant at Arms, Sergeant at 
  Arms and Doorkeeper, U.S. Senate...............................    72
    Prepared Statement of........................................    75
    Questions Submitted to.......................................   112

Jarmon, Gloria, Chief Administrative Officer, United States 
  Capitol Police.................................................    93
Jenkins, Jo Ann, Chief Operating Officer, Library of Congress....   225

Morse, Hon. Phillip D., Sr., Chief, United States Capitol Police.    93
    Prepared Statement of........................................    94
    Questions Submitted to.......................................   118
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress............................................   225
    Prepared Statement of........................................   233
Murkowski, Senator Lisa, U.S. Senator From Alaska:
    Questions Submitted by................................115, 128, 265
    Statements of......................................3, 135, 174, 227

Nelson, Senator Ben, U.S. Senator From Nebraska:
    Opening Statements of..............................1, 133, 173, 225
    Questions Submitted by.................112, 118, 212, 215, 219, 259
Nichols, Dan, Assistant Chief, United States Capitol Police......    93

O'Keefe, Ambassador John, Executive Director, Open World 
  Leadership Center, Library of Congress.........................   240
    Prepared Statement of........................................   241

Peters, Marybeth, Register of Copyrights, Copyright Office, 
  Library of Congress, Prepared Statement of.....................   236
Pryor, Senator Mark, U.S. Senator From Arkansas, Question 
  Submitted by...................................................   218

Shaffer, Roberta, Law Librarian, Library of Congress.............   225

Tapella, Robert C., Public Printer, Government Printing Office...   183
    Prepared Statement of........................................   184
    Questions Submitted to.......................................   215







                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page

Annual Operating Budget Request..................................   146
Architect of the Capitol:
    Accomplishments..............................................   147
    Proud Stewards...............................................   136
Blue Ribbon Panel--Fire Code Requirements........................   160
Budget Increase Concerns.........................................   134
Capital Budget Request and Project Planning Process..............   139
Capitol:
    Police Radio Project.........................................   171
    Power Plant FTE Increase.....................................   165
    Visitor Center.............................................137, 164
        FTE Increase.............................................   165
        Operating Budget Request.................................   146
Congratulations on Nomination....................................   133
Energy Conservation..............................................   137
    And Sustainability Programs..................................   142
Federal Acquisition Streamlining Act Authority--Lease Authority..   162
    Budget Impact................................................   162
Fiscal Year 2011:
    Budget:
        Impact...................................................   156
        Request................................................134, 135
    Projects.....................................................   136
Preliminary Findings.............................................   160
Prior Year Balances..............................................   157
Project:
    List--Safety Issues..........................................   159
    Priority Ranking.............................................   157
Projects Budget..................................................   167
Review of Repairs................................................   161
Senior Executive Service.........................................   163
Substantial Project Increase.....................................   158
Sustainability Program...........................................   166
U.S. Botanic Garden/Sustainable Sites Initiative.................   146
Utility:
    Meters.......................................................   166
    Tunnels......................................................   161
What Drives the Budget Request...................................   159

                      CONGRESSIONAL BUDGET OFFICE

Additional Committee Questions...................................   211
Benefits of Work for Congress....................................   221
Biggest Challenge Moving Forward.................................   221
Computers........................................................   199
Diversity Status.................................................   223
Fiscal Year 2011 Flat Budget.....................................   219
Flat Budget......................................................   204
Foreign National Hiring..........................................   201
Growing Demand for CBO's Analyses................................   193
Health...........................................................   189
Healthcare Staff.................................................   220
New FTEs for Fiscal Year 2011....................................   221
Pay Increase.....................................................   210
Restrictions in Hiring Foreign Nationals.........................   222
Role in New Healthcare Legislation...............................   220
Shift Resources..................................................   201
    Internally...................................................   222
Some Details of CBO's Fiscal Year 2011 Budget Request............   194
Supplemental.....................................................   189
    Funding Spent................................................   220
Workload.........................................................   200

                    GOVERNMENT ACCOUNTABILITY OFFICE

Additional Committee Questions...................................   211
ARRA Funding.....................................................   214
Fiscal Year 2011 Request.........................................   212
GAO:
    Continues to Be an Employer of Choice........................   178
    Hiring for Recovery Act Oversight............................   202
    Labor Relations and Pay......................................   208
    Union........................................................   215
GAO's:
    Diversity Plan...............................................   208
    Fiscal Year 2011 Budget Request..............................   179
    Involvement With Administrative Issues Facing the Capitol 
      Police.....................................................   196
    Overseas Presence............................................   198
    Requested FTE Increase.......................................   196
    Work on Capitol Police Issues................................   213
Recovery Act Oversight...........................................   197
States' Ability to Manage Recovery Act Funds.....................   203
The Nation's Challenges Shape GAO's Fiscal Year 2011 Expected 
  Workload.......................................................   177

                       GOVERNMENT PRINTING OFFICE

Additional Committee Questions...................................   211
Budget...........................................................   215
COOP Plan........................................................   218
Congressional Printing and Binding...............................   186
Environmental Sustainability.....................................   206
Facilities Repairs...............................................   195
Federal Digital System.........................................211, 216
Fiscal Year 2011 Appropriations Request..........................   186
GPO Building Issues..............................................   217
GPO's Performance System.........................................   209
Increasing Revenues..............................................   195
New Versus Continuing Projects...................................   205
Passport Production..............................................   216
Results of Fiscal Year 2009......................................   184
Revolving Fund...................................................   187
    Priorities...................................................   204
Salaries and Expenses of the Superintendent of Documents.........   187
Sustainability Achievements......................................   207

                          LIBRARY OF CONGRESS

Access to Twitter Collection.....................................   250
Acquisition Strategy and Storage Costs...........................   247
Additional:
    Committee Questions..........................................   259
    Space for Collections Essential..............................   248
    Specialists for CRS..........................................   253
Alignment of CRS Work with the Congress..........................   233
CRS..............................................................   262
    As Shared Staff..............................................   235
    Member Advisory Committee....................................   267
    Services Evaluation..........................................   267
Capitol Police Merger............................................   266
Collection Policies and Cost.....................................   252
Collections Management...........................................   260
Copyright........................................................   264
    Applications Backlog.........................................   256
Digital Talking Book Program.....................................   267
Expansion of the Open World Program..............................   255
Fiscal Year 2011 Budget Request................................235, 246
Flat Budget......................................................   259
Fort Meade:
    And Competing Priorities.....................................   250
    Storage Module 5...........................................229, 265
Freeze Level Scenario............................................   256
Fundraising Efforts..............................................   255
Highlights of Copyright Office Accomplishments and Challenges....   237
Information Technology...........................................   265
Inventory Management.............................................   265
    Objectives...................................................   257
Law Library......................................................   262
Library Budget Officer Employee of the Week......................   259
Mandatory Pay Increases..........................................   252
Nonappropriated Open World Funding...............................   244
Open World:
    And Congress.................................................   243
    Leadership Center............................................   255
    Program Results..............................................   242
    2010 Activities, 2011 Plans, and 2012-2016 Strategic Planning   245
Recouping Copyright Storage Costs................................   248
Requested FTEs--Human Resources Services.........................   266
Staff Development................................................   263
Storage..........................................................   261
Support of the United States Copyright System....................   236
Technology Infrastructure Funding and Progress...................   257
Twitter..........................................................   264
    Archive......................................................   249
User Fees and Law Library Services...............................   257
Web Governance Board.............................................   253

                          OFFICE OF COMPLIANCE

Additional Resource Availability.................................   153
Communications--IT Systems.......................................   153
Compliance Education.............................................   168
Congressional Accountability Act 15 Year Anniversary.............   152
Fiscal Year 2011 Budget Request................................134, 152
Hazard Prioritization............................................   170
Hazards Decrease.................................................   167
IT System........................................................   168
OOC Infrastructure...............................................   155
Prioritization of Citations......................................   161
Safety:
    And Health Inspections.......................................   155
    Awareness....................................................   152
Strategic Planning...............................................   154
System Security..................................................   169

                      UNITED STATES CAPITOL POLICE

Additional Committee Questions...................................   112
Addressing Threats to Senate Offices.............................   127
Civilian Contracting.............................................   109
Fiscal Year 2011 Request.........................................   119
Internal Control Weaknesses......................................   127
Manpower Reductions..............................................   120
New Initiatives..................................................   111
    In fiscal year 2011..........................................   132
Overtime.........................................................   110
Radio Modernization Project....................................125, 131
Salaries.........................................................   128
Salary Miscalculation............................................   118
USCP:
    Overtime.....................................................   108
    Radio Project................................................   107
    Salary Miscalculation........................................   104

                              U.S. SENATE

                        Office of the Secretary

Additional Committee Questions...................................   112
Administrative Offices...........................................    32
Bill Clerk.......................................................    10
Captioning Services..............................................    11
Chief Counsel for Employment.....................................    32
Conservation and Preservation....................................    34
Curator..........................................................    34
Daily Digest.....................................................    11
Disbursing Office................................................    17
Education and Training...........................................    41
Enrolling Clerk..................................................    14
Executive Clerk..................................................    14
Financial Operations.............................................    17
Gift Shop........................................................    42
Historical Office................................................    44
Human Resources..................................................    49
Implementing Mandated Systems....................................     8
Interparliamentary Services......................................    50
Journal Clerk....................................................    15
Legislative:
    Information System (LIS) Project.............................    50
    Offices......................................................     9
Library..........................................................    52
Official Reporters of Debates....................................    16
Page School......................................................    60
Parliamentarian..................................................    16
Presenting the Fiscal Year 2011 Budget Request...................     7
Printing and Document Services...................................    61
Public Records...................................................    63
Senate:
    Employees Child Care Center..................................    98
    Information Services.........................................97, 99
Stationery Room..................................................    64
Web Technology...................................................    65

                    Sergeant at Arms and Doorkeeper

Additional Committee Questions...................................   112
Combined Appropriation Account...................................   114
Expenses.........................................................   116
Fiscal Year 2011 Budget Request................................112, 113
Information Technology...........................................    79
    Security.....................................................   102
Operations.......................................................    84
Payroll System Upgrade...........................................   117
Police Operations, Security, and Emergency Preparedness..........    76
Printing Department Relocation...................................   113
Printing, Graphics and Direct Mail Relocation..................102, 118
Prior Year Balances..............................................   106
Senate Emergency Notification System.............................   115
Salaries.........................................................   115
Senate Personnel System..........................................   103
Telecom Modernization:
    Plan.........................................................   117
    Program...............................................103, 105, 107
    Project......................................................   114
Telephone/Voicemail Interruption.................................   114
Unobligated Balances...........................................113, 117

                                   - 

</pre></body></html>
